No.
In the

Supreme Court of the United States
Congregation Rabbinical College
of Tartikov, Inc., et al.,
Petitioners,
v.
Village of Pomona, N.Y., et al.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Second Circuit

APPENDIX VOLUME 2 OF 2
Joseph A. Churgin
Donna C. Sobel
Savad Churgin
55 Old Turnpike Road,
Suite 209
Nanuet, New York 10954
(845) 624-3820

John G. Stepanovich
Counsel of Record
James M. Henderson, Sr.
Of Counsel
Stepanovich Law, PLC
618 Village Drive, Suite K
Virginia Beach, Virginia 23454
(757) 410-9696
john@stepanovichlaw.com

Roman P. Storzer
Storzer & A ssociates, P.C.
1025 Connecticut Avenue NW,
Suite 1000
Washington, DC 20036
(202) 857-9766
Counsel for Petitioners
296576

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT, DATED
DECEMBER 20, 2019 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1a
APPENDIX B — OPINION & ORDER OF
THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
NEW YORK, FILED DECEMBER 7, 2017 .  .  .  .  . 92a
APPENDIX C — OPINION AND ORDER OF
THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
NEW YORK, FILED SEPTEMBER 29, 2015 .  . 233a
A PPENDIX D — OPINION AND ORDER
OF THE UNITED STATES DISTRICT
COURT FOR THE SOUTHERN DISTRICT
OF NEW YORK, FILED JANUARY 7, 2013 .  .  . 408a
APPENDIX E — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT,
FILED FEBRUARY 6, 2020 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 536a
A P P E N DI X F — R E L E VA N T
CONSTITUTIONAL AND STATUTORY
PROVISIONS  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 538a

233a
Appendix
C order of the
Appendix C — opinion
and
united states district court for the
southern district of new york,
filed september 29, 2015
United States District Court
Southern District of New York
Case No. 07-CV-6304 (KMK)
CONGREGATION RABBINICAL COLLEGE
OF TARTIKOV, INC., RABBI MORDECHAI
BABAD, RABBI WOLF BRIEF, RABBI HERMEN
KAHANA, RABBI MEIR MARGULIS, RABBI
AKIVA POLLACK, RABBI MEILECH MENCZER,
RABBI JOSEPH HERSHKOWITZ, RABBI CHAIM
ROSENBERG, and RABBI DAVID A. MENCZER,
Plaintiffs,
-vVILLAGE OF POMONA, BOARD OF TRUSTEES
OF THE VILLAGE OF POMONA, NICHOLAS
SANDERSON, as Mayor, IAN BANKS, as
Trustee, ALMA SANDERS-ROMAN, as
Trustee, RITA LOUIE, as Trustee, and
BRETT YAGEL, as Trustee,
Defendants.
September 29, 2015, Decided
September 29, 2015, Filed

234a
Appendix C
OPINION & ORDER
KENNETH M. KARAS, District Judge:
Plaintiffs bring challenges to certain zoning and
environmental ordinances enacted by Defendant Village
of Pomona (the “Village”), alleging they are unlawful
under the First and Fourteenth Amendments of the
United States Constitution, the Religious Land Use and
Institutionalized Persons Act of 2000 (“RLUIPA”), 42
U.S.C. § 2000cc et seq., the Fair Housing Act (“FHA”),
42 U.S.C. § 3601 et seq., New York Civil Rights Law
§ 40-c(1) and (2), §§ 3, 8, 9 and 11 of the New York State
Constitution, and New York common law. Specifically,
Plaintiffs challenge the enactment and enforcement
of portions of the Village of Pomona, New York Code
(“Village Code”) §§ 130-4 (defining educational institutions
and dormitories) (“Accreditation Law”), 130-10(F)(12)
(limiting the size of dormitories) (together with the
definition of “dormitory” in § 130-4, the “Dormitory Law”),
and 126 (establishing wetlands protections) (“Wetlands
Law”) (together, the “Challenged Laws”).1 Plaintiffs
move for Summary Judgment on several of their claims
and Defendants’ affirmative defenses, and for sanctions
due to the spoliation of evidence. Defendants cross-move
for Summary Judgment on all of Plaintiffs’ claims, and
for certain evidence to be stricken from the record. For
1. Full versions of the Challenged Laws can be found attached
to the Ulman Affidavit. (Dkt. No. 145.) They can also be found online
at http://www.ecode360.com/12718511 (Wetlands Law) and http://
www.ecode360.com/12718574 (Accreditation Law and Dormitory
Law).

235a
Appendix C
the reasons discussed below, the Court grants summary
judgment to Defendants on Plaintiffs’ Free Speech and
New York Common law claims, grants summary judgment
to Plaintiffs on Defendants’ affirmative defenses, denies
summary judgment to all Parties as to all other claims,
grants Plaintiffs’ Motion for Sanctions as discussed below,
and grants Defendants’ Motion to Strike in part.
I. Background
The Court assumes familiarity w ith the basic
allegations of Plaintiffs’ Second Amended Complaint,
(Second Am. Compl. (“SAC”) (Dkt. No. 27)), as discussed
in the Court’s January 7, 2013 Opinion and Order, (Dkt.
No. 53.) See Congregation Rabbinical Coll. of Tartikov,
Inc. v. Vill. of Pomona, 915 F. Supp. 2d 574, 607 (S.D.N.Y.
2013) (“2013 Opinion and Order”). In short, Plaintiffs bring
this Action alleging that the Challenged Laws prohibit the
owning, holding, building, and operation of a rabbinical
college within the Village (the “Village”). (SAC ¶ 1.) While
Plaintiffs specifically claim that the Challenged Laws
prohibit Plaintiff Congregation Rabbinical College of
Tartikov (the “Congregation”) from building its planned
rabbinical college on a 100-acre tract (the “Subject
Property”) located in the Village and owned by the
Congregation, the Court dismissed Plaintiffs’ as-applied
challenges, as well as their New York Civil Rights Law
§ 40–c claim, in its 2013 Opinion and Order. Congregation
Tartikov, 915 F. Supp. 2d at 607. It is for this reason that
Plaintiffs now proceed based solely on facial challenges
to the Challenged Laws. The Court briefly reviews the
salient factual background below.

236a
Appendix C
A. 	Factual Background2
1. 	The Parties
Plaintiffs are a corporation and individuals affiliated
with the Orthodox Jewish community, including various
sects of the Hasidic community, all of whom allege an
interest in the construction of a rabbinical college on the
Subject Property. (Pls.’ Rule 56.1 Statement of Material
Facts in Supp. of Pls.’ Mot. for Summ. J. (“Pls.’ 56.1”) ¶¶ 1,
88, 90, 92, 94-95, 97, 525 (Dkt. No. 139).) The Congregation,
officially “the Rabbinical College of Tartikov, Inc.,” the
owner of the Subject Property, is a religious corporation
that was formed on August 1, 2004. (Id. ¶¶ 1, 69-70, 101;
Defs.’ Response Pursuant to Local Rule 56.1(b) to Pls.’
Statement of Material Facts (“Defs.’ Counter 56.1”) ¶ 121
(Dkt. No. 175) (citing Aff. of Amanda E. Gordon (“Gordon
Aff.”) Ex. 18 (Certificate of Incorporation) (Dkt. No. 150);
see also Defs.’ Local Rule 56.1(a) Statement in Supp. of
their Mot. for Summ. J. (“Defs.’ 56.1) ¶ 5 (Dkt. No. 142).)
At the time of incorporation, the Congregation’s trustees
included Chaim Babad (“C. Babad”), who indirectly
financed the Congregation at least in part, Abraham
Halberstam, Naftali Babad, Samuel Chimmel, Michael
Tauber (“Tauber”), and Asher Mandel. (Defs.’ 56.1 ¶¶ 6,
10; Pls.’ Opp’n to Defs.’ Local Rule 56.1 Statement of Facts
(“Pls.’ Counter 56.1”) ¶ 6 (Dkt. No. 176) (citing Gordon Aff.
2. The following facts are derived from undisputed portions of
the Parties’ Rule 56.1 Statements, unless otherwise noted. The Court
has reviewed the evidence offered in support of certain disputed
statements, as noted, where applicable, below.

237a
Appendix C
Ex. 18).) Plaintiffs Rabbi Mordechai Babad (“M. Babad”),
Rabbi Wolf Brief (“W. Brief”), Rabbi Hermen Kahana (“H.
Kahana”), Rabbi Meir Margulis (“M. Margulis”), Rabbi
Akiva Pollack (“A. Pollack”), Rabbi Meilech Menczer (“M.
Menczer”), Rabbi Jacob Hershkowitz (“J. Hershkowitz”),
Rabbi Chaim Rosenberg (“C. Rosenbenberg”), and
Rabbi David A. Menczer (“D. Menczer”) (collectively, the
“Individual Plaintiffs”) are rabbis who seek to live, teach,
and/or study at the Congregation’s proposed rabbinical
college. (Defs.’ 56.1 ¶ 14; see also Pls.’ 56.1 ¶¶ 88, 90, 92,
94-95, 97.) Defendants consist of the Village, its Board
of Trustees, its current Mayor Brett Yagel (“Mayor
Yagel”), its former mayor and Trustee Nicholas Sanderson
(“Former Mayor Sanderson”), and other members of its
Board of Trustees—Ian Banks (“Banks”), Alma Sanders
Roman (“Roman”), and Rita Louie (“Louie”)—each sued
in his or her official capacity. (Defs.’ 56.1 ¶¶ 1, 3-4.)
2. 	Rabbinical Colleges
According to Orthodox Jewish belief, Orthodox Jews
are not permitted to resolve conflicts in the secular court
system, but rather must have their conflicts adjudicated
in rabbinical courts, before rabbinical judges applying
Jewish law. (Pls.’ 56.1 ¶¶ 49, 52.) For this reason, Orthodox
Jews require rabbinical courts sufficiently proximate to
their homes. (See id. ¶ 51.) However, there are very few
rabbinical judges, and very few rabbinical courts, in the
United States today, and those courts are overburdened.
(See id. ¶¶ 50-51, 59-61.)

238a
Appendix C
In response to this growing need, the Congregation’s
proposed rabbinical college would enroll students, at no
charge, who have completed a “high school level program
in the Talmud” and who are deemed qualified by M. Babad,
some of whom have already received offers of admission.
(Id. ¶¶ 550, 552-53, 555, 558; Defs.’ Counter 56.1 ¶ 555
(citing Decl. of Paul Savad in Supp. of Pls.’ Mot. for Summ.
J. (“Savad Decl.”) Ex. 29 (M. Babad Tr.) 133 (Dkt. No. 155));
Defs.’ 56.1 ¶ 51). The rabbinical college would therefore
have no entrance examination, written examination, or
written criteria for admission. (Pls.’ 56.1 ¶ 551; Defs.’
56.1 ¶¶ 37, 39-40.) For 13 to 15 years, between 6:00 a.m.
and 10:30 p.m. on Sunday through Thursday and in study
sessions on Friday and Saturday, the students would study
the four books, or “divisions,” of the Shulchan Aruch,
a compellation of Jewish laws of the Orthodox Hasidic
tradition. (See Pls.’ 56.1 ¶¶ 36-37, 65-66, 68, 528, 531, 537.)
Of central importance here, Plaintiffs “believe that Jewish
men are religiously obligated to marry at a young age and
have large families,” (id. ¶ 38), that “Judaism . . . directs
[them] to dwell among a community that is directed to the
Torah,” (id. ¶ 44), and that “Jewish males [must] . . . learn
the Torah day and night,” (id. ¶ 46). Accordingly, Plaintiffs
believe that students of the proposed rabbinical college
must live, study, and pray in the same place, full-time, in
a “Torah Community” separated from the outside world,
which in turn requires that their education be free and
that multi-family housing be available such that students
can live with their families. (Id. ¶¶ 71-74; 450 (citing,
inter alia, Decl. of Meilech Menczer ¶ 55 (Dkt. No. 147),
499 (citing, inter alia, Savad Decl. Ex. 27 (M. Tauber Tr.)
84), 539-540, 559, 562.) The proposed rabbinical college

239a
Appendix C
would therefore include “somewhere between 50 and 250
units of housing, which will be apartments that have 3
or 4 bedrooms, ranging in size from 1800-2000 square
feet.” (Defs.’ 56.1 ¶ 44.) The rabbinical college would also
include at least four rabbinical courtrooms, ritual baths
(“mikvahs”), synagogues, and multiple libraries. (Pls.’
56.1 ¶¶ 513, 518.)3
While there are three other schools that currently
train rabbinical judges in the area, namely Kollel Belz
and Mechon L’Horoya near Monsey, NY and Kollel
Beth Yechiel Mechil of Tartikov in Brooklyn, NY, the
Congregation’s proposed rabbinical college is the only one
that offers an immersive Torah Community, which enables
the college to train full-time rabbinical judges. (See id.
¶¶ 565, (citing, inter alia, Savad Ex. 34 (Steven Resnicoff
Dep. Tr.) 19-22), 568-71; Defs.’ Counter 56.1 ¶ 570-71.)
Plaintiffs also contend that Kollel Belz and Mechon
L’Horoya “only teach certain sections of the Shulchan
Aruch,” that Kollel Beth Yechiel Mechil of Tartikov “does
not have the same program” as the proposed rabbinical
college, and that none of the three schools has on-campus
housing essential to “the Torah Community environment
3. Beyond the Torah Community being part of Plaintiffs’
“religious belief,” (Pls.’ 56.1 ¶ 539), Plaintiffs allege a variety of
benefits attendant to studying in a Torah Community, including
the ability to study day and night, to isolate oneself from outside
influences, and to study all four books of the Shulchan Aruch. (See,
e.g., Pls.’ 56.1 ¶¶ 449-457, 459-469, 473, 529-30, 655; Defs.’ 56.1 ¶ 49.)
Defendants dispute the necessity of a Torah community, as well as
the purported need for libraries and mikvahs on campus. (Defs.’
Counter 56.1 ¶¶ 449-457, 459-469, 473, 516, 520; Defs.’ 56.1 ¶ 46.)

240a
Appendix C
that Plaintiffs believe” is necessary for the course of study
to be offered and “essential to [the] exercise their religious
belief[s].” (See Pls.’ 56.1 ¶¶ 563, 568-571; Pls.’ Counter 56.1
¶¶ 55, 58.)4
As of the date of this Opinion and Order, the
Congregation has not yet provided a formal plan for, or
submitted an application to the Village seeking to construct,
their proposed rabbinical college; only a “preliminary
concept plan” exists. (Defs.’ 56.1 ¶¶ 19, 22; Pls.’ Counter
56.1 ¶ 22.) Additionally, the proposed curriculum at this
point consists only of a document prepared at Tauber’s
request (he thought that his “’counsel wanted to see [the
curriculum] in writing,’”) by M. Menczer, which only
includes class names and “reflects the religious source of
the studies,” namely the four “divisions” of the Shulchan
Aruch. (Defs.’ 56.1 ¶¶ 26-28; Gordon Aff. Ex. 10 (M. Tauber
Dep. Tr.) 22-23 (explaining that M. Tauber asked M.
Menczer to prepare the curriculum, and that there is no
4. Kollell Beth Yechiel Mechil of Tartikov also has no
synagogue, libraries, or mikvah on campus. (Defs.’ 56.1 ¶¶ 62-64.)
Moreover, J. Hershkowitz and C. Rosenberg aver that their studies
at Kollel Belz “will not allow [them] to become a full-time rabbinical
judge[s]” because they cannot “learn the entire four categories of
Jewish Law” at Kollel Belz. (Decl. of Jacob Hershkowitz ¶¶ 42, 44
(Dkt. No. 146); Decl. of Chaim Rosenberg ¶¶ 44-46 (Dkt. No. 149).)
It is not clear from the record how different the programs at
these other schools are from the putative rabbinical college in this
case. Tauber, for example, characterized Mechon L’Horoya Kollel
Beth Yechiel Mechil of Tartikov as providing “the same course of
study” as that of the proposed rabbinical college and noted that
a student at Kollel Beth Yechiel Mechil of Tartikov can “get the
same studies done” as a student at the proposed rabbinical college.
(Savad Decl. Ex. 27 (Tauber Dep. Tr.) 44, 46.)

241a
Appendix C
other document describing “what a specialized kollel” is);
Gordon Aff. Ex. 21 (proposed curriculum).) Additionally,
the Congregation has not hired any teachers, the would-be
dean has done “[n]othing” thus far, and the Congregation
does not yet know how many students will attend the
rabbinical college. (Defs.’ 56.1 ¶¶ 34-35 (citing Gordon Aff.
Ex. 2 (M. Babad Depo.) 83), 66.)
3.

Chronology of the Challenged Laws

The Village, incorporated in 1967, adopted a master
plan in 1974 which it updated in 1997 “to maintain the low
density residential character of the Village” in response to
rapid growth. (Defs.’ 56.1 ¶¶ 1, 73-76 (internal quotation
marks omitted) (quoting Aff. of Doris Ulman (“Ulman
Aff.”) Ex. 17 (1997 Master Plan Update) 17 (Dkt. No.
145).) Around the same time, in May 1996, the Village
Attorney, then Ruben Ortenberg, advised residents to
contact the Town of Ramapo to object to the expansion
of an Orthodox Hasidic school, whose development the
Village had challenged in court and had been “involved
[with] for two years” at the time. (See Pls.’ 56.1 ¶ 376; Savad
Decl. Ex. 187 (May 20, 1996 Board of Trustees meeting
minutes), at 7-8.)
At a December 1999 Village Planning Board meeting,
Yeshiva Spring Valley, in an “informal appearance,” laid
out plans to build a Yeshiva on the Subject Property. (Id.
¶ 121; Defs.’ Counter 56.1 ¶ 121.)5 That same month, the
5. Yeshiva Spring Valley had been granted tax exempt status
that year, and in subsequent years through 2003. (Pls.’ 56.1 ¶ 324;
Defs’ Counter 56.1 ¶ 324.)

242a
Appendix C
Village’s planning consultant, Mark A. Haley (“Haley”),
reviewed the zoning provisions of the Village Code “in
conjunction with” Yeshiva Spring Valley’s appearance.
(Defs.’ 56.1 ¶ 92.) Subsequently, in January 2000, he
circulated a memorandum entitled “Proposed Primary
School and Pre-School ([Yeshiva Spring Valley] Pomona)
and the Village Zoning Regulations regarding schools,”
noting the existence of only “scant” regulations on schools
and recommending that the Village amend the pertinent
laws. (Pls.’ 56.1 ¶ 123; Defs.’ 56.1 ¶ 94; Pls.’ Counter 56.1
¶ 94 (citing Ulman Aff. Ex. 28 (memorandum)).) Haley and
the Village Attorney subsequently drafted Local Law 1
of 2001 and “included many of the recommendations from
the January[] 2000 memos by the Village Planner.” (Pls.’
56.1 ¶ 124.)6
On January 22, 2001, following a public hearing, the
Board of Trustees adopted Local Law 1 of 2001. (Defs.’
56.1 ¶¶ 96, 98.) Local Law 1, in relevant part, defined
educational institution, for the first time, as “[a]ny school
or other organization or institution conducting a regularly
scheduled comprehensive curriculum of academic and/or
alternative vocational instruction similar to that furnished
by kindergartens, primary[,] or second schools and
operating under the Education Law of New York State,
Yeshiva Spring Valley only filed a formal application for a “25lot single-family residential development,” together with a Yeshiva,
in June 2001. (Defs.’ 56.1 ¶ 104.) It subsequently failed to submit an
environmental study required for a New York State Environmental
Equality Review Act determination. (Id.)

6. It bears noting that there were no schools in the Village at
the time. (See Pls.’ 56.1 ¶ 129.)

243a
Appendix C
and duly licensed by the State of New York,” and subjected
such institutions to certain restrictions under the special
permit approval process, including minimum net lot area,
maximum development intensity, frontage, access, set
back, parking, and noise guidelines. Local Law 1 of 2001,
as codified at Village Code §§ 130-4, 130-10. (See also Defs.’
56.1 ¶¶ 88-90; Ulman Aff. Exs. 1 (Local Law 1 of 2001), 7
(Village Code § 130-4), 10 (Village Code § 130-10).)
In March of the same year, then-Mayor Herbert
Marshall (“Mayor Marshall”) emphasized in a letter
that nothing could be done to prevent the construction
of a group home facility in the Village and that it “must
be treated no different[ly] than any other residences
or planned residences within the community” because
residents “simply do not have the right to choose who [their]
neighbors will be.” (Savad Decl. Ex. 184 (Open Letter from
Mayor Marshall (March 5, 2001).) Additionally, in May
2002, all but one Village Trustee expressed no objection
to the concept of Barr Laboratories’ constructing an office
building with parking in the Village. (Savad Decl. Ex. 176
(May 21, 2002 Board of Trustees meeting minutes) 3.)
Starting in 2003, Village Attorney Doris Ulman
(“Ulman”), who was appointed in July of that year, “began
to review the Village laws” and recommended that further
amendments be made due to “deficiencies or inaccuracies
in the laws.” (Defs.’ 56.1 ¶ 106-07.)7 That same year, at a
7. In the interim, namely from December 2002 through 2004,
the Parties dispute whether the Board of Trustees actively supported
the incorporation of Ladentown, which Plaintiffs contend was a
response to the proposed development of adult student housing for

244a
Appendix C
February 17, 2003 Board of Trustees Meeting, the Board
of Trustees determined not to weigh in on a neighboring
municipality’s open space proposal because it “could not
tell another municipality how to spend [its] money or what
to do with [its] property.” (Savad Decl. Ex. 188 (Feb. 17,
2003 Board of Trustees meeting minutes) 4.)
Subsequently, on August 17, 2004, the same year in
which the Village denied Yeshiva Spring Valley tax exempt
status for the first time, (Pls.’ 56.1 ¶ 324), the Congregation
purchased the Subject Property from Yeshiva Spring
Valley, (Defs.’ 56.1 ¶ 17.)8 The Subject Property is a 100acre parcel located in the Village at the intersection of
Route 202 and Route 306, and zoned, like the rest of the
Village, as an R-40 district (40,000 square feet per lot for
the development of single-family homes), (id. ¶¶ 4, 99.) It is
the only property that the Congregation owns, (Pls.’ 56.1
the Orthodox Hasidic Jewish community at a site called Patrick
Farms, (see Pls.’ 56.1 ¶¶ 136, 313, 368-72; Defs.’ Counter 56.1 ¶¶ 136,
313, 368-72), though the Parties agree that Ulman “performed
free legal work for the appeal regarding the efforts to incorporate
Ladentown,” (Pls.’ 56.1 ¶ 373.)

8. The Parties dispute the exact day on which the Subject
Property was purchased in August. Plaintiffs’ claim it was purchased
on August 4, 2004, (Pls.’ 56.1 ¶ 101), while Defendants contend it
was purchased on August 17, 2004, (Defs.’ Counter 56.1 ¶ 101 (citing
Savad Decl. Ex. 291).) Plaintiffs admit their error in their Counter
Rule 56.1 Statement. (Pls.’ Counter 56.1 ¶ 17.)
Additionally, while the Village denied Yeshiva Spring Valley
tax exempt status in 2004, the local Humane Society did receive
a tax exemption despite not having “timely filed its application for
exemption.” (Pls.’ 56.1 ¶ 380.)

245a
Appendix C
¶ 106 (citing Savad Ex. Ex. 31 (C. Babad Dep. Tr.) 76-78)),
and appears to be the only available parcel suitable for
Plaintiffs’ proposed rabbinical college under Village law,
(id. ¶ 616 (citing Decl. of Barbara B. Beall (“Beall Decl.”)
¶ 16 (Dkt. No. 153)).) In June of that same year, the Village
filed suit to challenge the Town of Ramapo’s Adult Student
Housing Law (“ASHL”). (Pls.’ 56.1 ¶¶ 138, 360.)9
On September 7, 2004, Ulman presented the Board
of Trustees with her recommendations for amendments
to the zoning law pertaining to educational institutions,
which addressed removing the half-acre-per-student lot
area requirement, adding a provision allowing dormitories,
clarifying the definition of educational institution, and
removing the requirement that educational institutions
be on a state or county road. (Defs.’ 56.1 ¶¶ 110, 112; Pls.’
Counter 56.1 ¶ 113.) Subsequently, on September 27, 2004,
following a public hearing, the Board of Trustees adopted
Local Law 5 of 2004, (Defs.’ 56.1 ¶¶ 114, 116), which, in
relevant part, re-defined “educational institution” as “[a]ny
private or religious elementary, junior high or high school,
college, graduate[,] or post-graduate school conducting
a full-time curriculum of instruction . . . accredited
by the New York State Education Department or
similar recognized accrediting agency,” and amended
the minimum lot area, frontage, access, setback, and
screening guidelines, Local Law 5 of 2004, as codified
9. The Adult Student Housing Law “permits married, adult,
student, multi-family, high-density housing in single-family
residential zones . . . in the unincorporated portion of Ramapo.” Vill.
of Chestnut Ridge v. Town of Ramapo, No. 07-CV-9278, 2008 U.S.
Dist. LEXIS 76881, 2008 WL 4525753, at *1 (S.D.N.Y. Sept. 30, 2008).

246a
Appendix C
at Village Code § 130-4. (See also Defs’ 56.1 ¶¶ 105, 122;
Ulman Aff. Exs. 2 (Local Law 5 of 2004), 7 (Village Code
§ 130-4).)
Local Law 5 also addressed dormitories, providing
that “[a] dormitory is permitted as an accessory use to
an educational use and that there shall be not more than
one dormitory building on a lot,” Local Law 5 of 2004, as
codified at Village Code § 130-10(F)(12). (See also Defs.’
56.1 ¶ 117; Ulman Aff. Exs. 2, 10). It further defined a
dormitory as “a building . . . [which contains] sleeping
quarters for administrative staff, faculty[,] or students,”
and provided that “[d]ormitory rooms shall not contain
separate cooking, dining[,] or housekeeping facilities
except that one dwelling unit with completed housekeeping
facilities may be provided for a use of a Superintendent or
supervisory staff for every fifty dormitory rooms.” Local
Law 5 of 2004, as codified at Village Code § 130-4. (See
also Ulman Aff. Exs. 2, 10.) Local Law 5 also explicitly
provided that “[s]ingle-family, two-family, and/or multifamily dwelling units other than as described above shall
not be considered to be dormitories or part of dormitories.”
Local Law 5 of 2004, as codified at Village Code § 130-4.
(See also Defs.’ 56.1 ¶ 118; Ulman Aff. Exs. 2, 10.)
The Village learned that the Congregation had
purchased the subject property, and, in general, that
it would be used as a rabbinical college in November
2004. (Pls.’ 56.1 ¶¶ 148-49; Defs.’ 56.1 ¶ 17.)10 The
10. On November 8 of that year, the Village resolved not to
oppose an agricultural project outside the Village because it was
the “policy of the village” not to comment on projects that did “not

247a
Appendix C
Village subsequently, in late 2005 or 2006, learned of
the Congregation’s actual development plans for the
Subject Property. (See Pls.’ 56.1 ¶¶ 152-53.) Nonetheless,
the Village approved the Congregation’s tax exemption
applications in both years. (Id. ¶ 322.)
On December 11, 2006, Ulman, after reviewing the
wetlands laws of Chestnut Ridge, New Hempstead, and
South Nyack, and the New York State Environmental
Conservation Law, distributed a memo to Mayor Marshall
discussing a proposed Wetlands law. (Id. ¶ 183; Defs.’ 56.1
¶ 151.) On December 18, 2006, the Board of Trustees held
a public hearing entitled “Amending the Zoning Law of the
Village of Pomona in Relation to Dormitory Buildings,”
at which a proposed law regarding dormitories was to be
discussed. (Pls.’ 56.1 ¶ 157; Defs.’ Counter 56.1 ¶ 157; Defs.’
56.1 ¶ 133.) The Board of Trustees adjourned discussion of
the proposed local law, at the request of Plaintiffs’ counsel,
to the next board meeting. (Defs.’ 56.1 ¶ 134.) Early
the next year, on January 9, 2007, Preserve Ramapo, a
political action group in the region, leaked tentative plans
for the Congregation’s proposed rabbinical college to the
public. (See Defs.’ 56.1 ¶ 135; Pls.’ Counter 56.1 ¶ 135; see
also Pls.’ 56.1 ¶ 158; Defs.’ Counter 56.1 ¶ 158.). A week
later, on January 14, 2007, an article in The Journal News
reported that the proposed rabbinical college would bring
4,500 additional residents to the Village. (Defs.’ 56.1 ¶ 137.)
Subsequently, on January 22, 2007, the Board of
Trustees held another hearing on the proposed law
directly affect the Village.” (Pls.’ 56.1 ¶ 37; Savad Decl. Ex. 185
(Board of Trustees Meeting Agenda) 2.)

248a
Appendix C
regulating dormitories and on the proposed law regarding
wetlands, but most public comments “were aimed at the
plans for the proposed rabbinical college.” (Pls.’ 56.1 ¶ 159;
Defs.’ 56.1 ¶ 140.) For the first time, the Congregation had
a videographer and court reporter record and transcribe
the meeting. (Defs.’ 56.1 ¶ 141.)11
After the hearing, the Village adopted Local Law 1
of 2007, (Defs.’ 56.1 ¶ 142), which provided, in relevant
part, that “[a] dormitory building shall not occupy more
than twenty (20) percent of the total square footage of all
buildings on the lot,” Local Law 1 of 2007, as codified at
Village Code § 130-10(F)(12). (See also Defs.’ 56.1 ¶ 143;
Ulman Aff. Exs. 3, 16.)12 The Board of Trustees extended
the public hearing on the proposed wetlands law because
it “had not yet received a response from [the] Rockland
County Planning Department.” (Defs.’ 56.1 ¶ 153.) In
the interim, from January 2007 through March 2007,
Plaintiffs allege that Mayor Marshall campaigned for
reelection as Mayor on a slate with Alan Lamer, who ran
for reelection as Trustee, and Former Mayor Sanderson
ran for Mayor on a slate with Yagel and Louie, who were
running for election as Trustees. (Pl.’s 56.1 ¶ 269.)13 The
11. The Village also denied the Congregation’s application for
tax exempt status that year. (Id. ¶ 323.)
12. There remained no schools in the Village at the time. (Pls.’
56.1 ¶ 172.)
13. While Plaintiffs fail, pursuant to Local Rule 56.1, to
support this statement with admissible evidence, Defendants admit
its contents in its responses to subsequent statements. (See Defs.’
Counter 56.1 ¶¶ 273 (admitting timing of campaign), 270 (admitting

249a
Appendix C
proposed rabbinical college “was a significant issue”
during the campaign, and Sanderson, Yagel, and Louie
promised “they would fight the rabbinical college.” (Id.
¶¶ 273, 276.)
On February 26, 2007, the Board of Trustees continued
its public hearing on the proposed wetlands law, which
was attended by Plaintiffs’ attorney, Susan Cooper, who
requested that the public be given “further opportunity”
to comment. (Defs.’ 56.1 ¶¶ 154-55.) In response, the Board
of Trustees held another public hearing on the proposed
wetlands law on March 26, 2007. (Id. ¶¶ 156-57.) On April
23, 2007, the Board of Trustees adopted Local Law 5 of
2007, (id. ¶ 158), which added a chapter to Village Law
pertaining to wetlands and provided, in relevant part,
and except for certain exceptions that are inapplicable
here, that
it shall be unlawful to conduct, directly or
indirectly, any of the following activities
upon any wetland . . . or within 100 feet of
the boundary of any wetland . . . unless a
permit is issued therefor . . . (A) [a]ny form of
draining dredging, excavation[,] or removal of
material, except removal of debris or refuse[;]
(B) [a]ny form of depositing of any material
such as but not limited to soil, rock, debris,
concrete, garbage, chemicals, etc.[;] (C)
[e]recting any building or structure of any
that Mayor Marshall served as Mayor, and Alan Lamer as Trustee,
during the campaign), 274 (admitting that Sanderson, Louie, and
Yagel ran on a ticket together).

250a
Appendix C
kind, roads, driveways, the driving of pilings
or placing of any other restrictions, whether
or not they change the ebb and flow of water[;]
(D) [i]nstalling a septic tank, running a sewer
outfall, discharging sewage treatment effluent
or other liquid waste into or so as to drain into
any wetland, water body[,] or watercourse[;]
(E) [a]ny other activity which substantially
impairs any of the several functions served by
wetlands . . . .
Local Law 5 of 2007, codified at Village Code § 126-3(A).
(See also Defs.’ 56.1 ¶ 159; Ulman Aff. Exs. 4-5.) The
law further provided that “[t]he aforesaid one-hundredfoot buffer . . . shall not apply to lots that are improved
with single-family residences.” Local Law 5 of 2007,
codified at Village Code § 126-3(D). (See also Defs.’ 56.1
¶ 160; Ulman Aff. Exs. 4-5.) Soon thereafter, in a May
9, 2007 email, Former Mayor Sanderson indicated her
opposition to an Orthodox middle school proposed to be
constructed near the Village, noting that it did “not sound
good” and encouraging others to attend public hearings
on the matter. (Pls.’ 56.1 ¶ 375 (citing Savad Decl. Ex.
11 (Sanderson Dep. Tr.) 224-26)); Savad Ex. 170 (May 9,
2007 email).)
Both prior to and after the passage of the Wetlands
Law, the Congregation sent letters to the Village
regarding its plans for the proposed rabbinical college,
specifically on March 28, April 25, and June 22, 2007, and
Susan Cooper spoke about the Congregation’s plans at a
Board of Trustees meeting on April 12, 2007. (Pls.’ 56.1

251a
Appendix C
¶ 409.) While what requests those letters and statements
contained, and whether they constituted a proper
application for a meeting, is in dispute, (see Defs.’ Counter
56.1 ¶ 409-10), the Parties agree that the Congregation
was never granted any type of meeting to discuss its
proposal, (Pls.’ 56.1 ¶ 411). Nonetheless, in May 2007, the
Congregation held a meeting “to present information
to the public about the proposed rabbinical college,”
and Village officials appear to have, on a few occasions,
encouraged residents not to attend. (Pls.’ 56.1 ¶¶ 429-30,
432-34; Defs.’ Counter 56.1 ¶¶ 432-33.)
4. 	The Impact of the Challenged Laws
Plaintiffs allege that, collectively, the Challenged
Laws prevent the construction of the rabbinical college
in the Village. Because the entire Village, as noted, is
zoned R-40, the Village Code permits only a limited
number of land uses in the normal course, namely houses,
libraries, museums, public parks, and playgrounds, see
Village Code § 130-9, and, by special use permit, some
other developments, including educational institutions,
see Village Code § 130-10(F), and houses of worship,
see Village Code §130-10(G).14 Plaintiffs contend that
their rabbinical college is foreclosed by the Challenged
Laws because (1) the Accreditation Law requires that
educational institutions be “accredited by the New York
State Education Department or similar recognized
accreditation agency” and Plaintiffs’ rabbinical college
14. As noted, R-40 refers to residential district zoning,
requiring a minimum of 40,000 square feet per lot. (See Pls.’ 56.1
¶ 4.) See also Village Code § 130-5.

252a
Appendix C
allegedly cannot be accredited, (2) the Dormitory Law
excludes rooms that “contain separate cooking, dining
or housekeeping facilities” as well as “single-family, twofamily, and/or multifamily dwelling units,” constrains
dormitory use to administrative staff, faculty, and
students, and limits dormitory construction to 20% “of
the total square footage of all buildings on the lot,” which
effectively bar Plaintiffs from building the housing they
desire, and (3) the Wetlands Law requires a 100-foot buffer
around wetlands of 2,000 square feet or more on properties
not improved with single family homes, which renders it
impossible for Plaintiffs’ to build a suitable access road to
the rabbinical college on the Subject Property, the only
available property on which an educational institution can
be built in the Village. (See Mem. of Law in Supp. of Pls.’
Mot. for Summ. J. (“Pls.’ Mem.”) 4-9, 18 (Dkt. No. 138).)
Plaintiffs also allege that the Congregation cannot obtain
a variance for its hoped-for use, (id. at 8), and that the
Challenged Laws were motivated by discrimination, (id. at
4.) Accordingly, as limited by the Court’s 2013 Opinion and
Order, Plaintiffs seek a declaratory judgment finding the
Challenged Laws unconstitutional and illegal. (SAC 64.)
B. 	Procedural History
Plaintiffs’ filed their first Complaint on July 10, 2007,
(Dkt. No. 1), and then filed an Amended Complaint on
July 30, 2007, (Dkt. No. 12). Plaintiffs filed a Second
Amended Complaint on November 19, 2007, (Dkt. No.
27).15 Defendants filed a Motion to Dismiss, (Dkt. No. 36),
15. Plaintiffs appear to have filed an identical version of their
Second Amendment Complaint on two occasions. (See Dkt. Nos. 27,
28.)

253a
Appendix C
which the Court granted in part in an Opinion and Order
dated January 7, 2013, (Dkt. No. 53).
Following discovery, the Court held a pre-motion
conference on October 27, 2014, (see Dkt. (minute entry for
Oct. 27, 2014)), at which the Court adopted a Scheduling
Order for summary judgment motions, (Dkt. No. 135).
Pursuant to that Order, Plaintiffs filed their Motion for
Partial Summary Judgment and associated documents,
(Dkt. Nos. 137-139, 143-144, 146-149, 151-155), and
Defendants filed their Motion for Summary Judgment
and associated documents, (Dkt. Nos. 140-142, 145, 150),
on January 22, 2015. Pursuant to an extension of time
granted by the Court, (see Dkt. Nos. 163, 187), the Parties
filed opposition papers on April 2, 2015, (Dkt. Nos. 167173, 175-76), and replies on May 21, 2015, (Dkt. Nos. 190,
193). Defendants also filed their Counter Statement to
Plaintiffs’ Supplemental Rule 56.1 Statement on May 21,
2015. (Dkt. No. 194.) Additionally, pursuant to an extension
of time granted by the Court, (Dkt. No. 166), the United
States of America (“United States”) filed a Motion to
Intervene and a brief defending the constitutionality of
RLUIPA on April 23, 2015, (Dkt. Nos. 182-183), which
Motion the Court granted on April 24, 2015, (Dkt. No. 184).
On April 27, 2015, the Court held a pre-motion
conference on Plaintiffs’ putative motion for sanctions for
spoliation of evidence. (See Dkt. (minute entry for April,
27, 2015).) Pursuant to a Scheduling Order of the same
date, (Dkt. No. 185), and an extension of time granted
by the Court, (Dkt. No. 189), Plaintiffs filed their Motion
for Sanctions and associated documents on June 3, 2015,

254a
Appendix C
(Dkt. Nos. 195-197). Defendants filed their Opposition and
associated documents on July 1, 2015, (Dkt. Nos. 200-204),
and Plaintiffs filed their Reply on July 15, 2015, (Dkt.
No. 205). The Court held Oral Argument on the pending
Summary Judgment Motions on July 8, 2015. (See Dkt.
(minute entry for July 8, 2015).)
II. Discussion
A. 	Standard of Review
Summary judgment is appropriate where the movant
shows that “there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56(a); see also Psihoyos v. John
Wiley & Sons, Inc., 748 F.3d 120, 123-24 (2d Cir. 2014)
(same). “In determining whether summary judgment is
appropriate,” a court must “construe the facts in the light
most favorable to the non-moving party and . . . resolve
all ambiguities and draw all reasonable inferences against
the movant.” Brod v. Omya, Inc., 653 F.3d 156, 164 (2d
Cir. 2011) (internal quotation marks omitted); see also
Borough of Upper Saddle River. v. Rockland Cty. Sewer
Dist. No. 1, 16 F. Supp. 3d 294, 314 (S.D.N.Y. 2014) (same).
Additionally, “[i]t is the movant’s burden to show that no
genuine factual dispute exists.” Vt. Teddy Bear Co. v. 1-800
Beargram Co., 373 F.3d 241, 244 (2d Cir. 2004); see also
Aurora Comm. Corp. v. Approved Funding Corp., No. 13CV-230, 2014 U.S. Dist. LEXIS 49363, 2014 WL 1386633,
at *2 (S.D.N.Y. Apr. 9, 2014) (same). “However, when
the burden of proof at trial would fall on the nonmoving
party, it ordinarily is sufficient for the movant to point to

255a
Appendix C
a lack of evidence to go to the trier of fact on an essential
element of the nonmovant’s claim,” in which case “the
nonmoving party must come forward with admissible
evidence sufficient to raise a genuine issue of fact for
trial in order to avoid summary judgment.” CILP Assocs.,
L.P. v. PriceWaterhouse Coopers LLP, 735 F.3d 114, 123
(2d Cir. 2013) (alterations and internal quotation marks
omitted). Further, “[t]o survive a [summary judgment]
motion . . . , [a non-movant] need[s] to create more than a
‘metaphysical’ possibility that his allegations were correct;
he need[s] to ‘come forward with specific facts showing
that there is a genuine issue for trial,’” Wrobel v. Cty. of
Erie, 692 F.3d 22, 30 (2d Cir. 2012) (emphasis omitted)
(quoting Matsushita Elec. Indus. Co.. v. Zenith Radio
Corp., 475 U.S. 574, 586-87, 106 S. Ct. 1348, 89 L. Ed. 2d
538 (1986)), and “cannot rely on the mere allegations or
denials contained in the pleadings,” Walker v. City of N.Y.,
No. 11-CV-2941, 2014 U.S. Dist. LEXIS 41287, 2014 WL
1244778, at *5 (S.D.N.Y. Mar. 26, 2014) (internal quotation
marks omitted).
“On a motion for summary judgment, a fact is
material if it might affect the outcome of the suit under
the governing law.” Royal Crown Day Care, LLC v. Dep’t
of Health & Mental Hygiene of City of N.Y., 746 F.3d 538,
544 (2d Cir. 2014) (internal quotation marks omitted). At
summary judgment, “[t]he role of the court is not to resolve
disputed issues of fact but to assess whether there are any
factual issues to be tried.” Brod, 653 F.3d at 164 (internal
quotation marks omitted); see also In re Methyl Tertiary
Butyl Ether (“MTBE”) Prods. Liab. Litig., MDL No.
1358, No. M21-88, 2014 U.S. Dist. LEXIS 28287, 2014 WL

256a
Appendix C
840955, at *2 (S.D.N.Y. Mar. 3, 2014) (same). Accordingly,
“[a] [party] opposing a motion for summary judgment must
lay bare his proof in evidentiary form and raise an issue
of fact sufficient to send to the jury.” Weiss v. La Suisse,
Société D’Assurances Sur La Vie, 293 F. Supp. 2d 397,
408 (S.D.N.Y. 2003) (internal quotation marks omitted). A
court’s goal should, therefore, be “’to isolate and dispose
of factually unsupported claims.’” Geneva Pharms. Tech.
Corp. v. Barr Labs., Inc., 386 F.3d 485, 495 (2d Cir. 2004)
(quoting Celotex Corp. v. Catrett, 477 U.S. 317, 323-24, 106
S. Ct. 2548, 91 L. Ed. 2d 265 (1986)); see also Schatzki v.
Weiser Capital Mgmt., LLC, No. 10-CV-4685, 2013 U.S.
Dist. LEXIS 168572, 2013 WL 6189465, at *14 (S.D.N.Y.
Nov. 26, 2013) (same).
B. Analysis
1. 	Standing
The Court begins, as it did in the 2013 Opinion and
Order, with the threshold issue of standing. See Pettus v.
Morgenthau, 554 F.3d 293, 298 (2d Cir. 2009) (“[S]tanding
. . . is intended to be a threshold issue at least tentatively
decided at the outset of the litigation.”). Defendants
argue that Plaintiffs lack standing to challenge two of the
Challenged Laws: the Dormitory Law and the Wetlands
Law. (See Defs.’ Mem. of Law in Supp. of Their Mot. for
Summ. J. (“Defs.’ Mem.”) 11-14 (Dkt. No. 141).)
Generally, under Article III, to obtain retrospective
relief, a plaintiff must show (1) that he or she suffered an
injury in fact which is concrete and particularized and

257a
Appendix C
actual or imminent, (2) that the injury is fairly traceable
to the alleged unlawful conduct of the defendant, and
(3) that it is likely that the injury will be redressed by a
favorable federal court decision. See Marcavage v. The
City of N.Y., 689 F.3d 98, 103 (2d Cir. 2012) (citing Lujan
v. Defs. of Wildlife, 504 U.S. 555, 560-61, 112 S. Ct. 2130,
119 L. Ed. 2d 351 (1992)); see also Pac. Capital Bank, N.A.
v. Conn., 542 F.3d 341, 350 (2d Cir. 2008) (“[T]o satisfy
Article III’s standing requirements, a plaintiff must show
(1) it has suffered an ‘injury in fact’ that is (a) concrete and
particularized and (b) actual or imminent, not conjectural
or hypothetical; (2) the injury is fairly traceable to the
challenged action of the defendant; and (3) it is likely, as
opposed to merely speculative, that the injury will be
redressed by a favorable decision.” (alteration in original)
(quoting Friends of the Earth, Inc. v. Laidlaw Envt’l.
Servs. (TOC), Inc., 528 U.S. 167, 180-81, 120 S. Ct. 693,
145 L. Ed. 2d 610 (2000)). Additionally, “[t]o establish
standing to obtain prospective relief,” e.g., declaratory
relief, “a plaintiff must show a likelihood that he will be
injured in the future,” Carver v. City of N.Y., 621 F.3d
221, 228 (2d Cir. 2010) (internal quotation marks omitted);
see also Abidor v. Napolitano, 990 F. Supp. 2d 260, 272
(E.D.N.Y. 2013) (“An action for declaratory judgment does
not provide an occasion for addressing a claim of alleged
injury based on speculation as to conduct which may or
may not occur at some unspecified future date.”), “[t]hat
is, a plaintiff must demonstrate a certainly impending
future injury,” and to do so, “a plaintiff cannot rely solely
on past injuries; rather, the plaintiff must establish how he
or she will be injured prospectively and that injury would
be prevented by the equitable relief sought,” Marcavage,

258a
Appendix C
689 F.3d at 103. As indicated above, each of these factors
“must be supported in the same way as any other matter
on which . . . Plaintiff bears the burden of proof.” Lujan,
504 U.S. at 561.
In addition to the requirements of Article III, there
are also prudential limits on standing. See Lerman v.
Bd. of Elections, 232 F.3d 135, 143 (2d Cir. 2000) (“The
question of standing encompasses both constitutional and
prudential considerations.”). Generally, a plaintiff may not
“rest his claim to relief on the legal rights or interest of
third parties.” Warth v. Seldin, 422 U.S. 490, 499, 95 S.
Ct. 2197, 45 L. Ed. 2d 343 (1975). In the First Amendment
context, however, “litigants . . . are permitted to challenge
a statute not because their own rights . . . are violated,
but because of a judicial prediction or assumption that the
statute’s very existence may cause others not before the
court to refrain from constitutionally protected [conduct].”
Va. v. Am. Booksellers Assn., 484 U.S. 383, 392-93, 108 S.
Ct. 636, 98 L. Ed. 2d 782 (1988) (internal quotation marks
omitted). More specifically, while “[t]he issue of whether
a facial challenge may be entertained is one prudential
consideration . . . . ,” Lerman, 232 F.3d at 143, in the First
Amendment context a plaintiff “need only demonstrate
a substantial risk that application of the provision will
lead to the suppression” of First Amendment rights,
id. at 144 (internal quotation marks omitted); see also
Dickerson v. Napolitano, 604 F.3d 732, 742 (2d Cir. 2010)
(“[T]he plaintiff is allowed to challenge a law that may be
legitimately applied to his or her own expressive conduct
if the law has the potential to infringe unconstitutionally
on the expressive conduct of others.”); Roman Catholic

259a
Appendix C
Archdiocese of N.Y. v. Sebelius, 907 F. Supp. 2d 310, 322
(E.D.N.Y. 2012) (noting, with respect to standing in a
facial challenge to statute on free exercise grounds, that
“’[a] plaintiff bringing a pre-enforcement facial challenge
against a statute need not demonstrate a certainty that it
will be prosecuted under the statute to show injury, but
only that it has an actual and well-founded fear that the
law will be enforced against it’”) (some internal quotation
marks omitted) (quoting Vt. Right to Life Comm., Inc. v.
Sorrell, 221 F.3d 376, 382 (2d Cir. 2000)); Savago v. Vill.
of New Paltz, 214 F. Supp. 2d 252, 254 (N.D.N.Y. 2002)
(“Exceptions . . . in the First Amendment context allow
a plaintiff to challenge a law on its face on the grounds
that it is content-based [and] that it might chill the First
Amendment rights not only of the plaintiff, but of others
before the court.”).
In its 2013 Opinion and Order, the Court held that
the Congregation “ha[d] shown that it ha[d] standing to
challenge the ordinances at issue because, accepting as
true the allegations in the Second Amended Complaint,
the Congregation ha[d] alleged a particularized injury
that would be redressed if the Court granted the
requested relief.” Tartikov, 915 F. Supp. 2d at 591. While
it remains “the burden of the party invoking federal
jurisdiction to establish standing,” Lujan, 504 U.S. at
561, the Court cannot merely rely on the allegations of
the Second Amended Complaint at this stage of the case.
Rather, “[t]o defend against summary judgment for lack
of standing, . . . [P]laintiff must set forth by affidavit or
other evidence specific facts supporting standing . . . .” N.
Res. Def. Council, Inc. v. U.S. Food and Drug Admin.,

260a
Appendix C
710 F.3d 71, 79 (2d Cir. 2013) (internal quotation marks
omitted).
The Court previously found standing on the basis
of five separate allegations in the Second Amended
Complaint, namely:
(1) the Congregation owns the Subject Property;
(2) it purchased the Subject Property with
the intention of building a rabbinical college
thereon; (3) it already has begun to develop
plans to build the rabbinical college; (4) the
Subject Property is subject to [§§] 130-4, 130-9,
and 130-10 of the Village Zoning Code, as well
as [§] 126 (the Village’s wetlands ordinance),
which on their face prohibit unaccredited
educational institutions and some of the
Congregation’s planned accessory uses; and
(5) those provisions were enacted unlawfully
to prevent the Congregation from building its
rabbinical college.
Tartikov, 915 F. Supp. 2d at 591. As outlined above,
there is no dispute among the Parties as to the first
and third allegations, that the Congregation owns the
Subject Property and has at least begun to develop plans
to build a rabbinical college, though the extent of that
development is in dispute, (compare Defs.’ 56.1 ¶¶ 26-27,
with Pls.’ Counter 56.1 ¶¶ 26-27 (discussing the state of
the curriculum)), and Defendants have offered no evidence
to rebut Plaintiffs’ second allegation, which is supported
by evidence, that the Congregation purchased the Subject

261a
Appendix C
Property to build a rabbinical college. (See Pls.’ 56.1
¶ 102 (citing Decl. of Michael Tauber (“Tauber Decl”)
¶ 3 (Dkt. No. 148)).)16 Moreover, Plaintiffs need not prove
the fifth allegation—that the provisions were enacted to
prevent the rabbinical college from being built—in order
to establish standing to challenge them. See Chabad
Lubavitch v. Borough of Litchfield, 796 F. Supp. 2d 333,
338 (D. Conn. 2011) (holding that religious corporation
which owned property had standing to challenge zoning
ordinance); cf. Lamar Advert. of Penn, LLC v. Town of
Orchard Park, 356 F.3d 365, 373-75 (2d Cir. 2004) (finding
that standing requirements were satisfied where an
ordinance prevented the plaintiff from building certain
signs); M.J. Entm’t Enter. v. City of Mount Vernon, 234
F. Supp. 2d 306, 310 (S.D.N.Y. 2002) (determining that
the plaintiff had established standing with respect to one
claim where the challenged ordinance kept the plaintiff
from “offer[ing] topless dancing as entertainment at
its business establishment”). Accordingly, the central
question is whether the Challenged Laws apply to, and
foreclose, the Congregation’s planned rabbinical college.
With regard to the Dormitory Law, Defendants argue
that while the Challenged Laws permit dormitories as
accessory uses to an educational use, (Defs.’ Mem. 12
16. In response, (see Defs.’ Counter 56.1 ¶102), Defendants
cite only the Congregation’s Certification of Incorporation, which
does not mention the Subject Property but does indicate that the
Congregation was incorporated “[t]o establish, maintain[,] and
conduct a school . . . of the holy Torah and to maintain classes for
the teachings of the customs, traditions[,] and mode of worship of
the Jewish Orthodox faith,” (Gordon Aff. Ex. 18, at unnumbered 2.)

262a
Appendix C
(citing Local Law 5 of 2014 and Local Law 1 of 2007)),
“[a]s a matter of law, the housing aspect of Plaintiffs’
hypothetical plan is not an accessory use, because it is
so disproportionate to the educational use that it cannot
be subordinate or incidental,” (id. at 11.) In support,
Defendants cite two dated cases in which state courts held
that certain land uses were not accessory uses because
they were not “naturally and normally incidental to the
main use of the premises.” (Id. at 12 (citing Ames v.
Palma, 52 A.D.2d 1078, 384 N.Y.S.2d 587, 587 (App Div.
1976) and Town Hall, Inc. v. Tax Comm’n, 18 A.D.2d 629,
234 N.Y.S.2d 760, 761 (App. Div. 1962).) Defendants also
cite the deposition of C. Babad as evidence that housing,
rather than education, was the primary purpose of the
proposed residences. (Id. at 13 (citing Savad Decl. Ex. 31
(C. Babad Dep. Tr.) 102 (“Because if we come in with 250
families—and lucky they only can have one child a year,
but can you imagine if they . . . have two a year? Probably
in the next ten years we’ll have several thousand of them
over there.”)).)
The Village Code contains no language proclaiming
that certain uses cannot be because of their size, but
rather defines accessory as “[a] use which is customarily
incidental and subordinate to the principal permitted
use on the lot and located on the same lot therewith
. . . .” Village Code § 130-4. Defendants’ cases likewise
do not stand for the proposition that the mere size of a
proposed use, either in absolute terms or in proportion to
other uses, renders it non-accessory. Rather, as the court
in Ames put it, “[a]n accessory use that is too large for
an applicant’s proven needs ceases to be naturally and

263a
Appendix C
normally incidental to the main use of the premises,” 384
N.Y.S.2d at 587 (emphasis added); see also Town Hall,
Inc. v. Tax Comm’n of City of N.Y., 18 A.D.2d 629, 234
N.Y.S.2d 760, 761 (App. Div. 1962) (finding that a clubhouse
was not an accessory use to an educational institution
not because of its size, but because “the exhibits which
detailed the record of events held in the club [made] it
manifestly clear that such use was the dominant one
and that the use for educational purposes was merely
incidental”). As Plaintiffs point out, there is ample case law
indicating that the size of a development is not dispositive
to whether it is accessory. See, e.g., Mamaroneck Beach
& Yacht Club, Inc. v. Zoning Bd. of Appeals of Vill. of
Mamaroneck, 53 A.D.3d 494, 862 N.Y.S.2d 81, 85 (App.
Div. 2008) (“The [zoning board of appeals], in engrafting
area requirements upon provisions defining a permissive
accessory use, based upon the square footage of other
building structures on the property,” namely by ruling
that a structure that constituted more than 50% of total
building square footage on the property could not be
an accessory use, “was irrational and unreasonable.”).
Rather, what matters is the size of the accessory use
relative to the need for that use. See De Mott v. Notey, 3
N.Y.2d 116, 143 N.E.2d 804, 806, 164 N.Y.S.2d 398 (App.
Div. 1957) (finding that use of two out of three buildings
as dwellings was permissible accessory use to hospital
because “[i]t is . . . generally known . . . that hospitals
customarily provide living accommodations for at least
some of their personnel”).
The evidence in the record is sufficient to establish
standing as to the Dormitory Law. Plaintiffs contend,

264a
Appendix C
repeatedly, that they intend, and need, to build family
housing for students of the proposed rabbinical college,
and that such housing will only be used by students,
faculty, and their families. (See Pl.’s 56.1 ¶¶ 457, 45962, 465-67, 471-73, 489-491 (discussing need for such
housing); see also ¶ 486 (“The housing component of the
rabbinical college is only for students (and teachers) who
are committed to the full-time religious training program
along with their families, as well as one or two caretakers
of the subject property.”); ¶ 497 (noting that, when the
Congregation was formed, “the understanding was that
the planned rabbinical college would be only for students
(and teachers) committed to the full-time program, along
with their families”); ¶¶ 493-495 (discussing need for
family housing with housekeeping, cooking, and dining
facilities); ¶¶ 603-614 (discussing how the Dormitory Law
prohibits plaintiffs’ desired housing).) While some of the
families living in the proposed dormitories may be large,
potentially requiring the construction of large facilities,
that fact does not make their size disproportionate, as
a matter of law, to their need. See Assoc. of Zone A &
B Homeowners Subsidiary, Inc. v. Zoning Bd. of App.
of City of Long Beach, 298 A.D.2d 583, 749 N.Y.S.2d 68
(App. Div. 2002) (“Educational institutions are generally
permitted to engage in activities and locate on their
property facilities for such social, recreational, athletic,
and other accessory uses as are reasonably associated
with their educational purpose.” (internal quotation marks
omitted)). While Defendants may maintain that this is not
Plaintiffs’ true motive, the question of whether Plaintiffs
intend the housing to serve only the rabbinical college, or
the Orthodox Hasidic community generally, is, at most,

265a
Appendix C
a question of material fact for the jury. But, viewing the
facts in favor of the Plaintiffs, as non-movants on this
issue, Defendants’ argument falls short.
Additionally, the question of whether the housing
at issue here is actually an accessory use is beside the
point. The Dormitory Law, in concert with other Village
laws, including the Challenged Laws, prevent Plaintiffs
from building the family housing they seek as part of
their rabbinical college. The Dormitory Law, specifically,
prohibits any sort of housing as part of an educational
institution that is not defined as a “dormitory” in that
statute. See Village Code § 130-9. Because the Dormitory
Law explicitly precludes housing for students with
families, housing that comprises greater than 20% of
building square footage on the property at issue, or the
building of separate cooking or housekeeping facilities, it is
an insurmountable barrier to Plaintiffs’ rabbinical college
as currently conceived, regardless of how “accessory
use” is defined. (See Mem. of Law in Opp’n to Defs.’ Mot.
for Summ. J. (“Pls.’ Opp’n”) 5-6 (Dkt. No. 167).)17 Thus,
the merits of Plaintiffs’ challenge to the Dormitory Law
notwithstanding, Plaintiffs’ have provided sufficient
evidence to indicate that the Dormitory Law, on its face,
forecloses Plaintiffs’ proposed rabbinical college, or any
educational institution that may seek include housing for
families of students, and therefore Plaintiffs have standing
to levy a facial challenge against it.
17. In fact, Plaintiffs contend that the dormitories are not an
“accessory” use at all, but rather a component of the primary use:
the rabbinical college itself. (See Pls.’ Mem. 6 n.7.)

266a
Appendix C
With regard to the Wetlands Law, Defendants argue
that “[t]here is no evidence the wetlands local law applies
to any or some of the wetlands on the Subject Property
because Plaintiffs have provided no wetlands studies of
this property that would identify wetlands covered by
the local wetlands law.” (Defs.’ Mem. of Law in Opp’n to
Pls.’ Partial Mot. for Summ. J. (“Defs.’ Opp’n”) 27 (Dkt.
No. 170).) Plaintiffs do, however, produce at least some
evidence of wetlands on the Property, (see Beall Decl.
¶¶ 281-84, 287, 289 (discussing wetlands on property
in the context of state and federal regulations), Ex. H
(indicating the existence of wetlands on the east side of the
property, and a stream on the west side of the property);
Ex. I (same); Ex. T (property map identifying wetlands);
see also Aff. of Amanda E. Gordon (“Second Gordon
Aff.”) Ex. A (Report of Charles J. Voorhis) at 63 (Dkt. No.
173) (indicating the existence of wetlands on the Subject
Property)), which Defendants do not rebut.18 Plaintiffs are
therefore permitted to bring a facial challenge against the
Wetlands Law, and there is therefore no basis to grant
summary judgment to Defendants on standing grounds.
2. 	Ripeness
Defendants also contend that Plaintiffs’ challenge
is unripe because Plaintiffs never submitted a formal
application related to the proposed rabbinical college.
(See, e.g., Defs.’ Mem. 14 (“Plaintiffs’ claims are not ripe
. . . because they never filed an application . . . .”); Defs.’
18. The Court below addresses the question of whether the
Wetlands Law changed the regulatory environment with respect
to Subject Property.

267a
Appendix C
Opp’n 4 n.6 (“[T]he dormitory regulations and wetlands
regulations are beyond this Court’s jurisdiction due to
a lack of standing and ripeness.”); id. at 26 (“Plaintiffs
lack standing on the wetlands regulation, as discovery
has shown that their attack on them is unripe and a claim
at this point is merely speculative. Therefore, the Court
lacks jurisdiction over the wetlands provisions, even as
to a facial challenge.”).) For the reasons stated in the
Court’s 2013 Opinion and Order, which is unaffected by
the evidence adduced after that Opinion and Order was
issued, Plaintiffs’ facial challenges, by virtue of being
facial challenges, are ripe and have been ripe from “’the
moment the [Challenged laws] [were] passed.’” Tartikov,
915 F. Supp. 2d at 595 (quoting Suitum v. Tahoe Reg’l
Planning Agency, 520 U.S. 725, 736 n.10, 117 S. Ct. 1659,
137 L. Ed. 2d 980 (1997)); see also S. Lyme Prop. Owners
Ass’n, Inc. v. Town of Old Lyme, 539 F. Supp. 2d 524,
536 (D. Conn. 2008) (“[F]acial challenges are generally
ripe the moment the challenged regulation or ordinance
is passed.” (internal quotation marks omitted)); Ecogen,
LLC v. Town of Italy, 438 F. Supp. 2d 149, 155 (W.D.N.Y.
2006) (“[F]acial challenges to legislative acts are ripe by
their very nature.” (internal quotation marks omitted)).
In a similar vein, Defendants suggest that Plaintiffs’
RLUIPA substantial burden claim is unripe because
Plaintiffs have not filed an application, meaning the
Village has not yet “impose[d]” the Challenged Laws on
them. (See Defs.’ Mem. 36-37.) Plaintiffs disagree, noting
that the inclusion of “implement” in the statute suggests
that “impose” has a different meaning and is analogous
to “enact.” (See Pls.’ Mem. 10-11.) The Court agrees with

268a
Appendix C
Plaintiffs: a substantial burden can be imposed by the
mere enactment of legislation. See Elijah Group, Inc.
v. City of Leon Valley, 643 F.3d 419, 422 (5th Cir. 2011)
(“When we focus on the text of the Clause, we read it as
prohibiting the government from ‘imposing,’ i.e., enacting,
a facially discriminatory ordinance or ‘implementing,’
i.e. enforcing a[n ordinance].”); Roman Catholic Diocese,
2012 U.S. Dist. LEXIS 56694, 2012 WL 1392365, at *8
(upholding facial challenge to zoning law because the
plaintiff had adequately alleged that the “conditions
imposed by the [law] would significantly restrict the
[plaintiff’s] use of their [p]roperty for religious burial
purposes”). Accordingly, Plaintiffs’ facial challenges are
ripe for adjudication.
3. 	Spoliation
a. 	Factual Background
Plaintiffs, in their Motion for Sanctions, request that
the Court sanction Defendants for destroying a Facebook
post (the “Facebook Post”) written by Louie and related
text messages between Mayor Yagel and Louie, and for
failing to produce “the non-destroyed portion of those
texts,” which Plaintiffs allege contained relevant evidence.
(Pls.’ Mem. of Law in Supp. of Pls.’ Mot. for Sanctions
Due to Spoliation of Evidence (“Pls.’ Sanctions Mem.”) 2
(Dkt. No. 196).)
In May 2013, Louie posted a comment on her personal
Facebook page noting her disapproval of an all-male
gathering of Hasidic/Orthodox Jews, though without

269a
Appendix C
directly referencing their religion. (Defs.’ Mem. of Law
in Opp’n to Pls.’ Mot. for Sanctions Due to Spoliation of
Evidence (“Defs.’ Sanctions Opp’n”) 1-2 (Dkt. No. 200).)19
Thereafter, following an angry text message exchange
between Mayor Yagel and Louie, Louie deleted the
Facebook post. (Id. at 2; see also Decl. of Brett Yagel
(“Yagel Sanctions Decl.”) ¶ 19 (Dkt. No. 202) (referencing
“any text message”).) 20 In March 2015, Mayor Yagel
posted a comment on his personal Facebook page about
a Rockland County Times newspaper article. (Pls.’
Sanctions Mem. 2.) Mayor Yagel’s comment stated, in
relevant part:
FACT: Rita Louie, while still a Trustee, posted
on Facebook, inappropriately, about an ‘ALL
MALE gathering’ at the Provident Bank
Ballpark. Especially given the lawsuit which
the Village of Pomona is involved with and the
NATION [sic] IMPLICATIONS it could have.
i.e., federal law potentially being struck down
as unconstitutional, just as it’s [sic] predecessor
(RFA) was. Total lapse in reason and judgment.
19. Louie claims that, as a women’s rights activist, she objected
to an “all-male gathering being held at a municipal facility, where
women were not permitted to attend,” and that she did not think it
the Facebook post was relevant to the this Action. (See Decl. of Rita
J. Louie (“Louie Sanctions Decl.”) ¶¶ 14-17 (Dkt. No. 201); see also
Defs.’ Sanctions Opp’n 2.)
20. Mayor Yagel avers that he did not believe the post “reflected
a religious animus” or was relevant to the instant Action but that he
was worried that the post would be mischaracterized as anti-Semitic
by Plaintiffs. (Yagel Sanctions Decl. ¶¶ 16-17.)

270a
Appendix C
Here [sic] explanation (have the text still Rita),
on medication and I’ve removed it. And if a
vacancy should occur (post this village election),
how could anyone in their right mind (i.e.
New Mayor), consider this person as a viable
candidate to fill an [sic] trustee unexpired
(his), given their predisposition to making such
blatant and inappropriate remarks.
(Decl. of Paul Savad in Supp. of Pls.’ Mot. for Sanctions
Due to Spoliation of Evidence (“Savad Suppl. Decl.”) Ex.
1 (Comment) (Dkt. No. 197).)
After learning that Louie had made such remarks,
Plaintiffs requested “all responsive social media posts and
comments,” including Louie’s Facebook post and the text
of the post the Mayor Yagel indicated that he retained. (See
Savad Suppl. Decl. Ex. 2 (Mar. 19, 2015 email demanding
production).) Defendants responded they were unable to
produce the Facebook post because Mayor Yagel did not
have a copy and produced a partial copy of text messages
discussing the post. (Id. Ex. 3 (Mar. 25, 2015 letter from
Andrea Donovan Napp to Donna Sobel, Esq. describing
disclosures).) The text messages contained the following
exchange:
[Mayor Yagel]: Is it your position to cause
damage to the village? Someone just sen[t]
me a screenshot of your Facebook post! If it is
your intent to jeopardize target . . . then you
are succeeding and may cause us to loose! [sic]
You should consider . . . .

271a
Appendix C
[Louie]: A little over the top but I understand
your anger. All taken down and I reviewed all
my accounts to make sure there are no other
unfortunate mistakes. But no, I don’t think I
should consider resigning.
[Mayor Yagel]: I am so angry now that my
heads [sic] about to pop. Their lawyers will use
everything. Remember the case in NJ where
the federal judge ruled that comments made by
a public official in a non official [sic] setting led
him to decide potential prejudice even though
there was no final ruling but based on prior
witness testimony. We have too much riding on
this case for you to jeopardize it. Everything
is fair game in the lawsuit. Judge Karas is
watching this case . . . publicly commenting on
an all male [sic] gathering when it’s related to
a religious entity, is not good!
(Savad Suppl. Decl. Ex. 4.) Plaintiffs allege that a portion
of the text message is missing after Mayor Yagel writes
“[y]ou should consider,” (Pls.’ Sanctions Mem. 4), though
Louie’s response at least suggests that Mayor Yagel
encouraged Louie to consider resigning, (Savad Suppl.
Decl. Ex. 4; see also Defs.’ Sanctions Opp’n 10 n.11), as
Mayor Yagel himself avers, (Yagel Sanctions Decl. ¶ 20).
Plaintiffs nonetheless allege that Defendants intentionally
destroyed the Facebook post, and failed to retain a
complete set of the texts. (Pls.’ Sanctions Mem. 5.)21
21. Additionally, on the basis of these texts, and the fact that they
were sent on Friday, May 10, Plaintiffs determined that the exchange
occurred on Friday, May 10, 2013. (Pls.’ Sanctions Mem 4 n.2.)

272a
Appendix C
Plaintiffs further allege that Mayor Yagel lied about
his preservation of this evidence when he certified, on July
3, 2013, only two months after the exchange at issue, and
in response to Plaintiffs’ interrogatories, that Defendants
preserved “all potentially relevant” electronic screen
images. (Pls.’ Sanctions Mem. 5; Savad Suppl. Decl. Ex. 5
at 4 (interrogatory), 19 (verification).) In response, Yagel
avers that he did not think the Facebook post was relevant
to the instant action. (See Yagel Sanctions Decl. ¶ 26.)22
b.

Applicable Law

“Spoliation is the destruction or significant alteration
of evidence, or the failure to preserve property for
another’s use as evidence in pending or reasonably
foreseeable litigation.” Byrnie v. Town of Cromwell, Bd.
of Educ., 243 F.3d 93, 107 (2d Cir. 2001) (internal quotation
marks omitted). While “[c]ourts cannot and do not expect
that a party can meet a standard of perfection,” Pension
Comm. of the Univ. of Montreal Pension Plan v. Bank of
Am. Sec. LLC, 685 F. Supp. 2d 456, 461 (S.D.N.Y. 2010),
abrogated on other grounds, Chin v. Port Auth., 685
F.3d 135 (2d Cir. 2012), sanctions serve to “(1) deter[]
parties from destroying evidence; (2) plac[e] the risk of
an erroneous evaluation of the content of the destroyed
evidence on the party responsible for its destruction; and
(3) restor[e] the party harmed by the loss of evidence
22. The Court does not take a position on whether Yagel
intentionally lied when making this certification. As discussed below,
even if Yagel did not believe the evidence was relevant, his bad faith
is evidenced by the fact that, as he explained in his Facebook post,
he still sought ensure that Plaintiffs did not discover it.

273a
Appendix C
helpful to its case to where the party would have been in
the absence of spoliation.” Id. at 469 (internal quotation
marks omitted). A spoliation sanction is appropriate where
“(1) . . . the party having control over the evidence had
an obligation to preserve it at the time it was destroyed;
(2) . . . the records were destroyed with a culpable state
of mind; and (3) . . . the destroyed evidence was relevant
to the party’s claim or defense such that a reasonable
trier of fact could find that it would support that claim or
defense.” Residential Funding Corp. v. DeGeorge Fin.
Corp., 306 F.3d 99, 108 (2d Cir. 2002) (internal quotation
marks omitted). “[D]etermining the proper sanction to
impose for spoliation is ‘confined to the sound discretion
of the trial judge . . . and is assessed on a case-by-case
basis.’” Adorno v. Port Auth., 258 F.R.D. 217, 227 (S.D.N.Y.
2009) (quoting Fujitsu Ltd. V. Fed. Exp. Corp., 247 F.3d
423, 436 (2d Cir. 2001)).
c.

Application

As to the first element, the duty to preserve, an
obligation to preserve evidence “usually arises when a
party has notice that the evidence is relevant to litigation
. . . but also on occasion in other circumstances, as for
example when the party should have known that the
evidence may be relevant to future litigation.” Byrnie,
243 F.3d at 107 (internal quotation marks omitted); see
also Kronisch v. United States, 150 F.3d 112, 126 (2d Cir.
1998) (same). Indeed, “[w]hile a litigant is under no duty
to keep or retain every document in its possession, once
a party reasonably anticipates litigation, it must suspend
its routine document retention/destruction policy and

274a
Appendix C
put in place a litigation hold to ensure the preservation
of relevant documents.” Adorno, 258 F.R.D. at 227
(alterations and internal quotation marks omitted); see
also Green v. McClendon, 262 F.R.D. 284, 289 (S.D.N.Y.
2009) (describing this time as “the point where relevant
individuals anticipate becoming parties in imminent
litigation”); Zubulake v. UBS Warburg, LLC, 220 F.R.D.
212, 217 (S.D.N.Y. 2003) (noting that the duty to preserve
evidence “attache[s] at the time that litigation was
reasonably anticipated”). “Relevant documents are those
that a party should reasonably know are relevant in the
action, reasonably calculated to lead to the discovery of
admissible evidence, reasonably likely to be requested
during discovery and/or are the subject of a pending
discovery request.” Adorno, 258 F.R.D. at 217 (alterations
and internal quotation marks omitted).
It is clear that Defendants were under an obligation to
preserve the Facebook post and related text messages as
of the date of the Facebook post: May 10, 2013. This action
was filed in July 10, 2007, (see Dkt No.1), and there was
a litigation hold in place as of August 29, 2007, nearly six
years before the comment at issue was posted, (see Savad
Suppl. Decl. Ex. 11 (Aug. 29, 2007 letter from Former
Mayor Sanderson to village officials re: litigation hold)).
The Facebook post is also subject to the litigation hold
because it appears to reference a gathering of individuals
with the same religious observance as the Plaintiffs
in this Action, who allege that Louie, among others,
discriminated against them. Indeed, Mayor Yagel’s strong
reaction to the post is suggestive not only of the obligation
to preserve the post and related text messages but also
of their relevance.

275a
Appendix C
As to the second element, culpable state of mind, “at
times [the Second Circuit has] required a party to have
intentionally destroyed evidence; at other times [the
Second Circuit has] required action in bad faith; and at
other times [the Second Circuit] has allowed an adverse
inference based on gross negligence” and, accordingly,
“a case by case approach [is] appropriate.” Byrnie, 243
F.3d at 107-08; see also id. at 109 (noting that “intentional
destruction of documents in the face of a duty to retain
those documents is adequate” to show a “culpable state
of mind”). In other words, “the culpable state of mind
factor is satisfied by a showing that the evidence was
destroyed knowingly, even without intent to breach a duty
to preserve it, or negligently.” Residential Funding, 306
F.3d at 108 (emphasis, alterations, and internal quotation
marks omitted). 23 Gross negligence, in this context, is “the
23. The Court recognizes that a recent amendment to Federal
Rule of Civil Procedure 37, subdivision (e) provides that
If electronically stored information that should
have been preserved in the anticipation or conduct
of litigation is lost because a party failed to take
reasonable steps to preserve it, and it cannot be
restored or replaced through additional discovery,
the court:
(1) upon finding prejudice to another party from
loss of the information, may order measures no
greater than necessary to cure the prejudice; or
(2) only upon finding that the party acted with the
intent to deprive another party of the information’s
use in the litigation may:

276a
Appendix C
failure to exercise even that care which a careless person
would use,” Harkabi v. SanDisk Corp., 275 F.R.D. 414,
419 (S.D.N.Y. 2010) (internal quotation marks omitted),
and “[o]nce the duty to preserve attaches, any destruction
of documents is, at a minimum, negligent.” Zubulake,
220 F.R.D. at 220; see also Orbit One Comm’ns, Inc.
v. Numerex Corp., 271 F.R.D. 429, 438 (S.D.N.Y. 2010)
(“In this circuit, a culpable state of mind for purposes
of spoliation inference includes ordinary negligence.”
(internal quotation marks omitted); see also Residential
Funding, 306 F.3d at 108 (“[The] sanction [of an adverse
inference] should be available even for the negligent
destruction of documents if that is necessary to further
the remedial purpose of the inference.”).
(A) presume that the lost information was
unfavorable to the party;
(B) instruct the jury that it may or must
presume the information was unfavorable to
the party; or
(C) dismiss the action or enter a default
judgment.
While the amendment, as Defendants admit, does not take effect
until December 1, 2015, (Defs.’ Sanctions Opp’n 8 n.10), it would
“abrogate Residential Funding insofar as it holds that sanctions
may be appropriate in instances where evidence is negligently
destroyed.” Sekisui Am. Corp. v. Hart, 945 F. Supp. 2d 494, 503
n.51 (S.D.N.Y. 2013) (discussing an earlier version of the proposed
amendment). Therefore, to impose any remedy beyond one that
merely “cure[s]” any “prejudice,” the Court would have to find an
“intent to deprive.” Because the amendment is not yet effective,
the Court need not follow the rule here, but the Court notes that,
as explained below, it nonetheless finds that Defendants had the
requisite intent to deprive Plaintiffs of the evidence at issue.

277a
Appendix C
Here, the culpable state of mind element is met.
Mayor Yagel clearly stated his concern about the Court
or Plaintiffs learning about Louie’s Facebook post in
his comment, and in response Louie deleted the post.
Indeed, rather than seek to preserve the post or any
other relevant social media, Louie assured Mayor Yagel
that she had “reviewed all [her] accounts to make sure
there [were] no other unfortunate mistakes.” (Savad
Suppl. Decl. Ex. 4.) While Defendants emphasize the fact
that Mayor Yagel did not recognize the “significance”
of Louie’s statement that she had deleted the post, (see
Defs.’ Sanctions Opp’n 9), neither that detail nor the fact
that Mayor Yagel “continued to castigate” Louie means
that Mayor Yagel did not instigate the destruction of the
evidence; his tirade may have been aimed at preventing
Louie from posting similar comments in the future, (id.
at 9). Assuming Mayor Yagel’s concern about the post
truly was rooted in his “perception that Plaintiffs would
. . . have[] twisted any incidental reference to Orthodox/
Hasidic Jews into something far more nefarious,” that
alone not only demonstrates that Mayor Yagel did not
want Plaintiffs to obtain the Facebook post but also, as the
text messages make clear, suggests that Mayor Yagel was
concerned about the Court learning about the post as well.
(Id. at 9-10; see also Reply Mem. of Law in Supp. of Pls.’
Mot. for Sanctions Due to Spoliation of Evidence (“Pls.’
Sanctions Reply”) 3 (Dkt. No. 205).) Thus, regardless of
whether there was actually a “conspiracy” between Mayor
Yagel and Louie to destroy the Facebook post, (see Defs.’
Sanctions Opp’n 10), this is the rare case where bad faith,
and a clear intent to deprive Plaintiffs of the evidence at
issue, is sufficiently clear from the face of the record.

278a
Appendix C
As to the third element, “[t]he burden of proving that
evidence would have been relevant to a party’s claims or
defense is proportional to the mens rea of the party who
destroyed the evidence, and where the party destroyed
the evidence due to ordinary negligence [as opposed to
bad faith], the burden falls on the prejudiced party to
produce some evidence suggesting that a document or
documents relevant to substantiating his claim would
have been included among the destroyed files.” Williams
v. N.Y.C. Transit Auth., No. 10-CV-882, 2011 U.S. Dist.
LEXIS 120768, 2011 WL 5024280, at *8 (E.D.N.Y. Oct.
19, 2011) (emphasis and internal quotation marks omitted).
“To satisfy this burden, the innocent party may provide
sufficient evidence that would tend to show that the lost
documents would have been favorable to [its] case.” Id.
(internal quotation marks omitted); see also Adorno,
258 F.R.D. at 228 (“Although the burden placed on the
moving party to show that the lost evidence would have
been favorable to it ought not be too onerous, . . . when
the culpable party was negligent, there must be extrinsic
evidence to demonstrate that the destroyed evidence
was relevant and would have been unfavorable to the
destroying party.” (citations and internal quotation marks
omitted)).
Because the Court has found that Defendants’
destruction of evidence was in bad faith, there is
a presumption that the evidence was relevant. See
Residential Funding 306 F.3d at 109 (“Where a party
destroys evidence in bad faith, that bad faith alone is
sufficient circumstantial evidence from which a reasonable
fact finder could conclude that the missing evidence was

279a
Appendix C
unfavorable to that party.”); Chan v. Triple 8 Palace,
Inc., No. 03-CV-6048, 2005 U.S. Dist. LEXIS 16520,
2005 WL 1925579, at *8 (S.D.N.Y. Aug. 11, 2005) (same).
However, even if the presumption of relevance did not
apply, the Facebook post and text messages are plainly
relevant to Plaintiffs’ discrimination claims because any
subsequent discriminatory animus may indicate a pattern
of discrimination, cf. Arlington Heights, 429 U.S. at 266
(noting propriety of considering “circumstantial” evidence
and the relevance of a “pattern” of discrimination), or
whether seeking a text amendment to (or variance from)
the Challenged Laws would be futile, see, e.g., Westchester
Day Sch. v. Vill. of Mamaroneck (“WDS II”), 504 F.3d
338, 349, 352 (2d Cir. 2007) (“WDS II”). 24
Facebook posts are regularly produced in litigation
as evidence of a party’s thoughts and actions, see, e.g.,
Reid v. Ingerman Smith LLP, No. 12-CV-307, 2012 U.S.
Dist. LEXIS 182439, 2012 WL 6720752, at *1 (E.D.N.Y.
Dec. 27, 2012) (ordering such posts produced), and, as
Plaintiffs point out, (Pls.’ Sanctions Mem. 9), the post at
issue here is responsive to Plaintiffs’ Document Request
No. 53 which sought, among other things, all “documents
concerning statements . . . concerning Jews, Hasidic
Jews[,] and Orthodox Jews[] including, but not limited
to, all blogs [and] on-line forums,” (Savad Suppl. Decl. Ex.
24. Defendants assert that this argument “holds no sway in
this case,” but they do not explain why. (Defs.’ Sanctions Opp’n 14.)
As discussed below, and as explained by Plaintiffs in their Reply,
(see Pls.’ Sanctions Reply 7-8), whether Plaintiffs’ efforts to obtain
a text amendment would be futile is a material fact in this Action.

280a
Appendix C
13). 25 In fact, Defendants previously produced a Facebook
post from the day after the offending post. (See id. Ex. 15
at unnumbered 1.)26 Likewise, the texts are responsive to
Plaintiff’s Document Request No. 45, which sought, among
other things “documents including . . . correspondence
[and] notes . . . concerning communications by or with
the Village Board and/or its Members . . . concerning
the Subject Property and/or the proposed Rabbinical
College.” (Id. Ex. 13.) Moreover, as noted above, the
relevance of the evidence is confirmed by Mayor Yagel’s
response to the Facebook Post, particularly given he noted
that it “may cause [Defendants] to loose [sic].” (Id. Ex. 4.)
Accordingly, the Court finds that sanctions of some type
are warranted for Defendants destruction of—and failure
to produce—this evidence. 27
25. Defendants’ assertion that the Facebook post is not covered
by Plaintiffs’ Document Request No. 53 is not credible. (See Defs.’
Sanctions Opp’n 14-15.) The fact that the individuals at issue in
Louie’s post are Hasidic and/or Orthodox Jews does, by its very
nature, render it a comment “concerning” Hasidic and/or Orthodox
Jews.
26. Defendants’ assertion that the text messages are not
covered by Plaintiffs’ Document Request No. 45 also is not credible.
(See Defs.’ Spoliation Opp’n 15.) By virtue of referencing how
Plaintiffs may use the post to show discriminatory animus in the
passage of the Challenged Laws to prevent the construction of the
proposed rabbinical college, they clearly relate to the proposed
rabbinical college.
27. While Defendants suggest that Magistrate Judge George A.
Yanthis limited production of post-2007 materials to those pertinent
to the Village’s interest in passing the Challenged Laws, (see Defs.’
Sanctions Opp’n 15), the Court’s reading of Judge Yanthis’s Order is
that it did not place limits on document requests that were previously

281a
Appendix C
d. Appropriate Sanction
“[A] district court has broad discretion in crafting a
proper sanction for spoliation,” which should “serve the
prophylactic, punitive, and remedial rationales underlying
the spoliation doctrine.” West v. Goodyear Tire and
Rubber Co., 167 F.3d 776, 779 (2d Cir. 1999). In so doing,
“[a] court should impose the least harsh sanction that can
provide an adequate remedy.” Hawley v. Mphasis Corp.,
302 F.R.D. 37, 46 (S.D.N.Y. 2014) (internal quotation marks
omitted); see also Regulatory Fundamentals Grp. v.
Governance Risk Mgmt. Compliance, No. 13-CV-2493,
2014 U.S. Dist. LEXIS 107616, 2014 WL 3844796, at
*15 (S.D.N.Y. Aug. 5, 2014) (noting that “a court should
always impose the least harsh sanction that can provide
an adequate remedy.”). In other words, it “should be
designed to: (1) deter parties from engaging in spoliation;
(2) place the risk of an erroneous judgment on the party
who wrongfully created the risk; and (3) restore the
prejudiced party to the same position he would have been
in absent the wrongful destruction of evidence by the
opposing party.” West, 167 F.3d at 776. “In determining
whether to impose severe sanctions, such as the entry of a
default judgment or an adverse inference instruction, the
Court must assess whether the requesting party suffered
prejudice as a result of the loss or withholding of evidence.”
F.D.I.C. v. Horn, No. 12-CV-5958, 2015 U.S. Dist. LEXIS
44226, 2015 WL 1529824, at *15 (E.D.N.Y. Mar. 31, 2015)
(internal quotation marks omitted).
in place, (see generally Decl. of Andrea Donovan Napp (“Napp
Sanctions Decl.”) Ex. 2 (transcript) (Dkt. No. 204)).

282a
Appendix C
Plaintiffs contend that Defendants’ behavior warrants
“’severe disciplinary measures.’” (Pls.’ Sanctions Mem.
14 (quoting Metro. Opera Ass’n Inc. v. Local 100, Hotel
employees & Rest. Emps. Int’l Union, 212 F.R.D. 178, 219
(S.D.N.Y. 2003)).) They argue that “[a]ny sanction short
of a terminating sanction would ‘fail to account for the
prejudice or to sufficiently penalize [Defendants] or deter
others,’” (id. at 14 (quoting Regulatory Fundamental,
2014 U.S. Dist. LEXIS 107616, 2014 WL 3844796, at *16),
and that striking Defendants’ Answer and affirmative
defenses, together with entering judgment for Plaintiffs,
is “appropriate,” (id.). Plaintiffs also maintain that
even if this specific instance of Defendants’ misconduct
is insufficient to justify severe sanctions, considered
together with Defendants’ other acts of spoliation, severe
sanctions are warranted. (See id. at 15.) Such misconduct
allegedly includes failure to forensically image or preserve
all electronically-stored information, failure to timely
inform the individual Defendants of the litigation hold,
and the deletion of comments from the minutes of a key
meeting (and the failure to provide a copy of the minutes
after those comments were restored). (Pls.’ Sanctions
Mem. 15-20.)28
28. While the Court ultimately finds consideration of the
alleged “pattern” of misconduct unnecessary in determining the
appropriate sanction for the primary misconduct alleged in Plaintiffs’
Motion, the other allegations Plaintiffs make are (a) not raised as
independent grounds for sanctions, (b) suspect given, as Defendants
point out, if Plaintiffs were concerned about Defendants’ behavior,
“they should have raised [the] concern in the spring of 2013 or, at the
latest[,] in the summer of 2014,” when they were first aware of these
issues, (Defs.’ Sanctions Opp’n 18), and (c) satisfactorily explained
by Defendants, with the possible exception of Defendants’ delay in

283a
Appendix C
W hile the Court recognizes that terminating
sanctions may be appropriate “if there is a showing of
willfulness, bad faith, or fault on the part of the sanctioned
party,” West, 167 F.3d at 779, such sanctions are most
appropriate in “extreme circumstances, usually after
consideration of alternative, less drastic sanctions,” id.
The Court finds, therefore, that while there is bad faith
here, the circumstances of the case are not sufficiently
“extreme” to justify a terminating sanction, particularly
in light of the fact that, as Defendants suggest, this is the
only instance of clear bad faith in what has been a case
involving voluminous discovery. (See Defs.’ Sanctions
Opp’n 24.) Less drastic sanctions are sufficient in this
case, as discussed below. See West, 167 F.3d at 780 (finding
terminating sanctions were inappropriate because the
district judge could have instructed the jury to presume
the conclusions the spoliated evidence would have been
used to establish and precluded the guilty party from
offering contrary evidence).
As an alternative to terminating sanctions, Plaintiffs
argue that Defendants should “be precluded from offering
any evidence that Local Law 1 of 2007 and Local Law 5 of
2007 were not passed with discriminatory animus” and that
“the jury should be given an averse inference instruction”
on this issue. (Pls.’ Sanctions Mem. 20.) Plaintiffs also
ask that Defendants be precluded from offering evidence
that a text amendment would be considered or that the
Defendants’ interests were not pre-textual, and that the
issuing the litigation hold (which Plaintiffs have not demonstrated
was prejudicial), (see id. at 19-23).

284a
Appendix C
jury should be given an adverse inference instruction on
this issue as well. (See id. at 21.) Plaintiffs maintain that
any lesser sanction would be insufficient. (See id. at 22.)
An adverse inference is “an extreme sanction and
should not be imposed lightly.” Treppel v. Biovail Corp.,
249 F.R.D. 111, 120 (S.D.N.Y. 2008); Zubulake, 220 F.R.D.
at 219 (“In practice, an adverse inference instruction often
ends litigation—it is too difficult a hurdle for the spoliator
to overcome.”). And because Plaintiffs are “free to explore
at trial the issue of records being [lost], without an adverse
inference charge, certainly during cross-examination
or for impeachment purposes,” Horn, 2015 U.S. Dist.
LEXIS 44226, 2015 WL 1529824, at *16, Defendants are
likely to “feel the impact of this issue at trial in any event,
even without an adverse inference,” id. Nonetheless,
“[t]he sanction of an adverse inference may be appropriate
in some cases involving the negligent destruction of
evidence because each party should bear the risk of its
own negligence.” Residential Funding Corp., 306 F.3d at
108; see also Linde v. Arab Bank, PLC, 269 F.R.D. 186,
204 (E.D.N.Y. 2010) (precluding evidence); Zubulake, 229
F.R.D. at 436-37 (giving an adverse inference instruction
for willful destruction of emails).
The Court finds such a limited sanction justified
here. While, as noted above, there is sufficient evidence
of bad faith to justify an adverse inference sanction, even
if Defendants were only grossly negligent, such conduct
is sufficient for the imposition of an adverse inference
sanction. See Reilly v. Natwest Markets Grp. Inc., 181 F.3d
253, 268-69 (2d Cir. 1999) (noting that adverse inference

285a
Appendix C
and issue preclusion are appropriate sanctions for gross
negligence, even when there is no evidence of bad faith or
willfulness); Augstein v. Leslie, No. 11-CV-7512, 2012 U.S.
Dist. LEXIS 149517, 2012 WL 4928914, at *5-6 (S.D.N.Y.
Oct. 17, 2012) (imposing adverse inference sanction due
to “at least negligent” destruction of hard drive); Chan,
2005 U.S. Dist. LEXIS 16520, 2005 WL 1925579, at *7 (“A
showing of gross negligence is plainly enough to justify
sanctions at least as serious as an adverse inference.”);
Shaffer v. RWP Grp., Inc., 169 F.R.D. 19, 26 (E.D.N.Y.
1996) (providing adverse inference sanction where
the defendants destroyed document without finding of
willfulness or bad faith). Because Defendants concealed—
and failed to disclose—the relevant Facebook post and
potentially a portion of the accompanying text messages,
the jury will be instructed that it may infer that the
contents of the Facebook Post indicated discriminatory
animus towards the Hasidic Jewish population. Defendants
also will be precluded from offering evidence to rebut that
specific inference, though they can still present evidence
to indicate that the Challenged Laws were not adopted
for discriminatory reasons.
These sanctions are sufficient, as they give Plaintiffs
the most powerful inference the jury could draw from
the spoliated evidence, w ithout rebuttal, thereby
serving the remedial, punitive, and deterrent purposes
of sanctions. See Kronisch, 150 F.3d at 126 (providing
adverse presumption instruction); Daval Steel Prods. v
M/V Fakredine, 951 F.2d 1357, 1366 (2d Cir. 1991) (barring
party from presenting evidence opposing claim at issue).
Any greater sanction (with the exception of an award of

286a
Appendix C
fees, as discussed below)—for example, precluding any
evidence on discriminatory animus of the Challenged Laws
at all—would be functionally equivalent to a terminating
sanction in this case, as discriminatory animus is one of
the critical factual contentions at issue, and therefore
would be “[in]congruent with the [Defendants’] degree
of culpability.” See Richard Green (Fine Paintings) v.
McClendon, 262 F.R.D. 284, 288 (S.D.N.Y. 2009); cf. West,
167 F.3d at 780 (suggesting sanctions but leaving their
precise form “to the sound discretion” of the district
judge on remand). Indeed, because the portions of the text
messages have “permit[ted] [Plaintiffs] to determine the
substance of the” deleted post, see Miller v. Time-Warner
Commc’ns. Inc., No. 07-CV-7286, 1999 U.S. Dist. LEXIS
14512, 1999 WL 749528, at *2 (S.D.N.Y. Sept. 22, 1999)
(noting that the moving party was not prejudiced because
it could determine the substance of an erased writing),
an adverse inference instruction is sufficient to address
any prejudice.
Plaintiffs’ request for attorneys’ fees and costs is also
warranted. Attorneys’ fees and costs “may be appropriate
to punish the offending party for its actions or to deter
the litigant’s conduct, sending the message that egregious
conduct will not be tolerated.” Doe v. Norwalk Community
Coll., 248 F.R.D. 372, 381 (D. Conn. 2007) (brackets and
internal quotation marks omitted). Because Defendants
appear to have acted in bad faith, the Court awards
Plaintiffs the attorneys’ fees incurred in connection with
its Motion for Sanctions. See Dorchester Fin. Holdings
Corp. v. Banco BRJ S.A., 304 F.R.D. 178, 185 (S.D.N.Y.
2014) (“To fully correct the prejudice to [the defendant]

287a
Appendix C
from [the plaintiff’s] spoliation, the [c]ourt also orders [the
defendant] to pay [the plaintiff’s] reasonable attorney’s fees
and costs in connection with this spoliation dispute.”). 29
3. 	Plaintiffs’ Rule 56.1 Statements
Local Rules 56.1(a) and (d) require that a moving party
file “a separate, short[,] and concise statement . . . of the
material facts to which the moving party contends there
is no genuine issue to be tried,” “followed by citation to
evidence.” The purpose of these rules is “to streamline
the consideration of summary judgment motions by
freeing district courts from the need to hunt through
voluminous records without guidance from the parties.”
Holtz v. Rockefeller & Co., Inc., 258 F.3d 62, 74 (2d Cir.
2001). Accordingly, a Rule 56.1 statement “is not itself a
vehicle for making factual assertions that are otherwise
unsupported in the record.” Id. For that reason, “where
the record does not support the assertions in a Local
56.1 statement, those assertions [are] disregarded and
the record reviewed independently.” Id.; see also Baity
v. Kralik, 51 F. Supp. 3d 414, 419 (S.D.N.Y. 2014) (finding
statements “lack[ing] citations to admissible evidence”
to violate Local Rule 56.1 and Federal Rule of Civil
Procedure 56); 51 F. Supp. 3d 414, id. at *3 (disregarding
facts “not supported by citations to admissible evidence
in the record”). Similarly, the Court can also disregard
legal conclusions or unsubstantiated opinions in a
Local Rule 56.1 statement. See Am Gen. Life Ins. Co.
29. Plaintiffs have until October 31, 2015 to submit evidence of
the attorneys’ fees they seek. Defendants will have two weeks from
the date of Plaintiffs’ submission to respond.

288a
Appendix C
v. Diana Spira 2005 Irrevocable Life Ins. Trust, No.
08-CV-6843, 2014 U.S. Dist. LEXIS 165367, 2014 WL
6694502, at *1 (S.D.N.Y. Nov. 25, 2014) (“The Court grants
[the [plaintiff’s] motion to strike as to argumentative
statements in the [56.1 statement] and as to purported
factual statements which are unsupported by any citation
to the record.”); Epstein v. Kemper Ins. Co., 210 F. Supp.
2d 308, 314 (S.D.N.Y. 2012) (“Statements in an affidavit
or Rule 56.1 statement are inappropriate if they are
not based on personal knowledge, contain inadmissible
hearsay, are conclusory or argumentative, or do not cite
to supporting evidence.”); Simmons v. Woodycrest Ctr.
For Human Dev., Inc., No. 10-CV-5193, 2011 U.S. Dist.
LEXIS 24513, 2011 WL 855942, at *1 n.1 (S.D.N.Y. Mar.
8, 2011) (disregarding portions of the defendants’ Rule
56.1 statement consisting of legal conclusions or “gross
distortions of the summary judgment record”).
Defendants devote nearly half of their Opposition
to the contention that Plaintiffs’ Rule 56.1 Statements
should be stricken or disregarded. Among other things,
Defendants contend that Plaintiffs’ 56.1 Statements are
“nothing short of abusive” and consist of a “voluminous
compendium of assertions, accompanied by opinion-laden
declarations, that read[] more like a complaint, containing
allegations, mischaracterizations, opinions[,] and legal
conclusions.” (Defs.’ Opp’n 3.) Indeed, Defendants suggest
that Plaintiffs filed their lengthy Rule 56.1 Statements
intentionally, using their allegedly deep coffers to “outlast”
the Village. (See Defs.’ Opp’n 4 (citing Savad Decl. Ex.
31(C. Babad Dep. Tr.) 107).) Defendants ask that the Court
“us[e] its discretion to strike Plaintiffs’ Statement[s] of

289a
Appendix C
Facts in [their] entirety or, alternatively, consider[] only
those paragraphs containing truly undisputed facts, as
contemplated by the Local Rules and the well-developed
body of case law.” (Id. at 5.) The Court will take up each
of the flaws that Defendants identify in Plaintiffs’ Rule
56.1 Statements in turn.
First, Defendants are correct that Plaintiffs’ Rule
56.1 Statements are certainly not “short and concise.” As
Defendants point out, Plaintiffs’ main Rule 56.1 Statement
is 998 paragraphs long and is supported by 11 declarations
and 370 exhibits. (Id. at 1.) Plaintiffs also submitted a
Supplemental Rule 56.1 Statement at the end of their
Counter Rule 56.1 Statement, sporting an additional 43
paragraphs (one of which contains 31 subparagraphs) and
88 additional exhibits. (See Pls.’ Counter 56.1; Decl. of Paul
Savad in Opp’n to Defs.’ Mot. for Summ. J. (Dkt. No. 169).)
Plaintiffs’ prolixity is therefore pronounced, and worsened
by redundancy; many of the paragraphs in Plaintiff’s Rule
56.1 Statements are repetitive, some to the point that they
are nearly identical to paragraphs that precede them.
(Compare, e.g., Pls.’ 56.1 ¶ 489 (“Housing is required for
the rabbinical college use.”) with id. ¶ 492 (“Providing
housing on campus is critical to the success of the proposed
rabbinical college program.”); id. ¶ 50 (“A backlog of
cases often forces Orthodox Jews involved in disputes
to go to secular courts.”) with id. ¶ 631 (“The backlog
in religious courts forces Orthodox and Hasidic Jews to
go to secular courts.”)). Moreover, Plaintiffs’ Rule 56.1
Statements should likely have included more paragraphs,
as Defendants are correct that some paragraphs contain
multiple factual assertions, which appears to violate the

290a
Appendix C
spirit, if not the explicit text, of Local Rule 56.1. (See,
e.g., ¶ 140 (“The Village rushed Local Law 5 through
the legislative process and failed to comply with many
required formalities. The resolution passing Local Law 5
of 2004 did not contain a SEQRA resolution. There were
no studies for Local Law 5 of 2004. The Village does not
have any records to suggest that there was a New York
General Municipal Law review of Local Law 5 of 2004.”
(citations omitted)).) Defendants are also correct that
some of the statements appear malformed such that they
are difficult to understand, (see, e.g., id. ¶¶ 342 (“Rita
Louie, Nick Sanderson”), 384 (“This was done despite
the Village’s knowledge of RLUIPA, since at least 2004
and was proposed by the Village Board one month after
Tartikov was first mentioned RLUIPA at January,
2007 meeting.”), whereas others appear to still contain
drafting notes, (see, e.g., ¶ 641 (containing, as explanatory
parentheticals, “good quotes re: serving god,” “would take
50 years currently,” and “don’t live forever”)).
Of course, Plaintiffs are correct that the mere fact that
a Local Rule 56.1 statement is lengthy does not render it
in violation of the Rule, see, e.g., Capitol Records, LLC
v. Vimeo, LLC, 972 F. Supp. 2d 500, 509 (S.D.N.Y. 2013)
(denying motion to strike and finding that a “ninety-page,
403-paragraph 56.1 statement” was not “unduly lengthy
in light of the numerous an complex issues raised . . . and
the large body of evidence”), and they attempt to justify
the length of their Rule 56.1 Statements on the basis of
the volume of discovery and, in particular, “Defendants’
‘kitchen sink’ approach” represented by their summary
judgment Motion on all fourteen of Plaintiffs’ causes

291a
Appendix C
of action. (Reply Mem. of Law in Supp. of Pls.’ Mot. for
Summ. J. (“Pls.’ Reply”) 7 (Dkt. No. 190).) Even in light
of those considerations, Plaintiffs’ Rule 56.1 Statements
are unnecessarily lengthy, due especially to the inclusion
of redundant or incomprehensible facts, as discussed
above. The Court will disregard all such repetitive or
incomprehensible statements but notes that doing so does
not alter the Court’s evaluation of the pending Motions. Cf.
UPS Store, Inc. v. Hagan, 99 F. Supp. 3d 426, 2015 U.S.
Dist. LEXIS 36971, 2015 WL 1456654, at *1-*2 (S.D.N.Y.
Mar. 24, 2015) (noting that Local Rule 56.1 is designed to
“fashion a pragmatic solution aimed at advancing [the]
litigation”).
Second, Defendants contend that Plaintiffs’ Rule
56.1 Statements are “composed primarily of assertions
that are neither relevant nor material to Plaintiffs’
summary judgment motion.” (Defs. Opp’n 7.) Certainly,
“[f]actual disputes which are irrelevant or unnecessary”
to the claims at issue “will not be counted.” Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248, 106 S. Ct. 2505,
91 L. Ed. 2d 202 (1986). Defendants contend that because
Plaintiffs’ facial challenges, by definition, do not address
the application of the Challenged Laws to Plaintiffs
specifically, but rather look to the legality of the local laws
themselves, “[h]undreds of . . . paragraphs [that] contain
statements that relate specifically to Plaintiffs’ religious
practices or the hypothetical development they have
broadly outlined” should be disregarded. (Defs.’ Opp’n
8-9.) As discussed in the next section, the Court finds that
a least some of these factual statements—particularly as
they relate to Plaintiffs’ plans for the rabbinical college

292a
Appendix C
and its relationship to Plaintiffs’ religious beliefs—are
relevant to Plaintiffs’ facial claims. The Court therefore
declines to make a blanket ruling on the relevance of
Plaintiffs’ Rule 56.1 Statements, although it will, as a
matter of course, not consider irrelevant facts because
they are, by nature, not pertinent to the case.
T h i r d , D efend a nt s cont end t h at Pl a i nt i f fs’
Rule 56.1 Statements are “replete with argument,
mischaracterizations[,] [and/]or opinions to which
Plaintiffs cannot reasonably have expected Defendants to
agree.” (Id. at 9.) Defendants cite a list of facts Plaintiffs
represented as undisputed, many of which, the Court
agrees, are clearly in dispute. (See, e.g., Pls.’ 56.1 ¶¶ 580
(“The Village prohibits Plaintiffs’ religious land use . . . by
right or by special permit within its jurisdiction.”), 972
(“Existing Village regulations sufficiently protect the
Village’s interest in the water supply.”).) The Court will
not consider these facts as undisputed, though it declines
to outline specifically which paragraphs are implicated
because Defendants have indicated their opposition to
them in their Counter Rule 56.1 Statements, meaning they
are, for purposes of the instant motion, disputed.
Fourth, Defendants contend that Plaintiffs’ Rule
56.1 Statements contain improper legal conclusions. The
Court agrees. (See, e.g., Pls.’ 56.1 ¶¶ 483 (“The Village
is a ‘jurisdiction,’ and both the Village and the Board of
Trustees are ‘governments’ under RLUIPA.”); 526 (“Shuls,
libraries, courtrooms, and classrooms constitute religious
exercise and religious land use.” (italics omitted)).) Even
some of the headings to sections of Plaintiffs’ Rule 56.1

293a
Appendix C
Statements contain impermissible argument or legal
conclusion. (See, e.g., id. at 40 (“The Village’s Targeting of
Orthodox/Hasidic Jews and Their Property.”).) As noted
above, the Court will disregard such statements.
Fifth, Defendants contend that certain statements do
not support the propositions for which they are asserted.
The Court agrees that, in some circumstances, Plaintiffs’
claims are not supported by the evidence cited, (see, e.g.,
id. ¶ 501 (asserting that Defendants have “no facts to
indicate that Plaintiffs’ religious beliefs concerning the
need to live with their families are not sincere,” citing
pages of an exhibit that do not exist); id. ¶ 793 (asserting
that Defendants had “no studies or reports demonstrating
a need for laws regulating educational institutions in
order to protect its traffic interests” and incorrectly citing
Savad Declaration Exhibit 312 rather than Exhibit 310
for this proposition, the latter of which only indicates that
Defendant had no “formal studies or reports establishing
a need for controlling traffic” at the time) (emphasis
added)), or are not accompanied by citations to evidence at
all, (see, e.g., id. ¶ 269 (containing no citation to the record
to support assertions about the campaign for the Village
Board of Trustees)). However, as noted above, and as with
any other disputed statements of material fact, the Court
will consider the sources for the claims made in dueling
Rule 56.1 Statements when they are disputed, rather than
rely on the Rule 56.1 Statements themselves, so there is no
need to separately strike or disregard these statements.
Overall, Defendants claim that the infirmities in
Plaintiff’s Rule 56.1 Statements have “prejudiced” them

294a
Appendix C
because they have had to “expend countless hours and
considerable sums in order to fashion and appropriate
response,” including “verify[ing] each and every one of
the 998 ‘facts’ asserted.” (Defs’ Opp’n 11-12.) Defendants
accordingly ask that the Court strike or disregard the
entirety of Plaintiffs’ Rule 56.1 Statements or, at least,
“only consider those assertions that are properly included
pursuant to Local Rule 56.1(a).” (Id. at 12.)
The Court is sympathetic to Defendants’ concerns.
Plaintiffs’ Rule 56.1 Statements are redundant and
contrary to the letter and spirit of Local Rule 56.1. Further,
Plaintiffs make little attempt to justify the length of their
Rule 56.1 Statements or to respond to the other infirmities
Defendants identified, except as already explained
above. (Pls.’ Reply 6-9.) Rather, Plaintiffs argue that the
remedy is “not . . . to strike the statement, but to simply
disregard the faulty sections.” (Pls.’ Reply 18 (citing, inter
alia, Ross Univ. Sch. of Med., Ltd. v. Brooklyn-Queens
Health Care, Inc., No. 09-CV-1410, 2012 U.S. Dist. LEXIS
174295, 2012 WL 6091570, at *6 (E.D.N.Y. Dec. 7, 2012),
adopted in part by 2013 U.S. Dist. LEXIS 45949, 2013 WL
1334271 (E.D.N.Y. Mar. 28, 2013)).) The Court agrees that
Defendants’ proposed sanction is too severe. Accordingly,
the Court will, as outlined above, disregard the portions
of Plaintiffs’ Rule 56.1 Statements that are not compliant
with Local Rule 56.1. The Court also denies Defendants’
request for attorneys’ fees, which is only made in passing
in a footnote, (see Defs.’ Opp’n. 5 n.10), because the Court
finds that Plaintiffs’ transgressions are relatively minor. 30
30. There is also a unique issue with Plaintiffs’ Supplemental
Rule 56.1 Statement, namely that it references a large number
of statements posted anonymously on websites and blogs. (See

295a
Appendix C
4.

Admissibility of Declarations
a. 	Legal Standard for Expert Opinions

Defendants lodge several specific challenges to
Plaintiffs’ experts. They contend that “[a]ll but one of
Plaintiffs’ expert declarations should be stricken in their
entirety, or the indicated portions disregarded, and the
corresponding Statement of Fact paragraphs disregarded
as well.” (Defs.’ Opp’n 12.)
An expert may offer testimony to assist the factfinder
in “understand[ing] unfamiliar terms and concepts.”
United States v. Bilzerian, 926 F.2d 1285, 1294 (2d Cir.
1991). 31 Federal Rule of Evidence 702 provides that a
Pls.’ Counter 56.1 97-110 (Pls.’ Suppl. Statement of Facts (“Pls.’
Suppl. 56.1”)) ¶ 4.) Because the speaker in each of those anonymous
statements is unidentifiable, it is not clear if the statements at
issue can be traced to anyone affiliated with the Village. The Court
therefore finds them irrelevant and will disregard them.
Additionally, in their Reply, Plaintiffs argue that Defendants
did not meet their “obligations” in opposing Plaintiffs’ Rule 56.1
Statements, such that large portions of it should be deemed admitted.
(Pls.’ Reply 4.) Plaintiffs fault Defendants for “reciting verbatim the
evidence already relied upon by Plaintiffs and/or recharacterizing or
restating the cited evidence, including adding irrelevant facts or legal
arguments.” (Id.) While Defendants are under no obligation to cite
different evidence in support of their counter-statements—indeed,
they may simply maintain that the evidence cited by Plaintiffs does
not support the proposition in the statement at issue—the Court, as
discussed below, will discount any statements it deems irrelevant or
that constitute legal argument.

31. For example, an expert may testify about the relevant
statutory or regulatory framework. See, e.g., Bilzerian, 926 F.2d at

296a
Appendix C
witness qualified as an expert may only provide such
testimony if
(a) the expert’s scientific, technical, or other
specialized knowledge will help the trier of
fact to understand the evidence to determine
a fact in issue;
(b) the testimony is based on sufficient facts
or data;
(c) ) the testimony is the product of reliable
principles and methods; and
(d) the expert has reliably applied the principles
and methods to the facts of the case.
The proponent of expert testimony has the burden
of establishing these elements by a preponderance of the
evidence. See United States v. Cruz, 363 F.3d 187, 192
(2d Cir. 2004). The district court must “ensure[] that an
expert’s testimony both rests on a reliable foundation and
is relevant to the task at hand,” Daubert v. Merrell Dow
Pharms., 509 U.S. 579, 600, 113 S. Ct. 2786, 125 L. Ed. 2d
469 (1993), by applying the elements of Rule 702, as well
as the relevance standard in Rule 401, see Amorgianos
v. Amtrak, 303 F.3d 256, 265 (2d Cir. 2002) (“In fulfilling
this gatekeeping role, the trial court should look to the
standards or Rule 401 in analyzing whether proffered
1294-95 (assisting with federal securities regulation); In re Fosamax
Prods. Liab. Litig., 645 F. Supp. 2d 164, 190-91 (S.D.N.Y. 2009)
(assisting with FDA regulations).

297a
Appendix C
expert testimony is relevant . . . . and whether the
proffered testimony has a sufficiently reliable foundation
to permit it to be considered.” (internal quotation marks
omitted)).
“Rule 26 of the Federal Rules of Civil Procedure
requires all expert witnesses to submit a written report
that includes a complete statement of all opinions the
witness will express[,] the basis and reasons for them[,]
[and] the facts or data considered by the witness in
forming them.” Morritt v. Stryker Corp., No. 07-CV2319, 2011 U.S. Dist. LEXIS 98218, 2011 WL 3876960,
at *5 (E.D.N.Y. Sept. 1, 2011) (internal quotation marks
omitted). Further, Rule 37(c)(1) “provides that a party who
fails to provide information required by Rule 26(a) is not
permitted to use that information . . . to supply evidence
on a motion . . . unless the failure was substantially
justified or . . . harmless.” Id.; see also Commercial Data
Servers., Inc. v. IBM, 262 F. Supp. 2d 50, 61 (S.D.N.Y.
2003) (“[A] party that without substantial justification
fails to disclose information required by Rule 26(a) . . . is
not, unless such failure is harmless, permitted to use as
evidence . . . . on a motion any witness or information not
so disclosed.”). Such a prohibition does not extend to new
facts and “evidentiary details.” See Cedar Petrochem.,
Inc. v. Dongbu Hannong Chem. Co., Ltd., 769 F. Supp. 2d
269, 279 (S.D.N.Y. 2011). Accordingly, if a party fails to
offer a satisfactory reason for failing to comply with Rule
26, that fact “weighs very strongly in favor of preclusion.”
Morritt, 2011 U.S. Dist. LEXIS 98218, 2011 WL 3876960,
at *6; see also Prendergast v. Hobart Corp., No. 04-CV5134, 2010 U.S. Dist. LEXIS 82077, 2010 WL 3199699, at

298a
Appendix C
*5 (E.D.N.Y. Aug. 12, 2010) (finding that the “[p]laintiff
had ample time for expert discovery in this case and has
provided no justification for her failure to disclose the
opinions in [the expert’s] affidavit with his expert report
or during his deposition,” and that “[t]he opinions set forth
for the first time in [the expert’s] affidavit are therefore
properly stricken on this ground alone.”).
“Because the purpose of summary judgment is to
weed out cases in which there is no genuine issue as to
any material fact and . . . the moving party is entitled to a
judgment as a matter of law, it is appropriate for district
courts to decide questions regarding the admissibility
of evidence on summary judgment,” where the Court
must exercise this “gatekeeper” role. Raskin v. Wyatt
Co., 125 F.3d 55, 66 (2d Cir. 1997) (citations, footnotes,
and internal quotation marks omitted). “Districts courts
have broad discretion in determining how to ascertain
whether proffered expert testimony is admissible.” Berk
v. St. Vincent’s Hosp. and Medical Ctr., 380 F. Supp. 2d
334, 351 (S.D.N.Y. 2005). Nonetheless, excluding expert
testimony is a “drastic remedy,” RMED Int’l, Inc. v.
Sloan’s Supermarkets, Inc., No. 94-CV-5587, 2002 U.S.
Dist. LEXIS 23829, 2002 WL 31780188, at *3 (S.D.N.Y.
Dec. 11, 2002), and should be used sparingly, “even when
there has not been strict compliance with Rule 26,”
because exclusion “may at times tend to frustrate the
Federal Rules’ overarching objective of doing substantial
justice to litigants.” Scientific Components Corp. v.
Sirenza Microdevices, Inc., No. 03-CV-1851, 2008 U.S.
Dist. LEXIS 92703, 2008 WL 4911440, at *4 (E.D.N.Y.
Nov. 13, 2008).

299a
Appendix C
b.

Application to Experts

Defendants first contend that the declarations
prepared by Plaintiffs’ Wetlands, Traffic, Planning, and
Architecture Experts—Barbara Beall (“Beall”), William
Fitzpatrick (“Fitzpatrick”), Alan Weinstein (“Weinstein),
and Susannah Drake (“Drake”)—should be stricken
because they are irrelevant to a facial challenge. (See
Defs.’ Opp’n 14.)
Before proceeding to the specific challenges to each
expert, two overall contentions are worth addressing.
First, as described in the next section, the Court finds
Defendants’ contention that the experts’ findings “would
only be relevant [to] an as-applied challenge,” (id.), to
be without merit. The effect of the Challenged Laws
on Plaintiffs is not only relevant to their discrimination
claims, but is also suggestive of the degree to which the
Challenged Laws may affect other religious groups. The
Court therefore denies Defendants’ relevance challenge. 32
Second, Defendants contend that the declarations at issue
contain opinions not disclosed in the expert reports, as
required by Rule 26. (See Defs.’ Opp’n 13-14.) In support of
this claim, Defendants only identify paragraphs which they
claim were not disclosed. Plaintiffs contest Defendants’
claim, arguing that “[e]ach opinion stated by the expert
witnesses was disclosed to the Defendants in either the
initial or rebuttal reports,” citing supporting evidence and
contending that some of the supposedly new opinions just
32. The same applies to Defendants’ relevance challenge to the
declarations of the individual Plaintiffs and that of Plaintiffs’ expert,
Steven H. Resnicoff, an expert in Jewish religion and law.

300a
Appendix C
contain new facts or elaborations on previously disclosed
opinions. (Pls.’ Reply 12-13 (citing Reply Decl. of Paul
Savad in Supp. of Pls.’ Mot. for Summ. J. (“Savad Reply
Decl.”) Ex. 417 (documenting disclosures) (Dkt. No. 191).)
The Court is satisfied that Plaintiffs disclosed the reports
at issue and therefore denies Defendants’ Rule-26-based
challenge. (See, e.g., Beall Decl. ¶¶ 16, 19 (discussing,
in paragraph 19, Ulman’s statement that there may be
another lot in the Village that is larger than 10 acres,
which is an elaboration on Beall’s previously-disclosed
opinion, embodied in paragraph 16, that “there are no
other available vacant lots within the Village of Pomona
that could support an educational institution besides the
Subject [Property]”).)
Regarding specific expert opinions, Defendants first
challenge the Beall Declaration, Plaintiffs’ wetlands
expert, on a few grounds. First, Defendant contends that
Beall discusses matters beyond her expertise, including
“the Village’s Master Plan, the utility of the SEQRA
process, and the Village’s laws related to Educational
Institutions and Dormitories.” (Defs.’ Opp’n 15 (citations
omitted).) While Defendants’ discussion of this issue is
rather flippant, the Court agrees that Beall does, at times,
venture past her area of expertise in her declaration. (See,
e.g., Beall Decl. ¶ 231 (declaring that “automotive repair
schools [and] driving schools . . . . can be accredited by
various accrediting bodies”). The Court will disregard
those statements in considering the pending Motions for
Summary Judgment, without prejudice to Defendants’
renewing their Motion to Strike. See Takeda Chem.
Industr., Ltd. v. Mylan Labs., Inc., Nos. 03-CV-8253

301a
Appendix C
et al., 2006 U.S. Dist. LEXIS 278, 2006 WL 44053, at
*2 (S.D.N.Y. Jan. 9, 2006) (striking portions of expert’s
opinion that “fall far outside the realm” of his “area of
. . . expertise”).
Second, Defendants contend that Beall improperly
offers “legal conclusions and policy analysis.” (Defs.’
Opp’n 16.). The Court is not convinced that Beall cannot
engage in “policy analysis” related to wetlands use, nor
does the mere use of legal jargon, or reference to laws
that govern wetlands use, render an opinion a “legal
conclusion.” Therefore, the vast majority of Beall’s
opinions are admissible. However, the Court will exclude
any statements that cross the line from policy analysis to
pure legal conclusions, such as when Beall only interprets
the applicable law itself. (See, e.g., Beall Decl. ¶¶ 113-122
(stating, and explaining, legal conclusion that the Wetlands
Law was not necessary for the Village to comply with
federal or statute statutory requirements); ¶ 257 (“The
Village has the authority to complete an EIS review under
SEQRA for an educational institutional project.”).) See
Jones v. Midland Funding, LLC, 616 F. Supp. 2d 224,
227 (D. Conn. 2009) (“An expert should not be permitted
to express an opinion that is merely an interpretation of
federal statutes or regulations, as that is the sole province
of the [c]ourt.” (brackets and internal quotation marks
omitted)). This holding is again without prejudice to
Defendants’ renewing their Motion To Strike.
Third, Defendants contend that the Beall Declaration
“should be stricken or disregarded in substantial part
because it is based on speculation and/or lacks any reliable

302a
Appendix C
methodology.” (Defs.’ Opp’n 16.) Defendants allege, more
specifically, that Beall “makes sweeping statements with
little or no support,” and “purports to apply methodologies
that are unreliable at best,” e.g., identifying wetlands by
looking at aerial photos and maps. (Defs.’ Opp’n 17.) While
the Court will consider the evidence cited—which properly
may, as Plaintiffs point out, be personal knowledge,
(see Pls.’ Reply 11); see also Kumho Tire Co., Ltd. v.
Carmichael, 526 U.S. 137, 150, 119 S. Ct. 1167, 143 L. Ed.
2d 238 (1999) (noting that expert testimony may be based
on “personal knowledge or experience”)—to assess the
probative value of Beall’s testimony, Defendants’ fleeting
challenge to Beall’s conclusions and methodology, without
evidence or support for that challenge beyond citation
to a couple of paragraphs in the Beall Declaration, is
unsubstantiated. See Teva Pharmaceuticals USA, Inc.
v. Sandoz, Inc., 749 F. Supp. 2d 130, 132 (S.D.N.Y. 2010)
(denying motion for summary judgment in part because
challenge to expert’s methods consisted of “nothing
more than attorney argument,” and the “[d]efendants
did not offer the opinion of a single expert discrediting or
casting doubt on [the expert’s] methodology”). Further,
given Beall has identified support for her conclusions
throughout her report, the Court finds that her opinions
are admissible, and that Defendants’ objections, at best,
go to weight. See Amorgianos, 303 F.3d at 267 (“Where
an expert otherwise reliably utilizes ... methods to reach
a conclusion, lack of textual support may go to the weight,
not the admissibility[,] of the expert’s testimony.”);
Cohalan v. Genie Indus., Inc., No. 10-CV-2415, 2013 U.S.
Dist. LEXIS 28532, 2013 WL 829150, at *5 (S.D.N.Y. Mar.
1, 2013) (“’Disputes as to the strength of [an expert’s]

303a
Appendix C
credentials, faults in his use of different etiology as a
methodology, or lack of textual authority for his opinion,
go to the weight, not the admissibility of his testimony.’”
(quoting McCullock v. H.B. Fuller Co., 61 F.3d 1038, 1044
(2d Cir.1995))); Quiles v. Bradford—White Corp., No. 10CV-0747, 2012 U.S. Dist. LEXIS 54662, 2012 WL 1355262,
at *3 (N.D.N.Y. Apr. 18, 2012) (“’[G]aps or inconsistencies’
in an expert’s reasoning, or arguments that an expert’s
conclusions are wrong, ‘go to the weight of the evidence,
not to its admissibility.’”) (quoting Campbell v. Metro.
Prop. and Cas. Ins. Co., 239 F.3d 179, 186 (2d Cir. 2001));
CIT Group/Bus. Credit, Inc. v. Graco Fishing and Rental
Tools, Inc., 815 F. Supp. 2d 673, 676 (S.D.N.Y. 2011)
(“Questions about the . . . sufficiency of the evidence upon
which the expert relied . . . are for cross-examination.”);
see also MBIA Ins. Corp. v. Patriarch Partners VIII, LLC,
No. 09-CV-3255, 2012 U.S. Dist. LEXIS 92435, 2012 WL
2568972, at * 15 (S.D.N.Y. July 3, 2012) (“Indeed, most
objections to expert testimony are related only to the
weight of the evidence, not its admissibility.”). Accordingly,
Defendants’ Motion to Strike the Beall Declaration is
denied in its entirety without prejudice.
Defendants next challenge the Declaration of
Fitzpatrick, Plaintiffs’ traff ic expert. According
to Defendants, Fitzpatrick’s opinions are “entirely
unsupported” because Plaintiffs’ rabbinical college is
hypothetical, and because Plaintiffs “have not provided
any site plans, estimated traffic volumes, attendance or
population estimates[,] or any other information that
might in some way substantiate his analysis.” (Defs.’ Opp’n
17.) Defendants provide no support for the contention that

304a
Appendix C
Fitzpatrick is required to rely on previously provided
reports on traffic volumes and population estimates, nor do
they levy specific challenges to the particular conclusion
that Fitzpatrick draws. See Astra Aktiebolag v. Andrx
Pharms., Inc., 222 F. Supp. 2d 423, 491 (S.D.N.Y. 2002)
(denying motion to strike portions of expert’s testimony
and report because “[p]ursuant to Rule 703, an expert
may rely on any facts or data ‘of a type reasonably relied
upon by experts in the particular field,’ including facts,
data, and opinions that are otherwise inadmissible.
There is no requirement that an expert must run his own
tests.”). Moreover, Fitzpatrick’s opinions appear to be,
for the most part, supported. (See, e.g., Decl. of William
D. Fitzpatrick ¶¶ 35 (citing aerial view of intersection
in support of its description), 49 (noting that “the basis
in professional traffic engineering for estimating traffic
generation for a site . . . is the proper application of the
Institute of Transportation Engineering (ITS) published
database”), 54 (describing ITS database methodology);
120-173 (describing University/College ITS database
reference, and assessing traffic impact under a variety of
conditions) (Dkt. No. 152).) The Court accordingly denies
Defendants’ Motion to Strike the Fitzpatrick Declaration,
without prejudice.
Defendants also challenge the Declaration of
Weinstein, Plaintiffs’ planning expert, “because it
contains conclusions of law, conclusory expert opinions
not supported by appropriate evidence, expert opinions
not previously disclosed . . . . , and opinions not relevant to
a facial challenge.” (Defs.’ Mem. 18) The Court agrees in
part. While the Court finds that Weinstein’s opinions were

305a
Appendix C
previously disclosed, even if they have changed slightly
from their initial form, (see Defs.’ Opp’n Ex. D (noting, for
example, that Weinstein’s initial expert report indicated
that 38 New York jurisdictions have an accreditation
requirement, and that Weinstein’s Declaration changed
that number to five); see also Newell Puerto Rico, Ltd. v.
Rubbermaid Inc., 20 F.3d 15, 22 (1st Cir. 1994) (finding that
“[i]t is not unusual for experts to make changes in their
opinions and revise their analyses and reports frequently
in preparation for, and sometimes even during, a trial”),
and that, as discussed below, Weinstein’s opinions that are
specific to the proposed rabbinical college are still relevant
to Plaintiffs’ facial challenge, (see, e.g., Decl. of Alan C.
Weinstein ¶ 34 (Dkt. No. 143) (noting that dormitory space
is especially important for the proposed rabbinical college
because “of the length of the program of instruction”),
the declaration does contain several unsupported
opinions and improper legal conclusions. For example,
with respect to the former, Weinstein’s discussion of the
proposed rabbinical college’s “focused curriculum and
mode of instruction” only cites unidentified “information
. . . received from Michael Tauber.” (Id. ¶ 29). With respect
to legal conclusions, Weinstein improperly determines
that the Challenged Laws prohibit the construction of a
rabbinical college, (see, e.g., id. ¶ 10 (concluding that the
Accreditation Law “totally exclude[s]” “an unaccredited
[r]abbinical [c]ollege”)) and defines an “accessory use” as
“one that is subordinate and incidental to the primary
use,” (id. ¶ 50). The Court will disregard such unsupported
statements or legal conclusions. Once again, this ruling is
without prejudice to Defendants’ renewing their Motion
to Strike.

306a
Appendix C
Defendants also challenge the Declaration of Drake,
Plaintiffs’ Architecture expert, arguing that it “fails to
meet the required evidentiary standards under Daubert.”
(Defs.’ Mem. 19.) Defendants specifically contend that the
Drake Declaration “gives no indication that [Drake] has
ever had any experience . . . with a rabbinical college, a
Torah Community, or, for that matter, any type of religious
institution of higher education,” and that she also “has
no idea of the nature, size, shape, capacity[,] or intended
location of any of the structure that Plaintiffs intend to
build at the subject site,” and if the proposed rabbinical
college is at all comparable to the universities she uses as
comparators. (Id. at 20-21.) The Court disagrees. While
Defendants are correct that Drake has no information
about the exact plans for the rabbinical college, it is
entirely within the scope of her expertise to opine, based
on her knowledge of the field and her investigation of the
Subject Property, on ways in which the community impact
of a rabbinical college may be minimized. Indeed, two of
the paragraphs that Defendants specifically identify as
flawed proceed in precisely this way; Drake opines that a
rabbinical college can be built in a way that is sensitive to
the surrounding community, (see Declaration of Susannah
C. Drake ¶ 15 (Dkt. No. 154)), and provides examples
of how that can be achieved, e.g., by using building
materials that blend into the surrounding landscape, (see
id. ¶ 21). Accordingly, the Court will not strike the Drake
Declaration on this basis, without prejudice to Defendants’
renewing their Motion to Strike.

307a
Appendix C
c. 	Tauber Declaration
Relatedly, Defendants challenge the Declaration of
M. Tauber, “Tartikov’s principal,” on several grounds,
including relevance and the inclusion of opinion testimony,
information beyond Tauber’s personal knowledge, and
legal conclusions. (Defs.’ Mem. 22-23.) The same standards
with regard to legal conclusions and opinions apply to
his Declaration, and personal knowledge is required for
admissibility. See DiStiso v. Cook, 691 F.3d 226, 230 (2d
Cir. 2012) (“[W]here a party relies on affidavits . . . to
establish facts, the statements ‘must be made on personal
knowledge, set out facts that would be admissible in
evidence, and show that the affiant . . . is competent to
testify on the matters stated.’” (quoting Fed. R. Civ. P.
56(c)(4)) (citing Fed. R. Evid. 602)); Sellers v. M.C. Floor
Crafters, Inc,, 842 F.2d 639, 643 (2d Cir. 1988) (“Rule 56
requires a motion for summary judgment to be supported
with affidavits based on personal knowledge.”); Baity, 51
F. Supp. 3d at 419 (disregarding “statements not based
on [the] [p]laintiff’s personal knowledge”); Flaherty v.
Filardi, No. 03-CV-2167, 2007 U.S. Dist. LEXIS 4595,
2007 WL 163112, at *5 (S.D.N.Y. Jan. 24, 2007) (“The test
for admissibility is whether a reasonable trier of fact could
believe the witness had personal knowledge.” (internal
quotation marks omitted)).
While the relevance challenge is meritless for the
reasons discussed below, Defendant is correct that there
are inadmissible statements in the Tauber Declaration.
It contains statements that are unsupported by personal
knowledge, (see, e.g., Tauber Decl. ¶ 7 (Dkt. No. 148)

308a
Appendix C
(“Every student who will attend the [r]abbinical college is
compelled by his religious beliefs to pursue this study.”)),
statements that are unhelpful lay opinion, (see id. ¶ 14 (“I
know that there is a great shortage of qualified rabbinical
judges who can resolve issues according to the true
meaning of our religious laws.”), and statements that
are improper legal conclusions, (see id. ¶ 41 (explaining
that the process for “a zone/text amendment or variance
. . . is a long and discretionary process”)). The Court will
disregard such statements, but otherwise not strike the
Declaration. This ruling is, once again, without prejudice
to Defendants’ refiling their Motion to Strike.
5.

Governing Standards for a Facial Challenge

As the Court previously noted, “[f]acial invalidation
is, manifestly, strong medicine that has been employed
by [courts] sparingly and only as a last resort,” wherein
a plaintiff has a “heavy burden in advancing her claim.”
Nat’l Endowment for the Arts v. Finley, 524 U.S. 569,
580, 118 S. Ct. 2168, 141 L. Ed. 2d 500 (1998) (internal
quotation marks omitted); see also Cranley v. Nat’l Life
Ins. Co. of Vt., 318 F.3d 105, 110 (2d Cir. 2003) (“A plaintiff
making a facial claim faces an uphill battle because it is
difficult to demonstrate that the mere enactment of a
piece of legislation violates the plaintiff’s constitutional
rights.”). The oft-cited standard for facial challenges is
derived from dicta in United States v. Salerno, 481 U.S.
739, 107 S. Ct. 2095, 95 L. Ed. 2d 697 (1987), wherein
Chief Justice Rehnquist wrote that “the challenger must
establish that no set of circumstances exists under which
the [challenged law] would be valid.” Id. at 745. Defendants

309a
Appendix C
spill substantial ink pressing the Salerno formulation
in their briefing, arguing that Plaintiffs need to show
that the Challenged Laws are unconstitutional “in all
applications.” (Defs.’ Mem. 7; see also Defs.’ Opp’n 1 (“It
is well-established that the inquiry in a facial challenge,
as opposed to an as-applied challenge, is whether the
challenged provisions are ever capable of constitutional
application.”); id. at 8 (“Rather, the crux of the inquiry
in this straightforward facial challenge is whether the
challenged laws can ever be capable of constitutional
application.”). It is for this reason that Defendants
often contend that Plaintiffs’ “religious practices” and
“the specifications of their still-hypothetical rabbinical
college” are “immaterial and irrelevant,” (Defs.’ Opp’n 1;
see also id. at 9 (contending that facts about “Plaintiffs’
religious practices or the hypothetical development they
have broadly outlined” are “not relevant or material to
the discussion, which should focus on the circumstances
surrounding the consideration and passage of the Code
Provisions.”), arguing that facial challenges “do not take
into account the facts and circumstances of particular
plaintiffs,” (id. at 8). Defendants do recognize an exception
for facial challenges made pursuant to the Free Exercise
Clause, “when a facially neutral law targets a particular
religious entity,” (id. (citing, inter alia, Church of Lukumi
Babalu Aye, Inc. v. Hialeah, 508 U.S. 520, 544, 113 S. Ct.
2217, 124 L. Ed. 2d 472 (1993)), but they argue that such
exception does not apply in this case, (id.; see also id. at 24
(“The Lukami exception to the entrenched facial challenge
doctrine has no purchase [sic] in this case because none
of the challenged laws burden Plaintiffs’ hypothetical
plan and they do not burden other developers’ actions,
religious or not.”)).

310a
Appendix C
As this Court previously explained, Defendants are
correct that “[a] facial challenge is one that addresses
not the application of an ordinance to a particular set of
plaintiffs, but the legality of the ordinance itself.” Tartikov,
915 F. Supp. 2d at 611 (brackets, alterations, and internal
quotation marks omitted). And, despite criticism among
commentators and some courts, there is a substantial body
of case law that indicates the Salerno standard remains
controlling, at least insofar as the standard’s inverse is
true: a law must have a “plainly legitimate sweep” to be
constitutional. See, e.g., Wash. State Grange v. Wash. State
Republican Party, 552 U.S. 442, 449, 128 S. Ct. 1184,
170 L. Ed. 2d 151 (2008) (applying this standard); United
States v. Decastro, 682 F.3d 160, 168 (2d Cir. 2012) (noting
that a party making a facial challenge must show that “no
set of circumstances exists under which the statute would
be valid, i.e., that the law is unconstitutional in all of its
applications, or at least that it lacks a plainly legitimate
sweep” (internal quotation marks and brackets omitted));
see also United States v. Booker, 543 U.S. 220, 275, 125 S.
Ct. 738, 160 L. Ed. 2d 621 (2005) (“[I]t is abundantly clear
that the fact that a statute, or any provision of a statute,
is unconstitutional in a portion of its applications does not
render the statute or provision invalid . . . .”).
However, there are exceptions to the Salerno standard.
First, it plainly does not apply to First Amendment claims.
See United States v. Farhane, 634 F.3d 127, 138-39 (2d
Cir. 2011) (acknowledging that the Salerno standard is
not be applicable to First Amendment claims); Lerman,
232 F.3d at 144 (“Salerno, however, does not apply to
this case, in which the plaintiffs assert the violation of

311a
Appendix C
rights protected by the First Amendment.”); see also
Finley, 524 U.S. at 580 (“To prevail [on a facial challenge],
respondents must demonstrate a substantial risk that
application of the provision will lead to the suppression of
speech.”). Second, in its 2013 Opinion and Order, the Court
found that the Salerno line of cases is distinguishable
from the instant case because no case in the Salerno
line “involved allegations of discriminatory animus
grounded in race or religion.” Tartikov, 915 F. Supp. 2d
at 613 n.18. Thus, the Court noted that the Salerno test
would be met if the Challenged Laws violate Plaintiffs’
Equal Protection or Free Exercise rights because “a law
that violates the Equal Protection Clause or the Free
Exercise Clause will be invalid when applied under any
conceivable circumstance, even if it can be justified by a
conceivably benign motive.” Id.33 This ruling is law of the
33. The Court also found motive to be relevant to Plaintiffs’
facial challenges, which Defendants do not contest at this stage of
the litigation. See Tartikov, 915 F. Supp. 2d at 611-14; see also Santa
Fe Independent Sch. Distr. v. Doe, 530 U.S. 290, 317, 120 S. Ct.
2266, 147 L. Ed. 2d 295 (2000) (noting that it is proper for courts to
examine the purpose of a law when facially challenged); Meats, Inc.
v. Weiss, 294 F.3d 415, 425 (2d Cir. 2002) (same); cf. Gray v. City
of Valley Park, Mo., No. 07-CV-881, 2008 U.S. Dist. LEXIS 7238,
2008 WL 294294, at *19 n.26 (E.D. Mo. Jan. 31, 2008) (noting that a
facial challenge may be based on the theory that an ordinance was
“passed with discriminatory intent”); Nev. Fair Hous. Ctr., Inc.
v. Clark County, 565 F. Supp. 2d 1178, 1187 (D. Nev. 2008) (noting
that while “legislative motive is irrelevant to a facial challenge
. . . evidence of some intent to disadvantage a class of people makes
the determination of the basis for the overt disparate treatment
much easier”). But see Estvanko v. City of Perry, No. 09-CV-137,
2010 U.S. Dist. LEXIS 121599, 2010 WL 4812996, at *3 (M.D. Ga.
Nov. 17, 2010) (“When a facial challenge is made, the motive of the
drafters of the ordinance is irrelevant.”)

312a
Appendix C
case, see Brentwood Pain & Rehab. Servs., P.C. v. Allstate
Ins. Co., 508 F. Supp. 2d 278, 288 (S.D.N.Y. 2007) (citing
In re PCH Assoc., 949 F.2d 585, 592 (2d Cir. 1991)); see
also United States v. Plugh, 648 F.3d 118, 123 (2d Cir.
2011) (explaining that “[a]s a general matter . . . [a court
should] adhere to its own decision at an earlier stage of
the litigation” (internal quotation marks omitted)), and
Defendants have failed to point to any “extraordinary
circumstances” justifying its reconsideration, see N.
River Ins. Co. v. Phila. Reins. Corp., 63 F.3d 160, 165
(2d Cir. 1995) (noting that a court should be “loathe to
revisit an earlier decision in the absence of extraordinary
circumstances” (internal quotation marks omitted));
Bellezza v. Holland, No. 09-CV-8434, 2011 U.S. Dist.
LEXIS 76030, 2011 WL 2848141, at *3 (S.D.N.Y. July 12,
2011) (defining extraordinary circumstances as “cogent or
compelling reasons not to [follow the earlier decision], such
as an intervening change of controlling law, the availability
of new evidence, or the need to correct a clear error to
prevent manifest injustice” (internal quotation marks
omitted)). Further, there is ample precedent supporting
the Court’s ruling, including some cases suggesting that
Salerno is no longer the governing standard for facial
challenges at all. See City of Chicago v. Morales, 527
U.S. 41, 54 n.2, 119 S. Ct. 1849, 144 L. Ed. 2d 67 (1999)
(plurality opinion) (“To the extent we have articulated a
clear standard for facial challenges, it is not the Salerno
formulation, which has never been the decisive factor in
any decision of this Court, including Salerno itself . . . “);
Farrell v. Burke, 449 F.3d 470, 496 n.12 (2d Cir. 2006) (“[I]t
appears that the Supreme Court might decline to apply the
‘impermissibly vague in all applications’ standard for facial

313a
Appendix C
challenges wherever fundamental rights are at stake, not
merely in those cases where First Amendment rights are
at stake.”); accord Doe v. City of Albuquerque, 667 F.3d
1111, 1124 (10th Cir. 2012) (“The idea that the Supreme
Court applies the ‘no set of circumstances’ test to every
facial challenge is simply a fiction, readily dispelled by a
plethora of Supreme Court authority.” (collecting cases));
A Woman’s Choice-East Side Women’s Clinic v. Newman,
305 F.3d 684, 687 (7th Cir. 2002) (finding that the Salerno
test is a “suggestion” and that it “must give way” to more
recent Supreme Court precedent (internal quotation
marks omitted) (citing, inter alia, Stenberg v. Carhart,
530 U.S. 914, 120 S. Ct. 2597, 147 L. Ed. 2d 743 (2000))); cf.
United States v. Frandsen, 212 F.3d 1231, 1235 n.3 (11th
Cir. 2000) (explaining that the Salerno test “has been
subject to a heated debate in the Supreme Court, where
it has not been consistently followed”); Inturri v. City of
Hartford, 365 F. Supp. 2d 240, 253 n.13 (D. Conn. 2005)
(“Although in some limited situations a facial challenge to a
statute that does not implicate the First Amendment may
be brought, there is considerable disagreement as to what
standard would be applied.”). 34 But see S.D. Myers, Inc. v.
City and Cty. of S.F., 253 F.3d 461 (9th Cir. 2001) (“While
we have held that Casey overruled Salerno in the context
of facial challenges to abortion statutes, we will not reject
Salerno in other contexts until a majority of the Supreme
34. As the Tenth Circuit explained, even after Salerno, the
Supreme Court “has repeatedly considered facial challenges simply
by applying the relevant constitutional test to the challenged
statute without attempting to conjure up whether or not there is a
hypothetical situation in which application of the statute might be
valid.” Doe, 667 F.3d at 1124.

314a
Appendix C
Court clearly directs us to do so.” (citation and internal
quotation marks omitted)); United States v. Arzberger, 592
F. Supp. 2d 590, 599 (S.D.N.Y. 2008) (noting that Salerno,
despite criticism, remains “the basis for evaluating facial
constitutional challenges in the Second Circuit”).
Third, in the context of the Free Exercise Clause,
despite Defendants’ claim to the contrary, Church of
the Lukumi Babalu Aye, Inc. v. City Hialeah, 508 U.S.
520, 113 S. Ct. 2217, 124 L. Ed. 2d 472 (1993), offers
an alternate, directly applicable standard to apply, as
it provides that “government, in pursuit of legitimate
interests, cannot in a selective manner impose burdens
on conduct motivated by religious belief.” Id. at 543. See
also Cent. Rabbinical Congress v. N.Y. City Dep’t of
Health & Mental Hygiene, 763 F.3d 183, 196 (2d Cir. 2014)
(“But where some purposeful and exclusive regulation
exists—where the object of the law is itself the regulation
of religious conduct—the law is subject to heightened
scrutiny, and not to rational basis review.”); Commack
Self-Serv. Kosher Meats, Inc. v. Hooker, 680 F.3d 194, 202
(2d Cir. 2012) (applying this standard to a facial challenge
under the Free Exercise Clause). Accordingly, Salerno is
not the appropriate standard to apply here.
More generally, based on broader principles of
constitutional analysis, Plaintiffs’ experience is also
appropriately the backbone of their constitutional claims.
In general, “[t]he proper focus of constitutional inquiry
is the group for whom the law is a restriction.” Planned
Parenthood of SE Pa. v. Casey, 505 U.S. 833, 894, 112 S.
Ct. 2791, 120 L. Ed. 2d 674 (1992); see also Al Falah Ctr.

315a
Appendix C
v. Twp. of Bridgewater, No. 11-CV-2391, Slip Op. at 12-14
(D.N.J. Sept. 30, 2013) (denying summary judgment to the
defendants on First and Fourteenth Amendment facial
challenges based on the challenged law’s impact on the
plaintiff and the defendant’s motivation for passing that
law). Here, the effect of the Challenged Laws on Plaintiffs
is relevant to determining whether the Challenged Laws
were discriminatory under the Equal Protection Clause
and/or targeted at religious practice under Lukumi (and
the Free Exercise Clause), and may be suggestive of the
effect they have on other religious groups. Moreover, given
the Court “must be careful not to go beyond the statute’s
facial requirements and speculate about ‘hypothetical’
or ‘imaginary’ cases,” Wash. State Grange, 552 U.S. at
449-50, Plaintiffs’ experience is especially important
as a source of evidence on the constitutionality of the
Challenged Laws, see Doe, 667 F.3d at 1123-24, 112728 (analyzing, in the context of a facial challenge, the
particular circumstances of the plaintiffs and noting that
it is proper to “appl[y] the appropriate constitutional test
to the restriction at issue,” rather than “conjur[ing] up
whether or not there is a hypothetical situation in which
application of the statute might be valid”); Cty. Concrete
Corp v. Town of Roxbury, 442 F.3d 159, 167 (3d Cir.
2006) (finding allegations that the defendant township
“knew exactly how [the] appellants intended to use their
land and passed [an] [o]rdinance specifically tailored to
prevent that use” to constitute a ripe facial challenge to
that ordinance); Dibbs v. Hillsborough Cty., 67 F. Supp. 3d
1340, 1349-50 (M.D. Fla. 2014) (“A property owner makes
a facial challenge by claiming that a municipality knew
exactly how he intended to use his property and passed

316a
Appendix C
an ordinance specifically tailored to prevent that use.”
(internal quotation marks omitted)); Cornell Cos., Inc., v.
Borough of New Morgan, 512 F. Supp. 2d 238, 258 (E.D.
Pa. 2007) (“The basis of an EPC facial challenge is that
the mere enactment of the ordinances violates the EPC
because it treats the plaintiff’s property differently than
other similarly situated landowners.”).
Of course, this does not mean that an extended
discussion of Jew ish Law, the nature of a Torah
Community, or the Congregation’s history, among
other things, necessarily are dispositive in this case. As
discussed above, the unwieldiness of Plaintiffs’ Rule 56.1
Statement is partially due to the repetitive inclusion of
facts of this sort, which may or may not even be relevant
to an as-applied challenge. Nonetheless, Defendants err
in their wholesale dismissal of facts specific to Plaintiffs’
experience, because it is that experience that may be
the only way for the Court or a fact-finder to determine
whether the Challenged Laws are facially constitutional.
6. 	Equal Protection (Claim 4)
In their Four th Claim, Plaintiffs allege that
Defendants have violated the Equal Protection Clause of
the Fourteenth Amendment. (See SAC ¶¶ 260-63.) The
Equal Protection Clause “is essentially a direction that all
persons similarly situated should be treated alike.” City of
Cleburne v. Cleburne Living Ctr., 473 U.S. 432, 439, 105 S.
Ct. 3249, 87 L. Ed. 2d 313 (1985); see also Harlen Assocs.
v. Inc. Vill. of Mineola, 273 F.3d 494, 499 (2d Cir. 2001)
(same). “Plaintiffs challenging . . . facially neutral laws on

317a
Appendix C
equal protection grounds bear the burden of making out
a prima facie case of discriminatory purpose.” Pyke v.
Cuomo, 567 F.3d 74, 78 (2d Cir. 2009); see also Tartikov,
915 F. Supp. 2d 574, 614 (“To prove an equal protection
violation, claimants must prove purposeful discrimination
by a government actor, directed at a suspect class, such
as a racial group, or a religion.” (citations and internal
quotation marks omitted)). If Plaintiffs make such a
showing, the government action at issue is “subject to
strict judicial scrutiny,” such that the law may be upheld
only if it “further[s] a compelling state interest and [is]
narrowly tailored to accomplish [that] purpose.” Pyke,
567 F.3d at 77.
Plaintiffs may establish an equal protection violation
by identifying (1) “a law that expressly classifies on the
basis of race,” (2) “a facially neutral law or policy that has
been applied in an unlawfully discriminatory manner,” or
(3) “a facially neutral [law or] policy that has an adverse
effect and that was motivated by discriminatory animus.”
Id. As the Court previously held, Plaintiffs rely on the
third method here. See Tartikov, 915 F. Supp. 2d at 615;
see also Jana-Rock Constr., Inc. v. N.Y.S. Dep’t of Econ.
Dec., 438 F.3d 195, 204 (2d Cir. 2006) (noting that the
Equal Protection Clause is violated, unless justified by
strict scrutiny, when government action is “motivated
by discriminatory animus and its application results in
discriminatory effect” (citations omitted)).
a. 	Discriminatory Purpose
“ D i s c r i m i n at or y p u r p o s e i mpl i e s t h at t he
decisionmaker . . . selected or reaffirmed a particular

318a
Appendix C
course of action at least in part because of, not merely in
spite of, its adverse effects upon an identifiable group.”
Hayden v. Cty. of Nassau, 180 F.3d 42, 50 (2d Cir. 1999)
(internal quotation marks omitted). Though the desire
to discriminate need not be the sole motivating factor,
see Vill. of Arlington Heights v. Metro. Hous. Dev.
Corp., 429 U.S. 252, 265, 97 S. Ct. 555, 50 L. Ed. 2d
450 (1977) (“Rarely can it be said that a legislature or
administrative body operating under a broad mandate
made a decision motivated solely by a single concern,
or even that a particular purpose was the ‘dominant’ or
‘primary’ one.”), a plaintiff will only “be permitted to
take his case to trial if he proffers evidence that strongly
indicates that discrimination was a significant reason
for a public body’s actions and the defendant body, or
its members, fails to counter that evidence with its own
clear evidence that a majority acted with permissible
motives,” Cine SK8, Inc. v. Town of Henrietta, 507 F.3d
778, 786 (2d Cir. 2007). “Determining whether invidious
discriminatory purpose was a motivating factor demands
a sensitive inquiry into such circumstantial and direct
evidence of intent as may be available.” Arlington Heights,
429 U.S. at 266 (internal quotation marks omitted). In
assessing discriminatory intent in the land use context,
courts consider “the series of events leading up to a
land use decision, the context in which the decision was
made, whether the decision or decisionmkaing process
departed from established norms, statements made
by the decisionmaking body and community members,
reports issued by the decisionmaking body, whether a
discriminatory impact was foreseeable, and whether
less discriminatory avenues were available.” Chabad

319a
Appendix C
Lubavitch of Litchfield Cty., Inc. v. Litchfield Historic
Dist. Comm’n, 768 F.3d 183, 199 (2d Cir. 2014); see also id.
(“Discriminatory intent may be inferred from the totality
of the circumstances,” including “historical background”
and “contemporary statements made by the decisionmaking body,” or “by showing that animus against the
protected group was a significant factor in the position
taken by the municipal decision-makers themselves or
by those to whom the decision-makers were knowingly
responsive.”); LeBlanc-Sternberg v. Fletcher, 67 F.3d 412,
425 (2d Cir. 1995) (same); United States v. Yonkers Bd.
of Educ., 837 F.2d 1181, 1221 (2d Cir. 1987) (explaining
that “[i]ntent to discriminate may be established in a
number of ways,” and may be “inferred from the totality
of the relevant facts,” including “historical background
. . . particularly if it reveals a series of official actions
taken for invidious purposes; [and] the specific sequence
of events leading up to the challenged decision, such as
zoning changes for a given site enacted upon . . . learning
of [the plaintiff’s] plans for . . . construction” (alterations
and internal quotation marks omitted) (quoting Arlington
Heights, 429 U.S. at 267-68)). However, Plaintiffs cannot
rely on mere conclusory allegations to establish this
element of their Equal Protection claim. See Tiraco v.
N.Y.S. Bd. of Elections, 963 F. Supp. 2d 184 (E.D.N.Y.
Aug. 7, 2013) (“[The] [p]laintiff’s conclusory allegations
likewise fail to state a viable Fourteenth Amendment
equal protection claim.”); 33 Seminary LLC v. City of
Binghamton, 869 F. Supp. 2d 282, 310 (N.D.N.Y. 2012)
(finding the plaintiff’s allegations insufficient because they
were “wholly conclusory”).

320a
Appendix C
There is ample evidence in the record to make the
question of discriminatory purpose a disputed fact.
First, there is the timing of the Challenged Laws. With
regard to the Accreditation Law, the relevant provisions
of which were adopted in January 2001 and amended in
September 2004, while the Parties dispute exactly what
the nexus of the relevant local laws was, they agree that,
in January 2000, the Village Planner circulated memos
entitled “Proposed Primary School and Pre-School
([Yeshiva Spring Valley] Pomona) and the Village Zoning
Regulations regarding Schools,” recommending that the
Village adopt zoning laws for schools, which were otherwise
“scant.” (Pls.’ 56.1 ¶¶ 123-24.) Mayor Marshall at the time
stated, in the context of the Accreditation Law, that
“[t]hey[],” presumably the Orthodox Jews behind the
Yeshiva, “[are] going to come in and we’re going to be
caught with our pants down if we don’t move.” (Pls.’ 56.1
¶ 126 (citing Savad Decl. Ex. 3 (Marshall Tr.) 96-98).)
Additionally, in 2004, the year that the Accreditation Law
was amended, Yeshiva Spring Valley had its tax-exempt
status denied for the first time, the Congregation purchased
the Subject Property, and the Village participated in a
lawsuit filed to challenge Ramapo’s adoption of the ASHL.
(Pls.’ 56.1 ¶¶ 4, 99, 138, 324, 360; Defs.’ 56.1 ¶¶ 138.)
Moreover, while Ulman indicated that the Accreditation
Law was passed to “strengthen the Village’s control
over schools,” (Pls.’ 56.1 ¶ 144; Defs.’ Counter 56.1 ¶ 144),
since 2001 there have been no schools or higher education
institutions of any kind in the Village, (Pls.’ 56.1 ¶ 143).
Also in 2004, the Village passed a resolution noting that
the Board of Trustees “opposes in the strongest possible
terms any public officials who abdicate their responsibility

321a
Appendix C
of office by placing the politics of special interest groups
and individual developers ahead of the best interest of
the people they are committed to serve.” (Savad Decl. Ex.
179 (Jan. 26, 2004 Board of Trustees meeting minutes),
at 2-3) Ulman admitted that Orthodox Hasidic Jews are
one such special interest group. (See Savad Decl. Ex. 15
(Ulman Decl.) 979.) Therefore, even if Defendants were
not aware until November of 2004 that the Congregation
had purchased the Subject Property and that it would
be used for a rabbinical college, (see Pls.’ 56.1 ¶¶ 14849), the evidence suggests that Defendants were at least
aware of the growth of Orthodox/Hasidic community in
Ramapo prior to that time, and that this community may
have sought to expand in the Village through educational
institutions, at the time of the passage of the relevant
portions of the Accreditation Law in January 2001, as
amended in September 2004.
With regard to the Dormitory Law, the relevant
provisions of which were adopted in September 2004 and
January 2007 at the aforementioned January 22, 2007
meeting, Mayor Marshall reported that there was “a
hostility” among attendees “engendered from [an] article
in The Journal News regarding the Tartikov project,”
(Pls.’ 56.1 ¶ 161 (citing Savad Decl. Ex. 3 (Marshall Tr.)
176 (“There were several meetings during my time that
were nasty, this was one of them”); Defs.’ Counter 56.1
¶ 161; see generally Savad Decl. Ex. 78 (Jan. 22, 2007
Meeting Transcript).)35 One meeting attendee noted that
35. The Court recognizes that Defendants note the first portion
of the Dormitory Law was passed before Defendants became aware
of the Congregation’s purchase of the subject property in November

322a
Appendix C
he or she had heard that the Congregation’s proposal was
for “rabbinical students and their families,” and sought a
way prevent institutions from being “flooded with family
members and children, and all of that sort.” (Id. at 69-70
(emphasis added).) Mayor Marshall indicated, in response,
that the “[a]ccessory use” provision of the Dormitory Law
“addresses that to some degree.” (Id. at 71.) Another
meeting attendee, who appears to live just outside
the Village, stated, in reference to the Congregation’s
apparent plan, that “[e]veryone should understand that
this is not going to happen, and we’re not going to let
it happen. Let’s stop it now. [Multiple shouts of ‘Stop it
now!’] Their counsel is here to protect their interests.
We’re here, the people who live in this village, to protect
our interests, okay.” Seco(Id. at 21.) Yet another attendee
specifically indicated that because the rabbinical college
“would entirely change the character . . . . [and] politics
of the village . . . . there has to be a solution through the
zoning laws that prohibits such a large number of people
being within one property, and one institution.” (Id. at
10.)36 Therefore, the evidence at the very least indicates
2004. (Defs.’ Mem. 27; see also Pls.’ 56.1 ¶ 148-49; Defs.’ 56.1 ¶ 116.)
This fact, however, does not place Plaintiffs’ equal protection claim
outside of the zone of disputed facts.

36. As laid out below in the context of comments made outside
of this particular meeting, contrary to Defendants’ objections,
statements by community members, even if not a part of the
decisionmaking body, are relevant in assessing discriminatory
purpose, see Tsombanidis v. West Haven Fire Dep’t, 352 F.3d 565,
580 (2d Cir. 2003) (directing the district court to consider whether
private citizens’ “hostility motivated the [municipality] in initiating
. . . its . . . efforts” on remand); LeBlanc-Sternberg, 67 F.3d at 425

323a
Appendix C
that the Dormitory Law was passed at a time at which
there was great hostility towards the Orthodox Jews
in the community or, at the very least, hostility to the
construction of a large school of the type that Plaintiffs
sought, namely one with on-campus family housing.
The Wetlands Law, the relevant provisions of which
were adopted in April 2007, was first considered at the
aforementioned January 22, 2007 meeting. (Pls.’ 56.1
¶ 173; Defs.’ Counter 56.1 ¶ 173.) The Village did not
conduct any studies prior to the adoption of the law to
determine where the Village’s wetlands were, what
threats they faced, or how best to protect them, (Pls.’ 56.1
¶ 190; Defs.’ Counter 56.1 ¶ 190), though Mayor Marshall
was generally aware of the existence of Wetlands on the
Subject Property at the time, (Pls.’ 56.1 ¶ 180; Defs.’
Counter 56.1 ¶ 180). Nonetheless, between the January
meeting and the passage of the Wetlands Law, Trustees
Sanderson, Louie, and Yagel indicated in campaign
materials that voters needed to “stand up to the threat”
that the Congregation posed, further stating “[y]ou need
to vote for a team that is prepared to stand up to this
(“Discriminatory intent may [be demonstrated] . . . by showing
that animus against the protected group was a significant factor
in the position taken by . . . those to whom the decision-makers
were knowingly responsive.” (internal quotation marks omitted)),
particularly to the extent that Village officials were aware of these
comments, (see Pls.’ 56.1 ¶¶ 220-223; see also id. ¶¶ 248, 251, 253-54,
256, 258 (indicating the Village officials took public comments into
account.) Therefore, unlike the statements on websites and blogs
discussed above, these statements are not offered for the truth, but
rather to demonstrate that such statements were made to, or in the
presence of, Defendants.

324a
Appendix C
threat of using the fundamentally unfair RLUIPA statute
as a hammer against our village.” (Pls. 56.1 ¶ 275; Defs.’
Counter 56.1 ¶ 275.) Trustee Sanderson also specifically
indicated in a campaign video that the rabbinical college
“could completely change the village and the make-up
of the village,” (Pls.’ 56.1 ¶ 279 (citing Savad Decl. 17
(Sanderson Tr.) 125-128); Defs.’ Counter 56.1 ¶ 279), and
each candidate also more generally campaigned on a
platform to “keep Pomona Pomona,” which Trustee Louie
indicated meant to “keep Pomona the village that it is
and not change it,” (Pls.’ 56.1 ¶ 294 (citing Savad Decl.
Ex. 9 (Louie Tr.) 156). In fact, the campaign materials
for all three candidates indicated that “the single most
important issue facing the village is clearly the Tartikov
development.” (Pls.’ 56.1 ¶ 274; Defs.’ Counter 56.1 ¶ 274.)
Accordingly, as was the case with the Dormitory Law,
the Wetlands Law was passed at a time when there was
intense focus on the proposed rabbinical college but when
no studies or analysis had been conducted of the needs,
or nature, of wetlands in the Village. The juxtaposition
of these facts supports Plaintiffs’ claim that Defendants
adopted the Wetlands Law as a pre-textual means to
unlawfully target Plaintiffs’ land use plans for the Subject
Property.
Second, in addition to some of the suggestive
comments described above, a number of arguably
discriminatory comments made by Village officials
and community members prior to the passage of the
Challenged Laws suggest animus towards the Hasidic

325a
Appendix C
Jewish community. 37 See Yeshiva Chofetz Chaim Radin,
Inc. v. Vill. of New Hempstead by its Bd. of Tr., 98 F. Supp.
2d 347, 355 (S.D.N.Y. 2000) (holding that “discriminatory
comments by the [m]ayor . . . present grounds for allowing
a jury to judge the credibility, and motivation, of the
[m]ayor . . . as well as the motivation that can be attributed
to the [v]illage itself in passing the disputed provisions”).
These statements are undisputed as described below:
• Village Planning Board Chairperson Melvin Cook,
who admittedly was not employed by the Village
until after the Challenged Laws were adopted,
indicated that “[s]ome of us see the Rabbinical
College as the beginnings of another restricted
religious community similar to New Square,” (Pls.’
56.1 ¶ 211 (citing, inter alia, Savad Decl. Ex. 1 (Cook
Dep. Tr.) 102); Defs.’ Counter 56.1 ¶ 211), which Cook
called a “tribal ghetto” of ultra-orthodox Jews, (Pls.’
56.1 ¶ 111 (citing Savad Decl. Ex. 1, at 89-90)). Cook
indicated that the increased number of Orthodox
37. Of note, a number of the statements Plaintiffs cite do not
indicate discriminatory animus, but rather indicate the degree of
opposition to the rabbinical college, or indicate that the reason for
the opposition was (and is) the rabbinical college’s size. (Compare,
e.g., Pls’. 56.1 ¶ 231 (noting that Lynn Yagel stated “there is no hope
for Rockland County due to RLUIPA development” with Savad
Decl. Ex. 11 (L Yagel Tr.) 127 (noting that the statement referred
to “overdevelopment”).) While these statements are relevant to
whether the rabbinical college was targeted, they do not themselves
reveal a discriminatory purpose. Nonetheless, there is enough
other evidence to suggest a discriminatory motive to send this case
to a jury to determine if the Challenged Laws were motivated by
discriminatory animus.

326a
Appendix C
Hasidic Jews hurt the community because of their
adverse effect on the school systems and diversity
in Ramapo. (Pls.’ 56.1 ¶ 296 (citing Savad Decl. Ex.
1, at 79-80 (“I felt [the increase in Ultra Orthodox
Jews] has hurt the community and it certainly
affected the school systems in Ramapo.”)); Defs.’
Counter 56.1 ¶ 296.)38
• Village Clerk Leslie Sanderson indicated that if
“rampant rumors” about “how many people” the
rabbinical college would bring in “were true[,] it
would usurp the Village, perhaps the Village Board
and the amount of people that live there.” (Pls.’ 56.1
¶ 214 (citing Savad Decl. Ex. 11 (Sanderson Dep.
Tr.) 200); Defs.’ Counter 56.1 ¶ 214.)
• A published letter to the editor of The Journal
News, which Defendants admit was authored at
38. The Court disagrees with Defendants’ assertion that
Cook’s motives are irrelevant because he was not employed by the
Village when the laws were passed. The Village’s perception of the
Hasidic community after the passage of the Challenged Laws is
at least circumstantial evidence that is suggestive of the Villages’
prior views. Cf. Arlington Heights, 429 U.S. at 266 (noting propriety
of considering “circumstantial evidence” and the relevance of a
“pattern” of discrimination).
Additionally, Plaintiffs contend that references to “diversity”
are “code for keeping Hasidic and Orthodox Jews out of the Village
because the people making these statements know that there are few
Orthodox Jews and no Hasidic Jews in the Village.” See McWright
v. Alexander, 982 F.2d 222, 228 (7th Cir. 1992) (indicating that
neutral terms of this sort can be facially discriminatory when put
into context).

327a
Appendix C
least in part by Trustee Yagel, contended that “[t]o
say that a virtual mini-city within the village—that
will house thousands of homogenous individuals who
can control village elections—is ‘natural’ in any way
is simply not true.” (Pls.’ 56.1 ¶ 215; Defs.’ Counter
56.1 ¶ 215 (citing Savad Decl. Ex. 150 (published
letter)).) Trustee Yagel was also quoted in a New
York Times article as saying that it is “disgusting”
that the Congregation was “trying to create this
mini city in our village.” (Pls.’ 56.1 ¶ 246 (citing
Savad Decl. Ex. 4 (B. Yagel Tr.) 245-46; id. Ex. 112);
Defs.’ Counter 56.1 ¶ 246.)
• Village resident Robert Prol sent a letter to Mayor
Sanderson and Trustees Yagel, Banks, and Louie
less than a year before he was appointed to the
Village planning board, stating, “[t]here is only one
outcome acceptable to the community, and that is
to maintain our fair zoning laws and the way of life
we have all invested in.” (Pls.’ 56.1 ¶¶ 234-35 (citing,
inter alia, Savad Decl. Ex. 2 (Prol Dep. Tr.) 123-24);
Defs.’ Counter 56.1 ¶ 234.) Trustee Louie responded
by admitting “[i]t’s a little unsettling what’s going
on, but we are sure we can maintain our zoning laws
in Pomona and keep our neighborhood rural and
diverse.” (Pls.’ 56.1 ¶ 236 (citing Savad Decl. Ex. 9
(Louie Dep. Tr.) 221-26).) Robert Prol also referred
to the Congregation as “trying to force their
slum on everyone else,” though he later clarified
that by “slum” he meant that the “density level
. . . would [result in] lots of garbage and packages
and everything else all over the place.” (Pls.’ 56.1

328a
Appendix C
¶ 244; Defs.’ Counter 56.1 ¶ 244 (citing Savad Decl.
Ex. 2, at 86, 92).) A year after Robert Prol sent the
aforementioned letter, Mayor Sanderson appointed
him to the planning board. (Pls.’ 56.1 ¶ 235.)
• Trustee Sanderson, in an email to Trustee Yagel,
provided draft language for an email blast that
included the need to “defeat any developers who
plan to take over our village and our area.” (Id.
¶ 281 (citing Savad Decl. Ex. 9 (Louie Dep. Tr.)
115-116)); Defs.’ Counter 56.1 ¶ 281.) Trustee
Sanderson also publicly stated that the Village
needed to “maintain[] its cultural and religious
diversity,” (Pls.’ 56.1 ¶ 284 (citing Savad Decl. Ex.
310 (Request for Admission) Response No. 106)),
and highlighted her concern about the Orthodox
Hasidic “bloc vote” because of its impact on the
Ramapo School District, (see Pls.’ 56.1 ¶ 295 (citing,
inter alia, Savad Decl. Ex. 11 (Sanderson Dep. Tr.)
155-56); Defs.’ Counter 56.1 ¶ 295.)
• Trustee Louie emailed a Village resident indicating
that a goal of hers was to “[m]aintain[] the
demographic makeup of the village the way it is.”
(Pls.’ 56.1 ¶ 307 (citing Savad Decl. Ex. 9 (Louie
Dep. Tr.) 139-140); Defs.’ Counter 56.1 ¶ 307.)
• The aforementioned Facebook post and related
text messages between Mayor Yagel and Louie,
concerning a gathering of Hasidic Jews at Provident
Bank Ballpark, (see Savad Suppl. Decl. Ex. 1), and
the associated adverse inference sanction.

329a
Appendix C
It is worth noting that all of these statements were
made despite evidence of an attempt to take care not
to make incriminating statements, as Mayor Marshall
indicated at the aforementioned January 22, 2007 meeting:
Ladies and gentleman, let me say something.
We sitting at this table have limitations that
are placed on us as to what we can say and
what we can’t say, because our attorney tells
us what we can say and what we can’t. I can’t
say what I feel, I can’t. If I agree with you, if I
don’t agree with you, I don’t have the luxury of
being able to say that here. All I can say is that
every member of this board works very, very
hard to do what is best for this community. You
have your issues. Don’t assume because no one
has gotten up and said, wow, I agree with you,
oh boy; don’t assume that because we didn’t do
that we don’t agree. We may or may not, but
please give us the benefit of the doubt.
(Pls.’ 56.1 ¶ 416 (citing, inter alia, Savad Decl. Ex. 78, at
58); see also, Pls.’ 56.1 ¶ 422 (noting that in advance of a
meeting, “Trustee Yagel warned Mayor Sanderson and
Trustee Louie that they ‘[m]ust be very careful about
what we say. Don’t know who’s in the audience. Savad
might show up again.”) (citing, inter alia, Savad Decl.
Ex. 105 (email from Yagel)); id. ¶ 425 (“Trustee Yagel
stated that the residents should make sure that when they
speak in public that they don’t speak in a discriminatory
manner because that can be construed as ‘the village is
discriminating.’” (quoting Savad Decl. Ex. 239 (Affidavit

330a
Appendix C
of Laura M. Kramer) ¶ 10) (citing Savad Decl. Ex. 4, at
189-90); Defs.’ 56.1 ¶ 425 (clarifying this statement).)
Third, the Village’s behavior with respect to other
proposed projects is suggestive. For example, Trustee
Sanderson opposed an Orthodox middle school on
property outside the town in May 2007, indicating that it
did “not sound good” and encouraging others to attend
public hearings. (Pls.’ 56.1 ¶ 375 (citing Savad Decl. Ex.
11 (Sanderson Dep. Tr.) 224-26).) Additionally, as early
as 1996, the Village Attorney, then Ruben Ortenberg,
advised residents to contact the Town of Ramapo to
object to the expansion of an Orthodox Hasidic school.
(Pls.’ 56.1 ¶ 376.) At the same time, the Village did not
challenge a variety of secular development projects of
equal size that may have “threatened” the Village in the
same way. (See, e.g., Pls.’ 56.1 ¶¶ 381 (noting support for
concept of Barr Laboratories office building); 399 (noting
that Mayor Marshall encouraged the Village to accept the
construction group homes and that residents “simply [did]
not have the right to choose who [their] neighbors [would]
be”).) Cf. LeBlanc-Sternberg, 67 F.3d at 431 (finding
relevant that the municipality “cited potential traffic and
noise problems among their reasons for opposing home
synagogues but tolerated existing traffic and noise caused
by secular uses”). 39
39. Plaintiffs also indicate that the Village challenged other
Yeshivas, (Pls.’ 56.1 ¶¶ 360, 363, 376; Pls.’ Supplemental 56.1 ¶¶ 2325), yet did not challenge a large agricultural operation because it
did not want to “get involved” in other villages’ affairs, (Pls.’ 56.1
377-78.) In fact, in one instance, the Village did not object to an
assisted living facility located just outside the Village yet encouraged

331a
Appendix C
Of cou rse, not a l l of the fact s demonst rat e
discriminatory motives. Many of the statements post-date
the laws in question, and some reflect concern about overdevelopment of property in the Village. (See Defs.’ Mem.
of Law in Reply to Pls.’ Opp’n to Defs.’ Mot. for Summ. J.
(“Defs.’ Reply”) 6 (Dkt. No. 193).) And the Village, in the
past, has shown a willingness in other contexts to facilitate
religious land use. (See, e.g., id. at 7-8 (noting that Local
Law 2 of 2007 for the first time allowed single-family
residents to be used as houses of worship, as requested by
ultra-Orthodox, Hasidic communities).) Taken together,
though, in the light most favorable to the non-movant
Plaintiffs, and given the unique burden the Challenged
Laws place on Plaintiffs, there is sufficient evidence for a
reasonable jury to conclude that the Challenge Laws were
passed with a discriminatory purpose.40
b. 	Discriminatory Effect
Plaintiffs also allege that the Challenged Laws
had a discriminatory effect on them. In establishing
discriminatory effect, Plaintiffs are not “obligated to show
a better treated, similarly situated group of individuals.”
Pyke, 258 F.3d at 110 (holding that a plaintiff who “alleges
that a facially neutral statute or policy with an adverse
residents to oppose a Yeshiva on the same property when proposed.
(Pls. 56.1 ¶¶ 374-75, 401.)

40. Because the evidence above is sufficient for Plaintiffs’
claim to survive summary judgment, the Court need not consider
the claim that the Village is closely entwined with the Preserve
Ramapo organization.

332a
Appendix C
effect was motivated by discriminatory animus [] is not
obligated to show a better treated, similarly situated
group of individuals of a different race in order to
establish a claim of denial of equal protection.”). Indeed,
the cases “recognize[] that a government that sets out
to discriminate intentionally in its enforcement of some
neutral law or policy will rarely if ever fail to achieve its
purpose.” Doe v. Vill. of Mamaroneck, 462 F. Supp. 2d
520, 546 (S.D.N.Y. 2006).
Plaintiffs have established, at the very least, that
whether the Challenged Laws prohibit the building of a
rabbinical college is an issue of material fact. Defendants
offer a defense of the Challenged Laws but devote no
more than a few conclusory paragraphs to the “neutral
purpose[s]” of each law. (See, e.g., Defs.’ Mem. 45.) To
the extent Defendants offer a substantive defense, it is
addressed in the context of the relevant law below.
First, w ith respect to the Accreditation Law,
educational institutions are, in general, permitted in the
Village, provided those who intend to build the institution
obtain a special permit. See, e.g., Defs.’ Counter 56.1 ¶ 579
(citing Village Code § 130-10(F)). However, unaccredited
educational institutions are not permitted under any
circumstances, because an educational institution is
defined by Village law as one that is “accredited by
the New York State Education Department or similar
recognized accrediting agency,” Village Code § 130-4.
(See also Pls.’ 56.1 ¶¶ 580-81; Defs.’ Counter 56.1 ¶¶ 58081.) Plaintiffs present expert testimony indicating that
their proposed rabbinical college cannot be accredited

333a
Appendix C
by any New York State body, which Defendants do not
rebut with any evidence of their own. (See Pls.’ 56.1
¶¶ 583-84, 591; Defs.’ Counter 56.1 ¶¶ 583-84, 591.) In
fact, Defendants do not dispute that “[t]o be accredited”
at all, an educational institution has to first be in existence
and fully operational, (Pls.’ 56.1 ¶ 590; Defs.’ Counter 56.1
¶ 590), placing Plaintiffs, and likely any other group that
sought to build an educational institution in the Village, in
a catch-22: they cannot build a rabbinical college unless it
is accredited, and they cannot have their rabbinical college
accredited until it is built, (see Pls.’ 56.1 ¶ 588-9; Defs.’
Counter 56.1 ¶ 589-89; Savad Decl. Ex. 16 (Preston Green
Dep. Tr.) 49, 89-90 (noting that the relevant accredited
bodies require institutions to be operational)). Indeed,
the rabbinical college could not even be accredited by
the Association of Advanced Rabbinical and Talmudic
Schools (“AARTS”), a body designed to accredit schools
like the proposed rabbinical college, absent changes to its
curriculum and the rabbinical college being operational.
(See Savad Decl. Ex. 16 (Green Tr.) 89-90; Gordon Aff. Ex.
15 (Preston Green Witness Report) at 20-21.) To that end,
the Accreditation Law at least arguably prevents Plaintiffs
from building their proposed rabbinical college.
Second, with regard to the Dormitory Law, the
Village Code explicitly provides that “single-family, twofamily[,] and/or multifamily dwelling units . . . shall not
be considered to be dormitories or part of dormitories.”
Village Code § 130 - 4. (See also Pls.’ 56.1 ¶ 603.)
Dormitories likewise cannot “contain separate cooking,
dining or housekeeping facilities” and cannot “occupy
more than 20% of the total square footage of all buildings

334a
Appendix C
on the lot.” Village Code §§ 130-4, 130-10(F)(12). (See also
Pls.’ 56.1 ¶¶ 610, 695.) These prohibitions arguably render
it impossible for Plaintiffs, who, by religious belief, have
obligations to their families that can only be fulfilled by
living with them, (see Pls.’ 56.1 ¶¶ 42 (noting that Jewish
law imposes “conjugal duties upon a husband and wife”),
493 (noting that students must “live with their families in
order to raise their family in a religious environment”);
Defs.’ Counter 56.1 ¶¶ 42, 493), and who allegedly can
best complete the course of study by remaining on school
grounds, (see, e.g., Pls.’ 56.1 ¶¶ 72 (noting that rabbinical
college will be a “Torah Community” and will “involve[]
intensive learning interaction, day and night, among
the students, teachers[,] and lecturers,” 455-56 (noting
that students must “exile [themselves] into a Torah
Community”); Defs.’ Counter 56.1 ¶¶ 455-56), to complete
their studies at the proposed rabbinical college. While
it is for the jury to decide the authenticity of Plaintiffs’
beliefs—and the degree that such Torah Community with
multi-family housing is necessary to achieve them, which is
Defendants’ central dispute with these contentions—there
is sufficient evidence to conclude that the Dormitory Law
has a disparate impact on Plaintiffs.41
41. Defendants allege, in response, that the “dormitory
regulations expanded opportunities for dormitories and were
enacted for the neutral purpose of conforming the village code with
New York case law.” (Defs.’ Mem. 46.) First, the fact that dormitory
use was permitted in such a way as to carve out Plaintiffs’ plan
for dormitories at the proposed rabbinical college means it has a
discriminatory effect; by design, some individuals benefitted, while
Plaintiffs, because of their professed religious beliefs, did not.
Second, Plaintiffs dispute that dormitories were not permitted in
the Village under New York law prior to the passage of the law. (See

335a
Appendix C
Third, w ith regard to the Wetlands Law, two
provisions, working in concert, have the apparent effect
of barring construction of the rabbinical college in the
Village. First, Village law provides that “[t]he minimum
lot area for an educational institution” is 10 acres. Village
Code § 130-10(F)(1)(a). (See also Pls.’ 56.1 ¶ 14; Defs.’
56.1 ¶ 14.) Plaintiffs argue, with sufficient evidentiary
support, that the Subject Property is the only such nongovernment-owned property in the Village, meaning it
is the only location where which the proposed rabbinical
college can be built. (Pls.’ 56.1 ¶ 616 (citing Beall Decl.
¶¶ 15-19).) 42 Second, the Wetlands Law itself defined
wetlands as “all lands and waters of the Village of Pomona
. . . which have a contiguous area of at least 2,000 square
feet” which contain, or are enclosed by, certain submerged
vegetation, or that otherwise contain “poorly drained
soils.” Village Code § 126-2. “[W]ithin 100 feet of the
boundary” of such lands, or of any water course or “water
body,” defined as a “body of standing water which is not
dry more than three months of the year . . . and which,
when wet, is customarily more than 500 square feet in
water surface area,” it is unlawful, unless with a permit
issued by the Board of Trustees or the Planning Board, to,
in relevant part, “[e]rect[] any building or structure of any
kind,” including “roads [or] driveway,” without a permit.
Id. § 126-3. The Wetlands Law also exempts properties
Pls.’ 56.1 ¶ 132; Defs.’ Counter 56.1 ¶ 132 (citing Savad Decl. Ex. 13
(Ulman Dep. Tr.) 303-304.)

42. None of the evidence cited contradicts Plaintiffs’ statement,
though, as noted above, this is arguably outside the scope of Plaintiffs’
Wetlands Experts’ field of knowledge.

336a
Appendix C
improved by single-family homes, rendering the Subject
Property only one of a handful of the 1,156 parcels in the
Village affected by the law. Village Code § 126-3(D). (See
also Beall Decl. ¶¶ 151-53).43
Plaintiffs have proffered evidence of the existence of
wetlands on the Subject Property, specifically wetlands
covering the vast majority of the west side of the property
abutting Route 306. (See Beall Decl. ¶ 280 & Ex. T (survey
map of the Subject Property).) Based on a survey map, it
appears that a driveway cuts between the wetlands on the
Subject Property. (See id. Ex. T; see also Pls.’ 56.1 ¶¶ 618620 (discussing wetlands on the Subject Property and their
impact); Beall Decl. ¶¶ 280-89 (discussing wetlands on
property in the context of state and federal regulations),
Ex. T (property map identifying wetlands) (Dkt. No. 153);
Tauber Decl ¶ 28 (averring that the Wetlands Law renders
the Subject Property inaccessible); Second Gordon Aff.
Ex. A, at 61-63 (maps identifying wetlands on property).)
Plaintiffs, however, offer evidence that “the current access
road” would have “to be improved” in order to be usable
for the proposed rabbinical college because there is “no
other practicable access location for the Property,” but
that cannot be completed because the current driveway
falls within 100 feet of the wetlands. (Tauber Decl. ¶ 5.)
43. Defendants contend that the exception only applies to preexisting single-family homes. (See Defs.’ Mem. 30.) However, the plain
language of the Wetlands Law does not contain such a qualifier. See
Village Code § 126-3(D) (“The aforesaid one-hundred-foot buffer
in which regulated activities are not permitted to take place shall
not apply to lots that are improved with single-family residences.”
(emphasis added)).

337a
Appendix C
Plaintiffs have also proffered evidence, which Defendants
do not rebut with any evidence of their own, that the
Village was aware of the existence of wetlands on the
Subject Property, (see Pls.’ 56.1 ¶ 180 (noting that Mayor
Marshall knew there were wetlands on the property;
Defs.’ 56.1 ¶ 180), such that it is plausible that Defendants
targeted the rabbinical college with the Wetlands Law.
Two issues remain unresolved by the record, however.
First, it is not clear from the record why Plaintiffs
cannot build an entirely new entrance road off of Route
202, which is not abutted by wetlands. 44 Second, it is
not clear to what extent the area between the wetlands
is otherwise regulated by state and federal law. In her
Declaration, Beall, Plaintiffs’ wetlands expert, notes that
“[t]he wetlands on the west side of the Property would, at
a minimum, be regulated by the Corps of Engineers, as
noted on the map by the comment ‘ACOE wetlands.’” (Beall
Decl. ¶ 283.)45 Plaintiffs further suggest, in their Rule 56.1
Statement, that “99% of mapped aquatic resources” in the
44. Plaintiffs indicate that “[a]ccess from the Property to
Route 202 is impracticable because of the existence of steep slopes,
wetlands, and wetland buffers,” but the only evidence they cite is
the M. Tauber Declaration. (Pls.’ 56.1 ¶ 621.) M. Tauber, however, as
discussed above, is an expert neither on environmental topography
nor Village law, and as such this evidence is insufficient.
45. An Environmental and Planning Analysis by one of
Plaintiffs’ experts indicates that federal regulation of wetlands
ends at the wetlands themselves, suggesting there is no buffer
requirement under federal law. (Second Gordon Aff. Ex. A, at 8; see
also Defs.’ Mem. 30 (citing Savad. Decl. Ex. 313, at 461) (noting that
there is no federal buffer requirement).)

338a
Appendix C
village are currently regulated by the Corps of Engineers
and 80% are regulated by the N[Y]SDEC, (Pls.’ 56.1 ¶ 870
(citing Beall Decl. ¶¶ 100-101)), and that “development
near the wetlands on the [S]ubject Property would be
regulated by the NYSDEC,” (Pls.’ 56.1 ¶ 906 (citing
Beall Decl. ¶¶ 282-85)), which, according to an analysis
prepared by one of Plaintiffs’ experts, requires a permit
for “activity within 100 feet of NYS designated wetlands,”
(Second Gordon Aff. Ex. A, at 8; see also id. at 27 (noting
that the Wetlands Law is “critical and necessary and is
in keeping with municipal functions in New York State
as well as other national wetland protection interests,”
and that “it mirrors the NYSDEC provisions for a 100
foot jurisdiction area”); Exs. H (indicating the existence
of a NYSDEC-regulated stream on the west side of the
property). If the wetlands at issue are already regulated
by state and federal law in the same way as that provided
for in the Wetlands Law, then it is unclear what, if any,
unique impact the Wetlands Law has on the proposed
rabbinical college.46 In this regard, it is noteworthy that
Defendants claim that the Wetlands Law was intended
to protect “wetlands in the Village that fell between the
cracks and were not regulated by the state or the federal
government.” (Defs.’ Mem. 30; see also Defs.’ 56.1 ¶ 161
(citing, inter alia Gordon Aff. Ex. 12 (Ulman Dep. Tr.)
461.) The testimony cited, however, is unsupported by
evidence and, more importantly, does not establish that
the wetlands on the Subject Property were not already
46. Based on exhibits to the aforementioned report, there are
certainly state and federally regulated wetlands in the Village,
though it is not clear whether they fall in the Subject Property or
not. (Second Gordon Aff. Ex. A, at 61-63.)

339a
Appendix C
subject to federal or state regulation. Defendants also
argue, in conclusory fashion, that “there is no evidence
that the wetlands local law has any effect whatsoever on
the [P]roperty” because no study had been done. (Defs.’
Mem. 46.) However, as stated above, the only evidence on
this issue is advanced by Plaintiffs. Therefore, Defendants
are not entitled to summary judgment as to the Wetlands
Law on Plaintiffs’ Equal Protection claim.47
In response to the fact that the Challenged Laws
appear to have a discriminatory effect on Plaintiffs’
proposed rabbinical college, Defendants assert that
Plaintiffs could potentially build a rabbinical college
“through a zone change [or] a text amendment,” see Village
Code § 130-35 (power to amend), a “use variance,” see
Village Code § 130-28(D) (variances), or a “special use
permit,” see Village Code § 130-10, through which the
Parties can work together “to bring to fruition something
that is legal and beneficial to all involved,” (see, e.g., Defs.’
Mem 3, 34-35, 41, 42.) First, as the Court previously noted,
a zone change or text amendment is a “legislative process”
that “Plaintiffs allege would be cumbersome and, given the
hostility of Defendants, fraught with indefinite delay and
47. In their Opposition, Defendants claim that because
Plaintiffs have not challenged the Village’s R-40 zoning they could
not have built the rabbinical college anyway. (Defs.’ Opp’n 29.)
The special use permitting process, as described below, provides
for educational institutions “subject to special permit approval.”
See Village Code § 130-10(F). The problem is that the Challenged
Laws impose conditions on qualifying as an acceptable educational
institution and on development near wetlands more generally, which
are conditions that Plaintiffs allege the proposed rabbinical college
cannot meet.

340a
Appendix C
uncertainty.” Tartikov, 915 F. Supp. 2d at 633. (See also
Savad Decl. Ex. 313 (Hearing Tr.) 94 (Ulman admitting
that Plaintiffs “would need an amendment to one of [the
Village’s] laws” to build the rabbinical college).) While
Plaintiffs offer only minimal evidence to support their
contention that process would be as cumbersome as they
claim, (see Tauber Decl. ¶ 41), given the aforementioned
evidence of discriminatory animus, and the fact that the
decision to grant an amendment is a matter of Village
discretion, (see Savad Decl. Ex. 313, at 19; see also Pls.’
56.1 ¶¶ 657, 662; Defs.’ Counter 56.1 ¶¶ 657, 662), Plaintiffs
have a viable claim that seeking a zoning change or text
amendment would be a futile exercise, see Grace Church of
North Cty. v. City of San Diego, 555 F. Supp. 2d 1126, 1138
(S.D. Cal. 2008) (granting summary judgment to plaintiff
based on evidence that plaintiff had no “reasonable
expectation that any application for an extension” to use
its property would be granted), or at the very least would
be fraught with delay, which may harm, or even completely
undermine, Plaintiffs’ ability to construct the proposed
rabbinical college. Second, with regard to applying for a
variance, Ulman made clear that the Congregation would
not have been granted a variance even had it applied, (see
Pls. 56.1 ¶ 626; Defs.’ Counter 56.1 ¶ 626; see also Pls.’
Opp’n 17 (citing Savad Decl. Ex. 313, at 19 (“I agreed that
it would be wasteful for them to apply for a variance.”))),
suggesting that such an application would also be futile.
Third, Plaintiffs are unable to obtain a special use permit
for the rabbinical college, the mechanism by which houses
of worship and educational institutions are approved in
the Village, because, as discussed, the Challenged Laws
impose conditions on special use permits by limiting what

341a
Appendix C
qualifies as an “educational institution,” see Village Code
§ 130-10(F); see also Tartikov, 915 F. Supp. 2d at 604
(“[I]t is undisputed that the Village’s zoning authorities
would not have the discretion to issue a special use permit
for an unaccredited institution or to issue certain variances
under the Village’s Zoning code.”), and by restricting
development on or near wetlands, see Village Code § 1263. Accordingly, at a minimum, there is enough evidence to
suggest that whether Plaintiffs can successfully obtain a
change in the Challenged Laws, or variance from them, is
a question of fact subject to a resolution by a fact-finder.48
c. 	Strict Scrutiny
If Plaintiffs are able to prove that the Challenged
Laws were passed with a discriminatory purpose and
have a discriminatory effect, strict scrutiny would apply.
See United States v. Bannister, 786 F. Supp. 2d 617,
664 (E.D.N.Y. 2011) (“In cases involving alleged racial
discrimination, once a discriminatory purpose and a
discriminatory effect are shown, the law is subject to
strict scrutiny.”) While the Challenged Laws may be
justifiable under a rational basis test, they do not survive
strict scrutiny.
A compelling state interest involves “some substantial
threat to public safety, peace[,] or order,” Sherbert v.
48. While the Parties do not explicitly address the issue, the
same analysis applies to the prospect of the Congregation obtaining a
permit to build an access road within the buffer area of the wetlands
on the west side of the Subject Property, pursuant to Village Code
§ 126-3.

342a
Appendix C
Verner, 374 U.S. 398, 403, 83 S. Ct. 1790, 10 L. Ed. 2d
965 (1963), and includes only “interest of the highest
order,” WDS II, 504 F.3d at 353, and the “gravest abuses,”
Sherbert, 374 U.S. at 408. Given this high bar, courts have
held that “[a]esthetics,” traffic, and “community character”
are normally not compelling interests. See Westchester
Day Sch. v. Vill. Of Mamaroneck, 417 F. Supp. 2d 477,
554 (S.D.N.Y. 2006) (“[T]he visual impact of the [p]roject
does not implicate a compelling government interest.”),
aff’d, 504 F.3d 338 (2007); Clear Channel Outdoor, Inc.
v. Town Bd. of Town of Windham, 352 F. Supp. 2d 297,
304 (N.D.N.Y. 2005) (“[W]hile aesthetics and traffic safety
are regularly found to be substantial enough government
interests to support a content-neutral regulation, those
interests are rarely compelling enough to support a
content-based regulation.”); XXL of Ohio, Inc. v. City of
Broadview Heights, 341 F. Supp. 2d 765, 789-90 (N.D.
Ohio 2004) (holding that aesthetics and neighborhood
preservation are not sufficiently compelling interests
to withstand strict scrutiny analysis); Cottonwood
Christian Ctr. v. Cypress Redevelopment Agency, 218
F. Supp. 2d 1203, 1227-28 (C.D. Cal. 2002) (noting that
“aesthetic harm” is not “compelling”); Knoeffler v. Town
of Mamakating, 87 F. Supp. 2d 322, 330 (S.D.N.Y. 2000)
(“Even where the government has declared a policy of
promoting aesthetics and traffic safety, . . . restrictions
intended to accomplish those interests have failed to pass
strict scrutiny and have been struck down.”).
Defendants contend that the Challenged Laws were
passed “to retain [the Village’s] rural and residential
character” and because of a “lack of enthusiasm for high-

343a
Appendix C
intensity development.” (Defs.’ Mem. 23.) With regard to
the specific Challenged Laws: first, Defendants contend
that the Dormitory Law was passed to “minimize[] the
impact of a non-residential use in a single-family district,”
including the effect on traffic and storm-water systems,”
(id. at 25), and to comply with state law, (id. at 24-25).49
Defendants also claim they have a “compelling interest in
adding permission to have dormitories as accessory uses
to educational uses and a compelling interest in further
expanding opportunities for schools to have dormitories
by shifting the calculus from a per-student analysis to one
that is based on land use,” (id. at 26). Second, Defendants
maintain that the Wetlands Law was passed to protect
49. Specifically, Defendants contend that the Dormitory Law
was passed “in response to requirements in case law.” (Defs.’ 56.1
¶ 124.) The Village determined that the district court in Congregation
Mischknols Lavier Yakov, Inc. v. Bd. of Tr. of Vill. of Airmont, No.
02-CV-5642 (S.D.N.Y. filed July 19, 2002) “indicated that dormitories
could not be prohibited in relation to an educational use,” and that the
New York Court of Appeals in Cornell Univ. v. Bagnardi, 68 N.Y.2d
583, 503 N.E.2d 509, 510 N.Y.S.2d 861 (App. Div. 1986), “discussed the
special status afforded to educational institutions in land use cases
and set forth the factors to be considered by local governments when
reviewing applications for such uses.” (Defs.’ 56.1 ¶ 124.) Therefore,
Defendants contend that the Village changed its “per-student” lot
area requirement to ensure that “the entire educational institution
requirement [would not be] declared unconstitutional.” (Id. ¶ 125.)
Defendants further contend that they adopted the accreditation
requirement in order to “create a distinction between an educational
institution bearing the special status, required by the New York
Court of Appeals, and a commercial-type educational use, such as
an automotive school[,] which is not protected by the special status
standard,” and the village “preferred to avoid commercial-type
educational land use in Pomona.” (Id. ¶ 126.)

344a
Appendix C
wetlands that were not otherwise protected by state and
federal law, (Defs.’ Mem. 30), “to protect property and
infrastructures that can be severely damaged by severe
storms if not properly protected through appropriate
oversight and control of wetlands,” (id. at 29), i.e., “to make
sure they were not destroyed, for the health, safety, and
welfare of all the residents,” (id. at 31 (internal quotation
marks omitted)), and to “protect[] the waterways and
prevent[] flooding,” (id. at 32). Third, with regard to the
Accreditation Law, Defendants allege that Local Law 1
of 2001 was passed so that educational institutions would
require a special permit and so that their “density and
impacts on adjoining properties would be regulated,” (id.
at 32-33), and that the definition of educational institution
was expanded with Local Law 5 of 2004 to ensure it
“allowed accreditation from a broader, generic entity,”
(id. at 33). Defendants further contend that the “intent
behind the definition [of educational institution] and the
accreditation requirement was to ensure that only those
educational uses consistent with a residential and rural
area would be permitted, and that inconsistent uses would
not, e.g., automotive or other trade schools.” (Id. at 33.)
These explanations are insufficient to justify
granting summary judgment to Defendants. In general,
as discussed above, the stated aesthetic and community
character rationales are generally not compelling state
interests, and Defendants have not demonstrated that
these interests are so overwhelming or gravely threatened
by the institutions such as the proposed rabbinical college
to render them compelling. Defendants cite only one
case suggesting otherwise, Murphy v. Zoning Comm’n

345a
Appendix C
of Town of New Milford, 148 F. Supp. 2d 173 (D. Conn.
2001), which at best only cites contradictory precedent,
see id. at 189-90. Further, specifically with regard to the
Dormitory Law, while certain aspects of the law may be
justified by a need to comply with other laws, Defendants
offer no defense of the scope of the restrictions it contains
(for example, its ban on separate cooking, dining, or
housekeeping facilities). And, specifically with regard to
the Wetlands Law, while there is some evidence to suggest
a need for a wetlands law, (see, e.g., Aff. of Amanda Gordon
Ex. A, at 27 (noting that the Wetlands law is “critical and
necessary and is in keeping with municipal functions
in New York State as well as other national wetland
protection interests”), Defendants offer no evidence
beyond Ulman’s testimony, (see Defs.’ Mem. 30-31), as
to the nature of the threat to wetlands and the extent to
which the Village’s wetlands were not already protected
by state and federal law.
Nonetheless, even if the Challenged Laws were
justified by compelling interests, they would still fail
to pass strict scrutiny because they are not narrowly
tailored to serve those interests. See Turner Broad. Sys.
Inc. v. F.C.C., 512 U.S. 622, 664, 114 S. Ct. 2445, 129 L.
Ed. 2d 497 (1994) (noting that a municipality must show
“that the regulation will in fact alleviate [claimed] harms
in a direct and material way”). When “[t]he proffered
objectives are not pursued with respect to analogous nonreligious conduct, and those interests could be achieved by
narrower ordinances that burdened religious conduct to a
far lesser degree[,] [then] [t]he absence of narrow tailoring
suffices to establish the invalidity of the actions.” Lukumi,

346a
Appendix C
508 U.S. at 546; Jana-Rock Constr., Inc. v. N.Y.S. Dep’t
of Econ. Dev., 438 F.3d 195, 210 (2d Cir. 2006) (“Strict
scrutiny is applied in order to determine whether the harm
stemming from a particular decision . . . is justified”). 50
There are a variety of reasons why the Challenged Laws
arguably fail this test, as implied by the prior discussion
of discriminatory effect. Nonetheless, the Court recounts
a few below.
First, Defendants have admitted that a generalized
restriction on the intensity and size of development would
serve all of its allegedly compelling interests. (See Pls.’ 56.1
¶ 709; Defs.’ Counter 56.1 ¶ 709.) While, as noted above,
this is just the sort of generalized interest that does not
justify a burden on religious exercise, see Gonzales, 546
U.S. at 438, it also demonstrates that there is no reason
that Plaintiffs’ development implicates these interests
more than any other development.
50. Of note, Plaintiff repeatedly cites Holt v. Hobbs, 135 S. Ct.
853, 190 L. Ed. 2d 747 (2015) as governing Plaintiff’s facial challenge.
(See Pls.’ Mem. 34 (citing Holt, 135 S. Ct. at 863 (noting that RLUIPA
“requires the Government to demonstrate that the compelling
interest test is satisfied through application of the challenged law
to the person” (internal quotation marks omitted)).) While that case
concerned facial hair, it did not concern a facial challenge, or even
a constitutional challenge at all, and therefore does not provide the
proper standard to apply to facial challenges rooted in constitutional
rights, despite Plaintiffs’ insistence otherwise. See Holt, 135 S. Ct. at
853, 859 (“We hold that the Department’s policy, as applied in this
case, violates the Religious Land Use and Institutionalized Persons
Act of 2000 . . . .” (emphasis added)); Snodgrass v. Robinson, No.
14-CV-269, 2015 U.S. Dist. LEXIS 104864, 2015 WL 4743986, at *9,
*11 (W.D. Va. Aug. 10, 2015) (applying Holt only to the Plaintiff’s
as-applied challenge but not to his facial challenge).

347a
Appendix C
Second, as noted above in the context of the Wetlands
Law, Defendants admit that they commissioned no studies
or experts when examining the need for the Challenged
Laws, suggesting the allegedly compelling interests may
be an “afterthought effort to bolster a flimsily supported
decision,” Westchester Day School, 417 F. Supp. 2d at 554,
or “contrived for the sole purpose of rationalizing the”
Village’s decisions, Fortress Bible Church v. Feiner, 734
F. Supp. 2d 409, 505 (S.D.N.Y. 2010), aff’d by 694 F.3d 208
(2d Cir. 2012). (See also Pls. Mem. 35 (discussing the lack
of evidence generally), 38 (discussing the lack of evidence
for traffic concerns), 45 (discussing the lack of evidence
for noise concerns); Pls.’ 56.1 ¶¶ 742, 749, 821.)
Third, Village law already provides “several layers
of regulation” to protect the interests at issue through
operation of the special permit process for educational
institutions. (Pl.’s Mem. 36.) First, the Village Code provides
that the Board of Trustees may, “impose . . . restrictions
and regulations” on educational institutions to “minimize
traffic hazards, impairment of the use, enjoyment or value
of property in the surrounding area, or generally protect
the health, safety[,] and welfare of the neighborhood.” (Id.
at 37 (internal quotation marks omitted).) See also Village
Code § 130-10(F). Second, the Zoning Board of Appeals,
in approving individual special use permit applications,
may impose “reasonable conditions and restrictions as are
directly related to and incidental to the proposed special
use permit.” (Pls.’ Mem. 37 (internal quotation marks
omitted).) See also Village Code § 130-28(E)(1). Third, the
permitting Board may attach “additional conditions and
safeguards . . . to ensure initial and continual conformance

348a
Appendix C
to all applicable standards and requirements” including
“[t]he location and size of the special permit use, nature
and intensity of the operations involved in it or conducted
in connection with it,” and ensuring that the use does not
“change . . . the character of the neighborhood.” (Pls.’ Mem.
37 (internal quotation marks omitted).) See also Village
Code § 130-28(E)(6). Fourth, the Village Planning Board
can “impose such reasonable conditions and restrictions
as are directly related to and incidental to a proposed
site plan,” and cannot approve a site plan unless it takes
into account “public health, safety[,] and general welfare”
with respect to traffic, parking, and other aspects of
development, (Pls.’ Mem. 37 (internal quotation marks
omitted). See also Village Code § 119-3(B). Furthermore,
as alluded to above, Article 24 of the New York State
Environmental Conservation Law requires permitting
from the New York State Department of Environmental
Conservation for activity within 100 feet of designated
wetlands and wetlands that are “part of [the] ‘waters
of the United States’ are federally protected” by the
River and Harbors Act of 1899 and the Clean Water Act,
administered by the Army Corps of Engineers. (Second
Gordon Aff. Ex. A, at 8; Pls.’ Mem. 50-51.) It is not clear
from the record the extent to which the wetlands on the
Subject Property are covered by these laws. Accordingly,
it is unclear what compelling interests the Challenged
Laws uniquely serve.
Fourth, specifically with regard to traffic, while it is not
always foreclosed as a compelling interest, see Westchester
Day Sch. v. Vill. of Mamaroneck, 386 F.3d 183, 191 (2d Cir.
2004) (“WDS I”) (“We know of no controlling authority,

349a
Appendix C
either in the Supreme Court or any circuit[,] holding
that traffic problems are incapable of being deemed
compelling.”), Defendants’ only evidence connecting the
Challenged Laws to alleviating traffic concerns is that
“all dwelling units, by their nature, generate traffic.”
(Pls.’ Mem. 41 (citing Pls.’ 56.1 ¶ 791).) This explanation
is insufficient, particularly given, among other reasons,
there is evidence that the proposed rabbinical college
would be largely self-contained, generating little to no
traffic at all. (See Pls.’ 56.1 ¶¶ 805-06; Pls.’ Mem. 43.) See
also Congregation Etz Chaim v. City of L.A., Civ. No. 101587, 2011 U.S. Dist. LEXIS 158418, 2011 WL 12472550, at
*7 (C.D. Cal. July 11, 2011) (granting summary judgment
to the plaintiff where the defendant city “present[ed] no
evidence that any traffic or parking concerns actually
existed, nor that such concerns could not be mitigated in
such a way as to allow the Congregation’s use at the subject
property” (internal quotation marks omitted).)
Fifth, there is no reason to believe, nor any evidence
indicating, that accredited schools have a lesser impact
on traffic, aesthetics, or any other interest Defendants
claim, as compared to unaccredited schools. (See Decl.
of William D. Fitzpatrick ¶ 65 (Dkt. No. 152) (“[T]raffic
generation will be the same for an accredited facility
and a non-accredited facility with an equal number of
students.”.) Nor do Defendants offer any evidence that
automobile schools are not capable of being accredited.
(See Pls.’ 56.1 ¶ 759 (asserting that automobile schools
can be accredited).) Regardless, given there are no
accredited—or unaccredited—schools in the Village,
it is difficult to understand why accreditation suddenly

350a
Appendix C
became a concern for the Village, unless considered in
light of the growth of the Orthodox Hasidic community
in the Pomona area and the proposed rabbinical college.
(Pls.’ 56.1 ¶ 723.) See Cottonwood Christian Ctr. v.
Cypress Redev. Agency, 218 F. Supp. 2d 1203, 1225 (C.D.
Cal. 2002) (“At first blush, the [defendant] [c]ity’s concern
about blighting rings hollow. Why had the [defendant], so
complacent before [the plaintiff] purchased the [subject]
[p]roperty, suddenly burst into action? . . . [T]he activity
suggests that the [defendant] was simply trying to keep
[the plaintiff] out of the [c]ity, or at least from the use of
its own land.”). The same issue applies to the Dormitory
Law, as Defendants do not make clear why dormitories
with kitchens or housekeeping facilities pose any greater
threat to the environment or character of the Village than
more traditional, student-only dormitories.
What all of these concerns make clear is that the
justification for the discriminatory effect of the Challenged
Laws is hardly beyond dispute. The laws are structured
such that they arguably carve out Plaintiffs’ use with
questionable reasons for doing so, and general claims
that the Challenged Laws are “reasonable limitations so
that the expansion in the use would be consistent with the
rural and residential character of the community,” (Defs.’
Mem. 27), are insufficient. Accordingly, the Court finds
that Plaintiffs’ Equal Protection Claim survives summary
judgment.
5. 	Free Exercise (Claim 1)
Plaintiffs also bring a claim under the Free Exercise
Clause of the First Amendment. The First Amendment,

351a
Appendix C
which is applicable to the States by operation of the
Fourteenth Amendment, “prohibits the enactment of any
law prohibiting the free exercise of religion.” Bronx House
of Faith v. Cmty. Sch. Distr. No. 10, 127 F.3d 207, 216 (2d
Cir. 1997) (internal quotation marks omitted); see also
Hosanna-Tabor Evangelical Lutheran Church and Sch.
v. E.E.O.C., 565 U.S. 171, 132 S. Ct. 694, 702, 181 L. Ed. 2d
650 (2012) (“The First Amendment provides, in part that
‘Congress shall make no law respecting an establishment
of religion, or prohibiting the free exercise thereof.’”). “At
a minimum, the protections of the Free Exercise Clause
pertain if the law at issue discriminates against some or all
religious beliefs or regulates or prohibits conduct because
it is undertaken for religious reasons.” Lukumi, 508 U.S.
at 532 (alteration omitted); see also Commack, 680 F.3d at
210 (same). It is not a violation of the Free Exercise Clause,
however, to enforce a generally applicable rule, policy, or
statute that incidentally burdens a religious practice, as
long as the government can “demonstrate a rational basis
for [the] enforcement” of the rule, policy, or statute, and
the burden is only an incidental effect, rather than the
object, of the law. Fifth Ave. Presbyterian Church v. City
of N.Y., 293 F.3d 570, 574 (2d Cir. 2002); see also Emp’t.
Div., Dep’t of Human Res. of Or. v. Smith, 494 U.S. 872,
878-79, 110 S. Ct. 1595, 108 L. Ed. 2d 876 (1990) (explaining
that enforcement of a neutral law of general applicability
does not offend the Free Exercise Clause), superseded by
statute on other grounds, 42 U.S.C. § 2000bb et seq., as
recognized by Holt v. Hobbs, 135 S. Ct. at 859.
Thus, to state a free exercise claim under the
aforementioned Lukumi standard, a plaintiff must

352a
Appendix C
establish that “the object of [the challenged] law is to
infringe upon or restrict practices because of their
religious motivation,” or that the law’s “purpose . . . is the
suppression of religion or religious conduct.” Lukumi, 508
U.S. at 533. Such a law is subject to strict scrutiny review,
and it “will survive strict scrutiny only in rare cases.”
Id. at 546; see also Smith, 494 U.S. at 890 (noting that a
facially neutral, generally applicable law is only subject
to rationality review); Fifth Ave., 293 F.3d at 574 (noting
rational basis review applies when a burden on religion is
incidental to, rather than the object of, the law at issue).
“To determine the object of a law, [the Court] must
begin with its text, for the minimum requirement of
neutrality is that a law not discriminate on its face.”
Lukumi, 508 U.S. at 533. But, even if neutral on its face,
a law may still run afoul of the Free Exercise Clause if
it “targets religious conduct for distinctive treatment.”
Id. at 534 (“Facial neutrality is not determinative.”). As
the Supreme Court has cautioned, the Free Exercise
Clause “forbids subtle departures from neutrality,”
Gillette v. United States, 401 U.S. 437, 452, 91 S. Ct.
828, 28 L. Ed. 2d 168 (1971), and “covert suppression
of particular religious beliefs,” Bowen, 476 U.S. at 703;
see also Lukumi, 508 U.S. at 534 (“Official action that
targets religious conduct for distinctive treatment cannot
be shielded by mere compliance with the requirement
of facial neutrality. The Free Exercise Clause protects
against governmental hostility which is masked, as well
as overt.”). In this regard, courts may find “guidance”
in Equal Protection jurisprudence, which, among other
things, requires consideration of direct and circumstantial

353a
Appendix C
evidence regarding the goals of those who enacted
the law in question. Lukumi, 508 U.S. at 540. Indeed,
“[r]elevant evidence includes . . . the historical background
of the decision under challenge, the specific series of
events leading to the enactment or official policy in
question, and the legislative or administrative history,
including contemporaneous statements made by the
decisionmaking body.” Id. Another measure of a law’s
object is the temporal proximity between the perceived
land use and the adoption of the regulation of that use. See
Vision Church v. Vill. of Long Grove, 468 F.3d 975, 999
(7th Cir. 2006) (suggesting that the “temporal proximity
between [the plaintiff’s] dispute with the [defendant] [v]
illage over a special use permit and the enactment of the
[o]rdinance” at issue was evidence of the purpose of the
ordinance). Based on these factors, “if the object of a law
is to infringe upon or restrict practice because of their
religious motivation, the law is not neutral.” Lukumi, 508
U.S. at 533.
As the Court indicated in its 2013 Opinion and Order,
“it is . . . debatable that the above-mentioned animosity to
the rabbinical college stemmed from ‘legitimate concern[s]
. . . for reasons quite apart from discrimination.’” Tartikov,
915 F. Supp. 2d at 621 (alterations in original) (quoting
Lukumi, 508 U.S. at 535). The question here, then, is
whether the record reveals a nefarious motive for the
Challenged Laws. Before reaching that question, however,
the Court notes that Defendants contend once again, in
the context of Plaintiffs’ free exercise claim, that housing
is not eligible for free exercise protection because it is
not a religious use. (See, e.g., Defs.’ Mem. 2.) However, at
least in the context of RLUIPA, the Court has already

354a
Appendix C
found that “the building of rabbinical college,” of which
student housing would be a part, “falls squarely within
[the] definition of ‘religious exercise,’” and that “the
multi-family dormitories that [Plaintiffs] seek to build
are intended to facilitate religious exercise.” Tartikov, 915
F. Supp. 2d at 629. The same analysis is applicable here.
Because the definition of religious exercise is quite broad,
see WDS I, 386 F.3d at 186 (holding that religious exercise
is “any exercise of religion, whether or not compelled by, or
central to, a system of religious belief” and that “the use,
building, or conversion of real property for the purpose
of religious exercise shall be considered . . . religious
exercise.”), accessory housing, and particularly accessory
housing that is intended to be the center of religious
learning and teaching, is arguably religious exercise,
see WDS II, 504 F.3d at 348 (noting that the correct
inquiry to determine whether an educational facility is
covered as “religious exercise” by RLUIPA is whether it
“would be used at least in part for religious education and
practice”); see also Fifth Ave, 293 F.3d at 574-75 (finding
provision of a location for homeless to sleep to be religious
exercise); Candlehouse, Inc. v. Town of Vestal, No. 11CV-93, 2013 U.S. Dist. LEXIS 63353, 2013 WL 1867114,
at *18 (N.D.N.Y. May 3, 2013) (noting that there was
sufficient evidence to support a finding that the residential
component of a religious ministry for substance abuse to
be religious exercise); Bikur Cholim, 664 F. Supp. 2d at 276
(holding that operation “of a facility to enable observant
individuals to visit the sick on the Sabbath and holidays as
well as the other individual plaintiff’s [sic] obligations to
observe the Sabbath while being able to visit their family
members at [a nearby hospital] implicates their religious

355a
Appendix C
exercise”). Thus, there is sufficient evidence in the record
to conclude that the housing at issue here is “inextricably
integrated with, and necessary for [Plaintiffs’] ability to
provide, religious education and practice, i.e., engage in
‘religious exercise.’” Westchester Day Sch., 417 F. Supp.
2d at 545-46. Accordingly, the rabbinical college, in its
entirety, is at least arguably deserving of free-exercise
protections.
At the outset, as discussed in the next section in
more detail, the Court notes that each of the Challenged
Laws is facially neutral. As Defendants repeatedly point
out, and as the Court previously found, the Challenged
Laws, on their face, apply to all development projects and
educational institutions. Tartikov, 915 F. Supp. 2d at 621;
see also id. at 615 (“[T]he Challenged Laws are facially
neutral with respect to religion (and race).”). Accordingly,
absent any other evidence, only intermediate scrutiny
would apply. (See Pls.’ Mem. 27.) See also Turner Broad.,
512 U.S. at 662 (noting that “the intermediate level of
scrutiny [is] applicable to content-neutral restrictions that
impose an incidental burden on speech”); Mastrovincenzo
v. City of N.Y., 435 F.3d 78, 98 (2d Cir. 2006) (“Regulations
that . . . are . . . content-neutral . . . trigger intermediate,
rather than strict, scrutiny.”); Hobbs v. Cty. of Westchester,
397 F.3d 133, 149 (2d Cir. 2005) (“[A] less stringent
test—applying ‘intermediate scrutiny’—is applicable to
regulations of expressive activity that are not based on
content.”). However, as discussed above, Plaintiffs have
offered sufficient evidence to raise a question of material
fact as to whether the Challenged Laws were passed with
a discriminatory purpose—to infringe on Plaintiffs’ free

356a
Appendix C
exercise of religious beliefs. This renders the Challenged
Laws non-neutral and therefore subject to strict scrutiny.
See Lukumi, 508 U.S. at 533 (“[I]f the object of a law is
to infringe upon or restrict practices because of their
religious motivation, the law is not neutral.”). And, for the
reasons discussed in the previous section, a reasonable
jury could find that the Challenged Laws do not pass strict
scrutiny. Accordingly, summary judgment is denied as to
Plaintiffs’ free exercise claim.
6. 	Free Speech (Claim 2)
In their second cause of action, Plaintiffs allege that
the Challenged Laws violate Plaintiffs’ right to free speech
under the First Amendment. Plaintiffs move for summary
judgment “to the extent that [the] claim[] does not involve
issues of discriminatory motivation,” (Pls.’ Mem. 4), and
Defendants cross-move for summary judgment.
“When conducting First Amendment [free speech]
analysis, courts examine challenged governmental
regulations to discern whether they are content based or
content neutral since ‘the scope of protection for speech
generally depends on whether the restriction is imposed
because of the content of the speech.’” Bd. of Managers
of Soho Int’l Arts Condo. v. City of N.Y., No. 01-CV-1226,
2004 U.S. Dist. LEXIS 17807, 2004 WL 1982520, at *10
(S.D.N.Y. Sept. 8, 2004) (quoting Universal City Studios,
Inc. v. Corley, 273 F.3d 429, 450 (2d Cir. 2001)). Indeed,
this inquiry is “critical, because it informs the level of
scrutiny the regulation should receive. Content-based
restrictions are viewed as presumptively invalid and are
subject to strict scrutiny.” Tartikov, 915 F. Supp. 2d at 623.

357a
Appendix C
Generally, if a law is content-based, “strict scrutiny
applies and the municipality must show that the regulation
is necessary to serve a compelling state interest and that
it is narrowly drawn to achieve that end.” Sugarman v.
Vill. of Chester, 192 F. Supp. 2d 282, 291-92 (S.D.N.Y.
2002) (internal quotation marks omitted); see also Reed
v. Town of Gilbert, 135 S. Ct. 2218, 2226, 192 L. Ed. 2d
236 (2015) (“Content-based laws . . . are presumptively
unconstitutional and may be justified only if the
government proves that they are narrowly tailored to
serve compelling state interests.”). By contrast, contentneutral restrictions are subject to intermediate scrutiny,
whereby “the government may impose reasonable time,
place[,] and manner restrictions on speech as long as
they are content neutral, narrowly tailored to serve a
significant government interest[,] and leave open ‘ample
channels for communication.’” Sugarman, 192 F. Supp.
2d at 292 (quoting Ward v. Rock Against Racism, 491
U.S. 781, 791, 109 S. Ct. 2746, 105 L. Ed. 2d 661 (1989));
see also Vincenty v. Bloomberg, 476 F.3d 74, 84 (2d Cir.
2007) (“The appropriate standard by which to evaluate
the constitutionality of a content-neutral regulation
that imposes only an incidental burden on speech is the
intermediate level of scrutiny.”); Lusk v. Vill. of Cold
Spring, 475 F.3d 480, 495 n.16 (2007) (“Content-neutral
criteria for political and other signage that are sufficiently
objective and precise, and that permit residents to
engage in some form of spontaneous speech, have been
held to be constitutionally permissible.”). Of note, “[t]he
First Amendment’s hostility to content-based regulation
extends not only to restrictions on particular viewpoints,
but also to prohibition of public discussion on an entire

358a
Appendix C
topic.” Consol. Edison Co., Inc. v. Publ. Serv. Comm’n,
447 U.S. 530, 537, 100 S. Ct. 2326, 65 L. Ed. 2d 319 (1980);
Hobbs, 397 F.3d at 148 (same).
“The principal inquiry in determining content
neutrality . . . is whether the government has adopted a
regulation of speech because of disagreement with the
message it conveys . . . . A regulation that serves purposes
unrelated to the content of expression is deemed neutral,
even if it has an incidental effect on some speakers or
messages but not others.” Ward, 491 U.S. at 791; Tunick
v. Safir, 209 F.3d 67, 91 (2d Cir. 2000) (same). “Government
regulation of speech is content based if a law applies
to particular speech because of the topic discussed or
message expressed.” Reed, 135 S. Ct. at 2227. “As a
general rule, laws that by their terms distinguish favored
speech from disfavored speech on the basis of the ideas or
views expressed are content based,” Turner Broad., 512
U.S. at 643. In other words, “[a]n ordinance is contentbased when the content of the speech determines whether
the ordinance applies,” Sugarman, 192 F. Supp. 2d at
292. By contrast, “government regulation of expressive
activity is content neutral so long as it is justified without
reference to the content of the regulated speech.” Time
Warner, 729 F.3d at 155 (emphasis and internal quotation
marks omitted).
As noted above, each of the challenged laws is facially
neutral as to content. See Tartikov, 915 F. Supp. 2d at 621.
See also id. at 615 (“[T]he Challenged Laws are facially
neutral with respect to religion (and race).”). However,
because there is a question of material fact as to whether

359a
Appendix C
the laws were passed with a discriminatory purpose,
it is unclear if intermediate or strict scrutiny applies.
See Lukumi, 508 U.S. at 533 (“[I]f the object of a law is
to infringe upon or restrict practices because of their
religious motivation, the law is not neutral.”). The Court
need not reach this issue with respect to Plaintiffs’ free
speech claim, however, because it finds that Plaintiffs’ have
not established that they have a viable free speech claim.
The Court previously held that Plaintiffs had barely
“pled enough facts to establish that the rabbinical college
would engage in and foster expressive conduct.” Tartikov,
915 F. Supp. 2d at 625; see also Kleindienst v. Mandel,
408 U.S. 753, 762, 92 S. Ct. 2576, 33 L. Ed. 2d 683 (1972)
(discussing the “First Amendment right to ‘receive
information and ideas’”). The Court also noted that
while simply limiting potential locations of the proposed
rabbinical college in the Village would likely not violate
the Free Speech Clause of the First Amendment, see
Merrimack Congregation of Jehovah’s Witnesses v. Town
of Merrimack, No. 10-CV-581, 2011 U.S. Dist. LEXIS
36090, 2011 WL 1236133, at *4 (D.N.H. Mar. 31, 2011)
(“Courts have held that, absent other expressive conduct,
limitations on the geographical location of a religious
institution do not implicate the right to free expression
under the First Amendment.”); Grace Church of Roaring
Fork Valley v. Bd. of Cty. Comm’n. of Pitkin Cty., 742 F.
Supp. 2d 1156, 1167 (D. Colo. 2010) (noting that “denial
of the [plaintiff’s] proposal to build a worship facility
at a particular location did not improperly regulate the
[plaintiff’s] dissemination of its religious message”); see
also Christian Coll. v. City of Morgan Hill, 360 F.3d

360a
Appendix C
1024, 1037 (9th Cir. 2004) (finding town’s refusal to rezone
site designated for hospital to religious affiliated college
did not violate the Free Speech Clause); Town of Islip v.
Caviglia, 73 N.Y.2d 544, 540 N.E.2d 215, 222, 542 N.Y.S.2d
139 (App. Div. 1989) (finding zoning ordinance that
limited the location of certain land uses did not violate the
plaintiff’s free speech rights), here the Challenged Laws
arguably prevent Plaintiffs from building the rabbinical
college anywhere in the Village, see Tartikov, 915 F. Supp.
2d at 626. The Court thus focuses not on whether the
Challenged Laws prevent the construction of a rabbinical
college, but rather on whether the act of constructing a
rabbinical college is free speech at all.
Defendants, citing the same two cases they cited at
the motion to dismiss stage, see id. at 624, contend that
constructing a rabbinical college is not an act of free
speech but instead only implicates the Free Exercise
Clause, (see Defs.’ Mem. 52 (“[T]he act of building a house
of worship, let alone a religious school[,] does not implicate
the Free Speech Clause; instead, courts analyze zoning
regulations limiting such construction under the Free
Exercise Clause, which addresses religiously motivated
conduct.” (citing Tenafly Eruv Ass’n, Inc. v. Borough
of Tenafly, 309 F.3d 144, 163 (3d Cir. 2002) (finding that
“the act of erecting a wall separating the interior of a
building from the secular world” does not constitute
speech); San Jose Christian College v. City of Morgan
Hill, 360 F.3d at 1032 (9th Cir. 2004) (finding religious
college’s desire to educate was not speech)). Plaintiffs,
by contrast, encourage a broad view of the concept of
speech, claiming, in principal, that the proposed rabbinical

361a
Appendix C
college is designed to “foster the expression of certain
ideas among and between faculty members and students.”
Tartikov, 915 F. Supp. 2d at 625; see also Adhi Parasakthi
Charitable, Med., Edu., and Cultural Soc’y v. Twp. of West
Pikeland, 721 F. Supp. 2d 361, 374 (E.D. Pa. 2010) (“The
act of worshipping . . . inherently communicates something
to others about that individual’s views on society, life, and
other more philosophical subjects . . . . [T]he use of the
land as a place of worship allows an individual’s conduct
to communicate these thoughts with other members of
the congregation.”); id. at 372 (“Expressive conduct will
constitute protected speech if the conduct is imbued with
elements of communication, given the factual context of
the conduct.” (internal quotation marks omitted)).
The case law supports a broad view of what can be
considered speech. See, e.g., Kleindienst, 408 U.S. at
762-63 (discussing “First Amendment right to receive
information and ideas”); Bd. of Tr. of SUNY v. Fox,
492 U.S. 469, 473-74, 109 S. Ct. 3028, 106 L. Ed. 2d 388
(1989) (finding “Tupperware parties” to be speech); Adhi
Parasakthi, 721 F. Supp. 2d at 372, 374 (noting that an
“act of worship is communicative,” and that it must be
“imbued with elements of communication”). Indeed, the
word “speech” itself in the First Amendment “is not
construed literally, or even limited to the use of words.”
Tenafly, 309 F.3d at 158. Further, the Court previously
distinguished the two cases Defendants cite—San Jose
Christian and Tenafly. Tartikov, 915 F. Supp. 2d at 624-25.
San Jose is distinguishable because, unlike the plaintiff in
that case, Plaintiffs here alleged that the Village’s action
was motivated by discrimination. Id. at 624. Plaintiffs,

362a
Appendix C
as discussed above, now have evidence supporting this
allegation, and so the case remains distinguishable.
Tenafly is also distinguishable, as the court in that case
found that construction of a religious boundary “did not
communicate any idea or message; rather, it served only
a ‘purely functional purpose.’” Tartikov, 915 F. Supp. 2d
at 625 (quoting Tenafly, 309 F.3d at 164). The construction
of the boundary “allowed [Orthodox Jews] to engage in
certain activities on the Sabbath” that were “’otherwise
forbidden,’” e.g., pushing baby strollers. Id. at 624-25
(quoting Tenafly, 309 F.3d at 152, 162). By contrast, the
construction of the rabbinical college does not just enable
Orthodox Jews to practice everyday activities in ways
that are consistent with their religion, but rather directly
enables religious education and worship. The question is,
then, whether an action that facilitates speech can be an
act of speech itself.
On the basis of Plaintiffs’ pleadings, the Court
previously answered this question in the affirmative.
Now that evidence has been gathered and provided to the
Court, however, the Court is persuaded that the fact that
building a rabbinical college might enable religious speech
does not render its construction speech itself. See Adhi
Parasakthi, 721 F. Supp. 2d at 373-74 (“[I]n the absence
of evidence supporting a contrary conclusion, the building
of a place of worship will not be considered expressive
conduct protected by the Free Speech Clause.”); cf. City
Council of L.A. v. Taxpayers for Vincent, 466 U.S. 789,
814, 104 S. Ct. 2118, 80 L. Ed. 2d 772 (1984) (“[T]he mere
fact that government property can be used as a vehicle
for communication does not mean that the Constitution

363a
Appendix C
requires such uses to be permitted.”). On this point, the
Third Circuit has bluntly explained that if “every religious
group that wanted to challenge a zoning regulation
preventing them from constructing a house of worship
could” claim a violation of free speech, it would be “so
astonishing that [the Third Circuit is] unaware of any
court—or even law review article—that has suggested
it.” Tenafly, 309 F.3d at 163; see also id. (“Otherwise, the
act of constructing houses of worship would implicate the
Free Speech Clause, whereas courts consistently analyze
the constitutionality of zoning regulations limiting such
construction under the Free Exercise Clause, not the Free
Speech Clause.”).51 While Plaintiffs have offered evidence
as to the expressive conduct they hope to engage in after
the rabbinical college is built, Plaintiffs have not offered
“any evidence to attempt to show that the building itself
will convey some attitude or belief,” Adhi Parasakthi,
721 F. Supp. 2d at 374, nor have they made any argument
or showing that the building of a rabbinical college is an
“indispensable instrument[] of effective public speech,”
Saia v. People of State of N.Y., 334 U.S. 558, 561, 68 S.
Ct. 1148, 92 L. Ed. 1574 (1948). Therefore, the Court
“cannot find any violation of the First Amendment’s Free
51. The Tenafly court made clear that “courts consistently
analyze the constitutionality of zoning regulations limiting [the]
construction of houses of worship under the Free Exercise Clause,
not the Free Speech Clause.” Tenafly, 309 F.3d at 163 (citing City
of Boerne v. Flores, 521 U.S. 507, 534, 117 S. Ct. 2157, 138 L. Ed. 2d
624 (1997); Messiah Baptist Church v. Cty. of Jefferson, 859 F.2d 820,
823-26 (10th Cir. 1988); Lakewood, Ohio Congregation of Jehovah’s
Witnesses, Inc. v. City of Lakewood, 699 F.2d 303, 307-08 (6th Cir.
1983); Church of Jesus Christ of Latter—Day Saints v. Jefferson
Cty., 741 F. Supp. 1522, 1527-34 (N.D. Ala. 1990)).

364a
Appendix C
Speech Clause.” Adhi Parasakthi, 721 F. Supp. 2d at 374.
Accordingly, the Court grants Summary Judgment to
Defendants on Plaintiffs’ free speech claim and denies
Plaintiffs’ Motion for Summary Judgment as to this
claim. 52
7. 	Free Association (Claim 3)
In their third cause of action, Plaintiffs allege that
the Challenged Laws violate Plaintiffs’ right to free
exercise of religion under the First Amendment. As
with Plaintiffs’ Free Speech claim, Plaintiffs’ once again
move for summary judgment insofar as the claim does
not involve discriminatory motivation, (Pls.’ Mem. 4), and
Defendants cross-move for summary judgment.

52. In Adhi Parasakthi, the court found that the plaintiffs’
desire to use land for worship and an annual religious festival was
protected by the First Amendment. 721 F. Supp. 2d at 374. Here,
however, Plaintiffs, offer no evidence that they intend to use the land
for any other expressive activity that is foreclosed by the Challenged
Laws. Rather, all of the claimed speech is contingent on construction
of the rabbinical college.
Plaintiffs also suggest that, if the Court accepts Defendants’
argument that the laws can simply be amended, the Challenged
Laws are a prior restraint on speech because they afford unbridled
discretion to Defendants. (See Pls.’ Opp’n 20-22; Defs.’ Opp’n 35-36.)
The Court need not address this argument because Plaintiffs’ have
failed to establish a viable free speech claim. See Adhi Parasakthi,
721 F. Supp. 2d at 374 (rejecting claim that defendant town’s conduct
was a “prior restraint” because the construction of a Hindu temple
was not speech).

365a
Appendix C
In addition to Freedom of Speech, the First Amendment
also protects the Freedom of Association. See Baird v.
State Bar of Ariz., 401 U.S. 1, 6, 91 S. Ct. 702, 27 L. Ed.
2d 639 (1971). The Supreme Court has “identified two
types of ‘freedom of association’ that merit constitutional
protection: (i) ‘choices to enter into and maintain certain
intimate human relationships’ and (ii) association ‘for
the purpose of engaging in those activities protected by
the First Amendment.’” URI Student Senate v. Town of
Narragansett, 631 F.3d 1, 12-13 (1st Cir. 2011) (quoting
Roberts v. U.S. Jaycees, 468 U.S. 609, 617-18, 104 S. Ct.
3244, 82 L. Ed. 2d 462 (1984)); see also Sanitation &
Recycling Indus., Inc. v. City of N.Y., 107 F.3d 985, 995-96
(2d Cir. 1997) (same); AK Tournament Play, Inc. v. Town
of Wallkill, No. 09-CV-10579, 2011 U.S. Dist. LEXIS 4873,
2011 WL 197216, at *2 (S.D.N.Y. Jan. 19, 2011) (same).
In evaluating a free association claim, “[t]he first
question . . . is whether and to what extent [the] defendants’
actions burdened that right.” Tabbaa v. Chertoff, 509 F.3d
89, 100 (2d Cir. 2007). “To be cognizable, the interference
with associational rights must be direct and substantial or
significant,” rather than simply make it “more difficult”
for Plaintiffs “to exercise their freedom of association.”
Fighting Finest, Inc. v. Bratton, 95 F.3d 224, 228 (1996)
(internal quotation marks omitted). Plaintiffs contend
that they seek to “pass[] knowledge from teacher and
mentor to student, student to student, and student to
children . . . throughout all the facilities of the proposed
rabbinical college.” (Pls. Opp’n 22 (citing Tabbaa, 509 F.3d
at 101 (discussing protected right of expression “through
association at” an Islamic conference).) The connection is

366a
Appendix C
more direct than with respect to Plaintiffs’ free speech
rights; Plaintiffs’ arguably cannot associate at all in the
context of their rabbinical studies, see Tartikov, 915 F.
Supp. 2d at 627, because the venue of that association—
the rabbinical college—is arguably foreclosed by the
Challenged Laws. Indeed, even if Plaintiffs could
“associate” elsewhere, the locational burden is sufficient
to state a claim, see LeBlanc-Sternberg, 781 F. Supp. at
269 (finding that the plaintiffs had standing to bring a free
association claim when they alleged that the defendant
village incorporated “to prevent the Orthodox Jewish
community from establishing a synagogue in the village,”
causing other Orthodox Jews to “hesitate[] to move into
the [] area.”).
“Having found a cognizable burden,” the second
question is “the appropriate level of scrutiny to employ
in evaluating [the] defendants’ actions.” Tabbaa, 509 F.3d
at 102. “[A]n infringement on associational rights is not
unconstitutional so long as it serves compelling state
interests, unrelated to the suppression of ideas, that
cannot be achieved through means significantly restrictive
of associational freedoms.” Id. (brackets and internal
quotation marks omitted). As discussed above, taking
the facts in the light that is most favorable to Plaintiffs,
a reasonably jury could conclude that Defendants’ stated
interests are not compelling, and that the Challenged
Laws are not narrowly tailored to serve those interests.
On the other hand, as discussed in the next section,
taking the facts in the light most favorable to Defendants,
it is plausible that the Challenged Laws do not burden
Plaintiffs’ associational rights because they arguably

367a
Appendix C
may still build, and associate at, a rabbinical college in
the Village, just not one of the exact design they desire.
That is an issue for a jury, and not the Court, to sort out.
Accordingly, summary judgment is denied to both Parties
as to this claim.
8. 	RLUIPA Claims
a. 	Substantial Burden (Claim 5)
i. 	Substance of Claim
In their fifth claim, Plaintiffs assert that Defendants
have violated RLUIPA by unlaw fully imposing a
substantial burden on their religion. The Parties have
filed Cross-Motions for summary judgment on this claim.
The Substantial Burden provision of RLUIPA
prohibits a governmental entity from applying
a land use regulation “in a manner that
imposes a substantial burden on the religious
exercise of a person . . . or institution, unless
the government demonstrates that imposition
of the burden . . . is in furtherance of a
compelling governmental interest; and . . . [the
burden imposed] is the least restrictive means
of furthering that compelling governmental
interest.”
WDS I, 386 F.3d at 189 (alterations in original) (quoting
§ 2000cc(a)(1)); see also Fortress Bible, 694 F.3d at 218-

368a
Appendix C
19. This provision “backstops the explicit prohibition of
religious discrimination in the later section of [RLUIPA],
much as the disparate-impact theory of employment
discrimination backstops the prohibition of intentional
discrimination.” Sts. Constantine & Helen Greek
Orthodox Church, Inc. v. City of New Berlin, 396 F.3d
895, 900 (7th Cir. 2005). Thus, for example, “[i]f a land
use decision . . . imposes a substantial burden on religious
exercise . . . and the decision maker cannot justify it, the
inference arises that hostility to religion, or more likely
to a particular sect, influenced the decision.” Id.
“The statute defines ‘religious exercise’ to include
‘any exercise of religion, whether or not compelled by,
or central to, a system of religious belief,’ and provides
further that ‘[t]he use, building, or conversion of real
property for the purpose of religious exercise shall be
considered . . . religious exercise.’” WDS I, 386 F.3d at
186 (alterations in original) (quoting 42 U.S.C. § 2000cc5(7)(A), (B)); see also Sts. Constantine & Helen, 396 F.3d
at 900 (same). “Religious exercise” under RLUIPA is
defined broadly “’to the maximum extent permitted by
the terms of this chapter and the Constitution.’” WDS II,
504 F.3d at 347 (quoting 42 U.S.C. § 2000cc-3(g)); see also
Bikur Cholim, 664 F. Supp. 2d at 275, 288 (same). On this
basis, the Court previously found that “the building of a
rabbinical college, with the alleged purpose of training
rabbinical judges for religious courts,” together with
the multi-family dormitories, “falls squarely within this
definition of ‘religious exercise.’” Tartikov, 915 F. Supp.
2d at 629 ; see also id. (“[T]he multi-family dormitories
that [Plaintiffs] seek to build are intended to facilitate

369a
Appendix C
religious exercise, thus bringing this accessory use
within RLUIPA’s protections.”). Particularly in light
of the Court’s discussion of the religious aspect of the
proposed multi-family housing above, the Court sees no
reason to disturb this ruling. Cf. Yonkers Racing Corp.
v. City of Yonkers, 858 F.2d 855, 869-70 (2d Cir. 1988)
(“Seminary grounds . . . form an ‘apron’ of quietude
. . . and contribute to the ‘atmosphere of quiet reflection’
essential to the ‘academic, spiritual, psychological[,] and
pastoral preparation of young men for the priesthood.”).
Accordingly, Plaintiffs’ desire to build the proposed
rabbinical college is a religious exercise.
While RLUIPA does not itself define the phrase
“substantial burden,” the Second Circuit has held that
a land use regulation constitutes a “substantial burden”
within the meaning of RLUIPA if it “directly coerces the
religious institution to change its behavior.” WDS II, 504
F.3d at 349 (emphasis in original). “The burden must have
more than a minimal impact on religious exercise, and
there must be a close nexus between the two.” Fortress
Bible, 694 F.3d at 219. Among the types of burdens the
courts have found to be minimal, and hence not protected
by RLUIPA, are facially neutral permit and variance
requirements. Thus, courts have regularly found that
zoning ordinances that merely require religious institutions
to go through a routine permit or variance application
process do not run afoul of RLUIPA. See, e.g., id. (“A denial
of a religious institution’s building application is likely
not a substantial burden if it leaves open the possibility
of modification and resubmission.”); Konikov v. Orange
Cty., 410 F.3d 1317, 1323 (11th Cir. 2005) (“[R]equiring

370a
Appendix C
applications for variances, special permits, or other relief
provisions [does] not offend RLUIPA’s goals.”); San Jose,
360 F.3d at 1035-36 (holding that a city’s requirement
that the plaintiff refile a “complete “ permit application
did not constitute a substantial burden); Civil Liberties
for Urban Believers v. City of Chicago, 342 F.3d 752, 76162 (7th Cir. 2003) (“CLUB”) (finding that “the scarcity of
affordable land available for development in R zones, along
with the costs, procedural requirements, and inherent
political aspects of the Special Use, Map Amendment, and
Planned Development approval processes” did not impose
substantial burden on religious institutions); Roman
Catholic Bishop of Springfield v. City of Springfield, 760
F. Supp. 2d 172, 187 (D. Mass. 2011) (finding that a routine
application process did not violate RLUIPA), vacated in
part on other grounds, 724 F.3d 78 (1st Cir. 2013); Hale
O Kaula Church v. Maui Planning Comm’n, 229 F. Supp.
2d 1056, 1071 (D. Haw. 2002) (holding that laws requiring
special use permits did not impose a substantial burden
on religious institution). Indeed, to exempt religious
institutions from the normal permit/variance process
would result in favoring these institutions, something
which neither RLUIPA nor the Free Exercise Clause
more generally require (and which the Establishment
Clause might prohibit). See CLUB, 342 F.3d at 762
(“Otherwise, compliance with RLUIPA would require
municipal governments not merely to treat religious land
uses on an equal footing with nonreligious land uses, but
rather to favor them in the form of an outright exemption
from land-use regulations . . . . [N]o such free pass for
religious land uses masquerades among the legitimate
protections RLUIPA affords to religious exercise.”);

371a
Appendix C
WDS I, 386 F.3d at 189 (“As a legislative accommodation
of religion, RLUIPA occupies a treacherous narrow zone
between the Free Exercise Clause, which seeks to assure
that government does not interfere with the exercise of
religion, and the Establishment Clause, which prohibits
the government from becoming entwined with religion in
a manner that would express preference for one religion
over another, or religion over irreligion.”).
While RLUIPA does not exempt religious institutions
from complying with facially neutral permit and variance
applications procedures, it does not wholly exempt zoning
laws from scrutiny. Rather, RLUIPA protects religious
institutions from land use regulations that substantially
affect their ability to use their property in the exercise
of their religion. See Fortress Bible, 694 F.3d at 218
(“[T]o hold that PLUIPA is inapplicable to what amounts
to zoning actions taken in the context of a statutorily
mandated environmental quality review would allow towns
to insulate zoning decisions from RLUIPA review . . . .
[The court] decline[s] to endorse a process that would allow
a town to evade RLUIPA by what essentially amounts to a
re-characterization of its zoning decisions.”). For example,
courts have held zoning ordinances, or zoning decisions,
that significantly lessen the prospect of a religious
institution’s being able to use the property to further its
religious mission contravene RLUIPA. See Guru Nanak
Sikh Soc’y of Yuba City v. Cty. of Sutter, 456 F.3d 978, 992
(9th Cir. 2006) (holding that the defendant county’s two
denials of variance permits, under the circumstances, had
“to a significantly great extent lessened the prospect of
[the religious institution] being able to construct a temple

372a
Appendix C
in the future,” thus imposing a “substantial burden” on
the religious institution’s “religious exercise”); Roman
Catholic Diocese of Rockville Centre v. Inc. Vill. of Old
Westbury, No. 09-CV-5195, 2012 U.S. Dist. LEXIS 56694,
2012 WL 1392365, at *8 (E.D.N.Y. Apr. 23, 2012) (upholding
plaintiff’s facial challenge to zoning law because plaintiff
had adequately alleged that the “conditions imposed by
the [law] would significantly restrict the [plaintiff’s] use
of their Property for religious burial purposes”). Courts
have also held that zoning schemes that impose conditions
on the use of the property, such as limitations on the
size of the facilities that can permissibly be used by the
religious institution, can impose a substantial burden.
See Chabad Lubavitch, 796 F. Supp. 2d at 343 (finding
substantial burden allegations sufficient based on claims
that municipality limited plaintiff’s expansion to an area
17,000 square feet smaller than plaintiff proposed, and
describing that “if [the plaintiff] conformed its plans to
the [municipality’s] specification, it would need to sacrifice
a good portion of the spaces that it believes is necessary
to the exercise of its religion”); Cathedral Church of the
Intercessor v. Inc. Vill. of Malverne, No. 02-CV-2989,
2006 U.S. Dist. LEXIS 12842, 2006 WL 572855, at *8
(E.D.N.Y. Mar. 6, 2006) (finding plaintiff adequately
alleged substantial burden, where space limits imposed
by the defendants “constrained” the ability of the church’s
parishioners to “observe or participate” in religious
services).
Courts have likewise found a substantial burden
requirement where municipal zoning schemes impose
significant “delay, uncertainty, and expense.” Sts.

373a
Appendix C
Constantine & Helen, 396 F.3d at 901; see also WDS
II, 504 F.3d at 349 (noting that a complete denial of a
religious institution’s zoning application which results
in substantial “delay, uncertainty, and expense” can be
a substantial burden); Grace Church, 555 F. Supp. 2d
at 1137-39 (finding that the plaintiff had established a
substantial burden based on the uncertainty and expense
resulting from the municipality’s zoning regulations
and from municipal officials’ consistent hostility toward
plaintiff in their review of plaintiff’s land use applications).
In one recent case, the Second Circuit even held that when
a municipality’s “willingness to consider [a] proposal is
disingenuous, a conditional denial may rise to the level
of a substantial burden,” Fortress Bible, 694 F.3d at 219,
and “when [a] town’s actions are arbitrary, capricious,
unlawful, or taken in bad faith, a substantial burden
may be imposed because it appears that the [religious
institution] may have been discriminated against on the
basis of its status as a religious institution,” id. In sum,
“a complete denial” of a religious institution’s intended
or applied-for use of its property “is not necessary
for the Court to find that the government regulation
. . . impose[s] a substantial burden on religious exercise.”
Cathedral Church, 2006 U.S. Dist. LEXIS 12842, 2006
WL 572855, at *8; see also Sts. Constantine & Helen,
396 F.3d at 899-900 (finding that to establish substantial
burden, a religious group need not “show that there was
no other parcel of land on which it could build its church”);
Westchester Day Sch. v. Vill. of Mamaroneck, 379 F. Supp.
2d 550, 556-57 (S.D.N.Y. 2005) (same).

374a
Appendix C
The Court’s analysis of the discriminatory effect
prong of Plaintiffs’ Equal Protection claim, and the Court’s
discussion of Plaintiffs’ Free Exercise claim, see WDS II,
504 F.3d at 348-49 (noting that the test for a substantial
burden is guided by Free Exercise jurisprudence), apply
here. While unnecessary to establish a substantial burden,
see Tartikov, 915 F. Supp. 2d at 632, Plaintiffs have offered
sufficient evidence to at least suggest that the combined
effect of the Challenged Laws is to completely bar the
construction of a rabbinical college of the type desired by
Plaintiffs, namely one with the desired curriculum that
includes multi-family housing. (See Pls.’ Mem. 16-17 (citing,
inter alia, WDS II, 504 F.3d at 349 (noting a substantial
burden exists when there is no “reasonable opportunity”
for a modified application that would suffice).) See also
Roman Catholic Diocese, 2012 U.S. Dist. LEXIS 56694,
2012 WL 1392365, at *8 (E.D.N.Y. Apr. 23, 2012) (granting
motion to amend complaint bringing facial challenge to
zoning ordinance, based on the conclusion that plaintiff had
adequately alleged the ordinance imposed a substantial
burden by, among other things, reducing the portion of
the property that could be used for religious purposes
and requiring plaintiff to meet certain groundwater
testing and landscaping requirements); Cottonwood, 218
F. Supp. 2d at 1226 (“Preventing a church from building a
worship site fundamentally inhibits its ability to practice
its religion.”); cf. Town of Mount Pleasant v. Legion of
Christ, 787 N.Y.S.2d 681, 3 Misc. 3d 1104[A], 2003 NY
Slip Op 51725[U], 2003 WL 23515112, at *5 (N.Y. Sup.
Ct. 2003) (finding that defendant’s “option of violating the
law or abandoning an important part of its mission” was
“untenable”). Likewise, Plaintiffs have offered sufficient

375a
Appendix C
evidence to suggest that the Challenged Laws were passed
with a discriminatory motive. See Fortress Bible, 694 F.3d
at 219; WDS II, 504 F.3d at 351-52. Accordingly, Plaintiffs
have established an issue of material fact as to whether
the Challenged Laws place a substantial burden on their
religious exercise in violation of RLUIPA. See Tartikov,
915 F. Supp. 2d at 632 (noting that if “[t]he ordinances
. . . in fact completely prevent Plaintiffs from building
and running a rabbinical college at all in Pomona,” then
“Plaintiffs have established a substantial burden”).
Further, as discussed above, Defendants have failed
to demonstrate as a matter of law that their passage of
the Challenged Laws was justified by compelling state
interests and that the laws were the least restrictive means
of furthering those interests. See 42 U.S.C. § 2000cc(a)(1).
The fact that Defendants may, in general, allow other
religious and educational uses in the Village is irrelevant.
See Hobbs, 135 S. Ct. at 862 (finding “the availability of
alternative means of practicing religion” irrelevant under
RLUIPA). Indeed, it is the religious entity, and not the
Village, that has the right to determine its religious
exercise, and RLUIPA protection is “not limited to beliefs
which are shared by all of the members of a religious sect.”
Id. at 863 (internal quotation marks omitted). Accordingly,
Defendants are not entitled to summary judgment on
Plaintiffs’ substantial burden claim.
The question of whether Plaintiffs’ are entitled to
summary judgment on their substantial burden claim is a
closer one. Certainly, “religious institutions do not have a
constitutional right to build wherever they like.” Fortress

376a
Appendix C
Bible, 694 F.3d at 221. Nonetheless, in the Court’s view, the
core of Plaintiffs’ substantial burden claim has two parts:
(a) is the proposed rabbinical college, exactly as proposed
with libraries, mikvahs, student housing, etc., essential to
their religious exercise, and (b) if not, can Plaintiffs build
a rabbinical college that is sufficient to meet their needs
within the confines of the Challenged Laws?
With regard to the necessity of building a rabbinical
college exactly as proposed (to the extent Plaintiffs have
even offered a proposal), as discussed above, there are
three other rabbinical colleges in the general area: Kollel
Belz, Mechon L’Horoya, and Kollel Beth Yechiel Mechil of
Tartikov. (Pls.’ 56.1 ¶¶ 563-571; Pls.’ Counter 56.1 ¶ 57; see
also Savad Decl. Ex. 34 (Resnicoff Dep. Tr.) 19-22 (noting
that “Tartikov in Brooklyn and Mechon L’Hoyroa” train
rabbinical judges” but students do not live on campus).) As
outlined, however, there are several differences between
the programs at these schools and that which is proposed by
the Congregation. Kollel Belz and Mechon L’ Horoya “only
teach[] certain sections of the Shulchan Aruch,” which two
individual Plaintiffs contend means these schools cannot
train full-time rabbis, while Kollel Beth Yechiel Mechil of
Tartikov simply “has a different program.” Kollel Belz and
Kollel Beth Yechiel Mechil of Tartikov have no libraries
or mikvahs on campus (and Kollel Beth Yechiel Mechil of
Tartikov lacks a synagogue), and none of the three schools
has on-campus housing, meaning none can provide the
Torah Community envisioned by the Congregation. (Pls.’
56.1 ¶¶ 569-572; Defs.’ 56.1 ¶¶ 62-64; Pls.’ Counter 56.1
¶¶ 55, 58; Decl. of Jacob Hershkowitz ¶¶ 42-50 (Dkt. No.
146); Decl. of Chaim Rosenberg ¶¶ 44-50 (Dkt. No. 149).)

377a
Appendix C
Plaintiffs contend that these differences not only mean
that the proposed rabbinical college would offer a higher
quality education and offer the only way to study the full
Shulchan Aruch, but also that a rabbinical college as
proposed by Plaintiffs is essential to the exercise of their
religious beliefs. (See Pls.’ 56.1 ¶¶ 449-473, 489, 655; Pls.’
Counter 56.1 ¶ 49).
Defendants, of course, contest these claims. They
allege that Plaintiffs have not articulated any religious
belief that requires a Torah Community, never mind a
rabbinical college that has mikvahs on campus. (Defs.’
56.1 ¶ 46; Pls.’ Counter 56.1 ¶¶ 49, 516, 520.) They also
repeatedly cite a portion of the deposition of M. Menczer
in which he admits that it is possible to “study to become a
rabbinical judge in a synagogue” without being immersed
in a Torah Community, though M. Menczer also makes
clear that to be a “Great Torah scholar,” a student has to
“dedicate [himself] to a certain kind of study program,
study day and night, [he has] to surround [himself]
[with] Torah students, and [he has] to exclude [himself]
from all worldly pleasures, all distractions,” and that
this is a “requirement” under Jewish law, even though
not necessary to ordination as a rabbi. (Savad Decl. Ex.
26 (M. Menczer Dep. Tr.) 88-90.) Given Plaintiffs do not
allege a complete lack of ordained rabbis in the region,
and other schools do produce rabbinical judges—even if
they are not “Great Torah scholars” or full-time rabbinical
judges—whether Plaintiffs require a rabbinical college
exactly as proposed is at least a disputed issue of fact.
Based on the credibility of witnesses at trial, a reasonable
jury may find that a Torah Community, while ideal, is not

378a
Appendix C
essential to Plaintiffs’ exercise of their religious beliefs,
and that training a number of part-time rabbis would be
sufficient to meet the Plaintiffs’ need for rabbinical judges
in the Pomona area, such that the Challenged Laws do not
impose a substantial burden. 53
In this context, it is worth noting that the precise
contours of the rabbinical college the Congregation
proposes is far from clear. The only curriculum document,
as noted above, was prepared by a student apparently due
to the existence of the instant Action, (see Defs.’ 56.1 ¶¶ 2628; Pls.’ Counter 56.1 ¶¶ 26-28; Gordon Aff. Ex. 10, at 23;
see also Gordon Aff. Ex. 21 (proposed curriculum)), and
it provides no specific information about the anticipated
curriculum—the Shulchan Aruch—beyond the names
of a series of classes (e.g., “Kosher Diet,” “Prayer,”
“Renting, Leasing & Borrowing”), (see Gordon Aff
Ex. 22). Additionally, there is no architectural plan for
the rabbinical college contained in the record beyond a
“preliminary concept plan,” (Defs.’ 56.1 ¶¶ 19, 22; Pls.’
Counter 56.1 ¶ 22), nor has any such plan been formally
submitted to the Village for approval, (see Savad Decl. Ex.
27, at 120). Unsurprisingly, therefore, no teachers have
been hired, and the dean admits having done “nothing”
so far to begin the hiring process. (See Defs.’ 56.1 ¶¶ 14,
53. Plaintiffs allege that M. Babad is “one of the few [rabbinical]
judges fully trained in all four books of the Shulchan Aruch. (Pls.’
56.1 ¶ 553.) While, on the one hand, this suggests that there may be
a lack of adequately fully trained rabbinical judges, it also suggests
that the training that most rabbinical judges receive is in less than
the full Shulchan Aruch, implying that training in the full Shulchan
Aruch is unnecessary.

379a
Appendix C
34-35, 66.) Accordingly, it is difficult for the Court to
determine, before sending the case to a jury, that the
Congregation’s vision for a rabbinical college, while
perhaps a vision they hope to pursue, is essential to the
exercise of specific religious beliefs, such that an inability
to build that college campus is a substantial burden.
Of course, even if Plaintiffs cannot prove that their
proposed rabbinical college is essential to their religious
exercise, if no rabbinical college of any kind is compatible
with the Challenged Laws, then the Challenged Laws
may unlawfully impose a substantial burden. With
regard to the Dormitory Law, it is clear, as outlined, that
three other rabbinical colleges in the area train students
without on-campus housing. Therefore, the Dormitory
Law arguably is not a substantial burden on the operation
of a rabbinical college. With regard to the Accreditation
Law, as discussed above, it is undisputed that the proposed
rabbinical college as currently proposed cannot be
accredited by the State of New York or AARTS because,
among other reasons, it is not a degree-granting institution
and is not yet operational. (See Pls.’ 56.1 ¶¶ 580-81, 58384. 591; Defs.’ Counter 56.1 ¶¶ 580-81, 590.) Nonetheless,
Plaintiffs’ expert makes clear that, at least in general “a
higher education institution that trains Rabbinical Judges
can be accredited.” (Gordon Aff. Ex. 15 (Preston Green
Expert report), at 18.) Indeed, the expert makes clear
that, with modifications to the proposed rabbinical college
curriculum and admission requirements, the proposed
rabbinical college could at least be accredited by AARTS
(though the college would still need to be operational first).
(See Pls.’ 56.1 ¶ 594, 596, 598-99, 601-02; Savad Decl. Ex.

380a
Appendix C
16 (Green Dep. Tr.) at 89-90; Gordon Aff. Ex. 15 (Preston
Green Witness Report) 20-21.) In fact, Plaintiffs’ expert’s
suggestion is along these lines:
[I]f the educational institution meets all other
criteria for accreditation, Pomona can grant
Tartikov a conditional use variance that would
permit the school to become operational on the
condition that the school obtain accreditation in
a reasonable time from the Board of Regents
or similar accrediting body. Failure to obtain
accreditation could result in the variance[]
being annulled and set aside.
(Gordon Aff. Ex. 15, at 20.) Accordingly, the Court cannot
conclude, as a matter of law, that the Accreditation Law
prevents the construction of a rabbinical college in the
Village.
With regard to the Wetlands Law, as discussed
above, Plaintiffs have offered evidence of the existence of
wetlands covering the west side of the Subject Property
along Route 306 and that the access road that runs
through the west side would have to be improved for the
proposed rabbinical college to be usable. (See Beall Decl.
¶ 280 & Ex. T (survey map of the Subject Property);
Tauber Decl. ¶¶ 5, 28; see also Pls.’ 56.1 ¶ 180 (indicating
that Mayor Marshall was generally aware of the existence
of wetlands on the Subject Property); Defs.’ Counter
56.1 ¶ 180 (same).) However, as noted above, there are
holes in Plaintiffs’ claim that the Wetlands Law imposes
a substantial burden, namely (a) a lack of evidence that

381a
Appendix C
Plaintiffs cannot build an access road through the other
side of the property, from Route 202, and (b) the possibility
that the Wetlands Law is duplicative of state and federal
regulations. If the Wetlands Law does not prevent the
construction of an access road, or otherwise does not
create an additional burden beyond that created by state
and federal law, then it does not impose a substantial
burden on Plaintiffs’ religious exercise.
Accordingly, because a series of disputed material
facts remain as to (a) the exact form the rabbinical college
must take in order to be sufficient for Plaintiffs’ exercise
of religion, and (b) to what extent the Challenged Laws
alone make it difficult (or impossible) to build a rabbinical
college in the Village, summary judgment is denied to
Plaintiffs on their substantial burden claim.
ii.

Constitutional Challenge

Defendants also challenge the constitutionality of
RLUIPA’s substantial burden provision. (Defs.’ Mem.
54-59.) While the courts, as the United States points out,
normally avoid addressing constitutional questions when
possible, see Allstate Ins. Co. v. Serio, 261 F.3d 143, 14950 (2d Cir. 2001) (“It is axiomatic that the federal courts
should, where possible, avoid reaching constitutional
questions.”); see also Slack v. McDaniel, 529 U.S. 473,
485, 120 S. Ct. 1595, 146 L. Ed. 2d 542 (2000) (articulating
this rule), because the Court has found that Plaintiffs’
substantial burden claim survives summary judgment
the Court must address the merits of Defendants’
constitutional challenge. Plaintiffs, as well as Intervenor
United States, oppose Defendants’ claim.

382a
Appendix C
Defendants contend that the substantial burden
provision is unconstitutional on its face because it
“distort[s] the relationship between the local and state
governments and the federal government in violation
of settled federalism principles,” relying on the “Tenth
Amendment’s limitations on Article I power,” and
further argue that the provision is “beyond the power
of Congress, a violation of the separation of powers,
and the Establishment Clause.” (Defs.’ Mem. 55 (citing
Congregation Kol Ami v. Abington Twp., 309 F.3d 120,
135-36 (3d Cir. 2002) (“[L]and use law is one of the bastions
of local control, largely free of federal intervention.”); id.
at 57). In support of their contention, Defendants cite,
among other cases, Gorieb v. Fox, 274 U.S 603, 47 S. Ct.
675, 71 L. Ed. 1228 (1927), for the proposition that “[s]tate
legislatures and city councils, who deal with the situation
from a practical standpoint, are better qualified than the
courts to determine the necessity, character, and degree
of regulation which . . . new and perplexing conditions
require; and their conclusion should not be disturbed by
the courts,” id. at 608. Second, Defendants contend that
the “RLUIPA formula . . . does not regulate land use
principles per se, but rather never uses a constitutional
standard of review to reduce the effect of state and local
land use law across the board,” further asserting that
“Congress never considered actual land use issues, such
as the importance or value of residential neighborhoods,
setbacks, parking and traffic concerns, density, property
values, or aesthetics,” when debating RLUIPA’s merits.
(Defs.’ Mem. 56 (emphasis omitted).) Third, Defendants
note that the Supreme Court has explicitly reserved
judgment on the constitutionality of RLUIPA’s land use

383a
Appendix C
provisions, Cutter v. Wilkinson, 544 U.S. 709, 125 S. Ct.
2113, 161 L. Ed. 2d 1020 (2005), id. 716 n.3 (“Section 2
of RLUIPA is not at issue here. We therefore express
no view on the validity of that part of the Act.”), and
limited the scope of RLUIPA in Sossamon v. Tex., 563
U.S. 277, 131 S. Ct. 1651, 179 L. Ed. 2d 700 (2011), see
id. at 1656-57. 54 Fourth and finally, in support of their
Establishment Clause challenge, Defendants contend
that RLUIPA unconstitutionally “grant[s] religious
developers a privilege and financial advantages that no
other developer can obtain.” (Defs.’ Mem. 58 (citing, inter
alia, Tex. Monthly, Inc. v. Bullock, 489 U.S. 1, 14, 109 S.
Ct. 890, 103 L. Ed. 2d 1 (1989); Bronx Household of Faith
v. Bd. of Educ., 750 F.3d 184, 207-09 (2d Cir. 2014)).
In response, Plaintiffs rely, in principal, on the Second
Circuit’s decision in WDS II. (See Pls. Opp’n 57.) In that
case, the Second Circuit held, among other things, that
RLUIPA does not violate the Tenth Amendment because
it “leaves it to each state to enact and enforce land use
54. Defendants also contend that RLUIPA was passed illegally,
noting that “[i]t was not passed unanimously,” and that it was enacted
“negligently or intentionally without reference to the most relevant
Supreme Court doctrine in derogation of federalism.” (Defs.’ Mem.
58.) However, there is certainly no requirement that Congress
must pass legislation unanimously, see Skaggs v. Carle, 110 F.3d
831, 841, 324 U.S. App. D.C. 87 (D.C. Cir. 1997) (“[T]he framers
positively concluded that a simple ‘majority vote’ was sufficient for
the passage of legislation in Congress.”), nor is there any authority
suggesting that Congress must reference any particular “Supreme
Court doctrine” in the legislative process or that failing to do so is
a violation of federalism, cf. WDS II, 504 F.3d at 354-55 (finding that
RLUIPA does not violate the 10th Amendment).

384a
Appendix C
regulations as it deems appropriate so long as the state
does not substantially burden religious exercise in the
absence of a compelling interest achieved by the least
restrictive means,” WDS II, 504 F.3d at 354-55, and
that “RLUIPA’s land use provisions do not violate the
[E]stablishment [C]lause,” id. at 355. Defendants do not
address this holding, which the Court is required to follow.
See Fernandes v. Johnson, No. 12-CV-2774, 2013 U.S.
Dist. LEXIS 31998, 2013 WL 796542, at *3 (S.D.N.Y. Mar.
5, 2013) (“This [c]ourt must follow binding Second Circuit
precedent unless a subsequent decision of the Supreme
Court so undermines it that it will almost inevitably be
overruled by the Second Circuit.” (brackets and internal
quotation marks omitted)); see also Fortress Bible, 734
F. Supp. 2d at 509 (finding that RLUIPA does not violate
the Establishment Clause because “the Second Circuit
has held that RLUIPA’s land use provisions . . . do not
violate the Establishment Clause”). Moreover, as the
United States points out in its brief, the precedents that
Defendants cite do not support their claims. For example,
in Gorieb, the Supreme Court only noted that local land
use decisions “should not be disturbed by the courts,
unless clearly arbitrary and unreasonable,” 274 U.S. at
608, not that Congress could not legislate in this field, (see
Br. of the United States of Am. in Intervention in Defense
of the Religious Land Use and Institutionalized Persons
Act of 2000 (“USA Br.”) 17 (Dkt. No. 183).) Likewise, in
Congregation Kol Ami, the court rejected the defendants’
challenge to RLUIPA. (See USA Br. 18 (citing 309 F.3d
120).) See also Congregation Kol Ami v. Abington Twp.,
No. 01-CV-1919, 2004 U.S. Dist. LEXIS 16397, 2004 WL
1837037, at *9-15 (E.D. Pa. Aug. 17, 2004).

385a
Appendix C
Additionally, Plaintiffs properly characterize
Defendants’ theory of unconstitutionality as relying only
on the proposition that “local governments engage in
land use regulation” and that “Congress is powerless
to regulate in that sphere,” which Plaintiffs correctly
point out would “render innumerable federal statutes”
that affect local land use unconstitutional, including the
Americans with Disabilities Act, Fair Housing Act, and
Clean Water Act. (Pls.’ Opp’n 57-58.) See also United
States v. Maui Cty., 298 F. Supp. 2d 1010, 1015 (D. Haw.
2003) (“Although RLUIPA does ‘intrude’ to some extent
on local land use decisions, there is nothing about it that
violates principles of federalism . . . if the federal statute
is otherwise grounded in the Constitution. RLUIPA is not
federal zoning of [local] land; it is federal enforcement of
federal rights.”). Plaintiffs further argue that RLUIPA’s
substantial burden provision has a jurisdictional
limitation, providing that it can only be applied when
the government action affects interstate commerce, is
imposed in a program that receives federal funding, or in
a circumstance where individualized assessments of the
property are involved. (Pls.’ Opp’n 58 (citing 42 U.S.C.
§ 2000cc(a)(2)).) The substantial burden provision is
thus grounded as a proper exercise of Congress’s power
under the Spending Clause, Commerce Clause, and § 5
of the Fourteenth Amendment, see WDS II, 504 F.3d
at 354 (“[T]he Supreme Court has made plain [that] the
satisfaction of [] a jurisdictional element . . . is sufficient
to validate the exercise of congressional power because
an interstate commerce nexus must be demonstrated in
each case for the statute in question to operate.”); see
also Fortress Bible, 734 F. Supp. 2d at 509 (“By limiting

386a
Appendix C
RLUIPA’s scope to cases that present one of these
jurisdictional nexuses, Congress alternatively grounded
RLUIPA, depending on the facts of a particular case, in
the Spending Clause, the Commerce Clause, and § 5 of
the Fourteenth Amendment.”). 55
Defendants do not respond to either of these
contentions, nor do they claim that any of the jurisdictional
elements of RLUIPA’s substantial burden provision is
not met here; they only indicate that they “stand by
their facial challenge” in their reply. (Defs.’ Reply 19.)
Accordingly, the Court finds that the governing case
law supports the conclusion that RLUIPA, because
of its jurisdictional provision and as has already been
determined by the Second Circuit, constitutes a proper
constitutional exercise of Congress’ power and does not
run afoul of any constitutional provisions. See Sossamon,
131 S. Ct. at 1664 (“Though the Court reserves the
general question whether RLUIPA is a valid exercise
of Congress’ power under the Spending Clause, there is
apparently no disagreement among the Federal Courts of
Appeals.”); see also Sossamon v. Lone Star State of Tex.,
55. It is also worth noting that Plaintiffs at least make an
argument, however tenuous, as to why the proposed rabbinical
college would affect interstate commerce, which Defendants do
not rebut, (see Pls.’ Mem. 9 (“Plaintiffs’ use and development of
the Subject Property unquestionably meets this criteria.” (citing
Chabad Lubavitch, 768 F.3d at 183, 192 (construction of religious
facility meets jurisdictional element); WDS II, 504 F.3d at 354
(“[C]ommercial building construction is activity affecting interstate
commerce.”), such that the application of RLUIPA’s substantial
burden provision in these circumstances is constitutional under the
Commerce Clause, see WDS II, 504 F.3d at 354-55.

387a
Appendix C
560 F.3d 316, 328, n.34 (5th Cir. 2009) (“Every circuit to
consider whether RLUIPA is Spending Clause legislation
has concluded that it is constitutional under at least that
power.”).
Apart from their facial challenge, Defendants also
contend that, as applied, the substantial burden provision
is unconstitutional because, more than asking the court
to “’become [a] super land-use board[] of appeals,’” (Defs.’
Mem. 59 (quoting Sameric Corp. v. City of Phila., 142
F.3d 582, 598 (3d Cir. 1998)), “the Court is being asked
to step into the shoes of the original land-use board, to
abandon the local laws regarding housing, and to sua
sponte grant permission for their hypothetical plan.”
According to Defendants, “it is difficult to overstate the
steepness of the slippery slope.” (Id.) In their Reply,
Defendants further allege that, as applied in this case,
RLUIPA’s substantial burden provision would violate the
Due Process clause, (Defs.’ Reply 20 (citing League of
Residential Neighborhood Advocates v. City of L.A., 498
F.3d at 1052, 1053)), though the explanation and authority
for this claim is missing from Defendants’ submissions.
In response, Plaintiffs insist that they do not seek
the Court’s approval of their plan without proceeding
through the applicable approval process, but rather seek
only “the right to apply.” (Pls.’ Opp’n 59.) While this does
not appear to be exactly true, given, in their Second
Amended Complaint, Plaintiffs sought a declaratory
judgment directing the Village to “grant [Plaintiffs’] site
plan final approval for a [r]abbinical [c]ollege and directing
the Building Inspector to issue a building permit for up to

388a
Appendix C
250 residential units,” (SAC 68), this ground for relief is
unripe because there is no pending application before the
Village. It is in this vein that the United States argues,
convincingly, that ripeness provides sufficient protection of
Defendants’ federalism interests because it “affords local
officials an opportunity to adjudicate an application before
the dispute may be brought to federal court,” as embodied
in the Court’s finding that Plaintiffs’ as-applied challenges
were unripe in its 2013 Opinion and Order. (USA Br. 22
(citing Murphy v. New Milford Zoning Comm’n, 402 F.3d
342, 348 (2d Cir. 2005).) Indeed, simply striking down the
Challenged Laws (as opposed to directing acceptance of
Plaintiffs’ proposed rabbinical college) would not force the
Village to make particular land use decisions or “short
circuit its land use decision-making process,” but rather
would require the Village to craft new land use laws that
are consistent with the requirements of federal law (and,
of course, the Constitution). (Id. at 23.)
At its core, the Court finds that Defendants’ fleeting
as-applied challenge, which does not appear to be
meaningfully different from its facial challenge, is wanting
of legal authority. See Lima v. Hatsuhana of USA, Inc.,
No. 13-CV-3389, 2014 U.S. Dist. LEXIS 6070, 2014 WL
177412 (S.D.N.Y. Jan. 16, 2014) (“Issues mentioned in a
perfunctory manner, unaccompanied by some effort at
developed argumentation, are deemed waived.” (alteration
omitted)). The Court agrees with the United States that,
as limited by the Court’s 2013 Opinion and Order, a finding
in favor of Plaintiffs does not “require the imposition of a
housing development on Pomona in contravention of the
zoning on the property without the applicant having to file

389a
Appendix C
an application or pursue ordinary land us procedures.”
(Defs.’ Reply 20.) Indeed, as noted “religious institutions
do not have a constitutional right to build wherever they
like,” Fortress Bible, 694 F.3d at 221, and invalidation
of the Challenged Laws is not tantamount to a finding
that Plaintiffs should “prevail in their quest to build a
rabbinical college on the Subject Property,” Tartikov,
915 F. Supp. 2d at 623; see also id. at 638 (“This ruling
is not tantamount to saying that Plaintiffs will be able to
build a rabbinical college, let alone one that is the size or
structure [of] their liking.”). Accordingly, Defendants’ as
applied challenge is denied.
b. 	Discrimination and Exclusion
i. 	Equal Terms (Claim 6)
In their sixth claim, Plaintiffs assert that Defendants
have violated RLUIPA by unlawfully imposing a land use
regulation that treats the proposed rabbinical college
on less than equal terms with nonreligious institutions.
Unlike Plaintiffs’ other RLUIPA claims, only Defendants
have moved for summary judgment on this claim. (See Pls.’
Mem. 4.) The Equal Terms provision of RLUIPA provides
that “[n]o government shall impose or implement a land
use regulation in a manner that treats a religious assembly
or institution on less than equal terms with a nonreligious
assembly or institution.” 42 U.S.C. § 2000cc(b)(1). This
“statutory command ‘requires equal treatment of secular
and religious assemblies and allows courts to determine
whether a particular system of classifications adopted by
a city subtly or covertly departs from requirements of

390a
Appendix C
neutrality and general applicability.’” Primera Iglesia
Bautista Hispana of Boca Raton, Inc. v. Broward Cty.,
450 F.3d 1295, 1307 (11th Cir. 2006) (brackets omitted)
(emphasis in original) (quoting Midrash Sephardi, Inc.
v. Town of Surfside, 366 F.3d 1214, 1232 (11th Cir. 2004)).
As with the Substantial Burden component of RLUIPA,
the meaning of the Equal Terms section is far from clear,
see Guru Nanak, 326 F. Supp. 2d at 1154 (asserting that
this section “is even less clear” than the “substantial
burden” section), but the courts have determined that
the “substantial burden and nondiscrimination provisions
are operatively independent of one another,” CLUB, 342
F.3d at 762. Moreover, some courts have concluded that
the nondiscrimination provisions of RLUIPA, which
include the Equal Terms provision, “codify existing
Equal Protection Clause and Free Exercise Clause
jurisprudence.” Petra Presbyterian Church v. Vill. of
Northbrook, No. 03-CV-1936, 2003 U.S. Dist. LEXIS
15105, 2003 WL 22048089, at *11 (N.D. Ill. Aug. 29, 2003);
accord Guru Nanak, 326 F. Supp. 2d at 1155; Freedom
Baptist Church of Del. Cnty. v. Twp. of Middletown, 204
F. Supp. 2d 857, 869 (E.D. Pa. 2002).
As the Court explained in its 2013 Opinion and Order,
there are four fundamental elements of an Equal Terms
claim: (1) the plaintiff must be a religious institution;
(2) subject to a land use regulation; that (3) treats the
religious institution on less than equal terms; with (4) a
nonreligious institution. See Primera, 450 F.3d at 130708; Tartikov, 915 F. Supp. 2d at 634; see also Chabad
Lubavitch, 768 F.3d at 197 (noting that a plaintiff must
produce prima facie evidence of “unequal treatment”).

391a
Appendix C
As far as how to prove an “equal terms” claim, however,
“[d]ivision exists” among the Federal Circuits as to
“whether the . . . provision invariably requires evidence
of a ‘similarly situated’ secular comparator . . . and, where
such evidence is necessary, on what ground the comparison
much be made.” Chabad Lubavitch, 768 F.3d at 196; see
also Lighthouse Inst. for Evangelism, Inc., v. City of Long
Branch, 510 F.3d 253, 266 (3rd Cir. 2007) (“[A] regulation
will violate the Equal Terms provision only if it treats
religious assemblies or institutions less well that secular
assemblies or institutions that are similarly situated as
to the regulatory purpose.” (emphasis omitted)); River of
Life Kingdom Ministries v. Vill. of Hazel Crest, 611 F.3d
367, 371 (7th Cir. 2010) (summarizing various approaches
and advocating a focus on zoning criteria rather than
regulatory purpose). The Second Circuit has thus far
“declined to define ‘the precise outlines of what it takes
to be a valid comparator under RLUIPA’s equal-terms
provision.’” Chabad Lubavitch, 768 F.3d at 197 (citing
Third Church of Christ, Scientist v. City of N.Y., 626 F.3d
667, 669 (2d Cir. 2010)).
With that division in mind, the consensus among
courts is that there are three distinct kinds of Equal
Terms violations: (i) a statute that facially differentiates
between religious and secular assemblies or institutions;
(ii) a facially neutral statute that is nevertheless
“gerrymandered” to place a burden solely on religious,
as opposed to secular, assemblies or institutions; and (iii)
a truly neutral statute that is selectively enforced against
religious, as opposed to secular, assemblies or institutions.
See Primera, 450 F.3d at 1308; accord Vision Church,

392a
Appendix C
468 F.3d at 1003 (following same analysis); Church of
Scientology of Ga., Inc. v. City of Sandy Springs, 843
F. Supp. 2d 1328, 1361 (N.D. Ga. 2012) (same); Covenant
Christian Ministries, Inc. v. City of Marietta, No. 06-CV1994, 2008 U.S. Dist. LEXIS 54304, 2008 WL 8866408, at
*13 (N.D. Ga. Mar. 31, 2008) (same); Family Life Church
v. City of Elgin, 561 F. Supp. 2d 978, 989 (N.D. Ill. 2008)
(same).
While, as discussed above, the Challenged Laws are
facially neutral, the Court previously found that Plaintiffs
had only stated a “gerrymander” claim, and Plaintiffs
have not provided any evidence—or advanced any claim—
to support a different theory here. Tartikov, 915 F. Supp.
2d at 636. While Defendants contend that Plaintiffs’ failure
to offer evidence of “’a secular comparator that is similarly
situated as to the regulatory purpose of the regulation
in question,’” sinks Plaintiffs’ Equal Terms claim, (Defs.’
Mem. 49 (quoting Lighthouse, 510 F.3d at 264), as the Court
previously found, a gerrymander claim does not require
the pleading of comparators. See Lukumi, 508 U.S. at 535
(defining “religious gerrymander” as “an impermissible
attempt to target [a group] and their religious practices”
(internal quotation marks omitted)); Tartikov, 915 F.
Supp. 2d at 636 (discussing allegations of intent that
support a gerrymander claim). Therefore, as discussed
above in the context of Plaintiffs’ Equal Protection and
Free Exercise Claims, which are codified in RLUIPA’s
Equal Terms provision, id. at 633, the evidence, taken
in a light most favorably to Plaintiffs, provides sufficient
support to the contention that Defendants engaged in a
religious gerrymander, as it suggests that Defendants

393a
Appendix C
used the Challenged Laws to uniquely restrict the ability
of Plaintiffs to build their rabbinical college in the Village.
Accordingly, summary judgment is denied.
ii. 	Nondiscrimination (Claim 7)
The Court denies summary judgment to Defendants’
on Plaintiffs’ Nondiscrimination claim “for the same
reasons” as its Equal Terms claim because “the elements
of a Nondiscrimination claim differ little, if at all, from
an Equal Terms claim.” Tartikov, 915 F. Supp. 2d at 636.
iii. 	Exclusions and Limits (Claims 8-9)
The exclusions and limits provision of RLUIPA
provides that “[n]o government shall impose or implement
a land use regulation that . . . (A) totally excludes religious
assemblies from a jurisdiction; or (B) unreasonably limits
religious assemblies, institutions, or structures within a
jurisdiction.” 42 U.S.C. § 2000cc(b)(3). The purpose of
this provision “is not to examine the restrictions placed
on individual landowners, but to prevent municipalities
from broadly limiting where religious entities can locate.”
Adhi Parasakthi, 721 F. Supp. 2d at 387; accord Rocky
Mountain Christian Church v. Bd. of Cty. Comm’rs,
613 F.3d 1229, 1238 (10th Cir. 2010) (noting that district
court’s jury instruction properly required plaintiff to
establish that the county’s “regulation, as applied or
implemented, has the effect of depriving both [plaintiff]
and other religious institutions or assemblies of reasonable
opportunities to practice their religion, including the use
and construction of structures, within [the defendant]
[c]ounty” (internal quotation marks omitted)).

394a
Appendix C
As noted above, it is at least arguable that the effect
of the Challenged Laws is to completely exclude the
rabbinical college from the Village and that pursuing a text
amendment or the like is futile. See Rocky Mountain, 613
F.3d at 1238 (upholding jury’s verdict for RLUIPA plaintiff
based, in part, on evidence that county official stated
that it would allow only a 100—seat synagogue because
“there will never be another mega church . . . in Boulder
County,” and on testimony that another congregation
ran out of money going through the defendant county’s
special use application process (alteration in original)
(internal quotation marks omitted)); see also Tartikov, 915
F. Supp. 2d at 637-38 (denying motion to dismiss as to this
claim). However, as discussed in the context of Plaintiffs’
substantial burden claim, Plaintiffs have failed to offer
sufficient evidence to establish as a matter of law that the
rabbinical college, as theoretically proposed, is essential
to Plaintiffs’ religious exercise or that the effect of the
Challenged laws is to completely exclude the construction
of any rabbinical college in the Village. Accordingly,
summary judgment is denied as to this claim.
10. 	Remaining Claims/Defenses
a. 	Fair Housing Act (Claims 11 and 12)
T he FHA “ proh ibit s gover nment a l agencies
from implementing or enforcing housing policies in a
discriminatory manner.” Tsombanidis v. West Haven
Fire Dep’t, 352 F.3d 565, 573 (2d Cir. 2003). Under the
FHA, “it shall be unlawful [t]o . . . make unavailable
. . . a dwelling to any person because of race [or] color.”

395a
Appendix C
42 U.S.C. § 3604(a); see also Orange Lake Assocs., Inc.
v. Kirkpatrick, 21 F.3d 1214, 1227 (2d Cir. 1994) (same).
Because, as discussed above, Plaintiffs have sufficiently
raised an issue of material fact as to whether “the Village
adopted the Challenged Laws with a discriminatory
purpose,” namely to prevent the construction of the
rabbinical college and its associated housing, Tartikov,
915 F. Supp. 2d at 610, their FHA claims also survive
summary judgment, see Ryan v. Ramsey, 936 F. Supp.
417, 427 (S.D. Tx. 1996) (denying summary judgment on
FHA claim because there were “outstanding issues of
material fact” as to discriminatory intent, namely whether
“a jury could have reasonably inferred that race was a
significant factor in the defendants’ decision”). It also
bears noting that in light of the Supreme Court’s recent
decision in Tex. Dep’t of Housing and Cmty. Affairs v.
Inclusive Cmtys. Project, 135 S. Ct. 2507, 192 L. Ed.
2d 514 (2015), Plaintiffs’ Fair Housing Act claim would
also survive on a theory of disparate impact, see id. at
2525 (“The Court holds that disparate-impact claims are
cognizable under the Fair Housing Act . . . . “); see also
LeBlanc-Sternberg, 67 F.3d at 425 (“An FHA violation
may be established on a theory of disparate impact or
one of disparate treatment.”), because Plaintiffs have
raised an issue of material fact as to whether the facially
neutral Challenged Laws have a “significantly adverse
or disproportionate impact on persons of a particular
type,” namely by preventing a subsection of the Orthodox
Hasidic community from building a rabbinical college,
Tsombanidis, 352 F.3d at 574.

396a
Appendix C
b.

Berenson (New York Common Law) (Claim
14)

Plaintiffs allege that Defendants violated the
Berenson doctrine by “not consider[ing] the present
regional housing needs of the region in which the Village
is located, and that such regional housing needs are not
otherwise adequately provided for,” namely those “in
need of adult student housing or those who can only afford
low or moderate income housing in the Village and in the
region in which the Village is located.” (SAC ¶¶ 292-94.)
Accordingly, Plaintiffs contend that Defendants “either
acted for an exclusionary purpose, or the Zoning Code
. . . brought about an exclusionary effect.” (Id. ¶ 295.)
They call on the Court to direct Defendants “to provide
a comprehensive zoning plan to meet the regional needs
and the requirements of the Jewish community seeking
religious education, and to provide for multi-family
housing that can provide affordable housing to Plaintiffs
and others who seek religious educational opportunities
within the Village.” (Id. ¶ 297.)
Berenson provides that “[i]n determining the
validity of an ordinance excluding multifamily housing
as a permitted use, [the court] must consider the general
purposes which the concept of zoning seeks to serve. The
primary goal of a zoning ordinance must be to provide
for the development of a balanced, cohesive community
which will make efficient use of the town’s available
land.” Berenson v. Town of New Castle, 38 N.Y.2d 102,
341 N.E.2d 236, 241, 378 N.Y.S.2d 672 (N.Y. 1975). Under
Berenson, a board passing a zoning ordinance must (1)

397a
Appendix C
have “provided a properly balanced and well[-]ordered
plan for the community,” and (2) “in enacting a zoning
ordinance, [given] consideration . . . to regional needs and
requirements,” including “not only the general welfare of
the residents of the zoning township, but . . . also . . . the
effect of the ordinance on the neighboring communities.”
Id. at 242; see also Cont’l Bldg. Co. v. Town of N. Salem,
211 A.D.2d 88, 625 N.Y.S.2d 700, 703 (App. Div. 1995)
(same). Accordingly, “a zoning ordinance enacted for a
statutorily permitted purpose will be invalidated only
if it is demonstrated that it actually was enacted for an
improper purpose or if it was enacted without giving
proper regard to local and regional housing needs and
has an exclusionary effect.” Robert E. Kurzius, Inc. v. Inc.
Vill. of Upper Brookville, 51 N.Y.2d 338, 414 N.E.2d 680,
683, 434 N.Y.S.2d 180 (App. Div. 1980) (internal quotation
marks omitted) (emphasis added)); Cont’l Bldg. Co., 625
N.Y.S.2d at 703 (same).
Defendants are correct that “discovery has uncovered
no facts showing there are regional needs for fair housing.”
(Defs.’ Mem. 54.) Indeed, the only evidence that Plaintiffs
identify, in a single paragraph supporting their Berenson
claim, is a fact that they claim Defendants admit: a need
for affordable, multifamily housing in the Village’s Master
Plan. (Pls. Opp’n 57 (citing Pls.’ 56.1 ¶ 26).) However,
Defendants explicitly dispute this “fact,” (Defs.’ Counter
56.1 ¶ 26), and Plaintiffs overstate the evidence: Ulman
only indicated in her deposition that “multi-family housing
[w]as something to be looked at for future use within the
Village,” (Savad Decl. Ex. 12, at 180-81), that the Master
Plan itself only notes a need for “housing to accommodate

398a
Appendix C
an aging population and small families” (Savad Decl.
Ex. 151 (Village of Pomona Master Plan Update) 21
(emphasis added)), and that it would be “inappropriate”
to “increase[] development density” in order to create
“affordable housing,” (id. at 22). In fact, Defendants argue
in their Reply that there is adequate multi-family housing
nearby in Ramapo and in the region, (Defs.’ Reply 19
(citing Pls.’ 56.1 ¶ 138)), though, granted, the only evidence
offered for that assertion is the existence of the ASHL. 56
Nonetheless, the Court concludes that there is insufficient
evidence in the record to suggest that the Village failed to
give consideration to regional housing needs when passing
the Challenged Laws or that there is a general need for
multi-family housing in the region.
As discussed above, however, the Berenson test is
disjunctive. Cf. N. Shore Unitarian Universalist Soc.,
Inc. v. Inc. Vill. of Upper Brookville, 110 A.D.2d 123,
493 N.Y.S.2d 564, 567 (App. Div. 1985) (“In sum, [the]
plaintiff has failed to show that the ordinance in question
was enacted with an exclusionary purpose, or that it
ignored local or regional housing needs.” (emphasis
added)). Therefore, even though Plaintiffs have failed to
demonstrate that the Challenged Laws were “enacted
without giving proper regard to local and regional
housing needs and has an exclusionary effect,” there
is, as discussed extensively in this Opinion and Order,
sufficient evidence for a reasonable jury to conclude that
the Village enacted the Challenged Laws for an improper
56. Defendants reliance on this law is ironic, given they
challenged the ASHL upon its adoption. (See Pl.’s 56.1 ¶ 138.)

399a
Appendix C
exclusionary purpose, namely to discriminate against the
Hasidic Jewish community. Therefore, the Court denies
Defendants’ Motion as to Plaintiffs’ Berenson claim.
c. 	Remaining State Claim
The only remaining claim is claim 10 (Article 1
§§ 3, 8, 9 and 11 of the New York State Constitution),
which concerns freedom of worship, assembly, and equal
protection. (SAC ¶¶ 274-75.)57 The Parties cross-move for
summary judgment on this claim. Defendants contend
that these claims should be resolved according to the
same (or similar) standards as the corresponding federal
claims. (See Defs.’ Mem. at 18-19 n.14 (seeking summary
judgment on § 3 claim), 44 n.28 (seeking summary
judgment on § 11 and New York Civil Rights Law claims
(citing, inter alia, Hayut v. State Univ. of N.Y., 352 F.3d
733, 754-55 (2d Cir. 2003) (applying Equal Protection
clause analysis to Article 1, § 11 claim)), 53 n.30 (seeking
summary judgment on § 8 and § 9 claims (citing Tartikov,
915 F. Supp. 3d at 623 (“The corollary provisions for the
First Amendment’s Free Speech and Free Association
Clauses in the New York Constitution are interpreted
consistently with the Federal Constitution.”)).) Plaintiffs
appear to agree, and first pair their analysis of their § 3
claim with their RLUIPA substantial burden claim, noting
that, “like RLUIPA, this provision[] applies to ‘incidental
57. The Court previously dismissed Plaintiffs’ New York Civil
Rights Law § 40—c claim (claim 11) as unripe, and, despite discussing
that claim in the motion papers, (see Defs.’ Mem. 44 n.28; Pls.’ Opp’n
26), neither Party has offered any reason for the Court to re-examine
that ruling here. See Tartikov, 915 F. Supp. 2d at 607.

400a
Appendix C
burdens’ on religious exercise.” (Pls.’ Mem. 10 (citing
Tartikov, 915 F. Supp. 2d at 619 n.20).) They do so for
good reason, as “in analyzing a state free exercise claim,
‘when the State imposes an incidental burden on the right
to free exercise of religion,’ the courts are to consider
the ‘interest advanced by the legislation that imposes
the burden,’ and then ‘the respective interests must be
balanced to determine whether the incidental burdening
is justified.’” Tartikov, 915 F. Supp. 2d at 618 n.20 (quoting
Catholic Charities of Diocese of Albany v. Serio, 7 N.Y.3d
510, 859 N.E.2d 459, 466, 825 N.Y.S.2d 653 (N.Y. 2006)).
Accordingly, for the same reason that the Court denied
summary judgment on Plaintiffs’ RLUIPA substantial
burden claim—namely failure to establish a burden on
the exercise of religion as a matter of law—the Court also
denies summary judgment on Plaintiffs’ § 3 claim.
Plaintiffs also pair their analysis of their § 8 claim
with their Free Speech claim, noting that the New York
Constitution “provides additional protection for expression
and expressive activity.” (Pls.’ Mem. 27.) As noted in the
Court’s 2013 Opinion and Order, and as Defendants point
out, “the corollary provisions for the First Amendment’s
Free Speech and Free Association Clauses in the New
York Constitution,” namely §§ 8 and 9, “are interpreted
consistently with the Federal Constitution,” Tartikov, 915
F. Supp. 3d at 623, and accordingly the Court resolves
those claims in the same way. Therefore, for the same
reasons as those discussed above, the Court grants
summary judgment to Defendants as to Plaintiffs’ § 8
claim because Plaintiffs have failed to show that the
construction of a rabbinical college constitutes an exercise

401a
Appendix C
of free speech, but denies summary judgment to both
Parties as to Plaintiffs’§ 9 claim (free association). 58
Additionally, because the “equal protection provisions of
the New York Constitution are interpreted consistently
with the corollary provisions of the Federal Constitution,”
Tartikov, 915 F. Supp. 2d at 615 n.19 (citing People v. Kern,
75 N.Y.2d 638, 554 N.E.2d 1235, 1240-41, 555 N.Y.S.2d 647
(App. Div. 1990), for the reasons stated above, the Court
denies summary judgment to Defendants as to Plaintiffs’
§ 11 claim.
d.

Affirmative Defenses

Plaintiffs also move for “summar y judg ment
dismissing Defendants’ affirmative defenses.” (Pls.’ Mem.
57.) Defendants concede that their third, fourth, seventh,
eighth, ninth, tenth, eleventh, twelfth, thirteenth, fifteenth,
seventeenth, eighteenth, nineteenth, twenty-third, twentyfourth, and twenty-fifth affirmative defenses can be
dismissed. (See Defs.’ Opp’n 41-46.) Likewise, Defendants’
first (failure to state a claim), second (standing), fifth (lack
of case or controversy), sixteenth (constitutionality of
RLUIPA), twenty-sixth (failure to assert facial challenge),
and twenty-seventh (residential or housing use is not an
exercise of religion or religion use) defenses have already
been addressed, and explicitly or implicitly rejected, in
58. While Plaintiffs cite O’Neill v. Oakgrove Constr., Inc.,
71 N.Y.2d 521, 523 N.E.2d 277, 528 N.Y.S.2d 1 (N.Y. 1988), for the
proposition that § 8 is “more expansive” than the First Amendment,
id. at 531 (Kaye, J., concurring), the portion of the opinion cited is the
concurrence, and there is no authority in that opinion for determining
that the building of a rabbinical college is speech.

402a
Appendix C
this Opinion and Order and the Court’s 2013 Opinion
and Order. (See Defs.’ Answer (Dkt. No. 55); see also
Defs.’ Opp’n 41 n.26 (noting that Defendants’ affirmative
defenses were stated in the Answer filed as Docket
Number 55).) Accordingly, the only affirmative defenses
that remain in dispute are Defendants’ sixth (failure
to exhaust), fourteenth (unclean hands), and twentieth,
twenty-first, and twenty-second (immunity).
Rega rding ex haustion, Pla inti ffs a rg ue that
“[e]xhaustion is not required where the questions
presented include facial challenges to legislation, or for
claims brought under 42 U.S.C. § 1983.” (Pls.’ Mem. 60
(citing Oestereich v. Selective Serv. Sys. Local Bd., 393
U.S. 233, 234, 89 S. Ct. 414, 21 L. Ed. 2d 402 (1966);
Kraebel v. N.Y. City Dep’t of Hous. Pres.and Dev., 959 F.2d
395, 404 (2d Cir. 1992)). Defendants, in response, contend
that Oesterich is inapplicable here, that, in general, “a
party must exhaust his administrative remedies before
seeking judicial review,” (Defs.’ Opp’n 43 (citing Gonzalez
v. Perrill, 919 F.2d 1, 2 (2d Cir. 1990))), and that exhaustion
is distinct from ripeness, (id. (citing Williamson Cty. Reg’l
Planning Comm’n v. Hamilton Bank, 473 U.S. 172, 193,
105 S. Ct. 3108, 87 L. Ed. 2d 126 (1985), superseded by
statute on other grounds, 47 U.S.C. § 332(c)(7)(B)(v), as
stated in Sprint Spectrum L.P. v. City of Carmel, 361 F.3d
998, 1004 (7th Cir. 2004))). Specifically, Defendants rely
heavily on the Second Circuit’s decision in Murphy v. New
Milford Zoning Comm’n, 402 F.3d 342 (2d Cir. 2005), in
which the court required the plaintiffs to apply to a local
zoning board of appeals prior to proceeding with their
lawsuit because “the resolution of the constitutional and

403a
Appendix C
statutory claims . . . hinge[d] on factual circumstances not
yet fully developed,” id. at 351
The Court concludes that exhaustion is not required
for Plaintiffs’ remaining claims, as the overwhelming
weight of authority indicates that exhaustion is not
required for facial challenges. See Lamar, 356 F.3d at
374 (explaining that “[the plaintiff] need not have first
sought and been denied any permit prior to filing a facial
challenge”); MacDonald v. Safir, 206 F.3d 183, 189 (2d Cir.
2000) (“[T]here is no need for a party actually to apply or
to request a permit in order to bring a facial challenge to
an ordinance (or parts of it) . . . .”). Indeed, as Plaintiffs
argue, it is not even clear what administrative review
procedures Plaintiffs should have sought before bringing
their challenge, or what “adverse decision” there was to
review at all. (See Pls.’ Reply. at 30.) Accordingly, “because
defendants have the burden of raising an affirmative
defense in their answer and establishing it . . . on a motion
for summary judgment,” Reach Music Pub., Inc. v.
Warner/Chappell Music, Inc., No. 09-CV-5580, 2009 U.S.
Dist. LEXIS 101943, 2009 WL 3496115, at *2 (S.D.N.Y.
Oct. 23, 2009) (brackets and internal quotation marks
omitted), and Defendants have not met their burden here,
summary judgment is granted to Plaintiffs as to this
affirmative defense.
Regarding unclean hands, Plaintiffs contend that the
defense only applies “where the misconduct alleged as
the basis for the defense ‘has immediate and necessary
relation to the equity that [the plaintiff] seeks in respect
of the matter in litigation.’” (Pls.’ Mem. 58-59 (quoting

404a
Appendix C
Keystone Driller Co. v. Gen. Excavator Co., 290 U.S.
240, 245, 54 S. Ct. 146, 78 L. Ed. 293, 1934 Dec. Comm’r
Pat. 639 (1933)). Plaintiffs also argue that “[t]here is no
evidence that Plaintiffs engaged in an unconscionable act”
or that any such act “had an immediate and necessary
relation to the Plaintiffs’ sought relief.” (Pls.’ Mem. 59.)
Defendants respond that the application of the doctrine
is subject to the discretion of the district court, and that
there is evidence in the record supporting the claim that
the rabbinical college “is a deceptive front for a scheme
to develop high density housing,” namely that there are
no definite construction plans and the curriculum for the
school was developed only by one putative student. (Defs.’
Opp’n 42 (citing Aris-Isotoner Gloves, Inc. v. Berkshire
Fashions, Inc., 792 F. Supp. 969, 970 (S.D.N.Y. 1992)). As
noted above, there are certainly disputed facts as to the
degree to which the rabbinical college has been seriously
planned. (See, e.g., Defs.’ 56.1 ¶¶ 25-36; Pls.’ Counter 56.1
¶¶ 25-36.) However, Defendants have offered no evidence
to suggest that Plaintiffs have no interest in building a
rabbinical college. The central question in this case is
not Plaintiffs’ sincerity, but rather whether Plaintiffs’
right to build their rabbinical college has been violated.
Accordingly, the Court grants summary judgment to
Plaintiffs on Defendants’ unclean hands affirmative
defense.
Regarding immunity from damages, Plaintiffs
contend that because they do not seek monetary damages,
Defendants’ affirmative defenses based on claims of
immunity from damages fail. (Pls.’ Mem. 60.) In response,
Defendants argue that the defenses—absolute immunity

405a
Appendix C
and qualified immunity—do not bar only damages claims.
(Defs.’ Mem. 60.) This is only half-correct. While absolute
immunity bars claims for damages and injunctive relief,
see Montero v. Travis, 171 F.3d 757, 761 (2d Cir. 1999)
(“Absolute immunity bars not only [the plaintiff’s] § 1983
claim for damages but also his claim for injunctive relief.”),
but not prospective declaratory relief, See B.d.S. v.
Southold Union Free Sch. Distr., Nos. 08-CV-1319, 08-CV1364, 2009 U.S. Dist. LEXIS 55981, 2009 WL 1875942, at
*20 (E.D.N.Y. June 24, 2009) (“[T]he doctrine of absolute
immunity does not extend to claims for declaratory relief
based upon continuing violations of federal law.”), qualified
immunity only bars damages claims, see Sudler v. City of
N.Y., 689 F.3d 159, 177 (2d Cir. 2012) (“[Q]ualified immunity
does not bar actions for declaratory or injunctive relief.”
(alteration and internal quotation marks omitted)).
Keeping this framework in mind, Defendants’
immunity-based affirmative defenses fail for two reasons.
First, Plaintiffs are suing the individual Defendants
in their official capacities, and therefore they are not
entitled to any immunity that the Village does not also
possess, meaning they cannot claim qualified or absolute
immunity. See Schubert v. City of Rye, 775 F. Supp. 2d
689, 699 (S.D.N.Y. 2011) (“[A] public official named as a
defendant in his or her official capacity in a § 1983 action
is not entitled to personal immunity defenses, but only the
immunities available to the government entity, and it is
well settled that a municipal entity has no claim to such
immunity from § 1983 liability.” (citation omitted)); see also
Johnson ex rel. Johnson v. Bd. of Educ. of Albion Centr.
Sch. Dist., No. 02-CV-115E, 2003 U.S. Dist. LEXIS 25087,

406a
Appendix C
2003 WL 23350123, at *2 (W.D.N.Y. Oct. 16, 2003) (“[The
defendant] may not claim the defense of qualified immunity
because he was sued in his official capacity.”); cf. Ying
Jing Gan v. City of N.Y., 996 F.2d 522, 529 (2d Cir. 1993)
(“To the extent that a state official is sued for damages
in his official capacity, such a suit is deemed to be a suit
against the state, and the official is entitled to invoke the
Eleventh Amendment immunity belonging to the state.”).
Second, because, as explained above, qualified immunity
only apples to damages claims, that defense is inapplicable
here. Accordingly, the Court grants summary judgment
to Plaintiffs on the immunity affirmative defenses. 59
III. Conclusion
The Court grants summary judgment to Defendants
as to Plaintiffs’ Free Speech and corresponding Article
1, § 8 New York Constitution claims, and the Court
grants summary judgment to Plaintiffs on Defendants’
affirmative defenses noted herein. The Court denies
summary judgment to all Parties as to all other claims,
grants Plaintiffs’ Motion for Sanctions, and grants
Defendants’ Motion to Strike in part. The Clerk of the
Court is respectfully directed to terminate the pending
motions. (Dkt. Nos. 137, 140, 195.)
59. Defendants argue that, if the Court strikes any of the
affirmative defenses, particularly Defendants’ standing, lack of case
or controversy, and failure to assert a facial challenge defenses,
“there is a body of case law holding that . . . [they] will be treated
as waived.” (Defs.’ Mem. 44.) Because the Court does not strike any
of Defendants’ affirmative defenses, but instead grants summary
judgment on them, there is no waiver concern here.

407a
Appendix C
SO ORDERED.
Dated:
September 29, 2015
	White Plains, New York
/s/ Kenneth M. Karas		
KENNETH M. KARAS
UNITED STATES DISTRICT
JUDGE

408a
AppendixAND
D ORDER of the
Appendix D — OPINION
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK,
FILED JANUARY 7, 2013
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK
Case No. 07-CV-6304 (KMK)
CONGREGATION RABBINICAL COLLEGE OF
TARTIKOV, INC., RABBI MORDECHAI BABAD,
RABBI WOLF BRIEF, RABBI HERMEN KAHANA,
RABBI MEIR MARGULIS, RABBI GERGELY
NEUMAN, RABBI MEILECH MENCZER,
RABBI JACOB HERSHKOWITZ, RABBI CHAIM
ROSENBERG, RABBI DAVID A. MENCZER, RABBI
ARYEH ROYDE, AND KOLEL BELZ OF MONSEY,
Plaintiffs,
v.
VILLAGE OF POMONA, BOARD OF TRUSTEES
OF THE VILLAGE OF POMONA, NICHOLAS
SANDERSON, AS MAYOR, IAN BANKS, AS
TRUSTEE AND IN HIS OFFICIAL CAPACITY,
ALMA SANDERS ROMAN, AS TRUSTEE AND
IN HER OFFICIAL CAPACITY, RITA LOUIE, AS
TRUSTEE AND IN HER OFFICIAL CAPACITY,
AND BRETT YAGEL, AS TRUSTEE AND IN HIS
OFFICIAL CAPACITY,
Defendants.

409a
Appendix D
January 4, 2013, Decided
OPINION AND ORDER
KENNETH M. KARAS, District Judge:
“This case presents the familiar conflict between
the legal principle of non-discrimination and the political
principle of not-in-my-backyard.” New Directions
Treatment Servs. v. City of Reading, 490 F.3d 293, 295
(3d Cir. 2007). Plaintiffs challenge certain zoning and
environmental ordinances enacted by Defendant Village
of Pomona, asserting that the ordinances are unlawful
under the First and Fourteenth Amendments of the
United States Constitution, the Religious Land Use and
Institutionalized Persons Act of 2000 (“RLUIPA”), 42
U.S.C. § 2000cc et seq., the Fair Housing Act (“FHA”), 42
U.S.C. § 3601 et seq., the New York Civil Rights Law § 40c(1), (2), Article I, Sections 3, 8, 9, and 11 of the New York
State Constitution, and New York common law. Specifically,
Plaintiffs challenge the enactment and enforcement of
the Village of Pomona, New York Code Sections 1304 (defining educational institutions and dormitories),
130-10(F)(12) (limiting the size of dormitories pursuant
to an educational use), and 126 (establishing wetlands
protections) (together, the “challenged ordinances”).1
Defendants move to dismiss Plaintiffs’ Second Amended
1. The challenged ordinances can be found in the Declaration
accompanying Plaintiffs’ Memorandum of Law in Opposition to
Defendants’ Motion To Dismiss. They can also be found online
at http://www.ecode360.com/12718511 and http://www.ecode360.
com/12718574.

410a
Appendix D
Complaint under Federal Rules of Civil Procedure 12(b)(1)
and 12(b)(6). For the reasons discussed below, Defendants’
Motion is granted in part and denied in part.
I.

Background

The Court assumes the following facts, largely drawn
from Plaintiffs’ Second Amended Complaint, as true for
purposes of the instant Motion. Plaintiffs have brought this
action to challenge the aforementioned zoning ordinances
adopted by Defendant Village of Pomona (the “Village”);
Plaintiffs claim that the ordinances unlawfully prohibit
Plaintiff Congregation Rabbinical College of Tartikov
(the “Congregation”) from owning, holding, building, and
operating a rabbinical college on a 100-acre tract (the
“Subject Property”) located in the Village and owned by
the Congregation. (Second Am. Compl. (“SAC”) ¶ 1 (Dkt.
No. 28).)
A. 	The Parties
Plaintiffs are corporations and individuals affiliated
with the Orthodox Jewish community, including various
sects of the Hasidic community, all of whom allege an
interest in the construction of a rabbinical college on the
Subject Property. (Id. ¶¶ 24-27.) The Congregation, the
owner of the Subject Property, is a religious corporation
that was formed in 2004 with the aim of constructing a
rabbinical college and related facilities on the Subject
Property. (Id. ¶ 10.) Plaintiff Kolel Belz of Monsey (“Kolel
Belz”) is a religious corporation that serves more than 200
families and purports to “represent[] the interests of itself

411a
Appendix D
and the broader Orthodox community in actively seeking
trained” rabbinical judges (“dayanim”) to “conduct the
activities of rabbinical courts.” (Id. ¶¶ 34-35.) Plaintiffs
Rabbi Mordechai Babad (“M. Babad”), Rabbi Wolf Brief,
Rabbi Hermen Kahana, Rabbi Meir Margulis, Rabbi
Gergely Neuman, Rabbi Meilech Menczer (“M. Menczer”),
Rabbi Jacob Hershkowitz, Rabbi Chaim Rosenberg, Rabbi
David A. Menczer (“D. Menczer”), and Rabbi Aryeh
Royde (collectively, the “Individual Plaintiffs”) are trained
Rabbis who seek to live and to teach and/or to study at
the Congregation’s proposed rabbinical college. (Id. ¶¶ 1120.) Defendants consist of the Village, its Mayor, Nicholas
Sanderson, and the members of its Board of Trustees,
Ian Banks, Alma Sanders Roman, Rita Louie, and Brett
Yagel. (Id. ¶¶ 22-23.)
B. The Religious Significance of a Rabbinical
College
According to Orthodox Jewish belief, Orthodox Jews
are not permitted to resolve conflicts in the secular court
system. (Id. ¶ 54.) Rather, the Orthodox Jewish religion
requires that Orthodox Jews resolve conflicts in rabbinical
courts before rabbinical judges applying Jewish law. (Id.)
The Orthodox Jewish community therefore is obligated
by religious belief to create rabbinical courts in every
locale where Orthodox Jews live. (Id. ¶¶ 54-55.) Currently,
however, because there are very few trained rabbinical
judges in the United States, “there are only a very few
[r]abbinical [c]ourts . . . serving Orthodox Jews in the
entire United States,” and those courts are “extremely
overburdened.” (Id. ¶ 49.)

412a
Appendix D
Plaintiffs allege that by building the rabbinical
college, the Congregation seeks to ameliorate the “severe”
shortage of trained rabbinical judges in the Orthodox
Jewish community. (Id. ¶¶ 25, 33.) While several other
rabbinical colleges exist in the United States, “[t]he
existing [institutions] are insufficient to meet the need of
students” who wish to become rabbinical judges and to
train the number of “[r]abbinical [j]udges needed to serve
the Orthodox Jewish community.” (Id. ¶ 82.) Moreover,
not all of the rabbinical colleges in the United States offer
the “full course of study or religious environment” that
the Congregation’s planned rabbinical college will offer.
(Id.) Although Plaintiffs acknowledge that one rabbinical
college already offers the same type of program that the
Congregation’s rabbinical college plans to offer—Kollel
Beth Yechiel Mechil of Tartikov, located in Brooklyn, New
York—that “facility is extremely overcrowded and . . .
[i]ts doors have been shut for several years to new rabbis
because of . . . dire space limitations.” (Id. ¶ 48.)
C.

The Congregation’s Planned Rabbinical
College

The Congregation’s planned rabbinical college will be
“devoted solely to religious training of [rabbinical judges]
who will be tested and certified by rabbinical authorities
. . . after many years of intense religious study.” (Id. ¶ 53.)
Rabbinical students, all of whom must be ordained Rabbis,
“will normally begin these specialized religious studies
between the ages of 20 and 30.” (Id. ¶ 59.) Training to
become a certified rabbinical judge may take “up to (or
beyond) fifteen years.” (Id.) During that time, rabbinical

413a
Appendix D
students will study the religious laws of the Orthodox
Jewish tradition, as well as “the wise and just application
of the religious laws,” and they will learn how “to counsel
members of the Orthodox Jewish community on the dayto-day questions that arise in applying Jewish Law to
every aspect of their daily lives.” (Id. ¶ 58.)
The academic format of the planned rabbinical college
“is based upon strenuous religious study and prayer
during the hours of 5:00 a.m. to 10:30 p.m., with meal
breaks.” (Id. ¶ 60.) Plaintiffs believe that “it is essential for
these students to live, study and pray in the same place in
order to minimize outside influences and to intensify the
religious learning experience.” (Id. ¶ 65.) In accord with
Plaintiffs’ belief that “[r]esidential housing is essential
to the training provided by” a rabbinical college, the
Congregation’s rabbinical college will include housing
for the rabbinical students. (Id. ¶ 64.) Such housing must
accommodate families, as many students “will be married,
some with young children.” (Id. ¶¶ 59, 66.)
Additionally, because “Orthodox Jews must pray
three times per day, in morning, afternoon and evening
services,” (id. ¶ 63), Plaintiffs allege that it is essential to
their religious beliefs that the rabbinical college and the
residential housing be close in proximity to synagogues
(“shuls”), (id.). Accordingly, the planned rabbinical college
will include up to ten shuls to accommodate Orthodox
Jews of all sects and traditions, including Ashkenazic,
Sephardic, and other Hasidic and Orthodox sects. (Id.
¶ 68.)

414a
Appendix D
The Congregation’s rabbinical college will also include
four rabbinical courtrooms on campus, “which will be used
to litigate and settle disputes, and as teaching facilities
for students to become certified [r]abbinical [j]udges.” (Id.
¶ 69.) The campus will further house “multiple libraries,
which will contain the books necessary for the educational
program.” (Id. ¶ 70.)
While the Orthodox Jewish religion prescribes
a rigorous program for the certification of rabbinical
judges, Plaintiffs allege that no formal accreditation
process exists for the program that will be offered by the
rabbinical college. (Id. ¶¶ 105-06.)
D.

The Subject Property

The Subject Property consists of a 100-acre tract of
land located within the Village and also within the larger
Town of Ramapo. (Id. ¶¶ 1, 73, 75.) The Congregation
purchased the Subject Property in August 2004 with the
intention of building thereon its rabbinical college and
related facilities. (Id. ¶¶ 10, 73.) Around the same time, an
“additional contiguous 30 acres was [sic] purchased by an
affiliate of the Congregation to serve as a buffer between
the [r]abbinical [c]ollege and the neighboring community.”
(Id. ¶ 74.) Plaintiffs allege that “[t]he Subject Property is
uniquely suited to meet the needs of the Congregation”
in building the rabbinical college. (Id. ¶ 76.)
According to Plaintiffs, “the Subject Property is the
only available parcel of land” that is both appropriately
sized and situated in close proximity to the “religious

415a
Appendix D
infrastructure and population,” as required for a
rabbinical college. (Id. ¶ 83.) Plaintiffs further allege that
the Subject Property also is an appropriate location for
the planned rabbinical college because of its proximity
to both the Village and the other villages located within
the Town of Ramapo, which are also home to a large
Orthodox Jewish community. (Id. ¶ 77.) Importantly,
these villages are equipped with “the infrastructures
necessary to maintain the practices prescribed by [the
Orthodox Jewish] beliefs, including synagogues, yeshivas,
elementary and high schools for boys and girls, ritual
baths, and kosher food stores and restaurants.” (Id.)
Moreover, it is the Orthodox Jewish community in these
villages, as well as other villages within the greater area
of Rockland County, that the Congregation’s rabbinical
college is intended to serve. (Id. ¶ 80.) Plaintiffs allege
that “[n]o alternative properties exist in [the Village] or in
surrounding communities which can legally or practicably
accommodate the” planned rabbinical college. (Id. ¶ 84.)
E. 	The Village’s Land Use Ordinances
Plaintiffs claim that the Village’s land use ordinances
prohibit the Congregation from building its rabbinical
college on the Subject Property. (Id. ¶¶ 92-95.) First,
Plaintiffs allege that the Village’s zoning laws generally
prohibit the Congregation from building the rabbinical
college itself. The entire Village, including the Subject
Property, is designated as an “R-40 District,” which
“requires a minimum of 40,000 square feet per lot
(approximately one acre) for the development of onefamily homes,” (id. ¶ 88). See also Vill. of Pomona, N.Y.

416a
Appendix D
Code § 130-5. The Village’s Zoning Code permits a limited
number of uses on land within the Village’s boundaries—
e.g., one-family residences, houses of worship, libraries
and museums, public parks and playgrounds. See Vill. of
Pomona, N.Y. Code § 130-9(A). According to Plaintiffs,
a rabbinical college could not qualify under any of the
uses permitted by the Village. While the Village does
grant, upon approval by either the Village Board of
Trustees or the Village Board of Zoning Appeals, certain
special use permits, Plaintiffs allege that a rabbinical
college could not qualify as a special use under the other
provisions of the Village’s zoning Code. (SAC ¶ 91.)
Specifically, although Sections 130-4 and 130-10 of the
Village Zoning Code empower the Board of Trustees to
issue a special use permit for “educational institutions,”
Plaintiffs allege that Section 130-4’s restricted definition
of “educational institution” as “[a]ny private or religious
. . . school conducting a full-time curriculum of instruction
a minimum of five days per week for seven months per
year and accredited by the New York State Education
Department or similar recognized accrediting agency,”
Vill. of Pomona, N.Y. Code § 130-4 (emphasis added),
prevents the rabbinical college from being permitted as
a special use. (SAC ¶ 93.) Plaintiffs allege that no formal
accreditation process exists for the rabbinical college,
(id. ¶¶ 105-06), and thus claim that the rabbinical college
cannot qualify under the Village’s land use ordinances
as either a permitted use or a special use under Sections
130-9 and 130-10, (id. ¶ 95.)
Plaintiffs further allege that the Village’s land use
ordinances prohibit the Congregation from building

417a
Appendix D
residential facilities requisite to its rabbinical college.
Although the Subject Property consists of a 100-acre
tract of land, it is considered a single “lot” under the
Village’s zoning law. (Id. ¶ 89.) 2 Pursuant to Section
130-9 of the Village’s Zoning Code, unless the Subject
Property is subdivided, the entire 100-acre tract may
house only a single one-family residence; multiple
dwellings are explicitly prohibited. See Vill. of Pomona,
N.Y. Code § 130-9(A)(1). Allegedly, it is “impracticable”
for the Congregation to comply with this restriction given
the alleged need to house students, teachers, and their
families on the rabbinical college campus. (SAC ¶ 92.)
While the land use ordinances permit dormitories as an
“accessory use to an” educational institution “on the same
lot as the educational use,” Vill. of Pomona, N.Y. Code
§ 130-10(F)(12), Plaintiffs allege that a rabbinical college
cannot meet the Village’s definition of an educational
institution. Moreover, Section 130-4 of the Village Code
defines “dormitory” as exempting rooms that “contain
separate cooking, dining or housekeeping facilities,” id.,
§ 130-4, which Plaintiffs allege are required to house
families adequately. (SAC ¶ 107.) Additionally, Plaintiffs
allege that the land use ordinances unreasonably prohibit
the construction of more than one dormitory building per
lot and limit the size of a dormitory to twenty percent of
the “total square footage of all buildings on the lot,” see
Vill. of Pomona, N.Y. Code § 130-10(F)(12). (SAC ¶¶ 10809.) According to Plaintiffs, “applying generally accepted
architectural standards and guidelines for school building
2 . Cu r rently, the Subject P roper ty contains “12 -13
structures, including bungalows and other buildings used as an
Orthodox Jewish summer camp.” (SAC ¶ 89.)

418a
Appendix D
square footage per student and dormitory square footage
per student, such a restriction results in permitted
school dormitories which could house a maximum of only
approximately three (3%) of any student body.” (Id. ¶ 163.)
Therefore, the “twenty percent restriction effectively
eliminates all dormitories.” (Id.)
Based on these provisions of the Village’s Zoning
Code, Plaintiffs argue that “there is no question that the
College’s proposed use is forbidden within the Village.”
(Id. ¶ 111.)
F. 	The Village’s Environmental Regulations
In April 2007, the Village adopted a wetlands
protection ordinance, which requires a 100-foot buffer
around wetlands of 2,000 square feet or more. See Vill.
of Pomona, N.Y. Code § 126-3(A). Plaintiffs contend that
the Village enacted this law “specifically to prevent the
Hasidic Jewish community from locating and obtaining
housing within the Village.” (SAC ¶ 174.) Plaintiffs further
allege that “the . . . wetlands law . . . exempts nearly every
lot in the entire Village, except for the [Subject Property]
(and perhaps a very few other uses, if any).” (Id. ¶ 169.)
Accordingly, Plaintiffs challenge the law as “intended
to restrict development of the [Subject Property], which
contains 37 acres of wetlands.” (Id. ¶ 171.)
G. Discriminatory Purpose
Plaintiffs allege that the Village adopted the
challenged ordinances with the deliberate purpose

419a
Appendix D
of precluding construction of the rabbinical college.
(Id. ¶¶ 156-159.) Specifically, Plaintiffs contend that
the timing of the enactment of some of these zoning
laws suggests discriminatory animus. For example,
the Village’s definition of “educational institution” was
amended one month after the Congregation’s August
2004 purchase of the Subject Property to require that
a qualifying institution be “accredited by the New York
State Department of Education or a similar recognized
accrediting agency,” Vill. of Pomona, N.Y. Code § 130-4.
(SAC ¶ 156.) Just a few months thereafter, in late 2004,
the Village further amended its Zoning Code to exclude
from its definition of “dormitory” any single-family,
two-family and multifamily dwelling units, see Vill. of
Pomona, N.Y. Code § 130-4, and to limit the number of
dormitories per lot. (SAC ¶¶ 157-58.) In January 2007, the
Village again amended its Zoning Code to limit the size of
dormitory buildings—relative to the total square footage
of all buildings on the lot—to be used as accessories to
educational institutions. (Id. ¶ 162.)
Plaintiffs further allege that the “‘Dormitory’
legislation [passed in 2007] was . . . designed and enacted
specifically to prevent the Hasidic Jewish community from
residing and obtaining housing within the Village,” as
evidenced in part by “[c]ommunity opposition . . . through
public comment at the hearing on the dormitory
legislation.” (Id. ¶¶ 164-65.) Plaintiffs highlight the
following comments, made by the Village’s then-Mayor,
Herbert Marshall, in response to the community’s
opposition as further evidence of the discriminatory
motive behind the dormitory legislation:

420a
Appendix D
Ladies and gentleman, let me say something.
We sitting at this table have limitations that are
placed on us as to what we can say, and what we
can’t say, because our attorney tells us what we
can say and what we can’t say. I can’t say what
I feel — I can’t — if I agree with you, I don’t
agree with you, I don’t have that luxury of being
able to say that here. All that I can say is that
every member of this board works very, very
hard to do what is best for this community. You
have your issues. Don’t assume because no one
has gotten up and said, wow, I agree with you,
oh boy; don’t assume that because we didn’t do
that we don’t agree.
(Id. ¶ 166.)
Plaintiffs further allege that Mayor Sanderson and
Trustees Yagel and Louie were elected to office based on
campaign promises to “fight this plan” and “stand up to
this threat,” ostensibly referring to the Congregation’s
plan to build the rabbinical college. (Id. ¶ 178.) Plaintiffs
also cite an article published in a local newspaper, the
Journal-News, which stated that Mayor Sanderson
defeated former Mayor Marshall “in a contest defined
by land-use concerns sparked by plans for a rabbinical
college.” (Id. ¶ 198.) Plaintiffs also allege that Trustees
Yagel and Louie “expressly warned a civic association to
be careful not to allow discriminatory statements to slip
out.” (Id. ¶ 183.) Mayor Sanderson allegedly stated publicly
in 2007 that “[t]he single most important issue facing the
village at this time is the as yet un-proposed, but leaked,

421a
Appendix D
[r]abbinical [c]ollege development,” and that the Village
should “maintain[] its cultural and religious diversity.” (Id.
¶ 180 (fourth alteration in original).) It is further alleged
that, prior to his election, Mayor Sanderson “appeared in
a campaign video [in which] he said that the [r]abbinical
[c]ollege could not only ‘change the village,’ but could
change ‘the makeup of the village,’” suggesting, in
Plaintiffs’ view, his intention of “controlling the influx of
Hasidic Jews into the Village.” (Id. ¶ 179.) Once Mayor
Sanderson was elected, he allegedly stated “if they use
RLUIPA to get us, we will fight,” further noting that “it
would cost $1,000,000 to fight a RLUIPA challenge, and
. . . the funds could be raised over ‘3-5 years’ before a
lawsuit would be filed.” (Id. ¶ 181, 184.)
In addition to these and other specific allegations
concerning animus toward the rabbinical college, Plaintiffs
also generally allege that there has been “[c]ommunity
[h]ostility to Hasidic Jews” in the Village, which “played a
significant role in the discriminatory actions undertaken
by the Defendants and led directly to targeting of various
Jewish uses of the Subject Property.” (Id. ¶ 186.) In
support of this allegation, Plaintiffs cite various slurs and
other offensive statements about Hasidic Jews made by
members of the Village’s community. (Id. ¶¶ 188-95.) The
various statements include an alleged statement by Doris
Ulman, the Village’s Attorney, at a seminar on RLUIPA
that “residents should not ‘cave into them and sell our
houses,’ referring,” in Plaintiffs’ view, “to the Hasidic
population.” (Id. ¶ 192.)

422a
Appendix D
H. 	The Congregation Contacts the Village
Regarding the Project
The Congregation does not allege that it submitted
a formal application for the planned rabbinical college
to the Village. Rather, the Village first became aware of
the Congregation’s plan for the rabbinical college when a
“hypothetical sketch plat . . . was apparently leaked to the
‘Preserve Ramapo’ group,” a “local private organization
that has” expressed concerns about “population growth in
Ramapo’s Hasidic communities.” (Id. ¶¶ 175-76.) Plaintiffs
allege that the Village amended its zoning laws in a
discriminatory manner in 2004 and later in 2007 based
on its knowledge from this leak of the Congregation’s plan
to build the rabbinical college.
The Congregation reached out to the Village Board
of Trustees and other Village representatives in March
and April 2007 to discuss the project and whether it could
“be accommodated by the Village.” (Id. ¶¶ 208-09.) After
apparently receiving no response from the Village, counsel
for the Congregation telephoned Ulman on May 9, 2007
to discuss the project. (Id. ¶ 210.) Counsel subsequently
followed up on May 10, 2007 with two letters requesting
a “[p]ublic [m]eeting, for an informal design and technical
review of a proposed project,” (id.), as is encouraged under
the Village’s Zoning Code. See Vill. of Pomona, N.Y. Code
§ 130-28(E)(3) (“Applicants are encouraged to submit a
preliminary, informal application and to discuss it with the
appropriate permitting Board prior to formal submission
of a complete and detailed special permit application.”).
Ulman responded by letter on May 14, 2007, stating

423a
Appendix D
I do not understand why you would request
any meeting to discuss the design of a project
that is illegal until you have applied for the
required zone change. At no time did your
letters or discussions with me suggest that a
public meeting was requested to discuss the
project. In my opinion, any meeting, public or
private, would be premature.
(Defs.’ Ex. R; SAC ¶ 211.) On June 22, 2007, the
Congregation contacted Mayor Sanderson, the Village
Board of Trustees, and Ulman by letter, again suggesting
a meeting to discuss the Congregation’s proposed project.
(SAC ¶ 212.) The letter requested “that the Village of
Pomona Board of Trustees exercise its authority under
federal law to grant an exemption to a religious institution
to allow for the construction of” the rabbinical college.
(Defs.’ Ex. S at 1; SAC ¶ 213.) On July 3, 2007, Mayor
Sanderson responded to the Congregation by letter,
stating that the Village “cannot grant your request to
have the Board of Trustees exempt [the project] from
the provisions of the Pomona Zoning Law “ and that “the
only remedy available for the [r]abbinical [c]ollege were
[sic] legislative ones [sic].” (SAC ¶¶ 214-15.)
II. 	Discussion
A.

Standard of Review
1.

Rule 12(b)(1)

“[A] federal court has subject-matter jurisdiction over
a cause of action only when it ‘has authority to adjudicate

424a
Appendix D
the cause’ pressed in the complaint.” Singer v. Xipto, Inc.,
852 F. Supp. 2d 416, 422 (S.D.N.Y. 2012) (quoting Sinochem
Int’l Co. v. Malay Int’l Shipping Corp., 549 U.S. 422, 425,
127 S. Ct. 1184, 167 L. Ed. 2d 15 (2007)). “Determining
the existence of subject matter jurisdiction is a threshold
inquiry, and a claim is properly dismissed for lack of
subject matter jurisdiction under Rule 12(b)(1) when the
district court lacks the statutory or constitutional power
to adjudicate it.” Morrison v. Nat’l Austl. Bank Ltd., 547
F.3d 167, 170 (2d Cir. 2008) (internal quotation marks
omitted). “A plaintiff asserting jurisdiction has the burden
of proving by a preponderance of evidence that it exists.”
Id. (internal quotation marks omitted). “[T]he court must
take all facts alleged in the complaint as true and draw all
reasonable inferences in favor of plaintiff, but jurisdiction
must be shown affirmatively, and that showing is not made
by drawing from the pleadings inferences favorable to the
party asserting it.” Id. (alteration in original) (citations
and internal quotation marks omitted).
2.

Rule 12(b)(6)

“On a Rule 12(b)(6) motion to dismiss a complaint,
the court must accept a plaintiff’s factual allegations as
true and draw all reasonable inferences in [the plaintiff’s]
favor.” Gonzalez v. Caballero, 572 F. Supp. 2d 463, 466
(S.D.N.Y. 2008); see also Ruotolo v. City of New York, 514
F.3d 184, 188 (2d Cir. 2008) (“We review de novo a district
court’s dismissal of a complaint pursuant to Rule 12(b)
(6), accepting all factual allegations in the complaint and
drawing all reasonable inferences in the plaintiff’s favor.”
(internal quotation marks omitted)). “In adjudicating
a Rule 12(b)(6) motion, a district court must confine its

425a
Appendix D
consideration to facts stated on the face of the complaint,
in documents appended to the complaint or incorporated
in the complaint by reference, and to matters of which
judicial notice may be taken.” Leonard F. v. Isr. Disc.
Bank of N.Y., 199 F.3d 99, 107 (2d Cir. 1999) (internal
quotation marks omitted).
The Supreme Court has held that “[w]hile a complaint
attacked by a Rule 12(b)(6) motion to dismiss does not
need detailed factual allegations, a plaintiff’s obligation to
provide the ‘grounds’ of his [or her] ‘entitle[ment] to relief’
requires more than labels and conclusions, and a formulaic
recitation of the elements of a cause of action will not do.”
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555, 127 S. Ct.
1955, 167 L. Ed. 2d 929 (2007) (third alteration in original)
(citations omitted). Instead, the Court has emphasized
that “[f]actual allegations must be enough to raise a right
to relief above the speculative level,” id., and that “once
a claim has been stated adequately, it may be supported
by showing any set of facts consistent with the allegations
in the complaint,” id. at 563. Plaintiffs must allege “only
enough facts to state a claim to relief that is plausible on
its face.” Id. at 570. But if a plaintiff has “not nudged [his
or her] claims across the line from conceivable to plausible,
the[] complaint must be dismissed.” Id.; see also Ashcroft
v. Iqbal, 556 U.S. 662, 679, 129 S. Ct. 1937, 173 L. Ed. 2d
868 (2009) (“Determining whether a complaint states a
plausible claim for relief will . . . be a context-specific task
that requires the reviewing court to draw on its judicial
experience and common sense. But where the well-pleaded
facts do not permit the court to infer more than the mere
possibility of misconduct, the complaint has alleged—but

426a
Appendix D
it has not ‘show[n]’—’that the pleader is entitled to relief.’”
(alteration in original) (citation omitted) (quoting Fed. R.
Civ. P. 8(a)(2))).
“A court presented with a motion to dismiss under
both Fed. R. Civ. P. 12(b)(1) and 12(b)(6) must decide the
jurisdictional question first because a disposition of a Rule
12(b)(6) motion is a decision on the merits, and therefore,
an exercise of jurisdiction.” Homefront Org., Inc. v.
Motz, 570 F. Supp. 2d 398, 404 (E.D.N.Y. 2008) (internal
quotation marks omitted); see also Rhulen Agency, Inc.
v. Ala. Ins. Guar. Ass’n, 896 F.2d 674, 678 (2d Cir. 1990).
B. Justiciability
Defendants move to dismiss on the grounds that
Plaintiffs lack standing to bring this case and that
Plaintiffs’ claims are not ripe.
1.

Standing

The Court begins, as it must, with the question of
Plaintiffs’ standing. See Pettus v. Morgenthau, 554 F.3d
293, 298 (2d Cir. 2009) (“[S]tanding . . . is intended to be
a threshold issue at least tentatively decided at the outset
of the litigation.”); Licensing by Paolo, Inc. v. Sinatra (In
re Gucci), 126 F.3d 380, 387-88 (2d Cir. 1997) (“Whether
a claimant has standing is ‘the threshold question in
every federal case, determining the power of the court
to entertain the suit.’” (quoting Warth v. Seldin, 422 U.S.
490, 498, 95 S. Ct. 2197, 45 L. Ed. 2d 343 (1975))). “[T]o
satisfy Article III’s standing requirements, a plaintiff

427a
Appendix D
must show (1) it has suffered an ‘injury in fact’ that is (a)
concrete and particularized and (b) actual or imminent,
not conjectural or hypothetical; (2) the injury is fairly
traceable to the challenged action of the defendant; and
(3) it is likely, as opposed to merely speculative, that the
injury will be redressed by a favorable decision.” Pac.
Capital Bank, N.A. v. Connecticut, 542 F.3d 341, 350 (2d
Cir. 2008) (alteration in original) (quoting Friends of the
Earth, Inc. v. Laidlaw Envtl. Servs., Inc., 528 U.S. 167,
180-81, 120 S. Ct. 693, 145 L. Ed. 2d 610 (2000)); see also
W.R. Huff Asset Mgmt. Co. v. Deloitte & Touche LLP,
549 F.3d 100, 106-07 (2d Cir. 2008) (same); Policemen’s
Annuity & Benefit Fund of Chi. v. Bank of Am., NA, No.
12-CV-2865, 907 F. Supp. 2d 536, 2012 U.S. Dist. LEXIS
173871, 2012 WL 6062544, at *5 (S.D.N.Y. Dec. 7, 2012)
(same). 3 It is the burden of the party invoking federal
3. In addition to these constitutional requirements, courts
also apply “prudential principles” to determine whether a plaintiff
has standing. Gladstone, Realtors v. Village of Bellwood, 441 U.S.
91, 99-100, 99 S. Ct. 1601, 60 L. Ed. 2d 66 (1979). These prudential
limits on standing allow courts “to avoid deciding questions of
broad social import where no individual rights would be vindicated
and to limit access to the federal courts to those litigants best
suited to assert a particular claim.” Id. at 99-100. Not all claims
are subject to prudential limits, however, as Congress is permitted
to “expand standing to the full extent permitted by [Article] III.”
Id. at 100. In fact, plaintiffs pursuing claims under the FHA are
not subject to prudential limits on standing. See Havens Realty
Corp. v. Coleman, 455 U.S. 363, 372, 102 S. Ct. 1114, 71 L. Ed. 2d
214 (1982) (holding that Congress intended standing under the
FHA to extend to the full limits of Article III). As the Court finds
that Plaintiffs’ standing can be determined based solely on the
constitutional analysis, the Court does not engage in a separate

428a
Appendix D
jurisdiction to establish standing. See Lujan v. Defenders
of Wildlife, 504 U.S. 555, 561, 112 S. Ct. 2130, 119 L. Ed.
2d 351 (1992). However, “at the pleading stage, standing
allegations need not be crafted with precise detail.” Baur
v. Veneman, 352 F.3d 625, 631 (2d Cir. 2003) (citing Lujan,
504 U.S. at 561); see also Nat’l Council of La Raza v.
Mukasey, 283 Fed. App’x 848, 850 (2d Cir. 2008) (same);
Heghmann v. Sebelius, No. 09-CV-5880, 2010 U.S. Dist.
LEXIS 71965, 2010 WL 2643301, at *2 (S.D.N.Y. May 13,
2010) (same).
Generally, “the ‘injury-in-fact’ requirement means
that a plaintiff must have personally suffered an injury.”
Huff, 549 F.3d at 107; see also Lujan, 504 U.S. at 560 n.1
(“By particularized, we mean that the injury must affect
the plaintiff in a personal and individual way.”); Valley
Forge Christian Coll. v. Ams. United for Separation of
Church & State, Inc., 454 U.S. 464, 472, 102 S. Ct. 752,
70 L. Ed. 2d 700 (1982) (“[Article] III requires the party
who invokes the court’s authority to show that he [or
she] personally has suffered some actual or threatened
injury as a result of the putatively illegal conduct of the
defendant.” (internal quotation marks omitted)). A plaintiff
must allege a personal stake in the outcome of the case and
a “distinct and palpable” injury. See Ross v. Bank of Am.,
standing analysis for Plaintiffs’ FHA claims. Rather, the Court
uses the same analysis to determine Plaintiffs’ standing with
respect to all of its claims. See ACORN v. County of Nassau, No.
05-CV-2301, 2006 U.S. Dist. LEXIS 50217, 2006 WL 2053732, at
*7 n.1 (E.D.N.Y. July 21, 2006) (employing the same analysis to
determine the plaintiffs’ standing under the Equal Protection
Clause and the FHA).

429a
Appendix D
N.A., 524 F.3d 217, 222 (2d Cir. 2008) (internal quotation
marks omitted); see also Duke Power Co. v. Carolina
Envtl. Study Grp., Inc., 438 U.S. 59, 72, 98 S. Ct. 2620,
57 L. Ed. 2d 595 (1978); City of New Rochelle v. Town of
Mamaroneck, 111 F. Supp. 2d 353, 358 (S.D.N.Y. 2000).
As for causation, a plaintiff “satisf[ies] the causation
requirement if the complaint ‘aver[s] the existence of
[an] intermediate link between the . . . [challenged]
regulations and the injury.’” Pac. Capital Bank, 542 F.3d
at 350 (second and third alterations in original) (quoting
Heldman v. Sobol, 962 F.2d 148, 156 (2d Cir. 1992)); see
also In re Currency Conversion Fee Antitrust Litig.,
Nos. M 21-95, 05-CV-7116, 2009 U.S. Dist. LEXIS 6747,
2009 WL 151168, at *2 (S.D.N.Y. Jan. 21, 2009) (same).
Causation is lacking if the claimed injury is “th[e] result
[of] the independent action of some third party not before
the court” rather than the challenged conduct. Lujan, 504
U.S. at 560 (alterations in original) (internal quotation
marks omitted); see also M.J. Entm’t Enters., Inc. v. City
of Mount Vernon, 234 F. Supp. 2d 306, 311-13 (S.D.N.Y.
2002) (holding that plaintiff lacked standing to bring a
facial challenge to a zoning ordinance that did not apply
to plaintiff’s property). But a plaintiff need not claim
that a defendant’s challenged actions were the very last
step in a chain of events leading to an injury adequately
to allege causation. See Bennett v. Spear, 520 U.S. 154,
168-69, 117 S. Ct. 1154, 137 L. Ed. 2d 281 (1997) (noting
that the “‘fairly traceable’” requirement does not demand
that “the defendant’s actions [be] the very last step in the
chain of causation”); Ctr. for Reproductive Law & Policy
v. Bush, 304 F.3d 183, 192 (2d Cir. 2002) (same).

430a
Appendix D
Finally, the redressability requirement demands that
there is a “‘non-speculative likelihood that the injury
can be remedied by the requested relief.’” Coalition
of Watershed Towns v. EPA, 552 F.3d 216, 218 (2d Cir.
2008) (per curiam) (quoting Huff, 549 F.3d at 106-07);
see also M.J. Entm’t, 234 F. Supp. 2d at 311 (determining
that redressability requirement was not met because
“a ruling by this Court invalidating the ‘special permit
use’ provisions of the Zoning Code would not redress
plaintiff’s injury,” as plaintiff’s proposed use was barred
by another ordinance). To meet this standard, the plaintiff
must allege facts that show it is “‘likely, as opposed to
merely speculative, that the injury will be redressed by
a favorable decision.’” Watershed Towns, 552 F.3d at 218
(quoting Lujan, 504 U.S. at 561); see also Allen v. Wright,
468 U.S. 737, 758, 104 S. Ct. 3315, 82 L. Ed. 2d 556 (1984)
(holding that there was no standing where it was “entirely
speculative” whether withdrawal of the challenged tax
exemption would lead “any particular school . . . to change
[the] policies” that had caused the plaintiffs’ injuries);
Lamar Adver. of Penn, LLC v. Town of Orchard Park, 356
F.3d 365, 374 (2d Cir. 2004) (finding injury redressable,
because, “[w]ere [plaintiff] to succeed on the merits of its
claims, it likely would be able to erect at least some of the
signs it has asserted an intent to build”).
a. 	The Congregation
The Congregation has shown that it has standing to
challenge the ordinances at issue because, accepting as
true the allegations in the Second Amended Complaint,
the Congregation has alleged a particularized injury that

431a
Appendix D
would be redressed if the Court granted the requested
relief. The Congregation alleges, inter alia, the following
in support of its standing: (1) the Congregation owns the
Subject Property; (2) it purchased the Subject Property
with the intention of building a rabbinical college thereon;
(3) it already has begun to develop plans to build the
rabbinical college; (4) the Subject Property is subject to
Sections 130-4, 130-9, and 130-10 of the Village Zoning
Code, as well as Section 126 (the Village’s wetlands
ordinance), which on their face prohibit unaccredited
educational institutions and some of the Congregation’s
planned accessory uses; and (5) those provisions were
enacted unlawfully to prevent the Congregation from
building its rabbinical college. (Pls.’ Mem. 23.) Under these
circumstances, the Congregation has sufficiently alleged
an “injury in fact” that gives it a personal stake in the
outcome of the litigation, as the Congregation’s intended
use of the Subject Property is allegedly prohibited by the
challenged ordinances. See Lamar, 356 F.3d at 373-75
(finding that standing requirements were satisfied, where
an ordinance prevented plaintiff from building certain
signs); Chabad Lubavitch v. Borough of Litchfield, 796 F.
Supp. 2d 333, 338 (D. Conn. 2011) (holding that religious
corporation which owned property had standing to
challenge zoning ordinance); M.J. Entm’t, 234 F. Supp. 2d
at 310 (determining that plaintiff had established standing
with respect to one claim, where the challenged ordinance
kept the plaintiff from “offer[ing] topless dancing as
entertainment at its business establishment”).
The Congregation also has met the other elements of
Article III standing. The Congregation’s alleged injury is

432a
Appendix D
fairly traceable to Defendants, because the Congregation
allegedly cannot build the rabbinical college or its
accessory uses as a result of the challenged ordinances.
See Pac. Capital Bank, 542 F.3d at 350 (noting that an
allegation of an “intermediate link between” an injury
and a challenged regulation is sufficient to demonstrate
traceability (internal quotation marks omitted)); M.J.
Entm’t, 234 F. Supp. 2d at 310 (holding that the plaintiff’s
“injury is traceable to the challenged action of [Defendant
because Plaintiff] cannot [engage in its desired use] at its
current location or relocate to another location . . . because
of the municipality’s Zoning Code”).
Further, the alleged injury is redressable through the
requested relief, because invalidation of the challenged
ordinances allegedly could allow the Congregation to build
the rabbinical college and its accessory uses. Taking the
allegations in the Second Amended Complaint as true,
“the Subject Property is the only available parcel of land”
that is both appropriately sized and appropriately situated
in close proximity to the “religious infrastructure and
population,” as required for a rabbinical college. (SAC
¶ 83.) Based on these allegations, there is a “nonspeculative likelihood” that if the challenged ordinances
were invalidated, the Congregation could build the
rabbinical college on the property. See Watershed Towns,
552 F.3d at 218 (internal quotation marks omitted). As
the Second Amended Complaint does not clarify whether
a complete plan for the rabbinical college, including
financing commitments, yet exists, the Court is aware
that there is a chance that even if the requested relief is
granted, the Congregation might not build the rabbinical

433a
Appendix D
college on the Subject Property. But “these types of
uncertainties always exist in housing development
cases,” and they “should not be used as a means to defeat
standing.” ACORN, 2006 U.S. Dist. LEXIS 50217, 2006
WL 2053732, at *10; see also Village of Arlington Heights
v. Metro. Hous. Dev. Corp., 429 U.S. 252, 261-62, 97 S. Ct.
555, 50 L. Ed. 2d 450 (1977) (“[A]ll housing developments
are subject to some extent to . . . uncertainties . . . . [A]
court is not required to engage in undue speculation as a
predicate for finding that the plaintiff has the requisite
personal stake in the controversy.”); Huntington Branch,
NAACP v. Town of Huntington, 689 F.2d 391, 394 (2d Cir.
1982) (“[T]he requirement that the relief requested be
likely to redress the injuries alleged by a plaintiff is not
a demand for complete certainty.”).4
4. Defendants argue that the Congregation cannot meet
the injury-in-fact requirement, because it has not submitted an
application to the Village. (Defs.’ Mem. 26.) However, there is
authority that land use plaintiffs who have identified, and spent
resources to develop, a specific project that is barred by local laws
may, without more, still have standing to challenge those laws.
See LeBlanc-Sternberg v. Fletcher, 67 F.3d 412, 424-25 (2d Cir.
1995) (holding that plaintiff had standing to bring FHA claim
challenging an ordinance, even before the government entity
had applied the ordinance against plaintiff); ACORN, 2006 U.S.
Dist. LEXIS 50217, 2006 WL 2053732, at *9 (noting that plaintiff
alleged “that it took substantial steps, and expended resources
in preparing a plan, but did not formally submit it to defendants
because it did not comply with the allegedly discriminatory RFP”).
In any event, as discussed at length below, this failure renders
Plaintiffs’ as-applied challenges unripe. But, in the context of
a facial challenge, a party “need not have first sought and been
denied [a] permit prior to filing” suit to suffer an injury-in-fact.

434a
Appendix D
b.

The Individual Plaintiffs

The Individual Plaintiffs are trained Rabbis who seek
to live and to teach and/or to study at the Congregation’s
planned rabbinical college. (SAC ¶¶ 11-20.) Defendants
contend that the Individual Plaintiffs cannot meet the
injury-in-fact requirement because they are “yet-to-be
admitted or enrolled students,” a yet-to-be hired Dean,
and yet-to-be-hired lecturers who have “no basis to claim
injury now,” before the school has been “approved or
constructed—let alone opened its doors.” (Defs.’ Mem.
30.) Defendants’ argument is unavailing.
The Individual Plaintiffs assert that they have
been prevented from studying, teaching, worshipping,
and living at the rabbinical college by the challenged
ordinances, which they allege discriminate against them
based on their religion. (Pls.’ Mem. 23-24; SAC ¶¶ 156-159.)
Contrary to Defendants’ argument that the Individual
Plaintiffs are “yet-to-be admitted” or “yet-to-be hired,”
the Individual Plaintiffs have submitted affidavits that,
taken as true, demonstrate that each has been either
offered a position at the rabbinical college or offered
enrollment as a student at the rabbinical college once it
opens. 5 (M. Babad Aff. ¶¶ 1, 12; Brief Aff. ¶¶ 5-6; Kahana
Lamar, 356 F.3d at 374. Thus, Congregation has standing to
pursue its facial challenges to the zoning ordinances.
5. It is proper for the Court to consider these affidavits in
deciding the instant Motion. See J.S. ex rel. N.S. v. Atica Cent.
Schs., 386 F.3d 107, 110 (2d Cir. 2004) (explaining that in resolving
a 12(b)(1) motion to dismiss, the court “may consider affidavits and

435a
Appendix D
Aff. ¶¶ 5-6.) The Individual Plaintiffs, therefore, have
a personal and concrete stake in seeing the rabbinical
college built. See Ross, 524 F.3d at 222 (holding that a
plaintiff must allege a personal stake in the outcome of
the case and a “distinct and palpable” injury (internal
quotation marks omitted)); see also Arlington Heights, 429
U.S. at 264 (holding that an individual who sought to live
in planned housing community had standing to challenge
discriminatory zoning laws preventing development of
that housing community); ACORN, 2006 U.S. Dist. LEXIS
50217, 2006 WL 2053732, at *11 (allowing individual
plaintiffs who sought to live in affordable housing
project in defendant city to challenge zoning ordinances
preventing construction of the affordable housing project).
The fact that the rabbinical college is not yet built or has
not yet opened does not prevent the Individual Plaintiffs
from asserting an injury now, as Defendants contend.
(Defs.’ Mem. 30.) Indeed, the Individual Plaintiffs’ alleged
injury-in-fact stems from the very fact that the rabbinical
college cannot yet be built or opened.
Further, the Individual Plaintiffs’ alleged injury is
both fairly traceable to Defendants and redressable by the
Court. First, the Individual Plaintiffs’ inability to live and
teach at the rabbinical college is caused by the challenged
ordinances, which allegedly prevent the construction
and operation of the rabbinical college and some of its
accessory uses on the Subject Property. Second, taking
the allegations in the Second Amended Complaint as
other materials beyond the pleadings to resolve the jurisdictional
issue, but [it] may not rely on conclusory or hearsay statements
contained in the affidavits”).

436a
Appendix D
true, there is at least a non-speculative likelihood that
if the challenged ordinances were invalidated, the
Congregation’s planned rabbinical college could be built,
and the Individual Plaintiffs could study, work, and live on
the Subject Property. Cf. Arlington Heights, 429 U.S. at
264 (finding that the individual plaintiff’s injury—inability
to obtain affordable housing in defendant village—was
redressable by the requested relief, because it was likely
that the housing development would materialize absent
the challenged discriminatory ordinance); ACORN, 2006
U.S. Dist. LEXIS 50217, 2006 WL 2053732, at *11 (same).
c.

Kolel Belz

Plaintiff Kolel Belz is a religious corporation that
serves more than 200 families of congregants and
purports to “represent[] the interests of itself and the
broader Orthodox community in actively seeking trained”
rabbinical judges to “conduct the activities of rabbinical
courts.” (SAC ¶¶ 34-35.) In support of its standing
argument, Kolel Belz argues that it “will benefit from
this litigation because it will have access to the services
of rabbinical judges trained at the [r]abbinical [c]ollege.”
(Pls.’ Mem. 24-25.) Defendants argue that Kolel Belz lacks
standing to raise any of its claims on its own behalf or
on behalf of the local Orthodox community. (Defs.’ Mem.
26-29.) For the following reasons, the Court agrees that
Kolel Belz lacks standing to pursue this action.
Kolel Belz, “as an organization, is fully able to bring
suit on its own behalf ‘for injuries it has sustained,’” Int’l
Action Ctr. v. City of New York, 522 F. Supp. 2d 679, 693

437a
Appendix D
(S.D.N.Y. 2007) (quoting Mid-Hudson Catskill Rural
Migrant Ministry, Inc. v. Fine Host Corp., 418 F.3d 168,
174 (2d Cir. 2005)), “so long as those injuries—or threats
of injury—are ‘both “real and immediate,” [and] not
“conjectural or hypothetical,”’” id. (alteration in original)
(quoting Bordell v. Gen. Electric Co., 922 F.2d 1057,
1060 (2d Cir. 1991)). Kolel Belz, however, fails to allege
that it has personally suffered any injury based on the
Village’s zoning ordinances. Instead, it alleges that the
challenged ordinances will deprive the local Orthodox
community of trained rabbinical judges. Even assuming
that this alleged injury is cognizable as an injury-in-fact,
Kolel Belz does not allege that it suffers any personal
injury separate and apart from the interests of the local
Orthodox community. See Huff, 549 F.3d at 109 (holding
that an investment advisor lacked standing to sue based
on injuries suffered by its clients); Int’l Action Ctr., 522 F.
Supp. 2d at 693 (finding that plaintiff organization failed to
allege an injury to itself that was not merely speculative).
Accordingly, the Court finds that Kolel Belz lacks standing
to pursue this action on its own behalf.
As Kolel Belz has not alleged that it is a membership
organization, it cannot assert (and, indeed, it has not
asserted) associational standing.6 Therefore, “[t]o the
6. “‘Under New York and federal law, an organization may
sue as a representative of its members only if the members have
standing to sue in their own right.’” Int’l Action Ctr., 522 F.
Supp. 2d at 694 (quoting Mid-Hudson, 418 F.3d at 173); see also
Alliance for Open Soc’y Int’l, Inc. v. U.S. Agency for Int’l Dev.,
570 F. Supp. 2d 533, 539 (S.D.N.Y. 2008). Here, however, Kolel
Belz has neither alleged, nor provided the Court with any basis

438a
Appendix D
extent that [Kolel Belz] seeks to sue on behalf of” the local
Orthodox community, “it may pursue its claim only on a
theory of third-party standing.” Mid-Hudson, 418 F.3d at
174; see also Huff, 549 F.3d at 109. A plaintiff may assert
“third-party standing where [it] can demonstrate (1) a
close relationship to the injured party and (2) a barrier
to the injured party’s ability to assert its own interests.”
Huff, 549 F.3d at 109; see also Miller v. Albright, 523
U.S. 420, 447, 118 S. Ct. 1428, 140 L. Ed. 2d 575 (1998)
(O’Connor, J., concurring in the judgment) (explaining that
a plaintiff asserting third-party standing must have “a
close relation to the third party,” and “some hindrance to
the third party’s ability to protect his or her own interests
[must exist]” (internal quotation marks omitted)); MidHudson, 418 F.3d at 174 (“[A] plaintiff seeking third-party
standing in federal court must . . . demonstrat[e] a close
relation to the injured third party and a hindrance to that
party’s ability to protect its own interests.”). “In this vein,
courts historically have permitted ‘[t]rustees [to] bring
suits to benefit their trusts; guardians ad litem [to] bring
suits to benefit their wards; receivers [to] bring suit to
benefit their receiverships; assignees in bankruptcy [to]
bring suit to benefit bankrupt estates; [and] executors
to infer, that it is a membership organization. While some of the
Individual Plaintiffs allegedly engage in rabbinical studies at Kolel
Belz (SAC ¶ 38), there is no specific allegation that these specific
Individual Plaintiffs, or any others, are members of Kolel Belz.
Therefore, the Court finds that Kolel Belz would have no basis to
assert associational standing. See Int’l Action Ctr., 522 F. Supp.
2d at 694 (holding that an organization was not entitled to sue as
a representative of its members, where the organization was not
a membership organization).

439a
Appendix D
[to] bring suit to benefit testator estates.’” Huff, 549 F.3d
at 109 (alterations in original) (quoting Sprint Commc’ns
Co. v. APCC Servs., Inc., 554 U.S. 269, 287-88, 128 S. Ct.
2531, 171 L. Ed. 2d 424 (2008)). Here, however, Kolel Belz
has failed to allege what type of relationship it has to the
members of the local Orthodox community. The Second
Amended Complaint alleges merely that Kolel Belz is
a religious corporation and that some of the Individual
Plaintiffs engage in rabbinical studies there. (SAC
¶¶ 21, 38.) These allegations do not provide the Court
with a basis to conclude that Kolel Belz has a sufficiently
close relationship to the members of the local Orthodox
community to warrant recognition of third-party standing.
Nor has Kolel Belz provided the Court with any
allegations from which the Court could conclude that
members of the community cannot vindicate their own
interests. To do so, Kolel Belz would need to establish that
“some barrier or practical obstacle (e.g., third party is
unidentifiable, lacks sufficient interest, or will suffer some
sanction) prevents or deters the third party from asserting
his or her own interest.” Benjamin v. Aroostook Med.
Ctr., Inc., 57 F.3d 101, 106 (1st Cir. 1995). Kolel Belz offers
nothing by way of an allegation, let alone proof, of any
such barriers preventing third parties from challenging
the Defendants’ conduct. Indeed, the participation of the
Individual Plaintiffs—some of whom are connected to
Kolel Belz (SAC ¶ 38)—suggests otherwise. See Hodak v.
City of St. Peters, 535 F.3d 899, 905 (8th Cir. 2008) (noting
that circuit courts agree that “if a third party actually
asserts his [or her] own rights, no hindrance exists and
third-party standing is improper”).

440a
Appendix D
For these reasons, the Court finds that Plaintiff Kolel
Belz lacks standing to bring this suit. Accordingly, its
claims are dismissed without prejudice.
2.

Ripeness
a. 	Facial Challenges

Plaintiffs have raised facial challenges to the legality
of certain portions of the Village’s Zoning Code under the
Equal Protection Clauses of both the Federal Constitution
and the New York Constitution, as well as the Free Speech,
Free Exercise, and Free Association Clauses of the First
Amendment of the Federal Constitution and corollary
protections in the New York Constitution, and under
RLUIPA. Defendants summarily assert that Plaintiffs
“facial challenge[s] fail[] to meet the jurisdictional
requirement[] of ripeness,” (Defs.’ Mem. 13), arguing
that Plaintiffs should be required to participate “in the
normal land use process,” (id.). Contrary to Defendants’
assertion, however, “‘facial’ challenges to regulation[s]
are generally ripe the moment the challenged regulation
or ordinance is passed.” Suitum v. Tahoe Reg’l Planning
Agency, 520 U.S. 725, 736 n.10, 117 S. Ct. 1659, 137 L. Ed.
2d 980 (1997); see also Cnty. Concrete Corp. v. Township of
Roxbury, 442 F.3d 159, 164 (3d Cir. 2006) (noting that the
finality requirement “does not apply . . . to facial attacks on
a zoning ordinance, i.e., a claim that the mere enactment
of a regulation either constitutes a taking without just
compensation, or a substantive violation of due process
or equal protection.” (emphasis in original)); Lamar, 356
F.3d at 374 (holding that a party “need not have first

441a
Appendix D
sought and been denied any permit prior to filing a facial
challenge” (emphasis in original)); MacDonald v. Safir,
206 F.3d 183, 189 (2d Cir. 2000) (“[T]here is no need for
a party actually to apply or to request a permit in order
to bring a facial challenge to an ordinance (or parts of it)
. . . .”); Charette v. Town of Oyster Bay, 159 F.3d 749, 757
(2d Cir. 1998) (“[Making] no effort to apply for a permit
. . . does not, of course, deprive [plaintiff] of standing
to assert that the [zoning ordinance] is facially invalid
. . . .”); S. Lyme Prop. Owners Ass’n, Inc. v. Town of Old
Lyme, 539 F. Supp. 2d 524, 536 (D. Conn. 2008) (“[F]acial
challenges are generally ripe the moment the challenged
regulation or ordinance is passed.” (internal quotation
marks omitted)); Ecogen, LLC v. Town of Italy, 438 F.
Supp. 2d 149, 155 (W.D.N.Y. 2006) (“[F]acial challenges
to legislative acts are ripe by their very nature.” (internal
quotation marks omitted)); City of New Rochelle, 111 F.
Supp. 2d at 360 (holding that facial challenge to land use
law was ripe as it presented “pure questions of law”).7
Accordingly, Plaintiffs’ facial challenges to the Village’s
zoning ordinances are ripe for review.
7. Given the general rule that facial challenges become ripe
at the inception of the regulation or ordinance, see Suitum, 520
U.S. at 736 n.10, there is no reason to believe that facial challenges
under RLUIPA would be treated differently. See Opulent Life
Church v. City of Holly Springs, 697 F.3d 279, 287-88 (5th Cir
2012) (noting that plaintiff’s “facial challenges” under RLUIPA
were “easily ripe”); Sisters of St. Francis Health Servs., Inc. v.
Morgan County, 397 F. Supp. 2d 1032, 1048-49 (S.D. Ind. 2005)
(holding that ripeness requirements for as-applied challenge under
RLUIPA did not apply in the context of a facial challenge under
RLUIPA and deeming the case ripe for review).

442a
Appendix D
b.

As-Applied Challenges

Defendants further contend that Plaintiffs’ as-applied
challenges to the Village’s zoning laws are not ripe for
adjudication, because the Congregation failed “formally
[to] present[] [its] actual plans for the proposed [r]abbinical
[c]ollege to the Village,” or to “ma[k]e any application for
a special use permit, use variance, zoning amendment
or zone change as required by the Village zoning laws.”
(Defs.’ Mem. 12.) The Court agrees that Plaintiffs’ asapplied challenges under the Free Speech, Free Exercise,
and Free Association Clauses of the First Amendment, the
Equal Protection Clause of the Fourteenth Amendment,
the FHA, and RLUIPA, as well as Plaintiffs’ as-applied
claims under New York state law, are unripe, and thus, the
Court lacks subject matter jurisdiction over these claims.
“Ripeness is a doctrine rooted in both A rticle
III’s case or controversy requirement and prudential
limitations on the exercise of judicial authority.” Murphy
v. New Milford Zoning Comm’n, 402 F.3d 342, 347 (2d
Cir. 2005). The ripeness doctrine’s “basic rationale is
to prevent the courts, through avoidance of premature
adjudication, from entangling themselves in abstract
disagreements.” Abbott Labs. v. Gardner, 387 U.S. 136,
148, 87 S. Ct. 1507, 18 L. Ed. 2d 681 (1967), overruled on
other grounds by Califano v. Sanders, 430 U.S. 99, 105,
97 S. Ct. 980, 51 L. Ed. 2d 192 (1977); see also Nat’l Park
Hospitality Ass’n v. Dep’t of Interior, 538 U.S. 803, 80708, 123 S. Ct. 2026, 155 L. Ed. 2d 1017 (2003) (“Ripeness
is a justiciability doctrine designed to prevent the courts,
through avoidance of premature adjudication, from

443a
Appendix D
entangling themselves in abstract disagreements over
administrative policies, and also to protect the agencies
from judicial interference until an administrative decision
has been formalized and its effects felt in a concrete way
by the challenging parties.” (internal quotation marks
omitted)); Authors Guild, Inc. v. HathiTrust, No. 11-CV6351, 902 F. Supp. 2d 445, 2012 U.S. Dist. LEXIS 146169,
2012 WL 4808939, at *7 (S.D.N.Y. Oct. 10, 2012) (“Article
III of the Constitution limits the jurisdiction of the federal
courts to cases or controversies of sufficient immediacy
and reality and not hypothetical or abstract disputes.”
(internal quotation marks omitted)). At its core, ripeness is
“peculiarly a question of timing,” meaning that a case can
become ripe for adjudication even if initially premature.
Reg’l Rail Reorganization Act Cases, 419 U.S. 102, 140,
95 S. Ct. 335, 42 L. Ed. 2d 320 (1974). Thus, for example,
an action is not ripe if it involves contingent future events
that may or may not occur. See Thomas v. Union Carbide
Agr. Prods. Co., 473 U.S. 568, 580-81, 105 S. Ct. 3325, 87
L. Ed. 2d 409 (1985).
“Determining whether a case is ripe generally
requires [courts] to ‘evaluate both the fitness of the issues
for judicial decision and the hardship to the parties of
withholding court consideration.’” Murphy, 402 F.3d at 347
(quoting Abbott Labs., 387 U.S. at 149); see also Simmonds
v. INS, 326 F.3d 351, 359 (2d Cir. 2003) (same); New York
v. U.S. Army Corps of Eng’rs, Nos. 11-CV-2599, 11-CV3857, 11-CV-3780, 896 F. Supp. 2d 180, 2012 U.S. Dist.
LEXIS 136712, 2012 WL 4336701, at * 13 (E.D.N.Y. Sept.
24, 2012) (same). “The ‘fitness of the issues for judicial
decision’ prong . . . requires a weighing of the sensitivity

444a
Appendix D
of the issues presented and whether there exists a need
for further factual development.” Murphy, 402 F.3d at
347 (quoting Abbott Labs., 387 U.S. at 149); see also E.
End Eruv Ass’n, Inc. v. Village of Westhampton Beach,
828 F. Supp. 2d 526, 536 (E.D.N.Y. 2011) (same). The
“‘hardship to the parties’ prong . . . injects prudential
considerations into the mix requiring [courts] to gauge
the risk and severity of injury to a party that will result if
the exercise of jurisdiction is declined.” Murphy, 402 F.3d
at 347 (quoting Abbott Labs., 387 U.S. at 149); see also E.
End Eruv Ass’n, 828 F. Supp. 2d at 536 (same).
i. 	The Final Decision Requirement
“Building on the foregoing, the Supreme Court has
developed specific ripeness requirements applicable
to land use disputes.” Murphy, 402 F.3d at 347. In
Williamson County Regional Planning Commission v.
Hamilton Bank, 473 U.S. 172, 105 S. Ct. 3108, 87 L. Ed. 2d
126 (1985), the Supreme Court formulated a two-pronged
approach to evaluate the ripeness of a Fifth Amendment
Takings Clause claim. The first prong requires the land
developer to obtain a final, definitive position as to the
application of the relevant zoning laws to the property
from the municipal entity responsible for those laws. Id.
at 186. Under this prong, the plaintiff cannot seek federal
court review of a zoning ordinance or provision until it
has submitted at least one meaningful application for a
variance. Id. at 190. Under the second prong, the property
owner must seek compensation for an alleged taking
before initiating a federal lawsuit. Id. at 194. This second
prong derives from the “Fifth Amendment’s proviso that

445a
Appendix D
only takings without ‘just compensation’ infringe that
Amendment.” Suitum, 520 U.S. at 734; see also Murphy,
402 F.3d at 348-5 (discussing Williamson’s two-prong
ripeness analysis in Takings Clause cases).
Although this ripeness paradigm was originally
developed by the Supreme Court in the context of a
regulatory takings challenge, see Williamson, 473 U.S.
at 186, the Second Circuit has applied prong one of the
Williamson analysis to land use disputes involving more
than just takings claims. See Murphy, 402 F.3d at 34950. Indeed, the Second Circuit has applied this test to
as-applied challenges to land use laws under RLUIPA,
the First Amendment, the Equal Protection Clause, and
the Due Process Clause. See id. at 348-51 (applying final
decision test for ripeness to as-applied RLUIPA claims
and as-applied First Amendment free exercise claims);
Dougherty v. Town of N. Hempstead Bd. of Zoning
Appeals, 282 F.3d 83, 88-89 (2d Cir. 2002) (noting that
Williamson’s finality test had been extended to Equal
Protection claims and Due Process claims); Southview
Assocs., Ltd. v. Bongartz, 980 F. 2d 84, 96-97 (2d Cir. 1992)
(noting that plaintiff’s substantive due process claim was
subject “to only the final decision prong of the Williamson
ripeness test”); accord Guatay Christian Fellowship v.
County of San Diego, 670 F.3d 957, 979 (9th Cir. 2011)
(“All of the circuits to address this issue have applied the
final decision requirement to RLUIPA claims, as well
as to related First Amendment—based § 1983 claims
. . . .”); Miles Christi Religious Order v. Township of
Northville, 629 F.3d 533, 537 (6th Cir. 2010) (noting that
the Sixth Circuit has applied the finality requirement to

446a
Appendix D
Equal Protection and First Amendment challenges to
land use requirements); Taylor Inv., Ltd. v. Upper Darby
Township, 983 F.2d 1285, 1291-92 (3d Cir. 1993) (applying
Williamson final decision rule to substantive Due Process,
procedural Due Process, and Equal Protection as-applied
challenges to zoning determination); Unity Ventures
v. County of Lake, 841 F.2d 770, 774-76 (7th Cir. 1988)
(applying final decision rule to Equal Protection and Due
Process claims); Roman Catholic Diocese of Rockville Ctr.
v. Inc. Village of Old Westbury, No. 09-CV-5195, 2012 U.S.
Dist. LEXIS 56694, 2012 WL 1392365, at *6 (E.D.N.Y.
Apr. 23, 2012) (noting that in the Second Circuit the final
decision rule applies to First Amendment and RLUIPA
challenges to land use laws). 8
8. Plaintiffs claim that the Second Circuit has “squarely
decided the question of whether a pre-enforcement challenge to a
facially neutral zoning ordinance under the First Amendment and
the Fair Housing Act is ripe.” (Pls.’ Mem. 13.) For this proposition,
Plaintiffs cite the Second Circuit’s decision in LeBlanc-Sternberg
v. Fletcher, 67 F.3d 412 (2d Cir. 1995). However, in the portion of
LeBlanc-Sternberg quoted by Plaintiffs, the Second Circuit merely
held that the plaintiffs in that case had standing to challenge
facially neutral zoning ordinances under the FHA and the First
Amendment. See id. at 424-26. The court did not address, because
it was not asked to address, the analytically distinct question of
whether the plaintiffs’ claims were ripe under Williamson. See
Bronx Household of Faith v. Bd. of Educ. of New York, 492 F.3d
89, 111 (2d Cir. 2007) (noting that while ripeness “overlaps in some
respects with standing,” the “central concerns of ripeness doctrine
are somewhat distinct from standing”). In fact, for example, after
LeBlanc-Sternberg, the Second Circuit held that “in certain
circumstances a First Amendment claim emanating from a land
use dispute may be subject to the Williamson County prong-one
ripeness test.” Murphy, 402 F.3d at 350; see also id. (“[W]e do

447a
Appendix D
The final decision requirement also applies to land
use disputes arising under New York law. See Church
of St. Paul & St. Andrew v. Barwick, 67 N.Y.2d 510, 496
N.E.2d 183, 189-90, 505 N.Y.S.2d 24 (N.Y. 1986) (finding
that as-applied claims under the First Amendment of the
New York State and Federal Constitutions unripe based
on plaintiff’s failure to obtain a final decision, where
the plaintiff had yet to seek administrative approval
of its “rebuilding program”); Waterways Dev. Corp. v.
Lavalle, 28 A.D.3d 539, 813 N.Y.S.2d 485, 486 (App. Div.
2006) (holding that under New York law, a claim is not
ripe if a governmental body has yet to render a “final
determination as to the validity” of a proposed project); cf.
not believe it necessary to distinguish the RLUIPA claim from
the First Amendment Free Exercise claim when it comes to our
ripeness inquiry.”); accord Grossi v. City of New York, No. 08CV-1083, 2009 U.S. Dist. LEXIS 110694, 2009 WL 4456307, at *5
(E.D.N.Y. Nov. 30, 2009) (“It is well settled that the final decision
requirement is applicable to . . . First Amendment claims.”);
Shenkel United Church of Christ v. North Coventry Township,
No. 09-CV-1823, 2009 U.S. Dist. LEXIS 106314, 2009 WL 3806769,
at *3 (E.D. Pa. Nov. 13, 2009) (“[I]n as-applied First Amendment
and RLUIPA claims arising from land use disputes, Williamson’s
prong-one ripeness standard governs.”); Kittay v. Giuliani, 112
F. Supp. 2d 342, 349 n.5 (S.D.N.Y. 2000) (applying Williamson to
First Amendment claim). Indeed, the Second Circuit has found
Williamson to be inapplicable to a First Amendment claim only
in limited specific circumstances—such as where there already
was an adequate factual record and where the plaintiff had
experienced an “immediate injury.” Murphy, 402 F.3d at 350 n.5.
As noted below, however, Plaintiffs do not fit within this exception,
as they have not submitted a single, formal proposal to the Village
providing the details regarding the rabbinical college they will
build—which omission renders the factual record incomplete.

448a
Appendix D
Koultukis v. N.Y.C. Dep’t of Bldgs., Index No. 103643/01,
2001 N.Y. Misc. LEXIS 896, 2001 WL 1722885, at *1 (N.Y.
Sup. Ct. Oct. 4, 2001) (“[A] controversy cannot be ripe
for judicial review if the claimed harm may be prevented
or significantly ameliorated by further administrative
action.” (citation omitted)).
“A final decision exists when a development plan
has been submitted, considered and rejected by the
governmental entity with the power to implement zoning
regulations.” S&R Dev. Estates, LLC v. Bass, 588 F. Supp.
2d 452, 461 (S.D.N.Y. 2008); see also Ecogen, 438 F. Supp.
2d at 155 (holding that the final decision rule generally
requires “that the plaintiff . . . have submitted at least
one application for, and been denied, permission for the
proposed structure or use of the subject property.”);
Goldfine v. Kelly, 80 F. Supp. 2d 153, 159 (S.D.N.Y. 2000)
(“In order to have a final decision, a ‘development plan
must be submitted, considered, and rejected by the
governmental entity.’” (quoting Unity Ventures, 841
F.2d at 774)); Barwick, 496 N.E.2d at 189-90 (holding
that decision was not final “until plaintiff has sought and
the Commission has granted or denied a certificate of
appropriateness or other approval . . . .” (citation omitted));
Waterways, 813 N.Y.S.2d at 486 (holding that case was not
ripe, because “[t]he plaintiff ha[d] not applied for a building
permit for the residential units involving the variance
at issue” and “[t]herefore, there [had] been no final
determination as to the validity thereof”). Furthermore,
generally, even if a plan has been submitted and rejected,
a claim is not ripe until the “property owner submit[s] at
least one meaningful application for a variance.” Murphy,

449a
Appendix D
402 F.3d at 348; see also id. at 353 (“[F]ailure to pursue a
variance prevents a federal challenge to a local land use
decision from becoming ripe.” (citing Williamson, 473
U.S. at 190)); Bikur Cholim, Inc. v. Village of Suffern,
664 F. Supp. 2d 267, 275 (S.D.N.Y. 2009) (“In general,
. . . failure to seek a variance prevents a zoning decision
from becoming ripe.”); S&R Dev. Estates, 588 F. Supp. 2d
at 461-64 (dismissing claims on ripeness grounds, where
the plaintiff had not applied for a variance); Goldfine, 80
F. Supp. 2d at 159 (same); Korcz v. Elhage, 1 A.D.3d 903,
767 N.Y.S.2d 737, 738-39 (App. Div. 2003) (same); Dick’s
Quarry, Inc. v. Town of Warwick, 293 A.D.2d 445, 739
N.Y.S.2d 464, 464-65 (App. Div. 2002) (same). In the
end, “[a] case is ripe when the court ‘can look to a final,
definitive position from a local authority to assess precisely
how [a property owner] can use [his or her] property.’”
Bikur Cholim, 664 F. Supp. 2d at 275 (quoting Murphy,
402 F.3d at 347).
The Second Circuit has held that the final decision rule:
(1) “aids in the development of a full record”; (2) ensures
that a court “will . . . know precisely how a regulation
will be applied to a particular parcel”; (3) recognizes the
possibility that, by granting a variance, the administrative
body “might provide the relief the property owner seeks
without requiring judicial entanglement in constitutional
disputes”; and (4) “evinces the judiciary’s appreciation that
land use disputes are uniquely matters of local concern
more aptly suited for local resolution.” Murphy, 402 F.3d
at 348; accord Spence v. Zimmerman, 873 F.2d 256, 262
(11th Cir. 1989) (“We stress that federal courts do not sit
as zoning boards of review and should be most circumspect

450a
Appendix D
in determining that constitutional rights are violated in
quarrels over zoning decisions.”); Hoehne v. County of San
Benito, 870 F.2d 529, 532 (9th Cir. 1989) (noting that in
Williamson and other decisions, the Supreme Court “has
erected imposing barriers . . . to guard against the federal
courts becoming the Grand Mufti of local zoning boards.”);
Barwick, 496 N.E.2d at 189 (“[T]he controversy cannot be
ripe if the claimed harm may be prevented or significantly
ameliorated by further administrative action or by steps
available to the complaining party.”); Koultukis, 2001
N.Y. Misc. LEXIS 896, 2001 WL 1722885, at *1 (“The
purpose of this doctrine is to avoid litigation which may
become academic and [to] prevent the premature review or
adjudication of administrative actions.” (citation omitted)).
In this case, there has been no final decision, as
the Congregation has yet to submit a single formal
application to the Village Board of Trustees for approval
of the rabbinical college. This failure by Plaintiffs to file
(or their decision not to file) any formal application for
use of the Subject Property leaves Plaintiffs outside the
boundaries of the final decision rule. See Guatay Christian
Fellowship, 670 F.3d at 980 (holding that “the Church’s
failure to complete even one full Use Permit application
leaves us unable to discern whether there is a true case
or controversy, and any resulting injury” (emphasis in
original)); Loesel v. City of Frankenmuth, No. 08-CV11131, 2009 U.S. Dist. LEXIS 25956, 2009 WL 817402, at
*13 (E.D. Mich. Mar. 27, 2009) (finding plaintiff failed to
satisfy final decision rule, even if “the evidence showed
that each individual city official opposed the building of a
Wal-Mart,” because the plaintiff “never even completed

451a
Appendix D
an initial application”); Wal-Mart Stores, Inc. v. City of
Turlock, 483 F. Supp. 2d 987, 998-99 (E.D. Cal. 2006)
(noting that for an as-applied challenge to land use
regulations to be ripe, a “final decision by the government
agency that inflicts a concrete harm on the landowner
is required,” but that before “a decision is final the
landowner must have submitted one formal development
plan and sought a variance from any regulations barring
development in the proposed plan [both of which] have
been denied”). Although Plaintiffs were allegedly rebuffed
by the Village attorney and by Mayor Sanderson in their
informal efforts to present their plan to the Village
officials, such “[i]nformal efforts to gain approval for land
development are insufficient, by themselves, to constitute
final government action.” Goldfine, 80 F. Supp. 2d at 160;
see also Unity Ventures, 841 F.2d at 775 (dismissing claim
on ripeness grounds, because the plaintiffs had not made a
“formal application” that was rejected); Grossi, 2009 U.S.
Dist. LEXIS 110694, 2009 WL 4456307, at *5 (noting that
plaintiffs had not satisfied the final decision requirement,
because they had “failed to complete the paperwork
and file the application with the appropriate offices”);
Celentano v. City of West Haven, 815 F. Supp. 561, 569
(D. Conn. 1993) (“An unsuccessful effort to negotiate an
informal resolution of a zoning dispute with a local agency
. . . does not, by itself, constitute final government action.”);
Waterways, 813 N.Y.S.2d at 486 (dismissing claim on
ripeness grounds, where “[t]he only challenged actions
[were] conversations with, and letters from, various Town
of Brookhaven officials,” which the court concluded did
not “have any final effect on the validity of the variance
at issue and/or the issuance of a building permit allowing
the construction of the units”).

452a
Appendix D
Plaintiffs suggest that, by adopting the challenged
ordinances, Defendants have made a final decision to
bar Plaintiffs from building the rabbinical college on the
Subject Property. (Pls.’ Mem. 13-14.) Yet, Plaintiffs do
not allege that Defendants have rejected any particular
development plan that Plaintiffs have formally submitted
to Defendants. Rather, Plaintiffs broadly charge that
Defendants have been hostile to the idea of a rabbinical
college ever since some information about the putative
college leaked. Indeed, Plaintiffs assert that “Defendants’
conduct . . . has been made in a total vacuum of any
information about the plans for the [r]abbinical [c]ollege
and without seeing any of the studies performed . . . .”
(SAC ¶ 185.) But, that void is the direct result of Plaintiffs’
decision not to make a formal application to the Village
(complete with the necessary details about the use of the
Subject Property). Instead of identifying a final decision
by Defendants to reject a particular land development
plan, Plaintiffs have cited only the zoning ordinances that
they believe would bar them from building a rabbinical
college—which ordinances they seek to invalidate, based
on how they might be applied to the would-be college. Thus,
it is Plaintiffs who are attempting “to address important
and potentially complex constitutional and regulatory
issues in a vacuum.” Kittay, 112 F. Supp. 2d at 349; see
also S. Pac. Transp. Co. v. City of Los Angeles, 922 F.2d
498, 504 (9th Cir. 1990) (“Since no meaningful application
has been made, there has been no final determination
regarding allowable development of these properties
and the district court properly concluded appellants’ asapplied claim is not ripe for federal adjudication.”).

453a
Appendix D
ii.

The Futility Exception

The Second Circuit has recognized a futility exception
to the final decision requirement, cautioning that “the
finality requirement [should not be] mechanically applied.”
Murphy, 402 F.3d at 349. While “[t]he Second Circuit has
not yet determined what the precise contours of the futility
exception are,” Homefront, 570 F. Supp. 2d at 407 (internal
quotation marks omitted); see also Osborne v. Fernandez,
No. 06-CV-4127, 2009 U.S. Dist. LEXIS 27409, 2009 WL
884697, at *5 (S.D.N.Y. Mar. 31, 2009) (noting that the
contours of the futility exception have “not yet [been]
definitively delineated by the Second Circuit”), the
consensus among courts appears to be that to invoke the
futility exception, a plaintiff must demonstrate: (1) “that
plaintiff has filed ‘at least one meaningful application,’”
and (2) “the inevitability of refusal of the[] application,
taking into consideration factors such as ‘the defendants’
hostility, delay and obstruction,’” Osborne, 2009 U.S.
Dist. LEXIS 27409, 2009 WL 884697, at *5 (quoting Dix
v. City of New York, No. 01-CV-6186, 2002 U.S. Dist.
LEXIS 18262, 2002 WL 31175251, at *6-7 (S.D.N.Y. Sept.
30, 2002)); see also S&R Dev. Estates, 588 F. Supp. 2d at
463-64.9

9. Courts have described the futility exception as being
“narrow.” See Gilbert v. City of Cambridge, 932 F.2d 51, 60-61
(1st Cir. 1991) (noting that courts have recognized a “narrow”
“futility exception” to the final decision requirement); Roman
Catholic Bishop of Springfield v. City of Springfield, 760 F. Supp.
2d 172, 182-83 (D. Mass. 2011) (same); Goldfine, 80 F. Supp. 2d at
159 (same).

454a
Appendix D
Plaintiffs contend that the futility exception is met
here, because the Village officials “lack discretion to
grant any administrative relief and have ‘dug in their
heels’ against the Congregation.” (Pls.’ Mem. 16.) In
particular, Plaintiffs claim that there is no way for them
to obtain a land use permit to build a rabbinical college,
because the re-written zoning laws bar any administrative
relief, including zoning variances, special use permits,
and administrative appeals. As such, Plaintiffs claim
that the only way they can develop the Subject Property
to construct a rabbinical college is through a legislative
fix—for example, a text amendment to change the zoning
laws.10 And, even if they were required to do this under
10. The process to obtain a text amendment in the Village
appears to be the following: (1) The applicant files a petition for
amendment describing the proposed changes with the Village
Clerk—the Board of Trustees has discretion to decide whether
to consider formally the proposed amendment; (2) if the proposed
amendment is to be considered, the Board of Trustees must refer
it to the appropriate Village entities and/or individuals for a review
and report; (3) the Village Planning Board shall confer with the
applicant and assist the applicant in revising its petition and
resubmitting it to the Board of Trustees (and to the board, agency,
or official to which it was referred by the Board of Trustees); (4)
within 45 days of the referral or the re-submission, the Village
Planning Board and the board, agency, or official to which the
proposed amendment was referred shall report to the Board of
Trustees regarding the advisability of the proposed amendment—
failure to report within 45 days shall be construed as approval of
the amendment; (5) the Village Attorney shall report to the Board
of Trustees regarding the form of the amendment; and (6) the
Board of Trustees shall give notice of a public hearing and hold
such public hearing upon receipt of the reports and any revised
amendment. See Vill. of Pomona, N.Y. Code §§ 130-35-130-41.

455a
Appendix D
Williamson (which Plaintiffs claim they are not), Plaintiffs
allege that Defendants’ discriminatory animus towards
Plaintiffs is so entrenched that it would be hopeless to
change the zoning laws.
As an initial matter, Plaintiffs’ position conflates the
finality requirement with the exhaustion requirement. As
the Supreme Court explained in Williamson:
The question whether administrative remedies
must be exhausted is conceptually distinct,
however, from the question whether an
administrative action must be final before it
is judicially reviewable. While the policies
The process to obtain a special use permit appears to entail
the following: (1) An applicant must submit a formal application
describing, inter alia, the proposed use—the application will
be considered by the Board of Trustees or the Zoning Board
(depending on the proposed use); (2) the relevant board refers the
application to the appropriate Village board, agency, or official for
a review and report, due within 30 days of the referral; (3) within
62 days after the receipt of the completed application, a public
hearing must be held after appropriate notice has been given; and
(4) within 62 days of the public hearing, the Board of Trustees or
the Zoning Board must decide the application. See Vill. of Pomona,
N.Y. Code § 130-28(E).
Defendants argue that the process of seeking a text
amendment is akin to an administrative remedy that Plaintiffs
could have, but have not, pursued. The Court need not resolve the
question of whether seeking a text amendment is legislative as
opposed to an administrative act, because, in either case, Plaintiffs’
failure to submit one meaningful application thwarts their attempt
to invoke the futility exception to the final decision rule.

456a
Appendix D
underlying the two concepts often overlap,
the finality requirement is concerned with
whether the initial decisionmaker has arrived
at a definitive position on the issue that inflicts
an actual, concrete injury; the exhaustion
requirement generally refers to administrative
and judicial procedures by which an injured
party may seek review of an adverse decision
and obtain a remedy if the decision is found to
be unlawful or otherwise inappropriate.
473 U.S. at 192-93 (citations omitted). The final decision
rule, as noted above, requires a land use plaintiff to
establish that it obtained “a final, definitive position as
to how it could use the property from the entity charged
with implementing the zoning regulations.” Murphy, 402
F.3d at 348. This “jurisdictional prerequisite conditions
federal review on a property owner submitting at least
one meaningful application for a variance.” Id.; see
also City of Turlock, 483 F. Supp. 2d at 999 (“Before a
decision is final the landowner must have submitted one
formal development plan and sought a variance from any
regulations barring development in the proposed plan[,
both of which] have been denied.”). A landowner plaintiff
may avoid dismissal on ripeness grounds, however, by
establishing the futility of pursuing administrative
remedies, such as variances, re-applications, or appeals to
zoning boards. See Murphy, 402 F.3d at 349 (“A property
owner, for example, will be excused from obtaining a
final decision if pursuing an appeal to a zoning board of
appeals or seeking a variance would be futile.”); S. Pac.,
922 F.2d at 504 (“While it is true that something called

457a
Appendix D
a ‘futility exception’ exists, this exception serves only to
protect property owners from being required to submit
multiple applications when the manner in which the first
application was rejected makes it clear that no project
will be approved.”). What the futility exception does not
discharge, however, is “an owner’s obligation to file one
meaningful development proposal.” S. Pac., 922 F.2d
at 504. Indeed, courts have explicitly and consistently
held, a “[property owner] cannot rely upon the futility
exception” until he or she makes “at least one ‘meaningful
application.’” Kinzli v. City of Santa Cruz, 818 F.2d
1449, 1455 (9th Cir. 1987); see also Guatay Christian
Fellowship, 670 F.3d at 982 (holding that property owner
could not invoke the futility exception, because it had not
submitted a meaningful permit application); DLX, Inc.
v. Kentucky, 381 F.3d 511, 525 (6th Cir. 2004) (“[While]
a plaintiff need not seek a variance from a regulation
where it would be an idle and futile act[,] the exception
only applies where a landowner has submitted at least
one meaningful application for a variance.” (internal
quotation marks omitted)); Gilbert, 932 F.2d at 61
(“[T]he filing of one meaningful application will ordinarily
be a necessary, although not alone sufficient, precondition
for invoking the futility exception.”); Herrington v.
County of Sonoma, 857 F.2d 567, 569 (9th Cir. 1988) (per
curiam) (“A property owner cannot rely on the futility
exception until he or she makes at least one meaningful
application.”); Unity Ventures, 841 F.2d at 775-76 (holding
that at least one formal application must be filed before
a court can determine whether futility is met); S&R Dev.
Estates, 588 F. Supp. 2d at 463-64 (same); Osborne, 2009
U.S. Dist. LEXIS 27409, 2009 WL 884697, at *5 (same);

458a
Appendix D
City of Turlock, 483 F. Supp. 2d at 999 (same); Westhab,
Inc. v. City of New Rochelle, No. 03-CV-8377, 2004 U.S.
Dist. LEXIS 9926, 2004 WL 1171400, at *11 (S.D.N.Y.
May 3, 2004) (same); Kittay, 112 F. Supp. 2d at 349-50
(same). Put another way, there is no such thing as a futility
exception to the requirement that a landowner make at
least one formal application before bringing the type of
as-applied challenges brought by Plaintiffs here.
Requiring one meaningful application ensures that
local zoning authorities have at least one opportunity to
consider how local regulations apply to a proposed use
before the regulations are subject to judicial review. See
Church v. City of Medina, No. 11-CV-0275, 2012 U.S. Dist.
LEXIS 87687, 2012 WL 2395195, at *5 (D. Minn. June
25, 2012) (“A decision on the merits of any of the courts
would require the decisionmaker to know how the City
would have responded to the Church’s withdrawn permit
application.”). Relatedly, the meaningful application
requirement enables a court to consider the applicability
of the challenged regulations to a formal plan, the precise
details of which might well dictate the outcome of the
litigation. As one court has explained in terms that apply
to this case:
Although [plaintiffs] opposed the rezoning of
the subject properties between 1983 and 1985,
they gave no indication at that time of how
they might intend to develop the property if
permitted to do so. They filed no meaningful
applications for development of the property,
for variances, or for any other form of relief

459a
Appendix D
before filing this federal complaint. To address
this claim in this posture, federal courts would
be required to guess what possible proposals
[plaintiffs] might have filed with the City, and
how the City might have responded to these
imaginary applications.
S. Pac., 922 F.2d at 504 (footnote omitted).
Here, in the absence of a formal application, the
particulars of the Congregation’s planned use remain
abstract. For example, the Amended Complaint does
not allege the size of the dormitories that Plaintiffs
propose to build, and Plaintiffs have provided inconsistent
representations on this point. (SAC ¶ 212 (alleging that
Plaintiffs’ counsel “stated [in a letter to the Village’s
Counsel] that [Plaintiffs would] seek a development for
only 250 students”); Tr. of Oral Argument (“Tr.”) 63-64
(stating that the dormitories would house 250 students in
the “first phase,” but that “there conceivably could be onethousand units”).) Thus, the Court cannot know whether
Plaintiffs may pursue development plans that could
comport with some, even if not all, of the Village’s Zoning
Code. See Executive 100, Inc. v. Martin County, 922 F.2d
1536, 1551 (11th Cir. 1991) (holding a claim unripe, where
the plaintiffs had not sought variances or attempted to
pursue “less ambitious development plans”). Moreover, the
Village has not had the opportunity to review any plans,
to hold a public hearing, or to decide whether any part of
the Congregation’s plan complies with the Village’s Zoning
Code (including ordinances other than those attacked
facially by Plaintiffs). Under such circumstances, the
Court cannot “know precisely how [the ordinances] will

460a
Appendix D
be applied to [this] particular parcel.” Murphy, 402 F.3d
at 348; see also City of Medina, 2012 U.S. Dist. LEXIS
87687, 2012 WL 2395195, at *5 (“The City’s decision [on a
withdrawn permit application] would . . . allow the Court
to know how the zoning ordinance would be applied to the
Church’s property, so that it could apply the appropriate
statutory or constitutional analysis to the City’s treatment
of the Church.”). In other words, the question of how the
Village’s zoning ordinances would be applied is purely
speculative, because the rabbinical college, while a genuine
and real aspiration of Plaintiffs, is, at this point, still
merely an undefined plan.
Plaintiffs contend that, notw ithstanding their
failure to submit a single application, rejection of their
application is certain, because no Village official or entity
has discretion to approve Plaintiffs’ proposed use of
the Subject Property as a rabbinical college under the
Village’s Zoning Code. (Pls.’ Mem. 17.) The Second Circuit
has indeed noted that a plaintiff may be excused from
pursuing all available administrative remedies if “a zoning
agency lacks discretion to grant variances.” Murphy, 402
F.3d at 349. Here, for example, it is undisputed that the
Village’s zoning authorities would not have the discretion
to issue a special use permit for an unaccredited institution
or to issue certain variances under the Village’s Zoning
Code. (Defs.’ Mem. 10.)11 In other words, Plaintiffs argue
11. The Parties agree that the rabbinical college would
not qualify for a special use permit if, as Plaintiffs allege, there
exists no formal accreditation process for the rabbinical college,
because the Village’s Zoning Code allows special use permits to
issue only to an accredited “educational institution,” see Vill. of
Pomona, N.Y. Code § 130-4. (SAC ¶¶ 93, 95, 105-06.) Defendants

461a
Appendix D
that the futility exception should apply here, because
they have no option of persuading the Village to change
its Zoning Code or of seeking a variance or special use
exception of any kind. But, again, for Plaintiffs to invoke
the futility exception on the claim that they could not seek
a special use permit or a variance of any kind, because
they are not entitled to either under the Village’s Zoning
Code, they nonetheless had to have submitted at least one
formal application for development of the Subject Property
before bringing their as-applied claims.
To be sure, courts have regularly found that the
futility exception applies in instances where landowners
could not, by law, obtain a variance under local zoning
have also accepted Plaintiffs’ representation that the rabbinical
college could not meet the Village’s criteria for granting a use
variance, because Plaintiffs cannot show at least three of the six
mandatory requirements for granting a variance, in particular (a)
that “the property in question cannot yield a reasonable return
if used only for a purpose allowed in that district[,] (b) [t]hat the
plight of the owner is due to unique circumstances affecting the
property which is the subject of the application and not to general
conditions in the neighborhood[,]” and “(e) [t]hat the unnecessary
hardship claimed as a ground for the variance has not been created
by the owner.” (Pls.’ Mem. 18 n.30 (quoting Vill. of Pomona, N.Y.
Code § 130-28(D)(1)).) See United States v. Airmont, No. 05-CV5520, 2008 U.S. Dist. LEXIS 123979, *14 n.3 (S.D.N.Y. Nov. 12,
2008) (noting that a property owner’s failure to apply for a variance
after its formal application was rejected was excused as futile
where the property owner “would almost certainly be unable to
establish the factors that it would be required to show to obtain
a use variance”); cf. Bikur Cholim, 664 F. Supp. 2d at 286 (noting
that it would have been futile for plaintiffs to appeal the denial
of their variance application, where the property plainly did not
meet the criteria required for a variance).

462a
Appendix D
ordinances, but only where the landowner had submitted
a formal application. For example, in Hoehne, the
landowners purchased a sixty-acre parcel of land and
then subsequently submitted a subdivision application to
the county planning commission, proposing to divide the
property into four lots with an average of fifteen acres per
lot. 870 F.2d at 530. At the time of the formal proposal, the
property was zoned to permit single-family residences with
a five-acre minimum. Id. The planning commission voted
to deny the request, which recommendation was adopted
by the board of supervisors. Id. at 531. “Subsequent to
the Board’s decision, the County amended its General
Plan land-use designation” to change the designation of
the subject parcel to “Agricultural Rangeland,” thereby
imposing a forty-acre minimum lot size and legally barring
the plaintiffs’ proposed subdivision plan. Id. Plaintiffs
brought an action challenging the county’s actions. The
Ninth Circuit held that it “would have been futile for the
[land owners] to seek a zoning variance to accommodate
their application because the supervisors, by legislative
act, changed the zoning designation from a minimum
lot size of five acres to one of forty acres,” and because
a “variance [was] not available for exceptions to the
requirements of the General Plan.” Id. at 534-35 (emphasis
added).12
12. Other courts have reached similar conclusions—i.e.,
that a land owner may claim futility if he or she has submitted
a formal application to municipal officials, and if the applicable
zoning laws bar any variances or other administrative remedies.
See, e.g., Herrington, 857 F.2d at 570 (holding that plaintiffs who
had submitted a “32-unit subdivision proposal” were not required
to seek a variance where the municipal board had rezoned the
property to bar the proposal, and where the zoning ordinance
did not permit any variances); Roman Catholic Diocese, 2012

463a
Appendix D
However, just five years later, the Ninth Circuit
confronted a challenge to a municipality’s general plan
and water moratorium. See Kawaoka v. City of Arroyo
Grande, 17 F.3d 1227 (9th Cir. 1994). The district court
dismissed the action, concluding that plaintiffs’ failure to
submit a formal development plan doomed the as-applied
challenges as unripe. See id. at 1232. On appeal, plaintiffs
cited Hoehne “for the proposition that they [were] not
required to seek a legislative amendment to undo that
which ha[d] just been done by the legislature.” Id. at 1233.
In rejecting this claim, the Ninth Circuit concluded that
Hoehne was “unhelpful” to the plaintiffs, because “even in
Hoehne, the [plaintiffs] had applied to the City to develop
their property and been rejected,” whereas “in the present
case, the Kawaokas have filed no such application.” Id.
(citing S. Pac., 922 F.2d at 503). And so it is here. While
Plaintiffs may well be right that they could not have
sought a variance or special use permit, that alone does
not make their as-applied challenges ripe, because they
did not submit a formal application to develop the Subject
Property.
Furthermore, in the absence of even one meaningful
application, the Court cannot conclude that the Village’s
U.S. Dist. LEXIS 56694, 2012 WL 1392365, at *1, *6 (holding
that plaintiff had satisfied ripeness requirements when, after
plaintiffs filed a formal development plan, municipality adopted
a law barring the proposed use and prohibited plaintiffs from
appealing to the municipality’s zoning board of appeals); City of
Turlock, 483 F. Supp. 2d at 999-1001 (finding landowner’s claim
was ripe, where landowner had filed an application and revised
application to open a “discount superstore,” and where the local
zoning law barred such stores and did not allow for variances).

464a
Appendix D
rejection of Plaintiffs’ application is virtually certain, as
required to demonstrate futility. See Murphy, 402 F.3d at
349 (noting that the futility exception might apply if the
zoning agency has “made clear that all such applications
will be denied”); Gilbert, 932 F.2d at 61 (“To come
within the exception, a sort of inevitability is required:
the prospect of refusal must be certain (or nearly so).”);
Osborne, 2009 U.S. Dist. LEXIS 27409, 2009 WL 884697,
at *5 (explaining that a plaintiff must show, inter alia, “the
inevitability of refusal of their application” to demonstrate
futility); Tri-State Video Corp. v. Town of Stephentown,
No. 97-CV-0965, 1998 U.S. Dist. LEXIS 1899, 1998 WL
72331, at *4 (N.D.N.Y. Feb. 13, 1998) (deciding not to
apply the futility exception despite open hostility of the
town and its officials toward the plan, because the Zoning
Board of Appeals “ha[d] yet to issue any ruling on . . .
[the p]laintiffs’ proposed use of the property”). Plaintiffs
contend that the futility exception should apply here,
because the Village has exhibited such hostility toward
the notion of a rabbinical college that it would almost
certainly reject any application by Plaintiffs. In support
of this claim, Plaintiffs highlight their allegations that
the ordinances were enacted specifically to prevent the
construction of a rabbinical college and that Village
officials and members of the community have expressed
discriminatory animus toward Plaintiffs’ plans.
Plaintiffs’ claims about the letters written by the
Village attorney and Mayor Sanderson and the comments
allegedly made by other Village officials, if true, are indeed
troubling. But these individuals are not the only Village
officials who would consider a formal application, if it were
ever made. The fate of any formal proposal therefore

465a
Appendix D
remains an unanswered question. This conclusion finds
support in the case law. For example, in Homefront, the
court refused to excuse the plaintiff’s failure to submit a
single formal application based on the futility exception
despite statements by the Mayor of the defendant
Village that the “proposed project was ‘not happening
in our town’” and that the defendants “would not permit
plaintiffs to build anything on the [subject] property.” 570
F. Supp. 2d at 401, 402. In rejecting the plaintiffs’ claim
of futility, the court emphasized that “[the Mayor] could
change his mind regarding the proposal or, regardless of
[his] negative views, the Planning Board or the [Board of
Zoning Appeals] could approve the proposal.” Id. at 409.
Other courts faced with only the public statements of some
municipal officials and a failure by the landowner plaintiff
to submit a formal application have similarly declined to
apply the futility exception. See Roman Catholic Bishop,
760 F. Supp. 2d at 183 (“[T]he City’s decision to pass the
Ordinance in no way predetermines the outcome of an
application for an exemption. . . . It would be perfectly
consistent for the City to enact this Ordinance in an
effort to stave off the possibility of demolition and later
provide an exemption for Plaintiff to remove features of
the Church’s facade.”); Loesel, 2009 U.S. Dist. LEXIS
25956, 2009 WL 817402, at *13 (“[T]he City Council and
Planning Commission consist of several members and
absent any definitive action taken by them as a group,
evidence of the strength of a single person’s point of view
. . . does not adequately show that Defendant would have
rejected Wal-Mart’s proposal or request for a variance.”).13
13. Plaintiffs’ allegations about the cool reaction to their
informal overtures to Village officials about the rabbinical college

466a
Appendix D
Thus, the Court declines to speculate about the
likelihood that the Village Board of Trustees would
reject the Congregation’s plans (whatever they may
be). Instead, the Village Board of Trustees “should be
given an opportunity to reach a final decision as to how
it will apply the [Village’s zoning laws] to the property
at issue.” Congregation Anshei Roosevelt v. Planning
& Zoning Bd. of Roosevelt, No. 07-CV-4109, 2008 U.S.
Dist. LEXIS 63994, 2008 WL 4003483, at *13 (D.N.J.
Aug. 21, 2008); see also id. (dismissing claims on ripeness
grounds, because plaintiffs had yet to apply for a variance,
which would not have been futile), aff’d, 338 Fed. App’x
214 (3d Cir. 2009). Accordingly, Plaintiffs’ claims under
New York Civil Rights Law § 40-c, as well as Plaintiffs’
as-applied challenges to the Village’s zoning regulations
under the First Amendment, the Fourteenth Amendment,
the New York Constitution, and RLUIPA are not ripe
for adjudication, and these claims are dismissed without
prejudice.
iii. Ripeness of FHA Claims
Defendants do not appear specifically to challenge
the ripeness of Plaintiffs’ claims under the FHA. 14
do not alter the analysis. See Loesel, 2009 U.S. Dist. LEXIS 25956,
2009 WL 817402, at *13 (“To determine that Defendant would have
rejected an application that was never completed, based on the
result of only a preliminary meeting, would be entirely speculative.
Thus, Plaintiffs’ claims do not meet the finality requirement, and
they may not advance their challenge to the ordinance as applied
to their property.”).
14. Three theories of discrimination are available to a plaintiff
alleging a violation of the FHA or Title II of the Americans with

467a
Appendix D
Nevertheless, as ripeness is a jurisdictional matter, the
Court separately addresses the question of whether
Plaintiffs’ as-applied FHA claims are ripe for adjudication.
The Second Circuit has not explicitly decided whether
the final decision requirement applies to FHA claims. As
noted above, Plaintiffs understandably point to LeBlancSternberg, in which the Second Circuit allowed the
plaintiffs to recover under the FHA for a municipality’s
discriminatory enactment of a zoning code. In that case,
the Second Circuit observed that the FHA explicitly
grants standing to “anyone who believes he [or she] ‘will
be injured by a discriminatory housing practice that is
about to occur.’” 67 F.3d at 425 (quoting 42 U.S.C. § 3602(i)
(emphasis in original). The LeBlanc-Sternberg court
further noted that “where it has been established that a
zoning ordinance will likely be applied in a discriminatory
manner, it is unnecessary that the municipality actually so
apply it before the ordinance may properly be challenged.”
Id.15 It is this statement on which Plaintiffs rely in
asserting that their FHA claims are ripe.15
Disability Act (“ADA”): (1) intentional discrimination; (2) disparate
impact; and (3) refusal to make a reasonable accommodation. See
Tsombanidis v. W. Haven Fire Dep’t, 352 F.3d 565, 573 (2d Cir.
2003); Lapid Ventures, LLC v. Township of Piscataway, No. 10CV-6219, 2011 U.S. Dist. LEXIS 63973, 2011 WL 2429314, at *5
(D.N.J. June 13, 2011). Plaintiffs appear to be relying on the first
two theories.
15. In support of this proposition, the LeBlanc-Sternberg
panel cited the Eighth Circuit’s decision in Park View Heights
Corp. v. City of Black Jack, 467 F.2d 1208 (8th Cir. 1972). In
Park View Heights, the plaintiffs included two non-profit groups
that sought to build a multi-family housing development and

468a
Appendix D

eight individuals suing as a class. The developers submitted an
application to build the apartments to the Department of Housing
and Urban Development (“HUD”), after securing a mortgage and
completing all architectural, legal, and organizational planning. Id.
at 1210-11. As a result of this planning, HUD issued a “feasibility
letter,” which was “tantamount to a contractual obligation” to
support the project. Id. at 1211 (internal quotation marks omitted).
In response to the feasibility letter, area residents organized an
effort to incorporate the area that included the proposed housing
development (and to call it, of all things, “the City of Black Jack”).
Subsequently, the city council adopted a zoning ordinance that
“effectively prevent[ed] the construction of new multi-family
dwelling units within” the newly incorporated city. Id. Plaintiffs
brought an action challenging the zoning ordinance as, inter
alia, an unlawful taking, and as violating the Thirteenth and
Fourteenth Amendments, as well as the FHA. Id. The district
court dismissed, concluding that the claims were not ripe, because
no building permit had been denied, and no variance had been
sought. Id. at 1212. In reversing, the Eighth Circuit held that
the case was ripe, because it “kn[e]w the conduct intended by the
plaintiffs, as well as the actions which [had] been taken by the
defendants.” Id. at 1215.
To the extent Plaintiffs might suggest that Park View Heights
stands for the proposition that a land use plaintiff can show that
its FHA claims are ripe even without formalizing the land use
development plan, they would be overreaching. First, Park View
Heights was decided well before Williamson County, which has
been interpreted to apply to a wide variety of land use claims,
including the FHA. Indeed, the Eighth Circuit, notwithstanding
its own holding in Park View Heights, has held that a plaintiff
bringing a reasonable accommodation claim under the FHA
must permit the municipality an opportunity to consider a formal
application. See Oxford House-C v. City of St. Louis, 77 F.3d 249,
253 (8th Cir. 1996) (“Congress . . . did not intend the federal courts

469a
Appendix D
However, notwithstanding Plaintiffs’ view of LeBlancSternberg, the lower courts within the Second Circuit
have, since that decision, regularly held that the ripeness
analysis derived from Williamson applies to as-applied
FHA claims. See Jenkins v. Eaton, No. 08-CV-0713, 2009
U.S. Dist. LEXIS 26308, 2009 WL 811592, at *3 (E.D.N.Y.
Mar. 27, 2009) (noting that the ripeness doctrine under
Williamson “extends both to equal protection and due
process challenges, as well as to related claims under the
FHA” (citation omitted)); S&R Dev. Estates, 588 F. Supp.
2d at 461 (“Courts in this Circuit have also applied the
[Williamson] ripeness doctrine to FHA claims.”); Town
& Country Adult Living, Inc. v. Village/Town of Mount
Kisco, No. 02-CV-0444, 2003 U.S. Dist. LEXIS 8519, 2003
WL 21219794, at *2 (S.D.N.Y. May 21, 2003) (recognizing
applicability of final decision requirement to FHA claims
and concluding that it had been satisfied); Tsombanidis
v. City of West Haven, 129 F. Supp. 2d 136, 160-61 (D.
Conn. 2001) (holding that FHA reasonable accommodation
to act as zoning boards by deciding fact-intensive accommodation
issues in the first instance.”). Second, this case is distinguishable
from Park View Heights, because, in that case, the development
plans were concrete, finalized, and publicly known, whereas here
they are far from developed or publicly known. Indeed, the Eighth
Circuit itself has declined to apply Park View Heights when the
development at issue is filled with uncertainties. See Paraquad,
Inc. v. St. Louis Hous. Auth., 259 F.3d 956, 960 (8th Cir. 2001)
(“In Park View, we considered an attack on a zoning ordinance
that prohibited the construction of multiracial housing. We noted
the architectural and engineering plans for the building were
complete, and the City could do nothing further to exclude the
plaintiffs from the community. In our case, however, there are
many unresolved uncertainties.” (citation omitted)).

470a
Appendix D
claim was not ripe, because the city had not been given
an opportunity to consider plaintiff’s land use request);
Sunrise Dev., Inc. v. Town of Huntington, 62 F. Supp.
2d 762, 770-71 (E.D.N.Y. 1999) (applying Williamson to
FHA claim, but holding that plaintiff had received final
denial of special use permit). But see Advocacy & Res. Ctr.
v. Town of Chazy, 62 F. Supp. 2d 686, 688-89 (N.D.N.Y.
1999) (determining that FHA claim was ripe despite
the plaintiffs’ failure to apply for a variance). And, since
LeBlanc-Sternberg, the Second Circuit has held that a
plaintiff must provide a government entity an opportunity
to accommodate the plaintiff’s intended use, so that the
government entity can “know what a plaintiff seeks prior
to incurring liability” for violating the FHA. Tsombanidis
v. W. Haven Fire Dep’t, 352 F.3d 565, 579 (2d Cir. 2003).
Illustrative of these decisions is Woodfield Equities,
L.L.C. v. Inc. Village of Patchogue, 357 F. Supp. 2d 622
(E.D.N.Y. 2005). In that case, the plaintiffs challenged a
village’s condemnation of their property on the grounds
that the condemnation violated the FHA, the ADA,
and the Rehabilitation Act. Id. at 630. In rejecting the
plaintiffs’ application for a preliminary injunction, the
court found that the FHA, ADA, and Rehabilitation Act
claims were not ripe, because the plaintiffs had not made
any proper application to the village for the right to
operate the property as they wished (to run a residential
recovery center). Id. at 631-32. Although the Woodfield
Equities court acknowledged the broad standing afforded
under statutes like the FHA and ADA, and, in fact, cited
LeBlanc-Sternberg, it nonetheless concluded that the
claims were not ripe, because the condemnation was not

471a
Appendix D
a final decision. Id. at 632 (“Ideally, the submission of
at least one purposeful application that is subsequently
denied, meets the finality requirement. . . . Plaintiffs never
submitted an application to the Village for a use variance
or special permit.”).16
The consensus view among the lower courts within
the Second Circuit—that as-applied challenges under
the FHA are not ripe unless the plaintiff has submitted
at least one formal application for relief—is shared by
courts outside our circuit. See, e.g., Lapid-Laurel, L.L.C.
v. Zoning Bd. of Adjustment of Scotch Plains, 284 F.3d
442, 451 n.5 (3d Cir. 2002) (noting that requiring local
land use entities to have an opportunity to comply with an
FHA reasonable accommodation request before an FHA
claim can be considered ripe is consistent with holdings
from other circuits); Oxford House-A v. City of University
City, 87 F.3d 1022, 1024-25 (8th Cir. 1996) (“The Oxford
Houses must give the City a chance to accommodate them
through the City’s established procedures for adjusting
the zoning code.”); United States v. Village of Palatine,
37 F.3d 1230, 1233 (7th Cir. 1994) (citing Williamson in
holding that plaintiffs’ FHA reasonable accommodation
claims were not ripe, because plaintiffs had not sought a
reasonable accommodation of the village); Marriott Senior
16. The Second Circuit affirmed the denial of the preliminary
injunction. See 156 Fed. App’x. 389 (2d Cir. 2005). In affirming,
the Second Circuit noted that the plaintiff had filed an action in
state court challenging the village’s condemnation and that the
state court had issued a stay, freezing the condemnation. Id. at
391. Thus, the Second Circuit did not need to reach the question
of the ripeness of the action.

472a
Appendix D
Living Servs., Inc. v. Springfield Township, 78 F. Supp. 2d
376, 385-86 (E.D. Pa. 1999) (noting that “it is undisputed
that Marriott never submitted a Preliminary Plan and
Final Plan pursuant to the Township’s . . . Ordinance[,]”
and accordingly finding plaintiff’s FHA claim unripe);
Oxford House, Inc. v. City of Virginia Beach, 825 F. Supp.
1251, 1261-62 (E.D. Va. 1993) (“[T]he zoning process is not
remedial in nature because, unless and until plaintiffs are
denied a conditional use permit or the required conditions
are established, the City has not fully applied its zoning
scheme to them and, consequently, plaintiffs’ claims of
discrimination . . . are not ripe for adjudication . . . .”).
Plaintiffs correctly note that a landowner asserting
an as-applied FHA claim need not always “first pursue
remedies under local zoning laws.” (Pls.’ Mem. 21.)
Indeed, the Second Circuit has held that, by its terms,
the FHA does not require a plaintiff to exhaust all local
remedies before bringing an action in federal court. See
Huntington, 689 F.2d at 393 n.3 (2d Cir. 1982); see also
Tsombanidis, 352 F.3d at 579 (“It may be that once the
governmental entity denies [a reasonable] accommodation,
neither the FHA nor the ADA require a plaintiff to
exhaust the state or local administrative procedures.”
(emphasis in original)). This is the view of other courts as
well. See, e.g., Groome Res. Ltd. v. Parish of Jefferson,
234 F.3d 192, 199-200 (5th Cir. 2000) (holding that FHA
reasonable accommodation claim was ripe when the
accommodation was denied, and that plaintiff did not need
to pursue remedies in subsequent proceedings); Bryant
Woods Inn, Inc. v. Howard County, 124 F.3d 597, 602 (4th
Cir. 2000) (same). But none of these courts has permitted

473a
Appendix D
an as-applied challenge to a zoning ordinance, asserted
under the FHA, to proceed until the plaintiff has made at
least one formal application detailing the proposed use of
the property at issue, thus allowing the government entity
to make a decision regarding the plaintiff’s request. See
Lapid-Laurel, 284 F.3d at 451 n.5 (suggesting agreement
with decisions in other circuits that as-applied challenges
under the FHA “must first be presented to local land use
boards” before being ripe (citing Village of Palatine, 37
F.3d 1230)); Bryant Woods, 124 F.3d at 602 (noting that the
county “must be afforded an opportunity to make a final
decision,” even if plaintiff is not required to pursue “postdecisional procedures,” as would be required in a takings
case (citing Williamson, 473 U.S. at 195)); Marriott Senior
Living Servs., 78 F. Supp. 2d at 385-86 (“While strict
compliance with every local ordinance or regulation is not
required, before the denial of a reasonable accommodation
claim may be deemed final, the applicant must show that
under the circumstances it has afforded the appropriate
local authority a reasonable opportunity to consider the
project in some final form . . . .”). In other words, even
if a plaintiff may satisfy the final decision rule without
exhausting his or her administrative remedies, there
is no authority for the proposition that a plaintiff can
satisfy the final decision rule without making at least one
formal application to the relevant governmental entity.
See Marriott Senior Living Servs., 78 F. Supp. 2d at 385
(“Marriott clearly did not progress beyond preliminary
discussions with Township officials and submission of the
Sketch Plan under the Township’s informal procedure.”).
Thus, Plaintiffs’ as-applied challenges under the FHA are
not yet ripe and are dismissed without prejudice.

474a
Appendix D
However, as is true with Plaintiffs’ constitutional
challenges to the zoning ordinances, the ripeness of
Plaintiffs’ facial FHA challenges presents a different
question. To the extent that Plaintiffs allege under the
FHA that the Village adopted the challenged ordinances
with a discriminatory purpose, those claims may proceed.
See Jackson v. Okaloosa County, 21 F.3d 1531, 1541 n.16
(11th Cir. 1994) (finding that FHA claims were ripe,
where plaintiffs alleged that “the adoption of the Policy
itself violated the Fair Housing Act because the Policy
was adopted with discriminatory purpose and/or with
disparate impact”); Caron Found. of Fla, Inc. v. City of
Delray Beach, 879 F. Supp. 2d 1353, No. 12-CV-80215,
2012 U.S. Dist. LEXIS 92256, 2012 WL 2249263, at
*6-8 (S.D. Fla. May 4, 2012) (holding that plaintiff’s asapplied, reasonable accommodation claim was not ripe,
but that plaintiff’s facial challenge, based on a claim of
disparate treatment, was ripe); Lapid Ventures, 2011 U.S.
Dist. LEXIS 63973, 2011 WL 2429314, at *6 (noting that
plaintiffs’ reasonable accommodation claim was not ripe,
but that plaintiffs’ disparate treatment and disparate
impact claims were ripe, because plaintiffs alleged
that the zoning ordinances at issue were adopted for “a
discriminatory purpose”).
Thus, Plaintiffs’ facial challenges under the FHA to
the Village’s zoning ordinances are ripe for review.17

17. Moreover, because Defendants have not challenged
Plaintiffs’ FHA claims as failing to state a claim under Rule 12(b)
(6), those claims may proceed.

475a
Appendix D
C.

Plaintiffs’ Facial Challenges

Plaintiffs contend that the challenged ordinances
facially violate the Equal Protection Clauses of both the
Federal Constitution and the New York Constitution,
the Free Exercise, Free Speech, and Free Association
Clauses of the First Amendment and corollary protections
in the New York Constitution, the FHA, and RLUIPA.
Defendants argue that Plaintiffs’ allegations fail to
state a valid facial challenge to the Village’s zoning
ordinances. (Defs.’ Mem. 18-24.) A facial challenge is one
that “address[es] not the application of [an ordinance] to
a particular set of plaintiffs . . ., but the [legality] of the
[ordinance]” itself. Washington v. Glucksberg, 521 U.S.
702, 739-40, 117 S. Ct. 2258, 117 S. Ct. 2302, 138 L. Ed.
2d 772 (1997) (Stevens, J., concurring); see also Brooklyn
Legal Servs. Corp. v. Legal Servs. Corp., 462 F.3d 219, 228
(2d Cir. 2006) (“Facial and as-applied challenges differ
in the extent to which the invalidity of a statute need be
demonstrated (facial, in all applications; as-applied, in a
personal application).” (emphasis in original)), overruled
on other grounds, Bond v. United States, 131 S. Ct. 2355,
180 L. Ed. 2d 269 (2011).
“A plaintiff making a facial claim faces an ‘uphill
battle’ because ‘it is difficult to demonstrate that the
mere enactment of a piece of legislation’ violates the
plaintiff’s constitutional rights.” Cranley v. Nat’l Life
Ins. Co. of Vt., 318 F.3d 105, 110 (2d Cir. 2003) (quoting
Suitum, 520 U.S. at 736 n.10). Indeed, facial challenges
are “generally disfavored,” because facial invalidation
is “strong medicine” that “has been employed by the

476a
Appendix D
[Supreme] Court sparingly and only as a last resort.” Nat’l
Endowment for the Arts v. Finley, 524 U.S. 569, 580, 118
S. Ct. 2168, 141 L. Ed. 2d 500 (1998) (internal quotation
marks omitted). The Supreme Court has explained that
“[f]acial challenges are disfavored for several reasons.”
Wash. State Grange v. Wash. State Republican Party,
552 U.S. 442, 450, 128 S. Ct. 1184, 170 L. Ed. 2d 151
(2008). First, “[c]laims of facial invalidity often rest on
speculation. As a consequence, they raise the risk of
‘premature interpretation of statutes on the basis of
factually barebones records.’” Id. (quoting Sabri v. United
States, 541 U.S. 600, 609, 124 S. Ct. 1941, 158 L. Ed. 2d 891
(2004)). Second, “[f]acial challenges also run contrary to
the fundamental principle of judicial restraint that courts
should neither anticipate a question of constitutional law
in advance of the necessity of deciding it nor formulate
a rule of constitutional law broader than is required by
the precise facts to which it is to be applied.” Id. (internal
quotation marks omitted). Finally, courts must be mindful
that “‘a ruling of unconstitutionality frustrates the intent
of the elected representatives of the people.’” Id. at 451
(quoting Ayotte v. Planned Parenthood of N. New Eng.,
546 U.S. 320, 329, 126 S. Ct. 961, 163 L. Ed. 2d 812 (2006))
(brackets omitted). With these considerations in mind, the
Court now turns to Plaintiffs’ facial attacks.
1.

Relevance of Discriminatory Motive to
Plaintiffs’ Facial Challenges

As a threshold matter, the Court considers Plaintiffs’
argument that the motive behind the enactment of
the challenged ordinances is relevant to their facial

477a
Appendix D
challenges. Plaintiffs contend that in addition to
examining the text of the challenged ordinances, the
Court must also consider whether the ordinances were
“enacted with a discriminatory purpose” to determine
their facial validity. (Pls.’ Mem. 10 (emphasis in original).)
In particular, Plaintiffs argue that the motivation
behind the ordinances is relevant to their facial claims
under the Equal Protection Clause, the Free Exercise
Clause, and the Free Speech Clause. Defendants argue
that the “subjective motivation” of those who enacted
the challenged ordinances is irrelevant to the Court’s
determination of the challenged ordinances’ facial validity.
(Defs.’ Mem. 19 (internal quotation marks omitted).)
Normally, courts treat “the actual intent or motive
of the government decisionmakers [as] irrelevant to
their inquiry.” Alan E. Brownstein, Illicit Legislative
Motive in the Municipal Land Use Regulation Process,
57 U. Cin. L. Rev. 1, 1 (1988); see also Arlington Heights,
429 U.S. at 268 n.18 (noting that questioning legislative
motivation represents “substantial [judicial] intrusion
into the workings of other branches of government”);
United States v. O’Brien, 391 U.S. 367, 383, 88 S. Ct.
1673, 20 L. Ed. 2d 672 (1968) (“It is a familiar principle of
constitutional law that this Court will not strike down an
otherwise constitutional statute on the basis of an alleged
illicit legislative motive.”); McCray v. United States, 195
U.S. 27, 56, 24 S. Ct. 769, 49 L. Ed. 78, T.D. 795 (1904)
(“The decisions of this court from the beginning lend no
support whatever to the assumption that the judiciary may
restrain the exercise of lawful power on the assumption
that a wrongful purpose or motive has caused the power

478a
Appendix D
to be exerted.”); Fletcher v. Peck, 10 U.S. (6 Cranch) 87,
130, 3 L. Ed. 162 (1810) (“It may well be doubted how
far the validity of a law depends upon the motives of its
framers . . . .”); Field Day, LLC v. County of Suffolk,
463 F.3d 167, 174 (2d Cir. 2006) (noting that a court
evaluating “[a] ‘facial challenge’ to a statute considers
only the text of the statute itself, not its application to the
particular circumstances of an individual”); Grossbaum
v. Indianapolis-Marion Cnty. Bldg. Auth., 100 F.3d 1287,
1292-93 (7th Cir. 1996) (explaining that legislative motive
is relevant to only certain constitutional claims); Panama
City Med. Diagnostic Ltd. v. Williams, 13 F.3d 1541, 1547
(11th Cir. 1994) (“The district court erred . . . in searching
for the actual motivation of the legislation . . . [because]
the proper inquiry is concerned with the existence of a
conceivable rational basis, not whether that basis was
actually considered by the legislative body.” (emphasis
in original)).
The difficulty of ascertaining legislative motivation is
often cited as a reason why such inquiries normally are to
be avoided. See Church of Lukumi Babalu Aye, Inc. v. City
of Hialeah, 508 U.S. 520, 558, 113 S. Ct. 2217, 124 L. Ed.
2d 472 (1993) (Scalia, J., concurring in part and concurring
in the judgment) (“[I]t is virtually impossible to determine
the singular ‘motive’ of a collective legislative body . . . .”);
Michael M. v. Superior Court of Sonoma Cnty., 450 U.S.
464, 470, 101 S. Ct. 1200, 67 L. Ed. 2d 437 (1981) (noting
that “individual legislators may have voted for the statute
for a variety of reasons”); O’Brien, 391 U.S. at 383 (“What
motivates one legislator to make a speech about a statute
is not necessarily what motivates scores of others to enact

479a
Appendix D
it, and the stakes are sufficiently high for us to eschew
guesswork.”). See generally John Hart Ely, Legislative
and Administrative Motivation in Constitutional Law,
79 Yale L.J. 1205, 1212-23 (1970) (discussing arguments
against consideration of motive, including difficulty of
ascertaining motive). Relatedly, courts question the
utility of inquiring into legislative motive. In O’Brien,
the Supreme Court emphasized the futility of evaluating
legislative motive, noting that it makes little sense to void
a law that could “be reenacted in its exact form if the same
or another legislator made a ‘wiser’ speech about it.” 391
U.S. at 384; see also Grossbaum, 100 F.3d at 1293 (“Just
as we would never uphold a law with unconstitutional
effect because its enactors were benignly motivated, an
illicit intent behind an otherwise valid government action
indicates nothing more than a failed attempt to violate the
Constitution.”).
Nevertheless, the Supreme Court recognized in
O’Brien that there is “a very limited and well-defined
class of cases where the very nature of the constitutional
question requires an inquiry into legislative purpose.”
O’Brien, 391 U.S. at 383 n.30. For example, courts inquire
into the motives of government decisionmakers in deciding
both claims of discrimination against a suspect class in
violation of the Equal Protection Clause, see, e.g., Miller v.
Johnson, 515 U.S. 900, 916, 115 S. Ct. 2475, 132 L. Ed. 2d
762 (1995) (noting that to succeed on an Equal Protection
challenge to a redistricting plan, the burden is on the
plaintiff to prove that “race was the predominant factor
motivating the legislature’s decision to place a significant
number of voters within or without a particular district”);
Hunter v. Underwood, 471 U.S. 222, 233, 105 S. Ct. 1916,

480a
Appendix D
85 L. Ed. 2d 222 (1985) (invalidating on its face a law
disenfranchising felons, because “its original enactment
was motivated by a desire to discriminate against blacks
on account of race and the section continues to this day to
have that effect”); United States v. Yonkers Bd. of Educ.,
837 F.2d 1181, 1216-17 (2d Cir. 1987) (explaining that Equal
Protection claim alleging racial discrimination require a
reviewing court to consider whether government action
was motivated by race), and claims of discrimination
against religion or religious conduct in violation of the Free
Exercise Clause, see, e.g., Iqbal, 556 U.S. at 676 (“Where
the claim is invidious discrimination in contravention of
the First . . . Amendment[], . . . the plaintiff must plead
and prove that the defendant acted with discriminatory
purpose.”); Lukumi, 508 U.S. at 533 (explaining that to
substantiate a free exercise claim, the plaintiff must show
that “the object or purpose of a law is the suppression
of religion or religious conduct”); id. at 540 (considering
events preceding enactment of an ordinance to determine
whether it was motivated by religious animus).18
18. Defendants contend that the above-mentioned principles,
while applicable in the context of as-applied challenges, do not
apply in the context of facial challenges. Specifically, Defendants
argue that examining the actual motive behind the ordinances’
enactment is at odds with the standard by which facial challenges
are judged, namely whether the plaintiff has “establish[ed] that
no set of circumstances exists under which the [statute] would be
valid.” Diaz v. Paterson, 547 F.3d 88, 101 (2d Cir. 2008) (second
alteration in original) (quoting Cranley, 318 F.3d at 110); see also
Bach v. Pataki, 408 F.3d 75, 89 (2d Cir. 2005) (citing United States v.
Salerno, 481 U.S. 739, 745, 107 S. Ct. 2095, 95 L. Ed. 2d 697 (1987)).
There is a debate among the Justices of the Supreme Court as to
the validity of the no-set-of-circumstances standard, which was
originally announced by the Supreme Court in Salerno, 481 U.S.

481a
Appendix D
at 745. See Wash. State Grange, 552 U.S. at 449 (acknowledging
that “some Members of the Court have criticized the Salerno
formulation”); City of Chicago v. Morales, 527 U.S. 41, 55 n.22, 119
S. Ct. 1849, 144 L. Ed. 2d 67 (1999) (Opinion of Stevens, J.) (“To
the extent we have consistently articulated a clear standard for
facial challenges, it is not the Salerno formulation, which has never
been the decisive factor in any decision of this Court, including
Salerno itself . . . .”); id. at 77-83 (Scalia, J., dissenting) (arguing
in favor of the Salerno standard). Nevertheless, in the Second
Circuit, the Salerno standard remains the basis for evaluating
most facial constitutional challenges. See Ruston v. Town Bd. for
Skaneateles, 610 F.3d 55, 58 n.2 (2d Cir. 2010) (applying Salerno
to facial challenge to zoning law); Diaz, 547 F.3d at 101 (applying
Salerno standard to facial Due Process challenge). The Salerno
standard is inapplicable, however, to certain claims, including
certain Free Speech and Free Exercise claims. See Virginia v.
Hicks, 539 U.S. 113, 118, 123 S. Ct. 2191, 156 L. Ed. 2d 148 (2003)
(“The First Amendment doctrine of overbreadth is an exception to
our normal rule regarding the standards for facial challenges.”).
Under the Salerno standard, Defendants argue, regardless of
the actual bases for the ordinances’ enactment, the ordinances may
be upheld if they are justified by some conceivable constitutional
basis. (Defs.’ Mem. 19.) There is some support in the Second Circuit
for the broad outlines of Defendants’ argument. In Giusto v. INS,
9 F.3d 8 (2d Cir. 1993) (per curiam), the Second Circuit rejected a
facial Equal Protection challenge to a congressional amendment
to the Immigration and Nationality Act, which distinguished on its
face “between aliens who have served at least five years in prison
and those who have served shorter terms.” Id. at 9. The Second
Circuit held that the legislative enactment would “not be set aside
as the denial of equal protection of the laws if any state of facts
reasonably may be conceived to justify it.” Id. at 10 (emphasis
added) (internal quotation marks omitted). Similarly, in Ecogen,
the court explained that a “defendants’ subjective motivation in
enacting [an ordinance] is irrelevant” to a facial Equal Protection
claim, because the “existence of a conceivably rational basis” is

482a
Appendix D

all that is required to survive a facial challenge. 438 F. Supp. 2d
at 157-58 (emphasis in original); accord S. Lyme Prop. Owners
Ass’n, 539 F. Supp. 2d at 540-41 (rejecting argument that plaintiffs
could establish facial Equal Protection claim by showing improper
motive).
Nonetheless, these cases are distinguishable from the instant
case, because none involved allegations of discriminatory animus
grounded in race or religion. See Giusto, 9 F.3d at 9-10 (reviewing
governmental classification based on number of years in prison);
S. Lyme Prop. Owners Ass’n, 539 F. Supp. 2d at 541 (reviewing
Equal Protection class of one claim); Ecogen, 438 F. Supp. 2d at
157-58 (reviewing a claim based on defendant’s aesthetic hostility
toward the plaintiffs’ project). Where the alleged motivation
behind the enactment of a law is discriminatory animus based
on race or religion, courts may look beyond the law’s facially
neutral text and conceivably rational basis to determine whether
the law is on its face invalid. See Lukumi, 508 U.S. at 534 (“[An]
action that targets religious conduct for distinctive treatment
cannot be shielded by mere compliance with the requirement of
facial neutrality.”); Hunter, 471 U.S. at 231-32 (invalidating law
on its face notwithstanding the law’s conceivably legitimate basis,
because it was enacted with the purpose of discriminating based on
race and had that effect). This is not inconsistent with the general
standard of Salerno, which demands that “no set of circumstances
exists under which the Act would be valid,” because a law that
violates the Equal Protection Clause or the Free Exercise Clause
will be invalid when applied under any conceivable circumstance,
even if it can be justified by a conceivably benign motive. See
Hunter, 471 U.S. at 231-33 (invalidating law on its face on Equal
Protection grounds based on its discriminatory purpose and effect,
and noting that even if the same law could be validly enacted under
the Tenth Amendment, “the enactment of [the law] violated the
Fourteenth Amendment, and the Tenth Amendment cannot save
legislation prohibited by the subsequently enacted Fourteenth
Amendment”).

483a
Appendix D
Motive also can be relevant to Free Speech claims.
For example, where government restricts speech
based on its content, a reviewing court may consider
the government’s motive to determine whether the
government has impermissibly restricted speech merely
because public officials disapprove the speakers’ views.
See Cornelius v. NAACP Legal Def. & Educ. Fund,
Inc., 473 U.S. 788, 812, 105 S. Ct. 3439, 87 L. Ed. 2d
567 (1985) (noting that government may not restrict
speech “to suppress a particular point of view”); S.C.
Educ. Ass’n v. Campbell, 883 F.2d 1251, 1259 n.8 (4th
Cir. 1989) (explaining that legislative motive “may be
relevant when the challenged legislation has on its face
some content-based, direct inhibiting effect on freedom
of speech or some other expressive activity or enterprise”
(emphasis in original)). Nevertheless, while motive is a
factor that may be considered, a court may not find a First
Amendment violation solely on the basis that a government
decisionmaker acted with an improper motive. See City
of Renton v. Playtime Theatres, Inc., 475 U.S. 41, 47-48,
106 S. Ct. 925, 89 L. Ed. 2d 29 (1986) (explaining that
O’Brien had rejected the view that improper motive of
stifling expression, without more, invalidates a law or
government action); O’Brien, 391 U.S. at 383 (declining
to strike down a law on First Amendment grounds solely
on the basis of illicit motive); M.J.M. Exhibitors, Inc.
v. Stern (In re G. & A. Books, Inc.), 770 F.2d 288, 297
(2d Cir. 1985) (“[S]ubjective motivation . . . to suppress
[speech] does not [by itself] render [the challenged action]
unconstitutional, provided [it] is justified by substantial
government interests independent of such motive.”).

484a
Appendix D
2. 	Equal Protection Claims
The Equal Protection Clause “is essentially a direction
that all persons similarly situated should be treated alike.”
City of Cleburne v. Cleburne Living Ctr., 473 U.S. 432,
439, 105 S. Ct. 3249, 87 L. Ed. 2d 313 (1985); see also
Harlen Assocs. v. Inc. Village of Mineola, 273 F.3d 494,
499 (2d Cir. 2001) (same).19 “To prove an equal protection
violation, claimants must prove purposeful discrimination”
by a government actor, Giano v. Senkowski, 54 F.3d 1050,
1057 (2d Cir. 1995) (citing McCleskey v. Kemp, 481 U.S.
279, 292, 107 S. Ct. 1756, 95 L. Ed. 2d 262 (1987)), directed
at a suspect class, id. (citing Kadrmas v. Dickinson Pub.
Sch.., 487 U.S. 450, 457-58, 108 S. Ct. 2481, 101 L. Ed. 2d
399 (1988)), such as a racial group, Pyke v. Cuomo, 567
F.3d 74, 77 (2d Cir. 2009) (per curiam), or a religion, see
Pedersen v. Office of Personnel Mgmt., No. 10-CV-1750,
881 F. Supp. 2d 294, 2012 U.S. Dist. LEXIS 106713, 2012
WL 3113883, at *12 (D. Conn. July 31, 2012) (“[C]ourts
apply the most searching constitutional scrutiny to those
laws that burden a fundamental right or target a suspect
19. Because the equal protection provisions of the New
York Constitution are interpreted consistently with the corollary
provisions in the Federal Constitution, see People v. Kern, 75
N.Y.2d 638, 554 N.E.2d 1235, 1240-41, 555 N.Y.S.2d 647 (N.Y.
1990) (holding that the guarantee of Equal Protection under the
New York Constitution is co-extensive with that of the Federal
Constitution); People v. McCray, 57 N.Y.2d 542, 443 N.E.2d 915,
918, 457 N.Y.S.2d 441 (N.Y. 1982) (“[O]ur State constitutional
equal protection clause is no more broad in coverage than its
Federal prototype.” (citation omitted)), the Court addresses both
challenges here.

485a
Appendix D
class, such as those based on race, national origin, sex
or religion.” (alteration in original) (internal quotation
marks omitted)). If the claimants can show purposeful
discrimination directed at a suspect class, the government
action is “subject to strict judicial scrutiny,” and may
be upheld only if the government action “further[s] a
compelling state interest and [is] narrowly tailored to
accomplish the purpose.” Pyke, 567 F.3d at 77.
The Second Circuit has identified “three common
methods” of “establish[ing] a violation of equal protection
by intentional discrimination”: (1) identifying “a law that
expressly classifies on the basis of race,” (2) identifying “a
facially neutral law or policy that has been applied in an
unlawfully discriminatory manner,” or (3) identifying “a
facially neutral [law or] policy that has an adverse effect
and that was motivated by discriminatory animus.” Id.
(internal quotation marks omitted). Here, Plaintiffs cannot
rely on the first method of proving discrimination, because
the challenged ordinances are facially neutral with respect
to religion (and race). Nor can Plaintiffs rely on the second
method, because Plaintiffs’ as-applied challenges to the
ordinances are not yet ripe for reasons already explained.
Thus, to establish a claim for discrimination in violation
of the Equal Protection Clause, Plaintiffs rely on the
third method by claiming that the challenged ordinances,
although facially neutral, “ha[ve] an adverse effect and
. . . [were] motivated by discriminatory animus.” Id.
(internal quotation marks omitted); see also Washington
v. Davis, 426 U.S. 229, 240-41, 96 S. Ct. 2040, 48 L. Ed.
2d 597 (1976) (explaining that a facially neutral law or
policy violates the Equal Protection Clause if it has both
a discriminatory purpose and discriminatory effect).

486a
Appendix D
a.

Discriminatory Purpose

Plaintiffs claim that the challenged ordinances were
enacted with a discriminatory purpose. “Discriminatory
purpose ‘implies that the decisionmaker . . . selected
or reaffirmed a particular course of action at least in
part “because of,” not merely “in spite of,” its adverse
effects upon an identifiable group.’” Hayden v. County
of Nassau, 180 F.3d 42, 50 (2d Cir. 1999) (alteration in
original) (emphasis omitted) (quoting Personnel Adm’r
v. Feeney, 442 U.S. 256, 279, 99 S. Ct. 2282, 60 L. Ed. 2d
870 (1979)). “Discriminatory intent or purpose typically
refers to those instances when a government actor seeks to
disadvantage or negatively impact a group of persons.” Id.
“‘Determining whether invidious discriminatory purpose
was a motivating factor demands a sensitive inquiry into
such circumstantial and direct evidence of intent as may
be available.’” Arlington Heights, 429 U.S. at 266 (quoting
Washington, 426 U.S. at 242).
Here, Plaintiffs’ allegations are sufficient to allege
discriminatory purpose. First, Plaintiffs pled that
the timing of the enactment of one of the challenged
ordinances demonstrates Defendants’ discriminatory
animus. Indeed, Plaintiffs allege that one of the three
challenged ordinances, Section 130-4 (defining educational
institutions and dormitories), was enacted within months
of the Congregation’s purchase of the Subject Property,
(SAC ¶¶ 156-57). See Brady v. Town of Colchester, 863
F.2d 205, 216 (2d Cir. 1988) (noting that plaintiffs had
established triable Equal Protection case based on
government conduct that post-dated plaintiffs entering
into a lease to use certain property); Yonkers, 837 F.2d at

487a
Appendix D
1221 (noting that discriminatory intent may be inferred
from, among other facts, “‘the specific sequence of events
leading up to the challenged decision’” (brackets omitted)
(quoting Arlington Heights, 429 U.S. at 267)).
Second, Plaintiffs’ allegations of racially charged
public comments preceding the enactment of Sections
130-10 (limiting the size of dormitories pursuant to an
educational use) and 126 (establishing wetland protections)
suggests the existence of discriminatory motivation.
For example, in response to racially charged public
comments, the Village’s then-Mayor allegedly alluded to
the discriminatory purpose behind the enactment of these
ordinances by stating that:
We sitting at this table have limitations that are
placed on us as to what we can say, and what
we can’t say, because our attorney tells us what
we can say and what we can’t say. I can’t say
what I feel—I can’t—if I agree with you, I don’t
agree with you, I don’t have that luxury of being
able to say that here. All that I can say is that
every member of this board works very, very
hard to do what is best for this community. You
have your issues. Don’t assume because no one
has gotten up and said, wow, I agree with you,
oh boy; don’t assume that because we didn’t do
that[,] that we don’t agree.
(SAC ¶ 166.) And before the challenged ordinances were
enacted, officials in the Village made numerous statements
that raise an inference of discriminatory animus:

488a
Appendix D
• Defendants Yagel and Louie “expressly warned
a civic association to be careful not to allow
discriminatory statements to slip out,” (id. ¶ 183);
• Defendant Sanderson stated publicly that “[t]he
single most important issue facing the village at
this time is the as yet un-proposed, but leaked,
[r]abbinical [c]ollege development,” that the Village
should “maintain[] its cultural and religious
diversity” and that “the [r]abbinical [c]ollege could
not only ‘change the village,’ but could change
‘the makeup of the village,’” (id. ¶¶ 179-80 (fourth
alteration in original)); and
• Defendants Yagel, Louie, and Sanderson were
elected to Village Office based on campaign
promises to “fight this plan” and “stand up to this
threat,” ostensibly referring to the Congregation’s
plan to build the rabbinical college, (id. ¶ 177
(internal quotation marks omitted)).
At this stage in the litigation, these allegations
are sufficient to establish Plaintiffs’ claim that the
challenged ordinances were enacted with the purpose
of discriminating against members of Orthodox and
Hasidic Jewish communities. See LeBlanc-Sternberg,
67 F.3d at 425 (noting that a “plaintiff can establish a
prima facie case by showing that animus against the
protected group was a significant factor in the position
taken by the municipal decision-makers themselves or
by those to whom the decision-makers were knowingly
responsive” (internal quotation marks omitted)); Yonkers,

489a
Appendix D
837 F.2d at 1221 (noting that discriminatory intent may
be established by “contemporary statements by members
of the decisionmaking body” (quoting Arlington Heights,
429 U.S. at 267) (internal quotation marks omitted)).
b.

Discriminatory Effect

In addition to plausibly alleging discriminatory intent,
Plaintiffs must allege that the challenged ordinances have
had an adverse effect to make out their Equal Protection
claim. See Brown v. City of Oneonta, 221 F.3d 329, 337
(2d Cir. 2000) (noting that a plaintiff could “allege that
a facially neutral statute or policy has an adverse effect
and that it was motivated by discriminatory animus”).
However, in seeking to satisfy this burden, Plaintiffs are
not “obligated to show a better treated, similarly situated
group of individuals.” Pyke v. Cuomo, 258 F.3d 107, 110
(2d Cir. 2001); see also id. (holding that a plaintiff who
“alleges that a facially neutral statute or policy with an
adverse effect was motivated by discriminatory animus[]
is not obligated to show a better treated, similarly
situated group of individuals of a different race in order
to establish a claim of denial of equal protection”); Doe v.
Village of Mamaroneck, 462 F. Supp. 2d 520, 546 (S.D.N.Y.
2006) (“The Pyke analysis implicitly recognizes that a
government that sets out to discriminate intentionally in
its enforcement of some neutral law or policy will rarely
if ever fail to achieve its purpose.”).
Here, Plaintiffs’ core claim is that the challenged
ordinances have had the foreseeable and adverse effect
of prohibiting Plaintiffs from building a rabbinical college

490a
Appendix D
in the Village. (SAC ¶ 111.) For example, Plaintiffs allege
that over the years, the Village has adopted a series of
legal impediments to prevent “Jewish individuals and
institutions from developing the [S]ubject [P]roperty
and other nearby properties, while permitting other
development within the Village, including a large Hindu
temple.” (Id. ¶ 120.) According to Plaintiffs, as their plans
for the Subject Property evolved, the Village’s zoning
ordinances also evolved to box out the possibility of a
rabbinical college being built. For example, Plaintiffs
allege that the Village adopted the dormitory ordinance
(Section 130-4) precisely to “prevent Jewish rabbinical
scholars, who generally are married with children,
from obtaining housing in Pomona.” (Id. ¶ 159; id. ¶ 164
(“[T]his ‘Dormitory’ legislation was also designed and
enacted specifically to prevent the Hasidic Jewish
community from residing and obtaining housing within
the Village.”).) According to Plaintiffs, this type of zoning
restriction has resulted in a “disparate impact” on them
by limiting their opportunity “to obtain housing.” (Id.
¶ 246.) While this ordinance might conceivably be applied
to other dormitories, Plaintiffs’ claim is that no other
educational institutions would require a significant
number of dormitories to accommodate families, thus
proving, in Plaintiffs’ view, Defendants’ discriminatory
effect.
Similarly, Plaintiffs allege that the zoning ordinance
that requires educational institutions be “accredited by
the New York State Education Department or similar
recognized accrediting agency” has the intended effect
of barring only a rabbinical college, because there is no

491a
Appendix D
“recognized accrediting agency” for such an institution.
(Id. ¶ 225.) At the same time, this provision likely would not
affect other educational institutions, which presumably are
capable of receiving state accreditation. The result of this
ordinance, according to Plaintiffs, is thus to bar only their
efforts to build a rabbinical college. The same is true of
the wetlands protection ordinance (Section 126), because,
according to Plaintiffs, the exemptions in this provision
have the effect of singling out the Plaintiffs’ property and
preventing Plaintiffs from building the structures needed
to support a rabbinical college. (Id. ¶¶ 169-171.)
While Defendants may dispute the assertion that
Plaintiffs (or those in their subject class) have been
adversely affected by the challenged zoning ordinances,
and may otherwise argue that these restrictions serve
compelling interests or are otherwise lawful, this is not
the time to test those defenses. Bikur Cholim, 664 F. Supp.
2d at 276-77 (noting that whether zoning regulations were
neutral was fact question not properly resolved at motion
to dismiss stage). Instead, taking Plaintiffs’ allegations
as true for purposes of deciding this motion, the Court
concludes that Plaintiffs have substantiated their facial
Equal Protection claim.
3.

Free Exercise Claims

Plaintiffs argue that they have stated a claim for
violation of their right to Free Exercise of religion,
because they have alleged that the challenged ordinances
were enacted with the purpose of discriminating against
Plaintiffs’ religious exercise. The First Amendment to

492a
Appendix D
the Federal Constitution, applicable to the states through
the Fourteenth Amendment, “prohibits the enactment of
any law ‘prohibiting the free exercise’ of religion.” Bronx
Household of Faith v. Cmty. Sch. Dist. No. 10, 127 F.3d
207, 215 (2d Cir. 1997). 20 “At a minimum, the protections
20. The free exercise provision of the New York Constitution,
though not identical to the Free Exercise Clause of the Federal
Constitution, likewise guarantees the right to free exercise of
religion: “The free exercise and enjoyment of religious profession
and worship, without discrimination or preference, shall forever be
allowed in this state to all humankind . . . .” N.Y. Const. Art. I, § 3.
The New York Court of Appeals has not decided whether the New
York constitutional free exercise protection is to be interpreted
coextensively with the Federal Free Exercise Clause. See New
Creation Fellowship of Buffalo v. Town of Cheektowaga, No.
99-CV-0460, 2004 U.S. Dist. LEXIS 25431, 2004 WL 1498190, at
*79 (W.D.N.Y. July 2, 2004) (“[T]he issue of identicality between
federal and New York State constitutional protection [is] an open
one.”).
However, the New York Court of Appeals has not adopted
the rule of the United States Supreme Court (in Employment
Division v. Smith), that “the right of free exercise does not
relieve an individual of the obligation to comply with a valid and
neutral law of general applicability on the ground that the law
proscribes (or prescribes) conduct that his religion prescribes
(or proscribes).” 494 U.S. 872, 879, 110 S. Ct. 1595, 108 L. Ed. 2d
876 (1990) (internal quotation marks omitted). Instead, the New
York Court of Appeals has held, in analyzing a state free exercise
claim, that “when the State imposes an incidental burden on the
right to free exercise of religion,” the courts are to consider the
“interest advanced by the legislation that imposes the burden,”
and then “the respective interests must be balanced to determine
whether the incidental burdening is justified.” Catholic Charities
of the Diocese of Albany v. Serio, 7 N.Y.3d 510, 859 N.E.2d 459, 466,

493a
Appendix D
of the Free Exercise Clause pertain if the law at issue
discriminates against some or all religious beliefs or
regulates or prohibits conduct because it is undertaken
for religious reasons.” Lukumi, 508 U.S. at 532. Indeed,
as the Supreme Court has observed, it was “historical
instances of religious persecution and intolerance that
gave concern to those who drafted the Free Exercise
Clause.” Bowen v. Roy, 476 U.S. 693, 703, 106 S. Ct. 2147,
90 L. Ed. 2d 735 (1986) (Opinion of Burger, C.J.); see also
McGowan v. Maryland, 366 U.S. 420, 464, 81 S. Ct. 1101,
6 L. Ed. 2d 393 (1961) (Opinion of Frankfurter, J.) (“In
assuring the free exercise of religion, the Framers of
the First Amendment were sensitive to the then recent
history of those persecutions and impositions of civil
disability with which sectarian majorities in virtually
all of the Colonies had visited deviation in the matter
of conscience.”); Douglas v. City of Jeannette, 319 U.S.
157, 179, 63 S. Ct. 877, 87 L. Ed. 1324 (1943) (Jackson, J.,
concurring in result) (“The First Amendment grew out of
an experience which taught that society cannot trust the
conscience of a majority to keep its religious zeal within
the limits that a free society can tolerate.”).

825 N.Y.S.2d 653 (N.Y. 2006) (internal quotation marks omitted).
The difference in the state and federal tests is immaterial here,
because the Court finds that Plaintiffs have stated a free exercise
clause claim under the First Amendment. See Fortress Bible
Church v. Feiner, 694 F.3d 208, 221 n.9 (2d Cir. 2012) (finding that
municipality’s interference with a church’s land project violated
Federal and state Free Exercise Clauses, but noting difference
in tests in Federal and New York courts).

494a
Appendix D
It is not a violation of the Free Exercise Clause,
however, to enforce a generally applicable rule, policy,
or statute that incidentally burdens a religious practice,
as long as the government can “demonstrate a rational
basis for [the] enforcement” of the rule, policy, or statute,
and the burden is only an incidental effect, rather than
the object, of the law. Fifth Ave. Presbyterian Church v.
City of New York, 293 F.3d 570, 574 (2d Cir. 2002); see also
Smith, 494 U.S. at 878-79 (explaining that enforcement of
a neutral law of general applicability does not offend the
Free Exercise Clause). Thus, to state a free exercise claim,
a plaintiff generally must establish that “the object of [the
challenged] law is to infringe upon or restrict practices
because of their religious motivation,” or that the law’s
“purpose . . . is the suppression of religion or religious
conduct.” Lukumi, 508 U.S. at 533. Such a law is subject to
strict scrutiny review, and it “will survive strict scrutiny
only in rare cases.” Id. at 546.
“To determine the object of a law, [the Court] must
begin with its text, for the minimum requirement of
neutrality is that a law not discriminate on its face.” Id.
at 533. But, even if neutral on its face, a law may still run
afoul of the Free Exercise Clause if it “targets religious
conduct for distinctive treatment.” Id. at 534; see also id.
(“Facial neutrality is not determinative”). As the Supreme
Court has cautioned, the Free Exercise Clause “forbids
subtle departures from neutrality,” Gillette v. United
States, 401 U.S. 437, 452, 91 S. Ct. 828, 28 L. Ed. 2d 168
(1971), and “covert suppression of particular religious
beliefs,” Bowen, 476 U.S. at 703 (Opinion of Burger, C.J.).
See also Lukumi, 508 U.S. at 534 (“Official action that

495a
Appendix D
targets religious conduct for distinctive treatment cannot
be shielded by mere compliance with the requirement
of facial neutrality. The Free Exercise Clause protects
against governmental hostility which is masked, as well
as overt.”). In this regard, the courts may find “guidance”
in Equal Protection jurisprudence, which, among other
things, requires consideration of direct and circumstantial
evidence regarding the objects of those who enacted the
law in question. Lukumi, 508 U.S. at 540; see also Note,
Coded Codes: Discriminatory Intent, Modern Political
Modernization, and Local Immigration Ordinances, 85
N.Y.U. L. Rev. 2099, 2102 (2010) (discussing the use of
“[q]uality of life” zoning ordinances that can serve as
“‘coded codes’—facially neutral ordinances enacted
to address immigration concerns and target specific
communities”).
Here, Plaintiffs have plausibly alleged that the
challenged ordinances were enacted to “infringe upon or
restrict practices because of their religious motivation.”
Lukumi, 508 U.S. at 533. For example, as noted above,
Plaintiffs claim that the enactment of Section 1304 (defining educational institutions and dormitories)
occurred within months of the Congregation’s purchase of
the Subject Property, (SAC ¶¶ 156-57), suggesting that the
object of the ordinance was the prohibition of a rabbinical
college. Until rumors of the rabbinical college surfaced,
Plaintiffs contend, the Village exhibited no interest in
imposing the accreditation requirement, which is a state
requirement, after all. Thus, argue Plaintiffs, Defendants’
claims about the interests supposedly protected by Section
130-4 not only are irrational (or at least not compelling),

496a
Appendix D
but in fact are evidence of the pretextual means used
by Defendants to single out Plaintiffs from using their
property based on the exercise of their religion. See
Cottonwood Christian Ctr. v. Cypress Redevelopment
Agency, 218 F. Supp. 2d 1203, 1225 (C.D. Cal. 2002) (“At
first blush, the City’s concern about blighting rings hollow.
Why had the City, so complacent before Cottonwood
purchased the Cottonwood Property, suddenly burst into
action? . . . [T]he activity suggests that the City was simply
trying to keep Cottonwood out of the City, or at least from
the use of its own land.”).
Moreover, Plaintiffs allege that public comments
preceding the enactment of the other two challenged
ordinances, Sections 130-10 (limiting the size of dormitories
pursuant to an educational use) and 126 (establishing rules
for protections of wetlands), strongly suggest animosity
toward the Orthodox and Hasidic Jewish sects of the
Jewish religion. (SAC ¶ 166.) As discussed above, the
then-Mayor’s response to these public comments tacitly
recognized that discriminatory motives could be discerned
in connection with enactment of the challenged ordinances.
(Id.) Similarly, as noted above, Plaintiffs allege that
members of the Village’s Board of Trustees, Defendants
Yagel and Louie, “expressly warned a civic association
to be careful not to allow discriminatory statements to
slip out,” (id. ¶ 183), and the Village’s mayor, Defendant
Sanderson, stated publicly before the enactment of these
ordinances that “[t]he single most important issue facing
the village at this time is the as yet un-proposed, but
leaked, [r]abbinical [c]ollege development,” that the Village
should “maintain[] its cultural and religious diversity,”
and that “the [r]abbinical [c]ollege could not only ‘change

497a
Appendix D
the village,’ but could change ‘the makeup of the village,’”
(id. ¶¶ 179-80 (fourth alteration in original).).
While it is of course debatable that the abovementioned animosity to the rabbinical college stemmed
from “legitimate concern[s] . . . for reasons quite apart
from discrimination,” Lukumi, 508 U.S. at 535, at
this early stage in the litigation, Plaintiffs’ allegations
are sufficient to suggest an improper purpose of
discrimination against Plaintiffs’ religious exercise, cf.
id. at 540 (“Relevant evidence [of improper purpose]
includes, among other things, the historical background of
the decision under challenge, the specific series of events
leading to the enactment or official policy in question,
and the legislative or administrative history, including
contemporaneous statements made by members of the
decisionmaking body.”).
Plaintiffs’ claim is fortified when the separate zoning
ordinances are viewed together, rather than in isolation, as
the Supreme Court has said is appropriate in this context.
See id. at 539-40 (noting that four ordinances at issue could
“be treated as a group for neutrality purposes”). Thus,
even if any of these ordinances might survive constitutional
scrutiny, based solely on its apparent neutrality, their
cumulative effect on Plaintiffs is relevant to the analysis.
Indeed, each ordinance, while facially neutral, has the
effect of limiting Plaintiffs’ use of the Subject Property.
For example, as noted, Plaintiffs claim that Defendants
barred the construction of non-accredited educational
institutions and barred dormitories with separate cooking
facilities, precisely because they expect that a rabbinical

498a
Appendix D
college cannot be accredited, and because many who would
study at a rabbinical college (and many more than might
study at other colleges) would be adults with families
in need of kitchen facilities. (SAC ¶¶ 104-106, 107-09,
111, 156-59, and 162-64.) And, Plaintiffs allege that the
wetlands ordinance, while facially innocuous, can plausibly
be viewed as specifically targeting Plaintiffs, given that
the exceptions provided in that ordinance effectively will
bar Plaintiffs from using the Subject Property to build a
rabbinical college, without affecting many, if any, other
property owners in Pomona. (Id. ¶¶ 169, 172, 173, and 174.)
To be sure, these ordinances on their face do not
distinguish between religious and secular facilities (let
alone between Orthodox/Hasidic and non-Orthodox/
Hasidic facilities)—for example, both religious and
secular educational institutions require state accreditation
and are barred from having dormitories with separate
kitchens. But, according to Plaintiffs, these other
institutions are merely theoretical and consequently
could not have been the real or even possible object of
the ordinances. Thus, the only effect of these ordinances,
and the only effect allegedly intended by Defendants, was
to prevent Plaintiffs from building a rabbinical college.
In particular, Plaintiffs claim that the Village adopted
these ordinances to regulate characteristics unique to an
Orthodox/Hasidic rabbinical college, in effect imposing a
“religious gerrymander.” Lukumi, 508 U.S. at 535 (“[T]he
ordinances when considered together disclose an object
remote from these legitimate concerns. The design of
these laws accomplishes instead a ‘religious gerrymander,’
an impermissible attempt to target petitioners and their

499a
Appendix D
religious practices.” (citation omitted) (quoting Walz v.
Tax Comm’n of New York City, 397 U.S. 664, 696, 90 S.
Ct. 1409, 25 L. Ed. 2d 697 (1970) (Harlan, J., concurring)).
According to Plaintiffs, the alleged statements by some of
the Defendants demonstrate that they knew the Village
could not adopt a zoning ordinance expressly prohibiting
the construction of a rabbinical college. So, Plaintiffs
claim, as an alternative, Defendants have tried subtly to
achieve the same result through the cumulative impact
of these facially neutral ordinances, which Defendants
adopted only after Plaintiffs purchased the Subject
Property. Cf. Primera Iglesia Bautista Hispana of Boca
Raton, Inc. v. Broward County, 450 F.3d 1295, 1310
(11th Cir. 2006) (noting that “all of the zoning ordinances
at issue were enacted before [plaintiff] purchased the
Property, further undermining any suggestion that the
zoning code ‘target[ed] [plaintiff’s] lesser known religious
sect’” (second alteration in original) (internal quotation
marks omitted)).
The Court recognizes fully that Defendants dispute
many of Plaintiffs’ factual assertions regarding the
rationale for adopting these ordinances, and that they may
tender evidence explaining the compelling (or rational)
health, safety, and other public interest reasons for them.
But these are fact-driven questions that will have to be
addressed at another time. See Roman Catholic Diocese
of Rockville Ctr., 2012 U.S. Dist. LEXIS 56694, 2012 WL
1392365, at *7 (noting that “an analysis of whether the
government has shown a compelling government interest
or the use of least restrictive means is more appropriately
addressed in connection with summary judgment”). And,

500a
Appendix D
even if Plaintiffs ultimately prevail in striking down
these ordinances on their face, this outcome would not
necessarily entitle Plaintiffs to build their rabbinical
college. Indeed, the Free Exercise Clause by itself does
not give religious institutions the constitutional right to
build whatever structures they might like, wherever they
might wish. See Fortress Bible, 694 F.3d at 221 (collecting
authority for proposition that “religious institutions do not
have a constitutional right to build wherever they like”).
Put simply: The Court is not here concluding that the
ordinances do, in fact, violate the Free Exercise Clause, let
alone that Plaintiffs should prevail in their quest to build
a rabbinical college on the Subject Property. Instead, the
Court concludes merely that Plaintiffs have adequately
stated a plausible claim that the challenged ordinances
facially violate their free exercise rights.
4.

Free Speech and Free Association Claims

Plaintiffs also claim that the challenged ordinances
facially violate the Free Speech and Free Association
Clauses of the First Amendment. 21 For example, Plaintiffs
21. The corollary provisions to the First Amendment’s Free
Speech and Free Association Clauses in the New York Constitution
are interpreted consistently with the Federal Constitution. See
Colandrea v. Town of Orangetown, 490 F. Supp. 2d 342, 351-52
(S.D.N.Y. 2007) (explaining that “[w]hile the New York Constitution
generally affords greater protection than the federal constitution
with regard to speech,” the federal and New York constitutional
provisions protecting free speech and free association from
retaliation are governed by the same principles, and dismissing
state Free Speech claims on the same basis as federal claims

501a
Appendix D
argue that the challenged ordinances prevent Plaintiffs
from engaging in “expressive activity” and “expressive
and intimate association” by prohibiting the construction
and operation of a rabbinical college on the Subject
Property. 22 (Pls.’ Mem. 38-39.) Defendants counter that
Plaintiffs’ planned rabbinical college, even if barred by
the challenged ordinances, does not involve speech, (Defs.’
Mem. 33-34), and that nothing in the ordinances prevents
Plaintiffs from associating or worshipping together, let
alone associating with or raising their families, (id. at 34).
There are many layers to Plaintiffs’ Free Speech claim,
very few of which were addressed by the Parties in the two
pages they collectively included in their memoranda of law.
For example, the Parties have devoted little to the critical
questions of: (1) what “expressive conduct” Plaintiffs are
engaging in, or might engage in, through the construction
of a rabbinical college; (2) how the challenged ordinances
(alteration in original)). Therefore, the Court addresses both
Plaintiffs’ state and federal challenges here.
22. With respect to their Free Speech claim, Plaintiffs assert
that Defendants’ actions have excluded Plaintiffs’ protected
expressive activity “completely from the Village’s jurisdiction,”
that Defendants have treated religious expressive activity on
less than equal terms with nonreligious expressive activity,
that Defendants have regulated expression “on the basis of the
character of the speaker,” and that Defendants’ regulation of
speech has not been “content[]neutral.” (SAC ¶ 253.)
With respect to their Free Association claim, Plaintiffs
allege that Defendants have intruded “upon the Plaintiffs’ right
to marriage, childbirth, the raising and education of children,”
and that Defendants have intruded “upon the Plaintiffs’ right to
associate for purposes of protected expressive activity.” (Id. ¶ 257.)

502a
Appendix D
regulate such expressive conduct; and (3) what standard
of review should be applied to these regulations.
The First Amendment provides that “Congress
shall make no law . . . abridging the freedom of speech.”
U.S. Const. amend. I. Constitutionally protected speech
includes, among other things, certain symbolic speech and
expressive conduct. See Rumsfeld v. Forum for Academic
& Institutional Rights, Inc., 547 U.S. 47, 66-69, 126 S.
Ct. 1297, 164 L. Ed. 2d 156 (2006); Texas v. Johnson, 491
U.S. 397, 407, 109 S. Ct. 2533, 105 L. Ed. 2d 342 (1989);
Spence v. Washington, 418 U.S. 405, 409-10, 94 S. Ct.
2727, 41 L. Ed. 2d 842 (1974). “[T]he scope of protection
for speech generally depends on whether the restriction is
imposed because of the content of the speech.” Universal
City Studios, Inc. v. Corley, 273 F.3d 429, 450 (2d Cir.
2001). Thus, a restriction on speech should be viewed as
content based if the claimed reason for the restriction is
itself content based. See Boos v. Barry, 485 U.S. 312, 32021, 108 S. Ct. 1157, 99 L. Ed. 2d 333 (1988) (holding that
regulations “that focus on the direct impact of speech on
its audience” are viewed as content-based restrictions);
Renton, 475 U.S. at 48 (holding that regulation justified
by the secondary effects of adult theatres have on the
surrounding community was content neutral). In other
words, “[g]overnment regulation of expressive activity is
content neutral so long as it is ‘justified without reference
to the content of the regulated speech.’” Ward v. Rock
Against Racism, 491 U.S. 781, 791, 109 S. Ct. 2746, 105
L. Ed. 2d 661 (1989) (emphasis in original) (quoting Clark
v. Cmty. for Creative Non-Violence, 468 U.S. 288, 293,
104 S. Ct. 3065, 82 L. Ed. 2d 221 (1984)). Content-neutral
regulations may limit the time, place, or manner of

503a
Appendix D
protected expression, even in a public forum. See Costello
v. City of Burlington, 632 F.3d 41, 45 (2d Cir. 2011).
The question of whether a regulation is content based
is critical, because it informs the level of scrutiny the
regulation should receive. Content-based restrictions
are viewed as presumptively invalid and are subject to
strict scrutiny. See United States v. Playboy Entm’t
Grp., Inc., 529 U.S. 803, 813, 120 S. Ct. 1878, 146 L. Ed.
2d 865 (2000); R.A.V. v. City of St. Paul, 505 U.S. 377,
382, 112 S. Ct. 2538, 120 L. Ed. 2d 305 (1992); accord
Mastrovincenzo v. City of New York, 435 F.3d 78, 98 (2d
Cir. 2006). Under the strict scrutiny test, a content-based
regulation may be upheld only if it serves a “compelling”
government interest, “is necessary to serve the asserted
[compelling] interest,” R.A.V., 505 U.S. at 395 (alteration
and emphasis in original) (internal quotation marks
omitted), is precisely tailored to serve that interest, and
is the least restrictive means available for that purpose.
See Ashcroft v. Am. Civil Liberties Union, 542 U.S. 656,
666, 124 S. Ct. 2783, 159 L. Ed. 2d 690 (2004); Boos, 485
U.S. at 321. 23 Content-neutral restrictions, on the other
hand, invite intermediate scrutiny. Mastrovincenzo,
435 F.3d at 98. Under this less stringent test, a contentneutral regulation will be upheld if it is narrowly tailored
to serve a significant government interest and allows
23. Strict scrutiny of content-based restrictions derives
from the concern “that if the government were able ‘to impose
content-based burdens on speech,’ it could ‘effectively drive certain
ideas or viewpoints from the marketplace.’” Hobbs v. County of
Westchester, 397 F.3d 133, 148 (2d Cir. 2005) (quoting Simon &
Schuster, Inc. v. Members of the N.Y. State Crime Victims Bd.,
502 U.S. 105, 116, 112 S. Ct. 501, 116 L. Ed. 2d 476 (1991)).

504a
Appendix D
for alternative channels for communication. See Ward,
491 U.S. at 791; Clark, 468 U.S. at 293; Deegan v. City of
Ithaca, 444 F.3d 135, 142 (2d Cir. 2006). To be narrowly
tailored, a content-neutral regulation need not be the
least restrictive or least intrusive means of achieving the
asserted government interest. See Ward, 491 U.S. at 798
n.6 (noting that the least-restrictive-means test is “wholly
out of place” in reviewing a content-neutral regulation).
With these principles in mind, the Court turns to the
question of whether Plaintiffs have substantiated their
claim that the challenged ordinances facially violate
their freedom of speech. The only issue addressed (and
disputed) by the Parties is the extent to which Plaintiffs
have sufficiently alleged that the challenged ordinances
regulate protected speech. Defendants argue that the
only possible effect of the ordinances is to limit Plaintiffs’
construction of a rabbinical college, which Defendants
assert is conduct that is not expressive. (Defs.’ Mem. 34.).
In support of this position, Defendants cite two cases: San
Jose Christian College v. City of Morgan Hill, 360 F.3d
1024 (9th Cir. 2004) and Tenafly Eruv Ass’n v. Borough
of Tenafly, 309 F.3d 144 (3d Cir. 2002). Both cases are
distinguishable and therefore not dispositive.
In San Jose Christian, the Ninth Circuit held that
the zoning ordinance at issue in that case did “not at
all prohibit the establishment of religiously-affiliated
educational institutions.” 360 F.3d at 1032. In fact, the
ordinance at issue permitted such institutions to exist,
subject to certain requirements. As such, the Ninth
Circuit concluded that the zoning restriction was a
content-neutral, “time, place and manner restriction,”

505a
Appendix D
which “long [has] been held to be permissible.” Id. at
1033 (internal quotation marks omitted). Critical to the
Ninth Circuit’s ruling was that the record “reflect[ed]
no indication that the City’s action was motivated by
the City’s disdain of [the] College’s religious orientation,
or by the message to be communicated to the students/
parishioners at the Property.” Id. at 1032 (emphasis in
original). Taking Plaintiffs’ allegations (described in detail
above) as true, the same cannot be said here.
In Tenafly, plaintiffs were Orthodox Jewish residents
who, consistent with religious convention, wanted to use
eruvs to mark the outer boundaries of the home, which
use would allow them to engage in certain activities
on the Sabbath (e.g., pushing baby strollers). 309 F.3d
at 152. An eruv can be constructed by attaching lechis
(thin black strips made out of the same type of hard
plastic used for the coverings of utility lines) vertically
along utility poles. Id. The plaintiffs challenged a town
ordinance that barred the placement of any sign or the
like on, among other objects, poles and trees. In rejecting
the plaintiffs’ Free Speech claim, the Third Circuit held
that the eruv “simply demarcates the space within which
certain activities otherwise forbidden on the Sabbath are
allowed.” Id. at 162. As such, the court concluded that the
mere placement of an eruv did not communicate any idea
or message; rather, it served only a “purely functional
purpose.” Id. at 164. Accordingly, the ordinance survived
scrutiny under the Free Speech Clause. 24
24. However, the Third Circuit held that the plaintiffs had
established that the selective enforcement of the ordinance violated
the Free Exercise Clause. 309 F.3d at 165-78.

506a
Appendix D
In the end, the Court finds that Plaintiffs have
plausibly (if barely) pled enough facts to establish that the
rabbinical college would engage in and foster expressive
conduct. In particular, Plaintiffs have alleged that they
wish to construct and operate a rabbinical college to foster
the expression of certain ideas among and between faculty
members and students. As such, the communicative
conduct will be more than just congregants’ worshipping.
See Kleindienst v. Mandel, 408 U.S. 753, 762-63, 92 S.
Ct. 2576, 33 L. Ed. 2d 683 (1972) (discussing the distinct
“First Amendment right to ‘receive information and
ideas’”). Moreover, Plaintiffs allege that the expressive
conduct will, of necessity, involve Orthodox teachings and
principles. Thus, to the extent Plaintiffs have alleged—
as the Court finds they have—that Defendants were
motivated by a discriminatory animus against Plaintiffs
because of Plaintiffs’ affiliation with the Orthodox/
Hasidic community, Plaintiffs also have alleged that
the ordinances restrict protected expressive conduct
because of its message. See Chabad Lubavitch, 796 F.
Supp. 2d at 345 (denying motion to dismiss Free Speech
challenge to zoning ordinance regulating size of houses
of worship, because plaintiff had alleged that defendants
“acted with the intent to interfere with [plaintiff’s]
religious speech and expressive association” (emphasis in
original)); Vineyard Christian Fellowship of Evanston,
Inc. v. City of Evanston, 250 F. Supp. 2d 961, 981 (N.D.
Ill. 2003) (holding that plaintiff religious organization had
adequately pled Free Speech claim in challenge to zoning
ordinance, where “the dispositive factor triggering the
zoning ordinance in question was ultimately the content
of the congregation’s speech in its property”); cf. Grace
United Methodist Church v. City of Cheyenne, 451 F.3d

507a
Appendix D
643, 657 (10th Cir. 2006) (affirming dismissal of Free
Speech and Free Association claims, where “no evidence
was presented indicating that the ordinance was passed
for the purpose of curtailing or controlling the content of
expression”); San Jose Christian, 360 F.3d at 1032 (noting
that the record “reflects no indication that the City’s action
was motivated by the City’s disdain of College’s religious
orientation” (emphasis in original)).
The Court recognizes that there is authority
suggesting that zoning ordinances that restrict the
locations of religious institutions do not necessarily
regulate expressive conduct. See Merrimack Congregation
of Jehovah’s Witnesses v. Town of Merrimack, No. 10-CV581, 2011 U.S. Dist. LEXIS 36090, 2011 WL 1236133, at
*4 (D.N.H. Mar. 31, 2011) (“Courts have held that, absent
other expressive conduct, limitations on the geographical
location of a religious institution do not implicate the right
to free expression under the First Amendment.”); Grace
Church of Roaring Fork Valley v. Bd. of Cnty. Comm’rs
of Pitkin Cnty., 742 F. Supp. 2d 1156, 1167 (D. Colo. 2010)
(noting that “denial of the Church’s proposal to build a
worship facility at a particular location did not improperly
regulate the Church’s dissemination of its religious
message”). Here, however, the challenged ordinances do
not just limit the possible locations for Plaintiffs’ rabbinical
college; rather, taking Plaintiffs’ allegations as true,
these ordinances ban such an institution from being built
anywhere in Pomona.
The Court also recognizes that there is authority
suggesting that even if such zoning regulations could be

508a
Appendix D
viewed as regulating speech, they are content-neutral
time, place, and manner restrictions that are subject to
intermediate scrutiny. See Cornerstone Bible Church
v. City of Hastings, 948 F.2d 464, 468-69 (8th Cir. 1991)
(considering zoning restrictions on location of church as
a time, place, and manner regulation). It may be that
after the record is filled with evidence, or the lack of it
becomes glaring, Plaintiffs will not be able to substantiate
their pleadings. Indeed, the Court, in merely denying
Defendants’ Motion as to this claim, is not holding that
the challenged ordinances here do violate the Free Speech
Clause of the First Amendment, let alone suggesting what
level of scrutiny should be applied in evaluating Plaintiffs’
Free Speech challenge to these ordinances. Those are
topics for another day (and after more briefing). For now,
it suffices to say that Plaintiffs have adequately stated
a Free Speech claim for the reasons discussed above.
Therefore, Defendants’ Motion to Dismiss this claim is
denied. 25
25. In their opposition to Defendants’ Motion, Plaintiffs also
contend that they have raised a “facial overbreadth challenge”
to the challenged ordinances. (Pls.’ Mem. 11.) “Under the First
Amendment doctrine of overbreadth, a statute is invalid when
it brings within its scope—and thus threatens to chill—conduct
protected by the First Amendment.” United States v. Sattar, 314 F.
Supp. 2d 279, 304 (S.D.N.Y. 2004), aff’d, 590 F.3d 93 (2d Cir. 2009);
see also Virginia v. Hicks, 539 U.S. 113, 119, 123 S. Ct. 2191, 156
L. Ed. 2d 148 (2003) (“We have provided this expansive remedy
out of concern that the threat of enforcement of an overbroad law
may deter or ‘chill’ constitutionally protected speech—especially
when the overbroad statute imposes criminal sanctions.”). The
Supreme Court has cautioned that the overbreadth doctrine is
“strong medicine,” Broadrick v. Oklahoma, 413 U.S. 601, 613, 93

509a
Appendix D
The First Amendment also protects the Freedom of
Association. See Baird v. State Bar of Ariz., 401 U.S. 1, 6,
91 S. Ct. 702, 27 L. Ed. 2d 639 (1971). The Supreme Court
has “identified two types of ‘freedom of association’ that
merit constitutional protection: (i) ‘choices to enter into
and maintain certain intimate human relationships’ and (ii)
S. Ct. 2908, 37 L. Ed. 2d 830 (1973), to be used “sparingly and only
as a last resort” id., and only when the overbreadth is not only
real, but “substantial . . . judged in relation to the statute’s plainly
legitimate sweep,” id. at 615. Stated differently, an overbreadth
claim requires “a law’s application to protected [activity] be
‘substantial,’ not only in an absolute sense, but also relative to the
scope of the law’s plainly legitimate applications.’” Hicks, 539 U.S.
at 119-20; see also United States v. Rahman, 189 F.3d 88, 115 (2d
Cir. 1999) (“Particularly when conduct and not speech is involved,
to void the statute the overbreadth must be ‘real [and] substantial
. . . judged in relation to the statute’s plainly legitimate sweep.’”
(alterations in original) (quoting Broadrick, 413 U.S. at 613)).
Plaintiffs did not include any overbreadth claim in their
Second Amended Complaint. Nor did they include any allegations
that would support such a claim. For example, Plaintiffs have
not made any specific allegations about the application of the
challenged ordinances to protected activity that is beyond the
scope of the regulation of the Subject Property. Indeed, rather
than “chilling” Plaintiffs’ expressive conduct, the challenged
ordinances allegedly prohibit such activity directly, by barring
Plaintiffs from constructing a rabbinical college at all. Therefore,
Defendants’ Motion is granted, without prejudice to Plaintiffs to
amend, as to any overbreadth claim Plaintiffs might be deemed to
have included in their Second Amended Complaint. See Calvary
Christian Ctr. v. City of Fredericksburg, 832 F. Supp. 2d 635,
645 (E.D. Va. 2011) (dismissing overbreadth challenge to zoning
ordinance, where plaintiff “failed to explain how the overbreadth
doctrine applies in this case”).

510a
Appendix D
association ‘for the purpose of engaging in those activities
protected by the First Amendment.’” URI Student Senate
v. Town of Narragansett, 631 F.3d 1, 12-13 (1st Cir. 2011)
(quoting Roberts v. U.S. Jaycees, 468 U.S. 609, 617-18, 104
S. Ct. 3244, 82 L. Ed. 2d 462 (1984)); see also Sanitation &
Recycling Indus., Inc. v. City of New York, 107 F.3d 985,
995-96 (2d Cir. 1997) (same); AK Tournament Play, Inc. v.
Town of Wallkill, No. 09-CV-10579, 2011 U.S. Dist. LEXIS
4873, 2011 WL 197216, at *2 (S.D.N.Y. Jan. 19, 2011)
(same). Here, the Court already has found that Plaintiffs
have alleged that the challenged ordinances were adopted
out of discriminatory animus, and that these ordinances
also implicate Plaintiffs’ Free Speech rights. Given this
conclusion—the ultimate resolution of which, again,
will have to await further development and subsequent
motion practice—the Court finds that Plaintiffs have
adequately stated a Freedom of Association claim, because
Plaintiffs have alleged that the ordinances bar Plaintiffs
from associating in their rabbinical studies—conduct
that is otherwise constitutionally protected. See Chabad
Lubavitch, 796 F. Supp. 2d at 345 (denying motion to
dismiss Free Speech and Freedom of Association claims,
because plaintiffs had adequately alleged defendants’
intent to interfere with plaintiffs’ “religious speech and
expressive association”); Vineyard Christian, 250 F. Supp.
2d at 984 (same). However, Defendants’ Motion is denied
only as it relates to the second type of freedom identified
above—engaging in those activities protected by the First
Amendment. Plaintiffs’ bare-bones, conclusory allegations
about the deprivation of their rights to familial association
are inadequate to state a Freedom of Association claim.
Simply put, there is nothing about Defendants’ alleged

511a
Appendix D
actions, or even their alleged motives, that establishes
that they seek or have sought to disrupt Plaintiffs’ familial
association rights. To the extent Plaintiffs might believe
(even though they did not argue this point) that the
dormitory provision could limit the ability of students with
families to live on the rabbinical college campus, such a
result would not separate students or faculty from their
families, but merely require those students or faculty to
make a choice about how best to manage their desire to
study or teach at the rabbinical college while meeting their
family obligations. Plaintiffs have not cited any authority
suggesting that this would-be conundrum is tantamount
to a violation of the Freedom of Association. Therefore,
Defendants’ Motion to Dismiss this component of the
Freedom of Association claim is granted.
5.

RLUIPA Claims

Plaintiffs further raise a facial challenge to Sections
130-4 (defining educational institutions and dormitories),
130-10 (limiting the size of dormitories pursuant to
an educational use), and 126 (establishing wetlands
protections) of the Village’s Code under RLUIPA.
“RLUIPA is the latest of long-running congressional
efforts to accord religious exercise heightened protection
from government-imposed burdens, consistent with
[Supreme Court] precedents.” Cutter v. Wilkinson, 544
U.S. 709, 714, 125 S. Ct. 2113, 161 L. Ed. 2d 1020 (2005);
see also Lighthouse Inst. for Evangelism, Inc. v. City of
Long Branch, 510 F.3d 253, 261 (3d Cir. 2007) (same). “The
path to the enactment of RLUIPA is well documented.”
Lighthouse, 510 F.3d at 261. In 1993, Congress enacted
the Religious Freedom Restoration Act (“RFRA”) in

512a
Appendix D
response to the Supreme Court’s decision in Smith, 494
U.S. 872, 110 S. Ct. 1595, 108 L. Ed. 2d 876 (1990), which
(as noted earlier) held that the Free Exercise Clause of
the Constitution does not invalidate neutral and generally
applicable laws, even if they incidentally burden the
exercise of religion. See Lighthouse, 510 F.3d at 261
(noting that “Congress initially enacted [RFRA] in 1993 to
counter the Supreme Court’s decision in [Smith]”); see also
Note, Religious Land Use in the Federal Courts Under
RLUIPA, 120 Harv. L. Rev. 2178, 2180 (2007) [hereinafter
“Religious Land Use”] (noting that RFRA “purported to
overrule Smith”). “RFRA provided that any legislation
imposing a substantial burden on religion would be invalid
unless it was the least restrictive means of furthering a
compelling state interest.” Lighthouse, 510 F.3d at 261.
“But in 1997, in City of Boerne v. Flores[, 521 U.S. 507,
117 S. Ct. 2157, 138 L. Ed. 2d 624 (1997)], the Supreme
Court invalidated RFRA as applied to state and local
governments, holding that RFRA exceeded Congress’s
power under Section 5 of the Fourteenth Amendment
to enforce the Free Exercise Clause against the states.”
Religious Land Use at 2180; see also Lighthouse, 510
F.3d at 261 (“[T]he Supreme Court in [City of Boerne]
struck down RFRA as it applied to the States because it
exceeded Congress’s remedial power under Section 5 of
the Fourteenth Amendment.”). RLUIPA was Congress’s
reaction to City of Boerne. See Opulent Life Church, 697
F.3d at 289. “More limited in reach than RFRA, RLUIPA
addresses only land use regulations, and the religious
rights of institutional persons.” Lighthouse, 510 F.3d at
261 (citation omitted).

513a
Appendix D
RLUIPA provides certain protections for land use for
religious exercise. See 42 U.S.C. § 2000cc. In particular,
RLUIPA contains separate provisions (1) to protect
religious persons, including religious assemblies or
institutions, from land use regulations that substantially
burden their free exercise of religion, see id. § 2000cc(a),
and (2) to protect religious persons, including religious
assemblies or institutions, from land use regulations that
discriminate against them or exclude them on the basis
of religion or religious denomination, see § 2000cc(b).
Plaintiffs facially attack the challenged ordinances under
both of these provisions. (Pls.’ Mem. 12.) Defendants argue
that Plaintiffs’ facial challenges under RLUIPA should be
dismissed as meritless. (Defs.’ Mem. 22.)
a.

Substantial Burden

The Substantial Burden provision of RLUIPA
prohibits a governmental entity from applying
a land use regulation “in a manner that
imposes a substantial burden on the religious
exercise of a person . . . or institution, unless
the government demonstrates that imposition
of the burden . . . is in furtherance of a
compelling governmental interest; and . . . [the
burden imposed] is the least restrictive means
of furthering that compelling governmental
interest.”
Westchester Day Sch. v. Village of Mamaroneck
(“Westchester I”), 386 F.3d 183, 189 (2d Cir. 2004)

514a
Appendix D
(alterations in original) (quoting § 2000cc(a)(1)); see also
Fortress Bible, 694 F.3d at 218-19. This provision “backstops
the explicit prohibition of religious discrimination in
the later section of [RLUIPA], much as the disparateimpact theory of employment discrimination backstops
the prohibition of intentional discrimination.” Sts.
Constantine & Helen Greek Orthodox Church, Inc. v. City
of New Berlin, 396 F.3d 895, 900 (7th Cir. 2005). Thus, for
example, if a “land use decision . . . imposes a substantial
burden on religious exercise . . . and the decision maker
cannot justify it, the inference arises that hostility to
religion, or more likely to a particular sect, influenced
the decision.” Id.
Plaintiffs posit that the challenged ordinances,
because they have the intended effect of barring a
rabbinical college, substantially burden their ability to
engage in “religious study and prayer throughout the day
and night, [and to live] in a communal facility that allows
them to be fully immersed in their religious studies with
their families, praying and learning groups, lecturers
and fellow students—all contributing to the necessary
religious environment.” (Pls.’ Mem. 29; SAC ¶¶ 60,
63, 68.) Defendants contend, in the first instance, that
building a rabbinical college is not religious exercise under
RLUIPA. (Defs.’ Mem. 36.) The Court is unpersuaded
by Defendants’ claim, and concludes that Plaintiffs have
sufficiently alleged that the rabbinical college and its
accessory uses constitute “religious exercise” within the
meaning of RLUIPA.
“The statute defines ‘religious exercise’ to include ‘any

515a
Appendix D
exercise of religion, whether or not compelled by, or central
to, a system of religious belief,’ and provides further that
‘[t]he use, building, or conversion of real property for
the purpose of religious exercise shall be considered
. . . religious exercise.’” Westchester I, 386 F.3d at 186
(alterations in original) (quoting 42 U.S.C. § 2000cc-5(7)
(A), (B)); see also Sts. Constantine & Helen, 396 F.3d at 900
(same). “Religious exercise” under RLUIPA is to be defined
broadly and “‘to the maximum extent permitted by the
terms of this chapter and the Constitution.’” Westchester
Day Sch. v. Village of Mamaroneck (“Westchester II”), 504
F.3d 338, 347 (2d Cir. 2007) (quoting 42 U.S.C. § 2000cc3(g)); see also Bikur Cholim, 664 F. Supp. 2d at 275, 288
(same). It is clear that the building of a rabbinical college,
with the alleged purpose of training rabbinical judges for
religious courts, falls squarely within this definition of
“religious exercise.” Additionally, while the Second Circuit
has expressed doubt over whether “secular . . . accessory
facilities” to a religious school are protected as “religious
exercise” under RLUIPA, see Westchester I, 386 F.3d at
189 (questioning, in particular, whether enlargement of a
gymnasium at a religious school would constitute religious
exercise), Plaintiffs have sufficiently alleged that the multifamily dormitories that they seek to build are intended to
facilitate religious exercise, thus bringing this accessory
use within RLUIPA’s protections. See Westchester II, 504
F.3d at 348 (noting that the correct inquiry to determine
whether an educational facility is covered as “religious
exercise” by RLUIPA is whether it “would be used at
least in part for religious education and practice”); see
also Bikur Cholim, 664 F. Supp. 2d at 276 (holding that
operation “of facility to enable observant individuals to

516a
Appendix D
visit the sick on the Sabbath and holidays as well as the
other individual plaintiff’s [sic] obligations to observe the
Sabbath while being able to visit their family members
at [a nearby hospital] implicate their religious exercise”);
Mintz v. Roman Catholic Bishop of Springfield, 424 F.
Supp. 2d 309, 319 (D. Mass. 2006) (holding that a church’s
proposed development of a “parish center” that would
“house an office for religious education[,] and . . . serve as
a meeting place for the parish council . . . [and as] the locus
of small gatherings related to church services” constituted
“religious exercise” under RLUIPA).
As a second line of attack on this cause of action,
Defendants argue that the ordinances do not, on their
face, impose a substantial burden on Plaintiffs’ exercise
of religion. According to Defendants, a substantial burden
requires “something more than an incidental effect on
religious exercise.” (Defs.’ Mem. 37 (internal quotation
marks omitted).) Thus, say Defendants, the mere denial
of a religious institution’s application to build a religious
facility is not a substantial burden, where a second
application could be filed. (Id. at 38.) And, where such
an application is denied based on regulations that are
facially neutral (and which serve valid public interests),
there is no substantial burden on the exercise of religion,
because the location of a religious facility is “not itself
religiously significant.” (Id.) Applying these precepts
to this case, Defendants assert that Plaintiffs have not
been burdened by Defendants’ actions, including the
adoption of the facially neutral zoning ordinances. At most,
these ordinances might limit Plaintiffs’ ability to build
a rabbinical college on the Subject Property, but that is

517a
Appendix D
not the type of burden that is cognizable under RLUIPA.
Moreover, argue Defendants, because Plaintiffs have not
even filed an application (let alone a second application) to
build their rabbinical college, it is too early for Plaintiffs’
to claim they have been burdened by anything Defendants
have done. (Id.)
RLUIPA does not itself define the phrase “substantial
burden.” See Roman Catholic Bishop, 760 F. Supp. 2d at
186. However, the Second Circuit has held that a land use
regulation constitutes a “substantial burden” within the
meaning of RLUIPA if it “directly coerces the religious
institution to change its behavior.” Westchester II, 504
F.3d at 349 (emphasis in original); see also Fortress Bible,
694 F.3d at 218-19. “The burden must have more than a
minimal impact on religious exercise, and there must be a
close nexus between the two.” Fortress Bible, 694 F.3d at
219. 26 Among the types of burdens the courts have found
to be minimal, and hence not protected by RLUIPA, are
facially neutral permit and variance requirements. Thus,
courts have regularly found that zoning ordinances that
merely require religious institutions to go through a
26. Other circuit courts have adopted a similar definition. See
Midrash Sephardi, Inc. v. Town of Surfside, 366 F.3d 1214, 1227
(11th Cir. 2004) (“[A] ‘substantial burden’ is akin to significant
pressure which directly coerces the religious adherent to conform
his or her behavior accordingly.”); San Jose Christian, 360 F.3d
at 1034 (noting that a substantial burden is one that “impose[s] a
significantly great restriction or onus upon [religious] exercise”);
Civil Liberties for Urban Believers v. City of Chicago (“CLUB”),
342 F.3d 752, 761 (7th Cir. 2003) (holding that substantial burden
is one that renders religious exercise “effectively impracticable”).

518a
Appendix D
routine permit or variance application process do not run
afoul of RLUIPA. See, e.g., id. (“A denial of a religious
institution’s building application is likely not a substantial
burden if it leaves open the possibility of modification and
resubmission.”); Konikov v. Orange County, 410 F.3d
1317, 1323 (11th Cir. 2005) (“[R]equiring applications for
variances, special permits, or other relief provisions [does]
not offend RLUIPA’s goals.”); San Jose Christian, 360
F.3d at 1035-36 (holding that a city’s requirement that
plaintiff refile a “complete” permit application did not
constitute a substantial burden); CLUB, 342 F.3d at 761-62
(finding that “the scarcity of affordable land available for
development in R zones, along with the costs, procedural
requirements, and inherent political aspects of the
Special Use, Map Amendment, and Planned Development
approval processes” did not impose substantial burden
on religious institutions); Roman Catholic Bishop, 760
F. Supp. 2d at 187 (finding that a routine application
process did not violate RLUIPA); Hale O Kaula Church
v. Maui Planning Comm’n, 229 F. Supp. 2d 1056, 1071
(D. Haw. 2002) (holding that laws requiring special use
permits did not impose a substantial burden on religious
institution). Indeed, to exempt religious institutions
from the normal permit/variance process would result
in favoring these institutions, something which RLUIPA
(or the Free Exercise Clause) does not require (and which
the Establishment Clause might prohibit). See CLUB,
342 F.3d at 762 (“Otherwise, compliance with RLUIPA
would require municipal governments not merely to treat
religious land uses on an equal footing with nonreligious
land uses, but rather to favor them in the form of an
outright exemption from land-use regulations. . . .

519a
Appendix D
[N]o such free pass for religious land uses masquerades
among the legitimate protections RLUIPA affords to
religious exercise.”); see also Westchester I, 386 F.3d at
189 (“As a legislative accommodation of religion, RLUIPA
occupies a treacherous narrow zone between the Free
Exercise Clause, which seeks to assure that government
does not interfere with the exercise of religion, and the
Establishment Clause, which prohibits the government
from becoming entwined with religion in a manner that
would express preference for one religion over another,
or religion over irreligion.”).
While RLUIPA does not exempt religious institutions
from complying with facially neutral permit and variance
applications procedures, it does protect such institutions
from land use regulations that substantially affect their
ability to use their property in the exercise of their religion.
For example, courts have held that zoning ordinances, or
zoning decisions, that significantly lessen the prospect
of a religious institution’s being able to use the property
to further its religious mission contravenes RLUIPA.
See Guru Nanak Sikh Soc’y of Yuba City v. Cnty. of
Sutter, 456 F.3d 978, 992 (9th Cir. 2006) (holding that the
defendant county’s two denials of variance permits, under
the circumstances, had “to a significantly great extent
lessened the prospect of [the religious institution] being
able to construct a temple in the future,” thus imposing a
“substantial burden” on the religious institution); Roman
Catholic Diocese, 2012 U.S. Dist. LEXIS 56694, 2012 WL
1392365, at *8 (upholding plaintiff’s facial challenge to
zoning law, because plaintiff had adequately alleged that
the “conditions imposed by the [law] would significantly
restrict the [plaintiff’s] use of their Property for religious

520a
Appendix D
burial purposes”); Grace Church of N. Cnty. v. City of
San Diego, 555 F. Supp. 2d 1126, 1138 (S.D. Cal. 2008)
(holding that “based on the undisputed facts in this case,
. . . Defendants [have] implemented a land use regulation
in a manner that imposed a ‘significantly great restriction
or onus’ on Plaintiff’s religious exercise”).
Such burdens can come in many forms. For example,
courts have held that zoning schemes which impose
conditions on the use of the property, such as limitations
on the size of the facilities to be used by the religious
institution, can impose a substantial burden. See Roman
Catholic Diocese, 2012 U.S. Dist. LEXIS 56694, 2012
WL 1392365, at *8 (holding that defendant’s zoning
conditions, including its set-back requirement, imposed
a substantial burden, because they, inter alia, limited the
amount of the land available for religious burial purposes);
Chabad Lubavitch, 796 F. Supp. 2d at 343 (finding
substantial burden allegations sufficient based on claims
that municipality limited plaintiff’s expansion to an area
17,000 square feet smaller than plaintiff proposed, and
describing that “if [plaintiff] conformed its plans to the
[municipality’s] specification, it would need to sacrifice
a good potion of the spaces that it believes is necessary
to the exercise of its religion”); Cathedral Church of the
Intercessor v. Inc. Village of Malverne, No. 02-CV-2989,
2006 U.S. Dist. LEXIS 12842, 2006 WL 572855, at *8
(E.D.N.Y. Mar. 6, 2006) (finding plaintiff adequately
alleged substantial burden, where space limits imposed
by defendants “constrained” the ability of the church’s
parishioners to “observe or participate” in religious
services). Courts also have found religious institutions
have satisfied the substantial burden requirement by

521a
Appendix D
alleging or proving that a municipality’s zoning scheme
imposes significant “delay, uncertainty, and expense.” Sts.
Constantine & Helen, 396 F.3d at 901; see also Westchester
II, 504 F.3d at 349 (noting that a complete denial of a
religious institution’s zoning application which results
in substantial “delay, uncertainty, and expense” can be
a substantial burden); Grace Church, 555 F. Supp. 2d
at 1137-39 (finding plaintiff had established substantial
burden from uncertainty and expense resulting from
municipality’s zoning regulations and from municipal
officials’ consistent hostility toward plaintiff in their
review of plaintiff’s land use applications). In other words,
contrary to Defendants’ suggestion, “a complete denial”
of a religious institution’s intended or applied-for use of
its property “is not necessary for the Court to find that
the government regulation . . . impose[s] a substantial
burden on religious exercise.” Cathedral Church, 2006
U.S. Dist. LEXIS 12842, 2006WL 572855, at *8; see also
Sts. Constantine & Helen, 396 F.3d at 899-900 (finding
that to establish substantial burden, a religious group
need not “show that there was no other parcel of land on
which it could build its church”); Westchester Day Sch.
v. Village of Mamaroneck, 379 F. Supp. 2d 550, 556-57
(S.D.N.Y. 2005) (same). Thus, for example, the Second
Circuit has held recently that when a municipality’s
“willingness to consider [a] proposal is disingenuous, a
conditional denial may rise to the level of a substantial
burden.” Fortress Bible, 694 F.3d at 219. “Moreover, when
the town’s actions are arbitrary, capricious, unlawful, or
taken in bad faith, a substantial burden may be imposed
because it appears that the [religious institution] may have
been discriminated against on the basis of its status as a
religious institution.” Id.

522a
Appendix D
Taking Plaintiffs’ allegations as true, the Court
finds that Plaintiffs have plausibly made a case that
Defendants’ actions impose a substantial burden on
Plaintiffs’ religious exercise. First, while the challenged
ordinances may be facially neutral, in the sense that
they do not expressly single out the Subject Property or
otherwise expressly ban the construction of a rabbinical
college, for reasons described above in connection with
Plaintiffs’ Free Exercise Clause claim, Plaintiffs have
alleged that the combined effect (even a subtle one) of
the challenged ordinances is to bar the construction of a
rabbinical college, and only to do that. Indeed, based on
the timing of the ordinances’ adoption and amendment, as
well as the statements made by some of the Defendants
regarding the rabbinical college, Plaintiffs have plausibly
alleged that this was the purpose of these ordinances.
The ordinances allegedly do not just restrict where a
rabbinical college can be built, or the size and number of
the structures that can make up the college, but in fact
completely prevent Plaintiffs from building and running a
rabbinical college at all in Pomona. If these allegations are
true, then Plaintiffs have established a substantial burden.
See Cottonwood, 218 F. Supp. 2d at 1226 (“Preventing a
church from building a worship site fundamentally inhibits
its ability to practice its religion.”).
Second, while it is true that Plaintiffs have not yet filed
a variance or special use application to build a rabbinical
college on the Subject Property, Plaintiffs have alleged
(again, as described above) that the challenged ordinances
do not allow for any special use certificates or variances.
(SAC ¶¶ 91, 221-22.) Thus, under the zoning scheme as it
currently exists, Plaintiffs’ only option is to seek a text

523a
Appendix D
amendment to the Zoning Code—a legislative process
that Plaintiffs allege would be cumbersome and, given the
hostility of Defendants, fraught with indefinite delay and
uncertainty. Indeed, according to Plaintiffs, Defendants
have erected a number of barriers to the construction of
the rabbinical college precisely to delay the process long
enough to deter Plaintiffs from completing the college.
(SAC ¶¶ 206-20.) Thus, Plaintiffs have established that
Defendants’ alleged actions impose a substantial burden
on Plaintiffs’ religious exercise. Accordingly, the Motion
to Dismiss this claim is denied. See Roman Catholic
Diocese, 2012 U.S. Dist. LEXIS 56694, 2012 WL 1392365,
at *8 (granting motion to amend facial challenge to zoning
ordinance, based on the conclusion that plaintiff had
adequately alleged the ordinance imposed a substantial
burden by, among other things, reducing the portion of
the property that could be used for religious purposes
and requiring plaintiff to meet certain groundwater
testing and landscaping requirements); Grace Church,
555 F. Supp. 2d at 1138 (granting summary judgment to
plaintiff on a Substantial Burden claim, based on evidence
that plaintiff had no “reasonable expectation that any
application for an extension” to use its property would
be granted); Cathedral Church, 2006 U.S. Dist. LEXIS
12842, 2006 WL 572855, at *8 (denying motion to dismiss,
where plaintiff had adequately alleged a substantial
burden based on claims that the space limitations imposed
by municipality would limit the number of congregants
who could participate in religious services). 27
27. It again bears repeating that the Court is not finding
that Defendants have violated the Substantial Burden component
of RLUIPA, merely that Plaintiffs have adequately pled this

524a
Appendix D
b.

Discrimination and Exclusion

Plaintiffs also raise a facial challenge to the Village’s
zoning ordinances under each of the three subsections of
the Discrimination and Exclusion provision of RLUIPA.
i. 	Equal Terms
The Equal Terms provision of RLUIPA provides that
“[n]o government shall impose or implement a land use
regulation in a manner that treats a religious assembly
or institution on less than equal terms with a nonreligious
assembly or institution.” 42 U.S.C. § 2000cc(b)(1). This
“statutory command ‘requires equal treatment of secular
and religious assemblies and allows courts to determine
whether a particular system of classifications adopted by
a city subtly or covertly departs from requirements of
neutrality and general applicability.’” Primera, 450 F.3d
at 1307 (brackets omitted) (emphasis in original) (quoting
Midrash, 366 F.3d at 1232). As with the Substantial
Burden component of RLUIPA, the meaning of the Equal
Terms section is far from clear, see Guru Nanak Sikh
Soc’y of Yuba City v. County of Sutter, 326 F. Supp. 2d 1140,
1154 (E.D. Cal. 2003) (asserting that this section “is even
less clear” than the “substantial burden” section), but the
courts have determined that the “substantial burden and
nondiscrimination provisions are operatively independent
claim. Of course, it remains to be seen if Plaintiffs will be able
to substantiate this cause of action. See Chabad Lubavitch of
Litchfield Cnty., Inc. v. Borough of Litchfield, 853 F. Supp. 2d
214 (D. Conn. 2012) (granting summary judgment to defendants
after having denied their motion to dismiss free exercise and
RLUIPA claims).

525a
Appendix D
of one another,” CLUB, 342 F.3d at 762. Moreover,
some courts have concluded that the Nondiscrimination
provisions of RLUIPA, which include the Equal Terms
provision, “codify existing Equal Protection Clause and
Free Exercise Clause jurisprudence.” Petra Presbyterian
Church v. Village of Northbrook , No. 03-CV-1936, 2003
U.S. Dist. LEXIS 15105, 2003 WL 22048089, at *11 (N.D.
Ill. Aug. 29, 2003); accord Guru Nanak, 326 F. Supp. 2d
at 1155 (same); Freedom Baptist Church of Del. Cnty. v.
Township of Middletown, 204 F. Supp. 2d 857, 869 (E.D.
Pa. 2002) (same). 28
There are four elements of an Equal Terms violation:
(1) the plaintiff must be a religious institution; (2) subject
to a land use regulation; that (3) treats the religious
institution on less than equal terms; with (4) a nonreligious
institution. See Primera, 450 F.3d at 1307-08. 29 The
28. The one exception is the precise application of the
“similarly situated” requirement found in Equal Protection
jurisprudence. See Third Church of Christ, Scientist, of N.Y.C. v.
City of New York, 617 F. Supp. 2d 201, 209 (S.D.N.Y. 2008) (noting
that the “key point of diversion among the [c]ourts is the metric of
comparison they employ to determine whether particular religious
and non-religious institutions or assemblies are properly measured
against one another under the statute,” and, further describing
that, “‘while [the equal terms provision] has the “feel” of an equal
protection law, it lacks the “similarly situated” requirement
usually found in equal protection analysis’” (quoting Midrash, 366
F.3d at 1229)), aff’d, 626 F.3d 667 (2d Cir. 2010).
29. A plaintiff bringing an Equal Terms claim need not
establish that the challenged land use regulation imposed a
substantial burden. See Centro Familiar Cristiano Buenas

526a
Appendix D
consensus among courts is that there are three distinct
kinds of Equal Terms violations: (i) a statute that facially
differentiates between religious and secular assemblies
or institutions; (ii) a facially neutral statute that is
nevertheless “gerrymandered” to place a burden solely on
religious, as opposed to secular, assemblies or institutions;
or (iii) a truly neutral statute that is selectively enforced
against religious, as opposed to secular, assemblies or
institutions. See Primera, 450 F.3d at 1308; accord Vision
Church v. Village of Long Grove, 468 F.3d 975, 1003 (7th
Cir. 2006) (following same analysis); Church of Scientology
of Ga., Inc. v. City of Sandy Springs, 843 F. Supp. 2d
1328, 1361 (N.D. Ga. 2012) (same); Covenant Christian
Ministries, Inc. v. City of Marietta, No. 06-CV-1994, 2008
U.S. Dist. LEXIS 54304, 2008 WL 8866408, at *13 (N.D.
Ga. Mar. 31, 2008) (same); Family Life Church v. City of
Elgin, 561 F. Supp. 2d 978, 989 (N.D. Ill. 2008) (same).
The Second Circuit has not yet identified the precise
standard to analyze whether a plaintiff has adequately
alleged an Equal Terms violation. See Third Church
of Christ, 626 F.3d at 670 (noting different approaches
in other circuits but declining to adopt or reject any of
them); Roman Catholic Diocese, 2012 U.S. Dist. LEXIS
56694, 2012 WL 1392365, at *10 (noting that the Second
Circuit has “yet to decide the precise outlines of what it
takes to be a valid comparator under RLUIPA’s equalNuevas v. City of Yuma, 651 F.3d 1163, 1172 (9th Cir. 2011) (noting
that a RLUIPA plaintiff asserting an Equal Terms claim has no
obligation to establish a substantial burden); Lighthouse, 510 F.3d
at 262 (explaining that the Equal Terms provision contains no
language suggesting a plaintiff must establish substantial burden).

527a
Appendix D
terms provision” (internal quotation marks omitted)). The
other circuit courts to have considered the analysis to be
used under this provision—the Third, Fifth, Seventh,
Ninth, and Eleventh Circuits—have adopted different
approaches. See Third Church of Christ, 626 F.3d at 66970 (reviewing the approaches from the Eleventh, Third,
and Seventh Circuits). As the Fifth Circuit very recently
described:
The approaches of [the] . . . circuits to facial
Equal Terms Clause challenges fall roughly
into two camps. In one camp is the Eleventh
Circuit, which treats all land use regulations
that facially differentiate between religious
and nonreligious institutions as violations of
the Clause, but will nonetheless uphold such a
regulation if it survives strict scrutiny review.
The other camp includes the Third, Seventh,
and Ninth Circuits. Those circuits hold that a
violation of the Equal Terms Clause occurs only
if a religious institution is treated less well than
a similarly situated nonreligious comparator.
The Third Circuit requires the comparator
to be similarly situated as to the regulatory
purpose. The Seventh and Ninth Circuits
require a comparator that is similarly situated
with respect to accepted zoning criteria.
Opulent Life, 697 F.3d at 291-92 (footnote, citations, and
internal quotation marks omitted) (emphasis in original);
see also id. (adopting a variation of the comparator analysis
used by the Third and Seventh Circuits); Centro Familiar

528a
Appendix D
Cristiano, 651 F.3d at 1172-73 (adopting Third Circuit’s
“similarly situated” requirement and, where necessary,
Seventh Circuit’s test that comparator be similarly
situated with respect to accepted zoning criteria); River
of Life Kingdom Ministries v. Village of Hazel Crest,
611 F.3d 367, 371 (7th Cir. 2010) (en banc) (modifying the
Third Circuit’s test to focus on the regulatory criteria used
to enact the law, rather than municipality’s purpose in
enacting the law); Lighthouse, 510 F.3d at 272-73 (holding
that the proper inquiry focuses on the “impact of the
allowed and forbidden [uses] . . . in light of the purpose of
the regulation”); Konikov, 410 F.3d at 1327-28 (explaining
that a secular comparator in an as-applied challenge should
be selected by looking at “the evidence considered by” the
municipality applying the zoning code to determine the
criteria used in making its decision regarding a religious
institution, and then comparing it to a secular institution or
assembly under those same criteria). See generally Note,
RLUIPA’s Equal-Terms Provision’s Troubling Definition
of Equal, 60 U. Kan. L. Rev. 193 (2011) (noting the circuit
split and criticizing the Eleventh Circuit’s approach);
Comment, Freedom From Religion: RLUIPA, Religious
Freedom, and Representative Democracy on Trial, 158
U. Pa. L. Rev. 571 (2010) (canvassing split among circuit
courts and endorsing the Eleventh Circuit’s analysis);
Note, Restoring RLUIPA’s Equal Terms Provision, 58
Duke L.J. 1071 (2009) (acknowledging the circuit split
and criticizing the use of any similarly situated analysis
in applying the Equal Terms provision). Despite the
differing approaches, however, each of the circuit courts
that has considered such claims agrees that to show an
Equal Terms violation, a religious institution must be

529a
Appendix D
treated differently from a nonreligious comparator. See
Third Church, 626 F.3d at 669 (“Determining whether a
municipality has treated a religious entity ‘on less than
equal terms’ requires a comparison between the religious
entity and a secular one.”). 30
The Court here need not weigh in on the thorny
question of what a RLUIPA plaintiff must specifically plead
by way of secular comparators to make out a prima facie
Equal Terms claim. As noted, there are three categories of
Equal Terms violations—facially non-neutral regulations,
facially neutral regulations which “gerrymander”
burdens on religious institutions, and facially neutral
30. It bears noting that the Fifth Circuit does not buy the
Second Circuit’s professed agnosticism. In Elijah Group, Inc. v.
City of Leon Valley, the Fifth Circuit commented that while the
Second Circuit, in Third Church, “attempted to avoid choosing
among the other . . . circuits’ tests, it concluded that the hotel was
a valid comparator to the church because ‘the Church’s and the
hotels’ catering activities [are] similarly situated with regard
to their legality under [the City’s] law.’” 643 F.3d 419, 423 (5th
Cir. 2011) (alterations and emphasis in original) (quoting Third
Church of Christ, 626 F.3d at 670). By making such a comparison,
the Fifth Circuit concluded that the Second Circuit, “[e]ven if
unintentionally,” “created a fourth test— somewhat combining the
Third and Seventh Circuits’ tests—which identifies a comparator
that is similarly situated for ‘all functional intents and purposes’
of the regulation.” Id.
This Court is not as adept at reading between the lines as
others, but defers to our Circuit when it states that is not adopting
(or rejecting) any other court’s standard or test. And, in any
event, the difference in the approaches of the various circuits is
not dispositive here, as discussed below.

530a
Appendix D
regulations which are differentially applied. The first and
third categories likely require Plaintiffs to plead some
facts regarding some particular secular comparators.
See Elijah Grp., Inc., 643 F.3d at 422-23 (explaining
that in analyzing whether a land use regulation facially
differentiates, any nonreligious institution or assembly
can be a comparator; in analyzing a discriminatory
application claim, a plaintiff must identify a “similarly
situated” nonreligious comparator; and in analyzing a
“gerrymander” claim, a plaintiff need establish only that
the facially neutral regulation separates uses of land in a
way that “burdens almost only religious uses,”—such that
treatment of the religious plaintiff is assessed relative to
nonreligious (or other religious institutions’) land use);
Church of Scientology, 843 F. Supp. 2d at 1361-62 (holding
that to successfully claim that zoning ordinances were
selectively enforced in violation of Equal Terms provision,
religious institution would need to show “that the two
projects were similarly situated” with “some specificity”).
But, in any event, Plaintiffs have not established that
the challenged ordinances here are facially non-neutral.
As noted above, each provision standing alone makes
no distinction between religious and secular assemblies
or institutions, let alone makes a distinction between
Orthodox/Hasidic and non-Orthodox/Hasidic assemblies
or institutions. Nor have Plaintiffs made out a claim that
the challenged ordinances have been differentially applied
to them, as the Court already has concluded that Plaintiffs’
as-applied challenges are not yet ripe.
But for the reasons provided in not dismissing
Plaintiffs’ Equal Protection and Free Exercise claims, the

531a
Appendix D
Court concludes that Plaintiffs have pled facts sufficient
to make out a “gerrymander” claim, which itself can also
support an Equal Terms claim. See Primera, 450 F.3d
at 1309 (holding that a religious “gerrymander” would
support an Equal Terms violation); Church of Scientology,
843 F. Supp. 2d at 1361 (“A religious gerrymander that
departs from basic principles of neutrality may support a
RLUIPA violation.”). As discussed above, Plaintiffs have
alleged sufficient facts regarding the timing and impact
of, and the motives behind, the challenged ordinances to
suggest that they were adopted solely to bar Plaintiffs
from constructing a rabbinical college on the Subject
Property. Cf. Primera, 450 F.3d at 1310 (holding that
plaintiff failed to identify evidence that the challenged
zoning ordinances operated to “gerrymander” plaintiff’s
use of its property, citing, inter alia, that the challenged
zoning provisions were adopted before plaintiff purchased
the property at issue); Church of Scientology, 843 F. Supp.
2d at 1361 (same). Again, crucial to the Court’s conclusion
is the compelled assumption as to the truth of Plaintiffs’
allegations; the Court is not reaching the conclusion that
the challenged ordinances do, in fact, violate RLUIPA on
their face, or that, even if they do contravene the Equal
Terms provision, they would not survive strict scrutiny
(or any other standard of review). Therefore, the Court
denies Defendants’ Motion to Dismiss as to Plaintiffs’
Equal Terms claim.
ii. 	Nondiscrimination
Plaintiffs assert a facial challenge to the Village’s
ordinances under RLUIPA’s Nondiscrimination provision,

532a
Appendix D
which provides that “[n]o government shall impose or
implement a land use regulation that discriminates
against any assembly or institution on the basis of religion
or religious denomination.” 42 U.S.C. § 2000cc(b)(2).
Very few courts have considered claims based on the
Nondiscrimination provision of RLUIPA. However, based
on the language of the two provisions and the caselaw
applying them, the elements of a Nondiscrimination
claim differ little, if at all, from an Equal Terms claim.
See Church of Scientology, 843 F. Supp. 2d at 1360-61
(noting that both the Equal Terms and Nondiscrimination
provisions of RLUIPA cover the same three types of
violations); Covenant Christian Ministries, 2008 U.S.
Dist. LEXIS 54304, 2008 WL 8866408, at *15-16 (treating
Equal Terms and Nondiscrimination as identical claims);
New Life Ministries v. Charter Township of Mt. Morris,
No. 05-CV-74339, 2006 U.S. Dist. LEXIS 63848, 2006
WL 2583254, at *3-5 (E.D. Mich. 2006) (same). Thus,
the Court concludes that Plaintiffs’ Nondiscrimination
claim survives Defendants’ Motion for the same reasons
Plaintiffs’ Equal Protection, Free Exercise, and Equal
Terms claims survive. Accordingly, Defendants’ Motion
to Dismiss with respect to this claim is denied.
iii. Exclusions and Limits
Finally, Plaintiffs allege that the Village’s zoning
ordinances on their face violate RLUIPA’s Exclusions
and Limits provision by totally excluding a rabbinical
college from the Village. This provision provides that
“[n]o government shall impose or implement a land

533a
Appendix D
use regulation that . . . (A) totally excludes religious
assemblies from a jurisdiction; or (B) unreasonably limits
religious assemblies, institutions, or structures within a
jurisdiction.” 42 U.S.C. § 2000cc(b)(3). The purpose of
this provision “is not to examine the restrictions placed
on individual landowners, but to prevent municipalities
from broadly limiting where religious entities can locate.”
Adhi Parasakthi Charitable, Med., Educ., & Cultural
Soc’y of N. Am. v Township of West Pikeland, 721 F.
Supp. 2d 361, 387 (E.D. Pa. 2010); accord Rocky Mountain
Christian Church v. Bd. of Cnty. Comm’rs, 613 F.3d 1229,
1238 (10th Cir. 2010) (noting that district court’s jury
instruction properly required plaintiff to establish that
the county’s “regulation, as applied or implemented, has
the effect of depriving both [plaintiff] and other religious
institutions or assemblies of reasonable opportunities to
practice their religion, including the use and construction
of structures, within Boulder County” (internal quotation
marks omitted)).
The Court concludes that Plaintiffs have stated a
claim based on their facial challenge under the Exclusions
and Limits Provision. As noted, Plaintiffs have pled that
the challenged ordinances prevent them, as a matter of
law, from building the rabbinical college (indeed, any
rabbinical college) on the Subject Property or anywhere
in Pomona. The Court recognizes Defendants’ point that
Plaintiffs could seek to change the ordinances, via a
text amendment, but this does not change the analysis.
Plaintiffs have alleged facts plausibly establishing that
any efforts to change the law will be time consuming
and likely unsuccessful. And in any event, Plaintiffs have
alleged that as now written, the challenged ordinances

534a
Appendix D
prevent Plaintiffs (or any Orthodox/Hasidic group) from
building a viable rabbinical college in Pomona, and that
this was the intended objective of Defendants. This is
sufficient to make out a plausible Exclusions and Limits
claim. See Rocky Mountain, 613 F.3d at 1238 (upholding
jury’s verdict for RLUIPA plaintiff based, in part, on
evidence that county official stated that it would allow only
a 100-seat synagogue because “there will never be another
mega church . . . in Boulder County,” and on testimony
that another congregation ran out of money going through
the County’s special use application process (alteration in
original) (internal quotation marks omitted)). Accordingly,
Defendants’ Motion to Dismiss this claim is denied.
***
At oral argument, counsel for Defendants expressed
concern that Plaintiffs were intending to build “Wake
Forest University in Pomona.” (Tr. 5). 31 For a residential
community such as Pomona, the idea of a large college
being built might be of profound and genuine concern
for local residents and public officials, and it may be
why Defendants and village residents want to block
the construction of Plaintiffs’ college. However, in this
lawsuit Plaintiffs allege that Defendants are blocking
their college not because of its physical size or the number
of students and faculty that may reside, study, and work
there, but because it is an Orthodox/Hasidic rabbinical
31. Wa ke For e st Un i ver sit y h a s ju st u nder 5 , 0 0 0
undergraduate students and a campus size of approximately 340
acres. See Wake Forest University, http://en.wikipedia-org/wiki/
Wake-Forest-University.

535a
Appendix D
college that would employ, educate, and house members
of the Orthodox/Hasidic community. At this stage, these
allegations are untested, but in the Court’s view, they are
sufficient to merit testing. This ruling is not tantamount
to saying that Plaintiffs will be able to build a rabbinical
college, let alone one that is of a size or structure to their
liking. Rather, this ruling only means that the case can
proceed to the next phase.
III.

Conclusion

For the reasons discussed above, Defendants’ Motion
is granted in part and denied in part. Plaintiff Kolel Belz
is dismissed as a Plaintiff in this action without prejudice.
The remaining Plaintiffs’ as-applied challenges under
the Free Speech, Free Exercise, and Free Association
Clauses of the First Amendment, the Equal Protection
Clause of the Fourteenth Amendment, and RLUIPA,
as well as their as-applied claims under the New York
Constitution and New York state law, are dismissed
without prejudice as unripe. The Motion To Dismiss is
denied as to the remaining claims. The Clerk of Court is
respectfully directed to terminate the pending motion.
(Dkt. No. 36.)
SO ORDERED.
Dated: January 4, 2013
White Plains, New York
/s/ Kenneth M. Karas
KENNETH M. KARAS
UNITED STATES DISTRICT JUDGE

536a
AppendixOF
E REHEARING of
Appendix E — DENIAL
the united states court of appeals
FOR THE SECOND CIRCUIT, filed
february 6, 2020
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
At a stated term of the United States Court of Appeals
for the Second Circuit, held at the Thurgood Marshall
United States Courthouse, 40 Foley Square, in the City
of New York, on the 6th day of February, two thousand
twenty.
CONGREGATION RABBINICAL COLLEGE OF
TARTIKOV, INC, RABBI MORDECHAI BABAD,
RABBI WOLF BRIEF, RABBI HERMAN KAHANA,
MEIR MARGULIS, RABBI MEILECH MENCZER,
RABBI JACOB HERSHKOWITZ, RABBI CHAIM
ROSENBERG, RABBI DAVID A. MENCZER,
Plaintiffs-Appellees-Cross-Appellants,
RABBI GERGELY NEUMAN, RABBI KOLEL
BELZ, OF MONSEY, RABBI ARYEH ROYDE,
RABBI AKIVA POLLACK,
Plaintiffs,
v.
VILLAGE OF POMONA, NY, BOARD OF
TRUSTEES OF THE VILLAGE OF POMONA, NY,
NICHOLAS L. SANDERSON, AS MAYOR, IAN

537a
Appendix E
BANKS, AS TRUSTEE AND IN HIS OFFICIAL
CAPACITY, ALMA SANDERS-ROMAN, AS
TRUSTEE AND IN HER OFFICIAL CAPACITY,
RITA LOUIE, AS TRUSTEE AND IN HER
OFFICIAL CAPACITY, BRETT YAGEL, AS
TRUSTEE AND IN HIS OFFICIAL CAPACITY,
Defendants-Appellants-Cross-Appellees.
ORDER
Docket Nos: 18-869 (L)
18-1062 (XAP)
Appellees-Cross-Appellants, Mordechai Babad, Wolf
Brief, Congregation Rabbinical College of Tartikov, Inc,
Jacob Hershkowitz, Herman Kahana, Meir Margulis,
David A. Menczer, Meilech Menczer and Chaim Rosenberg,
filed a petition for panel rehearing, or, in the alternative,
for rehearing en banc. The panel that determined the
appeal has considered the request for panel rehearing,
and the active members of the Court have considered the
request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
s/						
Catherine O’Hagan Wolfe, Clerk

538a
Appendix FCONSTITUTIONAL
APPENDIX F — RELEVANT
AND STATUTORY PROVISIONS
U.S. Const. amend. I
Congress shall make no law respecting an establishment
of religion, or prohibiting the free exercise thereof; or
abridging the freedom of speech, or of the press; or the
right of the people peaceably to assemble, and to petition
the Government for a redress of grievances.
U.S. Const. amend. XIV, § 1.
Section 1.
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of the
United States and of the State wherein they reside. No
State shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life,
liberty, or property, without due process of law; nor deny
to any person within its jurisdiction the equal protection
of the laws.
42 U.S.C. § 2000cc
(a) Substantial burdens
(1) General rule
No government shall impose or implement a
land use regulation in a manner that imposes
a substantial burden on the religious exercise

539a
Appendix F
of a person, including a religious assembly or
institution, unless the government demonstrates
that imposition of the burden on that person,
assembly, or institution—
(A) is in furtherance of a compelling
governmental interest; and
(B) is the least restr ictive means of
furthering that compelling governmental
interest.
(2) Scope of application
This subsection applies in any case in which—
(A) the substantial burden is imposed in a
program or activity that receives Federal
financial assistance, even if the burden
results from a rule of general applicability;
(B) the substantial burden affects, or
removal of that substantial burden would
affect, commerce with foreign nations,
among the several States, or with Indian
tribes, even if the burden results from a
rule of general applicability; or
(C) the substantial burden is imposed in
the implementation of a land use regulation
or system of land use regulations, under
which a government makes, or has in place
formal or informal procedures or practices

540a
Appendix F
that permit the government to make,
individualized assessments of the proposed
uses for the property involved.
(b) Discrimination and exclusion
(1) Equal terms
No government shall impose or implement a
land use regulation in a manner that treats a
religious assembly or institution on less than
equal terms with a nonreligious assembly or
institution.
(2) Nondiscrimination
No government shall impose or implement a
land use regulation that discriminates against
any assembly or institution on the basis of
religion or religious denomination.
(3) Exclusions and limits
No government shall impose or implement a
land use regulation that—
(A) totally excludes religious assemblies
from a jurisdiction; or
(B) unreasonably limits religious assemblies,
i nst itut ions, or st r uctu res w it h i n a
jurisdiction.

541a
Appendix F
42 U.S.C. § 2000cc-2
(a) Cause of action
A person may assert a violation of this chapter as a claim
or defense in a judicial proceeding and obtain appropriate
relief against a government. Standing to assert a claim or
defense under this section shall be governed by the general
rules of standing under article III of the Constitution.
(b) Burden of persuasion
If a plaintiff produces prima facie evidence to support a
claim alleging a violation of the Free Exercise Clause or
a violation of section 2000cc of this title, the government
shall bear the burden of persuasion on any element of the
claim, except that the plaintiff shall bear the burden of
persuasion on whether the law (including a regulation)
or government practice that is challenged by the claim
substantially burdens the plaintiff’s exercise of religion.
(c) Full faith and credit
Adjudication of a claim of a violation of section 2000cc of
this title in a non-Federal forum shall not be entitled to
full faith and credit in a Federal court unless the claimant
had a full and fair adjudication of that claim in the nonFederal forum.
(d) Omitted

542a
Appendix F
(e) Prisoners
Nothing in this chapter shall be construed to amend or
repeal the Prison Litigation Reform Act of 1995 (including
provisions of law amended by that Act).
(f) Authority of United States to enforce this chapter
The United States may bring an action for injunctive
or declaratory relief to enforce compliance with this
chapter. Nothing in this subsection shall be construed to
deny, impair, or otherwise affect any right or authority of
the Attorney General, the United States, or any agency,
officer, or employee of the United States, acting under any
law other than this subsection, to institute or intervene
in any proceeding.
(g) Limitation
If the only jurisdictional basis for applying a provision
of this chapter is a claim that a substantial burden by a
government on religious exercise affects, or that removal
of that substantial burden would affect, commerce with
foreign nations, among the several States, or with Indian
tribes, the provision shall not apply if the government
demonstrates that all substantial burdens on, or the
removal of all substantial burdens from, similar religious
exercise throughout the Nation would not lead in the
aggregate to a substantial effect on commerce with foreign
nations, among the several States, or with Indian tribes.

543a
Appendix F
42 U.S.C. § 2000cc-3
(a) Religious belief unaffected
Nothing in this chapter shall be construed to authorize
any government to burden any religious belief.
(b) Religious exercise not regulated
Nothing in this chapter shall create any basis for
restricting or burdening religious exercise or for claims
against a religious organization including any religiously
affiliated school or university, not acting under color of law.
(c) Claims to funding unaffected
Nothing in this chapter shall create or preclude a right
of any religious organization to receive funding or other
assistance from a government, or of any person to receive
government funding for a religious activity, but this
chapter may require a government to incur expenses in
its own operations to avoid imposing a substantial burden
on religious exercise.
(d) Other authority to impose conditions on funding
unaffected
Nothing in this chapter shall—
(1) authorize a government to regulate or affect,
directly or indirectly, the activities or policies of
a person other than a government as a condition
of receiving funding or other assistance; or

544a
Appendix F
(2) restrict any authority that may exist under
other law to so regulate or affect, except as
provided in this chapter.
(e) Governmental discretion in alleviating burdens on
religious exercise
A government may avoid the preemptive force of any
provision of this chapter by changing the policy or practice
that results in a substantial burden on religious exercise,
by retaining the policy or practice and exempting the
substantially burdened religious exercise, by providing
exemptions from the policy or practice for applications that
substantially burden religious exercise, or by any other
means that eliminates the substantial burden.
(f) Effect on other law
With respect to a claim brought under this chapter,
proof that a substantial burden on a person’s religious
exercise affects, or removal of that burden would affect,
commerce with foreign nations, among the several States,
or with Indian tribes, shall not establish any inference
or presumption that Congress intends that any religious
exercise is, or is not, subject to any law other than this
chapter.
(g) Broad construction
This chapter shall be construed in favor of a broad
protection of religious exercise, to the maximum
extent permitted by the terms of this chapter and the
Constitution.

545a
Appendix F
(h) No preemption or repeal
Nothing in this chapter shall be construed to preempt
State law, or repeal Federal law, that is equally as
protective of religious exercise as, or more protective of
religious exercise than, this chapter.
(i) Severability
If any provision of this chapter or of an amendment made
by this chapter, or any application of such provision to any
person or circumstance, is held to be unconstitutional, the
remainder of this chapter, the amendments made by this
chapter, and the application of the provision to any other
person or circumstance shall not be affected.
42 U.S.C. § 2000cc-4
Nothing in this chapter shall be construed to affect,
interpret, or in any way address that portion of the
first amendment to the Constitution prohibiting laws
respecting an establishment of religion (referred to in
this section as the “Establishment Clause”). Granting
government funding, benefits, or exemptions, to the
extent permissible under the Establishment Clause, shall
not constitute a violation of this chapter. In this section,
the term “granting”, used with respect to government
funding, benefits, or exemptions, does not include the
denial of government funding, benefits, or exemptions.

546a
Appendix F
42 U.S.C. § 2000cc-5
In this chapter:
(1) Claimant
The term “claimant” means a person raising a
claim or defense under this chapter.
(2) Demonstrates
The term “demonstrates” means meets the
burdens of going forward with the evidence
and of persuasion.
(3) Free Exercise Clause
The term “Free Exercise Clause” means
that portion of the first amendment to the
Constitution that proscribes laws prohibiting
the free exercise of religion.
(4) Government
The term “government”—
(A) means—
(i) a State, county, municipality, or other
governmental entity created under the
authority of a State;

547a
Appendix F
(ii) any branch, department, agency,
instrumentality, or official of an
entity listed in clause (i); and
(iii) any other person acting under color
of State law; and
(B) for the purposes of sections 2000cc–2(b)
and 2000cc–3 of this title, includes the
United States, a branch, department,
agency, instrumentality, or official of the
United States, and any other person acting
under color of Federal law.
(5) Land use regulation
The term “land use regulation” means a zoning
or landmarking law, or the application of such
a law, that limits or restricts a claimant’s
use or development of land (including a
structure affixed to land), if the claimant has an
ownership, leasehold, easement, servitude, or
other property interest in the regulated land or
a contract or option to acquire such an interest.
(6) Program or activity
The term “program or activity” means all of
the operations of any entity as described in
paragraph (1) or (2) of section 2000d–4a of this
title.

548a
Appendix F
(7) Religious exercise
(A) In general
The term “religious exercise” includes
any exercise of religion, whether or not
compelled by, or central to, a system of
religious belief.
(B) Rule
The use, building, or conversion of real
property for the purpose of religious
exercise shall be considered to be religious
exercise of the person or entity that uses or
intends to use the property for that purpose.
42 U.S.C. § 3604(a)
As made applicable by section 3603 of this title and except
as exempted by sections 3603(b) and 3607 of this title, it
shall be unlawful—
(a) To refuse to sell or rent after the making of a bona
fide offer, or to refuse to negotiate for the sale or rental
of, or otherwise make unavailable or deny, a dwelling to
any person because of race, color, religion, sex, familial
status, or national origin.

549a
Appendix F
42 U.S.C. § 3617
It shall be unlawful to coerce, intimidate, threaten, or
interfere with any person in the exercise or enjoyment
of, or on account of his having exercised or enjoyed, or
on account of his having aided or encouraged any other
person in the exercise or enjoyment of, any right granted
or protected by section 3603, 3604, 3605, or 3606 of this
title.
N.Y. Const. art. I, §§ 3, 8, 9, 11
....
§ 3. The free exercise and enjoyment of religious profession
and worship, without discrimination or preference, shall
forever be allowed in this state to all humankind; and no
person shall be rendered incompetent to be a witness on
account of his or her opinions on matters of religious belief;
but the liberty of conscience hereby secured shall not be
so construed as to excuse acts of licentiousness, or justify
practices inconsistent with the peace or safety of this
state. (Amended by vote of the people November 6, 2001.)
....
§ 8. Every citizen may freely speak, write and publish his
or her sentiments on all subjects, being responsible for the
abuse of that right; and no law shall be passed to restrain
or abridge the liberty of speech or of the press. In all
criminal prosecutions or indictments for libels, the truth
may be given in evidence to the jury; and if it shall appear

550a
Appendix F
to the jury that the matter charged as libelous is true, and
was published with good motives and for justifiable ends,
the party shall be acquitted; and the jury shall have the
right to determine the law and the fact. (Amended by vote
of the people November 6, 2001.)
§ 9. 1. No law shall be passed abridging the rights of
the people peaceably to assemble and to petition the
government, or any department thereof; nor shall any
divorce be granted otherwise than by due judicial
proceedings; except as hereinafter provided, no lottery or
the sale of lottery tickets, pool-selling, bookmaking, or any
other kind of gambling, except lotteries operated by the
state and the sale of lottery tickets in connection therewith
as may be authorized and prescribed by the legislature,
the net proceeds of which shall be applied exclusively
to or in aid or support of education in this state as the
legislature may prescribe, except pari-mutuel betting on
horse races as may be prescribed by the legislature and
from which the state shall derive a reasonable revenue for
the support of government, and except casino gambling at
no more than seven facilities as authorized and prescribed
by the legislature shall hereafter be authorized or
allowed within this state; and the legislature shall pass
appropriate laws to prevent offenses against any of the
provisions of this section. (Amendment approved by vote
of the people November 5, 2013.)
2. Notwithstanding the foregoing provisions of this
section, any city, town or village within the state may by
an approving vote of the majority of the qualified electors
in such municipality voting on a proposition therefor

551a
Appendix F
submitted at a general or special election authorize,
subject to state legislative supervision and control, the
conduct of one or both of the following categories of
games of chance commonly known as: (a) bingo or lotto,
in which prizes are awarded on the basis of designated
numbers or symbols on a card conforming to numbers or
symbols selected at random; (b) games in which prizes are
awarded on the basis of a winning number or numbers,
color or colors, or symbol or symbols determined by
chance from among those previously selected or played,
whether determined as the result of the spinning of a
wheel, a drawing or otherwise by chance. If authorized,
such games shall be subject to the following restrictions,
among others which may be prescribed by the legislature:
(1) only bona fide religious, charitable or non-profit
organizations of veterans, volunteer firefighter and
similar non-profit organizations shall be permitted to
conduct such games; (2) the entire net proceeds of any
game shall be exclusively devoted to the lawful purposes
of such organizations; (3) no person except a bona fide
member of any such organization shall participate in
the management or operation of such game; and (4) no
person shall receive any remuneration for participating
in the management or operation of any such game. Unless
otherwise provided by law, no single prize shall exceed two
hundred fifty dollars, nor shall any series of prizes on one
occasion aggregate more than one thousand dollars. The
legislature shall pass appropriate laws to effectuate the
purposes of this subdivision, ensure that such games are
rigidly regulated to prevent commercialized gambling,
prevent participation by criminal and other undesirable
elements and the diversion of funds from the purposes

552a
Appendix F
authorized hereunder and establish a method by which
a municipality which has authorized such games may
rescind or revoke such authorization. Unless permitted
by the legislature, no municipality shall have the power
to pass local laws or ordinances relating to such games.
Nothing in this section shall prevent the legislature from
passing laws more restrictive than any of the provisions of
this section. (Amendment approved by vote of the people
November 7, 1939; further amended by vote of the people
November 5, 1957; November 8, 1966; November 4, 1975;
November 6, 1984; November 6, 2001.)
....
§ 11. No person shall be denied the equal protection of the
laws of this state or any subdivision thereof. No person
shall, because of race, color, creed or religion, be subjected
to any discrimination in his or her civil rights by any
other person or by any firm, corporation, or institution,
or by the state or any agency or subdivision of the state.
(New. Adopted by Constitutional Convention of 1938 and
approved by vote of the people November 8, 1938; amended
by vote of the people November 6, 2001.)

